<html>
<title> - EXAMINING THE IMPORTANCE OF PAID FAMILY LEAVE FOR AMERICAN WORKING FAMILIES</title>
<body><pre>[Senate Hearing 115-744]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-744

                EXAMINING THE IMPORTANCE OF PAID FAMILY
                  LEAVE FOR AMERICAN WORKING FAMILIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SOCIAL SECURITY, 
                      PENSIONS, AND FAMILY POLICY

                                 of the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2018

                               __________







              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                                     

            Printed for the use of the Committee on Finance

                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-619-PDF                 WASHINGTON : 2020 




















                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island

           Jeffrey Wrase, Staff Director and Chief Economist

              Joshua Sheinkman, Democratic Staff Director

                                 ______

      Subcommittee on Social Security, Pensions, and Family Policy

                   BILL CASSIDY, Louisiana, Chairman

ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
MIKE CRAPO, Idaho                    ROBERT P. CASEY, Jr., Pennsylvania
PATRICK J. TOOMEY, Pennsylvania

                                  (ii) 
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, a U.S. Senator from Louisiana, chairman, 
  Subcommittee on Social Security, Pensions, and Family Policy, 
  Committee on Finance...........................................     1
Brown, Hon. Sherrod, a U.S. Senator from Ohio....................     3

                        CONGRESSIONAL WITNESSES

Ernst, Hon. Joni, a U.S. Senator from Iowa.......................     5
Gillibrand, Hon. Kirsten E., a U.S. Senator from New York........     7

                               WITNESSES

Biggs, Andrew G., Ph.D., resident scholar, American Enterprise 
  Institute, Washington, DC......................................    10
Shabo, Vicki, vice president for workplace policies and 
  strategies, National Partnership for Women and Families, 
  Washington, DC.................................................    12
O'Boyle, Carolyn, managing director, Deloitte Services LP, 
  Boston, MA.....................................................    15

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Biggs, Andrew G., Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    35
    Responses to questions from subcommittee members.............    38
Brown, Hon. Sherrod:
    Opening statement............................................     3
    Prepared statement...........................................    41
    Letters of support for S. 337................................    42
Cassidy, Hon. Bill:
    Opening statement............................................     1
    Prepared statement...........................................    71
Ernst, Hon. Joni:
    Testimony....................................................     5
    Prepared statement...........................................    72
Gillibrand, Hon. Kirsten E.:
    Testimony....................................................     7
    Prepared statement...........................................    73
O'Boyle, Carolyn:
    Testimony....................................................    15
    Prepared statement...........................................    75
    Responses to questions from subcommittee members.............    78
Shabo, Vicki:
    Testimony....................................................    12
    Prepared statement...........................................    79
    Responses to questions from subcommittee members.............   116

                             Communications

American Benefits Council........................................   123
American Council of Life Insurers (ACLI).........................   124
American Sustainable Business Council............................   126
Association of Women's Health, Obstetric, and Neonatal Nurses....   127
Berner International Corporation.................................   129
Consortium for Citizens With Disabilities (CCD)..................   129
ERISA Industry Committee.........................................   131
First Focus Campaign for Children................................   132
Franciscan Sisters of Perpetual Adoration........................   134
The Heritage Foundation..........................................   137
Human Rights Campaign............................................   144
Independent Women's Forum........................................   146
International Franchise Association..............................   149
Main Street Alliance.............................................   149
Mercatus Center..................................................   155
National Active and Retired Federal Employees Association (NARFE)   164
New York City Department of Consumer Affairs.....................   165
1,000 Days.......................................................   169
Strengthen Social Security Coalition.............................   170
ZERO TO THREE....................................................   171
Zevin Asset Management, LLC......................................   177

 
                    EXAMINING THE IMPORTANCE OF PAID 
                       FAMILY LEAVE FOR AMERICAN 
                             WORKING FAMILIES

                              ----------                              


                        WEDNESDAY, JULY 11, 2018

                           U.S. Senate,    
               Subcommittee on Social Security,    
                       Pensions, and Family Policy,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 3:02 p.m., 
in room SD-215, Dirksen Senate Office Building, Hon. Bill 
Cassidy (chairman of the subcommittee) presiding.
    Present: Senators Crapo, Enzi, Cornyn, Isakson, Scott, 
Cantwell, Menendez, Carper, Brown, Bennet, and Casey.
    Also present: Republican staff: Chris Gillott, Deputy Chief 
of Staff for subcommittee chairman Cassidy. Democratic staff: 
Gideon Bragin, Senior Policy Advisor for subcommittee ranking 
member Brown.

    Senator Cassidy. The Senate Finance Subcommittee on Social 
Security, Pensions, and Family Policy will come to order.
    I thank everyone and welcome everyone to today's hearing 
examining the importance of paid family leave for American 
working families.
    I recognize distinguished colleagues with us, Senators 
Ernst and Gillibrand. They are not here yet, but will be. I 
also welcome Ms. Ivanka Trump, Advisor to the President and a 
fervent advocate for children and working families.
    I am pleased to chair this hearing, and I thank Ranking 
Member Brown and other colleagues for joining me. After Senator 
Brown and I make opening statements, we will proceed with two 
panels of witnesses.
    Two Senate colleagues will give statements on the first 
panel, followed by a second panel of experts for their 
testimony and questions from committee members. My statement 
begins now.

  OPENING STATEMENT OF HON. BILL CASSIDY, A U.S. SENATOR FROM 
LOUISIANA, CHAIRMAN, SUBCOMMITTEE ON SOCIAL SECURITY, PENSIONS, 
            AND FAMILY POLICY, COMMITTEE ON FINANCE

    Senator Cassidy. Working families are the core of our 
social fabric and economic success. American workers have 
increasingly felt good about their prospects. A recent poll 
shows economic optimism at a 13-year high.
    Yet some families have been left behind. For nearly a 
decade, wages and growth have been stagnant, health care and 
education costs skyrocketing. American families expect more.
    Over the last 2 years, I have worked to help families get 
more money in their pocketbooks and better benefits to navigate 
the ebbs and flows of life. Many families in my home State of 
Louisiana are seeing last year's tax cut reflected in higher 
paychecks. I also continue to work with colleagues on lowering 
health-care costs for these families.
    To consider another thing which may help, today we will 
examine a paid leave benefit for working families.
    A 2017 Pew poll shows overwhelming majorities of Americans 
support paid sick leave and paid maternity leave. Paternity 
leave and family leave also have strong public support. Yet 
views on the structure and funding of a paid leave program 
vary.
    By way of background, the Family and Medical Leave Act of 
1993 provides most U.S. workers with up to 12 weeks of job-
protected leave to care for a new child or to address an 
illness. However, it does not cover all workers, such as some 
small business and part-time employees. And, the guarantee is 
for unpaid leave. Some workers cannot afford to take time off.
    Most workers receive some type of paid time off for 
holidays, vacation, or illness. Yet the Pew study indicates 
fewer workers have access to defined paid family leave versus 
other types of leave. And paid family leave is rare in lower-
income households.
    Now, there are several reasons to support paid leave for 
workers. I will mention three.
    First, improving health outcomes. I am a doctor. I am 
concerned about infant and maternal health. At 6 per 1,000 live 
births, infant mortality is higher in the United States than in 
25 of 28 other developed countries. A recent study reports that 
if a new mother takes paid leave, re-admittance rates for her 
and her infant decrease by 50 percent.
    Second, helping families manage work and home 
responsibilities, particularly for lower-income workers. Pew 
reports, among individuals taking family or medical leave, only 
38 percent in families with incomes less than $30,000 a year 
receive any paid leave. For families with higher incomes, 74 
percent receive paid leave.
    And then thirdly, creating incentives to stay in the 
workforce, supporting productivity and economic growth. Long-
term economic growth is a function of workforce participation 
and labor productivity. With an aging population, it is 
essential our workforce remains strong.
    A 2012 Rutgers study found that women who work 20 or more 
hours per week before childbirth and who take paid leave 
afterwards are 93 percent more likely to be working 9 months 
postpartum, compared to a woman who does not take leave.
    Another AEI-Brookings study found that work hours for 
mothers who took paid leave were 10 to 17 percent higher than 
before paid leave was instituted.
    With last year's tax cuts bill, we are seeing workers 
getting some help. First, the bill included a 2-year pilot 
program authored by Senators Fischer and King: a tax credit to 
employers who offer low- and moderate-income employees at least 
2 weeks of paid leave. Numerous companies announced new or 
expanded paid leave programs after the tax bill passed, 
including Starbucks, Walmart, and Lowe's.
    As we shall see today, there is bipartisan interest in 
expanding paid maternal, family, and medical leave. I am 
pleased to convene this initial conversation to consider policy 
options and trade-offs.
    By the way, preserving the retirement benefits promised to 
American workers is paramount. Any proposal that relies on 
Social Security cannot weaken Social Security but ideally 
strengthens it.
    The 2018 Trustees Report projects that the Social Security 
Trust Fund will go bankrupt in 2034. In order to close that 
shortfall, benefits today would have to be cut by 17 percent 
for all beneficiaries, including those already collecting.
    We must address this looming crisis. We cannot let that 
happen. Doing nothing is not an option.
    Also speaking of Social Security, another priority is the 
Windfall Elimination Provision, which impacts many State civil 
servants. Although not directly related to today's topic, it 
must be included in the discussion of preserving and 
strengthening Social Security in the future.
    Again, I am pleased to convene these panels of experts to 
consider policies that help working families and create 
incentives for Americans to stay in the workforce and help 
build the greatest economy in the world.
    I look forward to the discussion. And now I recognize 
Senator Brown.
    [The prepared statement of Senator Cassidy appears in the 
appendix.]

           OPENING STATEMENT OF HON. SHERROD BROWN, 
                    A U.S. SENATOR FROM OHIO

    Senator Brown. Thank you to Senator Cassidy.
    Welcome to Senator Gillibrand and Senator Ernst. Thank you 
for joining us for this important discussion.
    Thanks to Senator Cassidy for working to convene the 
hearing to explore ways we can work together to expand Social 
Security and the safety net to include paid family medical 
leave. It is a welcome glimpse of what we could achieve 
together if we focus on the needs of working families.
    Right now, the lack of paid family leave is a drag on our 
economy, and it holds workers back.
    American families lose nearly $21 billion in wages each 
year because they do not have access to paid leave. People who 
work in jobs like ours in the Congress and in the White House, 
who wear suits--some made in the United States, some made 
elsewhere--and have good benefits, may not realize that the 
vast majority of American workers have no paid family leave at 
all.
    For too many Americans, hard work simply does not pay off.
    When I say we do not value work in this country, I do not 
talk just about wages. I am talking about benefits people earn, 
or should earn.
    Eighty-five percent of the workforce, 100 million people, 
have no paid family medical leave. If a mother has a baby, she 
gets zero paid time off--not a single day. If she is not back 
at work the day after she gives birth--something most of us 
would agree is cruel and absurd--she does not get a paycheck.
    This is not just about new mothers. All sorts of workers 
face impossible choices. Do they go to work knowing the risks 
to their own health and to others around them, or do they stay 
home and lose a paycheck?
    Hundreds of thousands, probably millions of Americans, face 
that choice every day. Do they send a sick child to school, 
knowing they are risking the health of their daughter and the 
health of the entire classroom, or do they jeopardize their job 
and give up pay by taking a day off?
    As they grow older, workers often have to care for aging 
parents. When sons over the age of 50 leave the workforce to 
care for a parent, they lose an average of $300,000 in earnings 
and retirement savings. Daughters lose even more, an average of 
$324,000.
    If we truly value the dignity of work in this country--if 
we truly value the dignity of work, we need to recognize that 
paid family leave is something all workers should have the 
opportunity to earn.
    Today's bipartisan hearing is an important baby step 
forward. Members of both parties are coming together to 
recognize that this simply is not acceptable in a rich, modern 
economy and to acknowledge that we have to expand our social 
insurance to include paid family medical leave.
    This should not be a partisan issue. It affects every 
sector of the economy. It affects workers of all ages with all 
types of families.
    Paid leave is good for business. A recent survey conducted 
by Ernst and Young found the majority of large companies 
support the creation of paid family and medical leave programs 
on the State or Federal level that are funded through tax 
contributions.
    Such a program would be particularly good for small 
businesses. It would make these programs more affordable. It 
would put small businesses on a more even footing with large 
corporations that can afford bigger benefit packages, allowing 
them to compete for talent.
    Today, Democrats have put forward a thoughtful approach 
that I believe should reach consensus. It is a common-sense 
bill that builds on the most successful and popular program we 
have in this country, Social Security.
    It would offer low-cost, portable benefits that all 
American workers would earn. It would be paid for by both 
workers and employers. It is an approach that has already been 
adopted by five States, soon to be six, and the District of 
Columbia.
    My Republican colleagues also have some ideas on the table. 
I have some ideas on the table. I want to thank them for their 
desire to work together on this issue.
    Democrats too are at the table, ready to negotiate and 
reach a solution that can become law. Unfortunately, the 
approach some of our colleagues are currently proposing amounts 
to cutting Social Security for the workers who need it most.
    Using retirement security to fund paid time off from work 
when you have a child is not paid family leave at all. It is 
robbing from your retirement to be able to care for loved ones 
now.
    Low-wage workers in physically demanding jobs are more 
likely to be forced into early retirement because of the toll 
these jobs take on their bodies. That already means taking a 
Social Security cut, and this plan would only make that cut 
bigger.
    In an opinion piece for The Federalist, the president of 
the Independent Women's Forum--the group that first put forward 
this idea--wrote that she views this plan as a first step to 
``transform the current pay-as-you-go system into one that pre-
funds future benefits and with assets that belong to 
individuals.'' In other words, some of the people pushing this 
plan view it as the beginning of the process of dismantling 
Social Security as we know it.
    I want to work together, as both Senators here know, but a 
plan that is a first step towards privatizing Social Security, 
the bedrock of our social safety net, is no place to start.
    We know that only covering parental leave excludes the vast 
majority of workers. Three-quarters of Americans who use the 
Family and Medical Leave Act take time off to care for their 
own health or for that of a seriously ill family member.
    Any national paid leave plan should build on the Family 
Medical Leave Act and reflect the well-established needs laid 
out in that law: parental leave, family care leave, personal 
medical leave, and military caregiving leave.
    We must be able to have honest debate about these critical 
issues. Though we have differing perspectives, we are working 
toward the same goals. We all want to help families navigate a 
changing economy, and again, make sure hard work pays off.
    We believe that all work has dignity. That is an important 
thing to remember.
    Senator Cassidy. Thank you, Senator Brown.
    [The prepared statement of Senator Brown appears in the 
appendix.]
    Senator Cassidy. Before we go to our first panel, let me 
just recognize some House colleagues who are here: Congressmen 
Peter King and Lou Barletta, Congresswoman Claudia Tenney, and 
Ivanka Trump.
    Ms. Trump, you have done so much to drive attention to this 
issue at this point. So thank you all for being here, and thank 
you for your interests in this issue.
    And now to our Senate colleagues. Our first panel has two 
distinguished colleagues. We will first hear from Senator Ernst 
of Iowa, followed by Senator Gillibrand from New York. Both of 
these Senators and friends have demonstrated leadership in 
their advocacy for American workers and families.
    We are pleased to welcome you here. I look forward to 
hearing your perspectives.
    Senator Ernst?

                 STATEMENT OF HON. JONI ERNST, 
                    A U.S. SENATOR FROM IOWA

    Senator Ernst. Thank you very much.
    Chairman Cassidy, Ranking Member Brown, and members of the 
subcommittee, thank you for inviting me to testify before you 
today. I also want to thank my dear friend and colleague, 
Kirsten Gillibrand of New York. Thank you for being an 
important voice on this issue.
    The issue of paid leave is incredibly important. Millions 
of mothers, fathers, grandparents, and families across the 
country struggle with the realities of childbirth and infant 
care while also working hard to put food on the table and raise 
strong and healthy families. It is long overdue that Congress 
not just have a conversation on these matters, but get serious 
about a path forward.
    As a mother myself, I know that being a parent is never an 
easy task. Additionally, throughout my career, I have worked 
with and heard from numerous working parents, including those 
on my own staff, who have struggled to navigate the challenges 
of balancing work with the need to provide safe and supportive 
care for their new babies.
    Some are fortunate enough to have paid benefits provided by 
their employers. However, many families in America do not have 
this luxury.
    To illustrate just how difficult it is for working moms and 
dads, I want to share the story of a constituent named Jessica. 
Jessica is the epitome of what it means to be an Iowan. She has 
been working since she was 16 and done everything from working 
at a call center to waitressing, which is her current position.
    Jessica is also married, and she and her husband are the 
proud parents of two young boys. They work day in and day out 
to provide for their growing family. Along the way, it has not 
been easy. Money, at times, has been tight, and both Jessica 
and her husband had to decide between working and meeting rent 
and taking time to care for their newborn.
    Common sense tells us that it is important for parents to 
spend time with their newborn. The bond that is formed when 
parents first lay eyes on their child only becomes stronger the 
longer the time they have to spend together.
    A recent study by the International Journal of Child Care 
and Education Policy found the amount of time that new parents 
spend around their newborn has a direct influence on the 
quality of 
mother-to-child interactions as well as childhood and 
adolescent outcomes.
    Paid family leave policies have been shown to increase 
breastfeeding rates and are associated with better infant 
health outcomes as well as decreased rates of low birth weight 
and infant mortality.
    When Jessica had her son Karter, she was only able to take 
2 weeks off before returning to work. This is despite the fact 
that she had a C-section, which made it difficult and painful 
for her to work in the first few weeks after delivery.
    She would go to work in the morning, but when her lunch 
break came, she would rush to the bathroom, pump milk, and then 
run home to give it to her husband, all within an hour. Her 
husband works nights, so when Jessica returned home at the end 
of the day, she only had a few precious hours to spend with 
Karter and her husband before he had go to work.
    Jessica is expecting her third child and is due in 
December. She is unsure how much time she and her husband will 
be able to take off.
    Jessica's experience is a similar story in households 
around the country. As a Nation, we know that we can do better 
for our families.
    President Trump highlighted paid leave during his State of 
the Union address, and his administration was the first to 
budget for a national paid leave program. Through the 
leadership of Ivanka Trump, the administration has worked 
closely to develop a dialogue with Congress.
    I am glad to see that the members of the House and Senate 
and from both sides of the aisle are finally paying attention 
to this issue, recognizing that moms and dads across the 
country are trying to figure out how to ensure their babies are 
well cared for and nurtured in those precious first few weeks 
of life.
    By paying attention to these needs, we are also recognizing 
the important economic contribution of these families who give 
so much to our communities. Our policies should reflect the 
evolving needs of this workforce and reduce barriers that pose 
challenges to parents who are balancing work and family.
    As a conservative, I want to craft paid leave policy that 
can not only attract consensus, but is viable for families, 
employers, and the economy, recognizing that working parents by 
definition are an essential part of many businesses. Few 
businesses can afford more taxes or more cuts to their bottom 
line. So we have to find a solution that does not make our 
economy worse off or decrease the jobs available to working 
parents.
    I feel it is important to target a paid leave benefit to 
individuals who do not have access to these benefits, such as 
the two-thirds of low-income families that do not have paid 
leave. These families are also more likely to work on an hourly 
basis where, if they do not work, they do not get paid. They do 
not have sick leave or vacation or other forms of leave that 
can help bridge the gap.
    For the past few months, I have been working with Senators 
Marco Rubio and Mike Lee on the issue of paid leave. We have 
been exploring how new parents could elect to receive a paid 
leave benefit through Social Security.
    In return for receiving these benefits, participants would 
defer the collection of their Social Security benefits upon 
retirement. We are still working through the complexities, but 
I am hopeful we can craft a policy that will benefit most 
families and those who need it the most.
    Thank you again, Chairman Cassidy and Ranking Member Brown, 
for holding this hearing today. I look forward to working with 
you on the important issue of paid leave.
    Helping families is an issue we can all agree on, and I 
hope that we can have a productive dialogue on how Congress can 
best help them.
    Thank you very much.
    Senator Cassidy. Thank you, Senator Ernst.
    [The prepared statement of Senator Ernst appears in the 
appendix.]
    Senator Cassidy. Senator Gillibrand?

           STATEMENT OF HON. KIRSTEN E. GILLIBRAND, 
                  A U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman, and thank you, 
Ranking Member Brown, for holding this hearing. I really 
appreciate your leadership.
    I want to recognize my colleague, Senator Ernst, for her 
leadership and her interest in this bill and this debate that 
we are having right now about how to produce a real paid leave 
plan.
    Here is the truth: at some point, every person here, every 
person you know, is going to have a situation where you have to 
take some time off from your work to meet and care for a family 
member.
    It might be a medical emergency, maybe your spouse is 
diagnosed with cancer, or maybe you suddenly need to take care 
of an aging parent or someone who has been diagnosed with 
Alzheimer's, or maybe you are starting a new family or just had 
a baby like your constituent Jessica.
    Whatever the case is, no working American should ever have 
to choose between their family members and a paycheck. But if 
you do not have paid leave, that is exactly the choice that you 
have to make. And this is especially true if you are working a 
low-wage job.
    That is unfortunately what millions of Americans have to 
deal with every time there is a family emergency. Right now, 85 
percent of workers do not have access to paid family and 
medical leave. And lower-income workers are even less likely to 
have it.
    We are the only industrialized country in the world that 
does not guarantee some form of paid leave. Recent reports have 
shown that this costs families $20 billion a year.
    And it also creates what we call the sticky floor, where 
too many women get stuck in low-wage jobs with no chance of 
advancement because, every time there is a family emergency and 
they feel they need to ramp off, they can only ramp back on 
with a lower-wage job, lower down the rung, and they never get 
off the sticky floor.
    So Congress desperately needs to catch up. We need a 
national paid leave program now. The good news is that both 
sides of the aisle recognize that this is a national problem.
    Individual States are taking the lead, all over the 
country, with bipartisan bills and State laws that are offering 
real paid leave programs.
    And I am very grateful to my Republican colleagues who are 
committed to supporting a national paid leave program that is 
based on, perhaps, a Social Security model. But I urge them to 
support a comprehensive and fiscally responsible idea called 
the FAMILY Act. And here is why.
    First, the FAMILY Act is an earned benefit, meaning it 
travels with you, whether you are working full-time, part-time, 
big companies, small companies, wherever you live, wherever you 
work.
    Second, the FAMILY Act, the way we have written it, is 
really affordable. It is about the cost of a cup of coffee a 
week for you and for your employer. It is about $2.00 a week on 
average for all employees.
    That is not a great deal of money to know that if your 
mother is dying, that you can be by her side, or if you have a 
new infant or special needs child, that you could be there when 
they are in need.
    It also gives you about 66 percent of your wages guaranteed 
for up to 3 months with a cap.
    So it is affordable. It is comprehensive. It is an amount 
of time that could make a huge difference if you have an 
illness in your family or a new baby.
    Third, the FAMILY Act covers all workers--which I think is 
really important. For all of these debates that we have, it is 
not just about women. It is not just about new babies. All of 
us have family emergencies. Any one of us here in the Senate, 
if our spouses were critically ill, we would want to be by 
their sides. But we have that flexibility. That is not true for 
most working people in this country.
    So we want to make sure it covers all family members for 
all reasons. The FAMILY Act covers birth or adoption, taking 
care of an older family member, addressing one's own personal 
medical needs.
    And we know here in the Senate we have been able to address 
our own personal needs because we have that flexibility. Let us 
make sure every worker in America has that.
    Fourth, the FAMILY Act will level the playing field for 
small businesses. I have heard this over and over again, even 
when I went with Senator Heitkamp to North Dakota. The people 
who testified on behalf of having this kind of plan were the 
small businesses who said, we could never compete with big 
businesses. We could never be paying two payrolls at the same 
time. We could never offer this.
    So any incentive that is just a tax credit or a tax cut 
does not help that small business owner, because they are never 
going to have enough money to do it.
    Also small States, if you are a small State like North 
Dakota, your State is never going to have the money to have a 
paid leave plan the way that California has one, the way that 
New York has one. So this type of idea--because it is 
comprehensive--covers all States: small States, big States, 
small businesses, big businesses.
    A small business today cannot compete with a Facebook or a 
Google or the Ernst and Youngs or the big law firms and all of 
the places that can offer paid leave, so that is why the small 
business groups have endorsed this bill.
    It has also been endorsed by a lot of larger businesses 
that already provide leave, because they know how good it is 
for their business. They know that paid leave is actually good 
for profit. It is good for employee retention. It is good for 
productivity. It is good for morale.
    Finally, the FAMILY Act does not create a false choice 
between having to take money early from your Social Security 
account. It keeps your Social Security account secure so your 
retirement benefits are there for you. That is why I think this 
is the kind of paid leave plan that we could all get behind, 
because it makes sense. It does not cost a lot of money, and it 
covers everybody. It is portable. It works with the gig 
economy. It works with part-time workers. It literally works 
with everybody, because it is an earned benefit just like 
Social Security.
    So I hope this is something that people can endorse. It has 
already been endorsed by a coalition of Fortune 500 companies 
and small businesses, because it is good for business. And what 
is good for business is good for this country. It is good for 
our economy, and we know it is good for families.
    So I urge all of you to support the FAMILY Act.
    Thank you.
    Senator Cassidy. Thank you both.
    [The prepared statement of Senator Gillibrand appears in 
the appendix.]
    Senator Cassidy. Can we have our second panel?
    I will now introduce our three witnesses.
    I will start with Andrew Biggs. He is the resident scholar 
at the American Enterprise Institute. He studies Social 
Security and public pension reform, retirement income policy, 
and public-sector pay and benefits.
    Before joining AEI, Dr. Biggs was the Principal Deputy 
Commissioner at the Social Security Administration. He has also 
been an Associate Director of the White House National Economic 
Council, a member of George W. Bush's Commission to Strengthen 
Social Security, and a member of President Obama's Financial 
Oversight and Management Board for Puerto Rico.
    Dr. Biggs holds a bachelor's degree from Queens University 
Belfast in Northern Ireland, master's degrees from Cambridge 
University and the University of London, and a Ph.D. from the 
London School of Economics.
    Vicki Shabo is the vice president at the National 
Partnership for Women and Families, focused on paid family and 
medical leave, paid sick days, fair pay, and other workplace 
policies. Previously, Ms. Shabo practiced law at a large 
international law firm and worked as a pollster and political 
strategist. She also worked on the Hill as a staffer on the 
House Judiciary Committee.
    Ms. Shabo graduated summa cum laude with a bachelor of arts 
in politics and American studies from Pomona College, and she 
has a master's degree in political science from the University 
of Michigan. She earned her law degree with high honors from 
the University of North Carolina, where she served as editor-
in-chief of the North Carolina Law Review.
    After law school, she clerked for Hon. Michael Murphy of 
the U.S. Court of Appeals for the tenth circuit in Salt Lake 
City.
    Last, Carolyn O'Boyle is a managing director in Deloitte's 
talent organization, serving as a chief operating officer and a 
leader of the talent strategy and innovation team. As COO, Ms. 
O'Boyle is responsible for managing financial and strategic 
operations for Deloitte's talent function, which encompasses 
business advisory, acquisition and mobility, development 
inclusion, alumni, total rewards, and shared services 
functions.
    She has been researching and writing on the topic of 
generational differences in the workforce, including the role 
that HR organizations can play in managing differences. She 
holds a BA from Bowdoin College and an MBA from the MIT Sloan 
School of Management.
    We are now pleased to recognize Dr. Biggs, followed by Ms. 
Shabo, then Ms. O'Boyle, for 5 minutes each to give their 
opening statements.
    Dr. Biggs?

STATEMENT OF ANDREW G. BIGGS, Ph.D., RESIDENT SCHOLAR, AMERICAN 
              ENTERPRISE INSTITUTE, WASHINGTON, DC

    Dr. Biggs. Chairman Cassidy, Ranking Member Brown, and 
members of the committee, thank you very much today for the 
opportunity to discuss the importance of paid parental leave 
and how it might be provided on an affordable basis via the 
Social Security program.
    Paid parental leave can provide important health and 
educational benefits to children while enabling mothers to 
remain attached to their prior jobs, which could increase 
earnings substantially once the mothers return to the 
workforce.
    Research in the U.S. and other countries has found that 
allowing new mothers paid leave allows them to remain attached 
to their prior job, rather than feeling forced to quit in order 
to spend time with their newborn. In doing so, mothers retain 
the seniority and job-specific skills that allow them to earn 
higher wages once they return to work.
    Analysis of California's paid leave program finds it 
increases female labor force participation and boosts post-
child worker hours by 10 to 17 percent. Most of the so-called 
``gender wage gap'' is in truth the fault of falling female 
wages post-childbirth.
    If California's results held up on a nationwide basis, the 
``gender wage gap,'' which already has been shrinking, would 
narrow considerably.
    Many large employers already offer paid parental leave as a 
way to attract and retain quality employees. However, smaller 
employers and startups often lack the financial capacity to 
offer paid leave, which places them at a disadvantage relative 
to larger firms. Self-employed and gig economy workers also 
lack paid leave.
    So there is room for public policy to help make paid 
parental leave more widely available. However, there are 
practical impediments to enacting paid parental leave.
    Some proposals would finance paid leave through a new 
payroll tax. The political reality is that many Americans would 
not favor such a tax, in particular those who could not or 
would not take parental leave, and therefore, would be forced 
to subsidize those who do.
    Likewise, opinion polls find that many Americans believe 
that employers should provide paid leave. The research also 
finds that when employers are required to provide employee 
benefits, they often react by reducing wages or hiring fewer 
employees who would be eligible for those benefits. This could 
hurt employment opportunities for women of childbearing age.
    Others have proposed savings accounts where young workers 
could set aside money to fund the paid leave. While I do not 
oppose such accounts, young workers have low incomes, often 
carry student loans, and may have little time to save before a 
first child arrives.
    In an article for The Wall Street Journal and a subsequent 
work, Kristin Shapiro and I proposed an idea designed to work 
around some of these practical issues. New parents would be 
eligible to take a temporary Social Security benefit to cover 
parental leave, but in exchange must agree to an increase in 
their Social Security retirement age or some other offsetting 
reduction to their future retirement benefits.
    For instance, if the Social Security benefit were paid for 
12 weeks, the beneficiary would accept a normal retirement age 
approximately 25 weeks higher than under current law. The 
higher normal retirement age does not prevent a person from 
claiming benefits as early as age 62, but does result in a 
benefit that is about 3 percent lower than it otherwise would 
be.
    It is easy to conclude that any reduction in future 
retirement benefits is unacceptable. However, if paid parental 
leave produces anything like the post-childbirth earnings 
increases found in California, those higher earnings would 
boost Social Security benefits by more than enough to make up 
for the increase in the normal retirement age.
    For a low-income woman, the 10- to 17-percent higher post-
childbirth earnings found in California would lead to a 5- to 
9-
percent net Social Security benefit even after the retirement 
age increase used to pay back the parental leave benefit.
    By using Social Security's progressive benefit formula, 
parental leave benefits would be targeted toward low earners 
who are less likely to be provided with paid leave at work. The 
Urban Institute estimated that Social Security-based parental 
leave benefits would replace around 59 percent of prior 
earnings to the median new mother claiming benefits, while a 
lower-income woman could expect a replacement rate of about 69 
percent.
    Finally, it is understandable to worry about adding a 
parental leave component to an already underfunded Social 
Security program. But the cost of this paid leave proposal 
should be put in perspective. On an annual basis, Social 
Security's benefit cost would increase by a maximum of about 1 
percent in the mid-2040s.
    Later, as individuals who claimed paid leave retired, total 
annual Social Security benefit costs would be about 2 percent 
lower than under current law.
    To close, paid parental leave has benefits for parents, for 
children, and for our economy. Many Americans are already 
eligible for paid leave through their employers, but via 
creative policymaking, Congress can help extend the benefits of 
paid leave to all new parents.
    Thank you very much.
    [The prepared statement of Dr. Biggs appears in the 
appendix.]
    Senator Cassidy. Ms. Shabo?

STATEMENT OF VICKI SHABO, VICE PRESIDENT FOR WORKPLACE POLICIES 
 AND STRATEGIES, NATIONAL PARTNERSHIP FOR WOMEN AND FAMILIES, 
                         WASHINGTON, DC

    Ms. Shabo. Thank you so much, Chairman Cassidy and Ranking 
Member Brown and members of the committee.
    This is a great sign of progress that this hearing is 
happening today. And it is a real sign of true movement that 
there is so much agreement about the fact that our lack of paid 
leave in this country is a real problem and that we need a 
thriving economy, and that paid leave is a big part of creating 
that thriving economy.
    There are a lot of numbers being thrown around here and a 
lot of confusion about how we might do this. It is not that 
confusing. It is actually quite simple.
    America's need for paid leave is clear. And it does not 
distinguish by political party, family type, or care need. No 
one should be forced to miss their baby's first smile, be 
prevented from helping a parent, or God forbid a child, to get 
cancer treatments, or being kept away from caring for a spouse 
as she recovers from a serious injury sustained in military 
service.
    We at the National Partnership for Women and Families 
fervently hope that today is the beginning of a congressional 
debate that quickly brings urgently needed change for more than 
100 million working people who do not have paid family leave 
through their jobs.
    In my short time today, I am going to do my best to touch 
on three things: the importance of addressing family and 
medical leave, not just parental leave; the FAMILY Act's 
reasonable features, which are supported by State paid leave 
evidence; and grave concerns about the Social Security penalty 
approach that Dr. Biggs described, although I am very grateful 
for the incredible research that he has pulled together that 
shows the benefits of paid leave policies, and we agree on 
those.
    First, to reflect on America's needs, any plan must be 
comprehensive. And that is for one simple reason: three-
quarters of people who use the Family and Medical Leave Act do 
so to care for a seriously ill loved one, their own serious 
health issue, or for military care purposes. A parental-leave-
only plan would leave millions of people behind.
    Health emergencies should never trigger financial 
emergencies. Yet for too many people, any unavoidable unpaid 
family and medical leave means dipping into savings that are 
earmarked for another purpose, taking on debt, putting off 
paying bills, or using public assistance.
    An investment in paid family and medical leave is an 
investment in promoting work, financial responsibility, and 
independence.
    Today, 43.5 million people care for ill or injured or 
disabled loved ones. And most of those folks also are holding 
jobs, and they are working full-time.
    Our aging population means the demand for family care will 
grow dramatically. And in communities across the country that 
are being ripped apart by opioids and substance abuse, paid 
leave means family members can provide care and support 
recovery.
    People also need--and most of them do not have--paid leave 
to address their own serious health issues. And this just 
exacerbates the race- and income-based health disparities that 
plague our Nation today. These are new or expecting mothers who 
have life-threatening complications, working people who sustain 
a serious injury in a car accident or some other way, or older 
people who are forced to remain in the workforce longer than 
ever.
    The future of work also figures into this conversation. The 
occupations with the most projected job growth are 
disproportionately low-wage, low-quality jobs that are often 
held by women. And the contingent and gig workers face 
especially precarious circumstances.
    So this takes me to my second point. As you consider policy 
options, I urge you to see that the FAMILY Act is a modest and 
reasonable approach.
    Many conservative voters in focus groups that we conducted 
this past fall actually thought it seemed like a Republican 
idea. And they preferred it to the parents-only plan that was 
proposed in the President's budget, personal tax-free savings 
accounts, or the employer tax credit that was part of the tax 
bill.
    Six States and DC have passed paid leave plans, and nearly 
all of them go beyond the FAMILY Act in one or more ways. And 
we have learned a lot from seeing how they work.
    The FAMILY Act would provide family, personal medical, and 
parental leave for up to 12 weeks. And that is consistent with 
what the States are doing. But the duration is actually modest 
in comparison to many of those States.
    It would replace two-thirds of a worker's wages, which is a 
minimum level for affordability and gender equity. New State 
laws, which have passed with substantial bipartisan support--
including in Senator Cantwell's Washington state--will do more 
than that.
    People who need to take time away from their jobs would be 
protected from retaliation, which is especially critical for 
low-wage workers. The fund would be self-sustaining and cover 
all benefits and administrative costs.
    The State plans actually run surpluses. And to anticipate 
an area of concern and one that Dr. Biggs addressed, I have 
actually never heard anything in the 9 years that I have been 
working on this to suggest that the paid leave payroll 
deductions in any of those States are a real problem for low-
wage workers.
    National and State polling also shows voters are willing to 
pay, and businesses are too.
    Program integrity measures would help to ensure appropriate 
use has been the case in States. And employers that seek 
competitive advantages could top up FAMILY Act benefits.
    So that takes me to my third point. And I will try to go 
quickly.
    There are four distinct and qualifying problems with 
imposing a Social Security penalty for taking paid leave. 
First, the costs to working people are not at all trivial. The 
plan that was described earlier would result in huge losses, a 
6-percent benefit cut, or about $12,000 for a typical mother of 
two. And women, people of color, and low-wage workers would be 
harmed the most.
    Second, any plan that only covers parents, again, excludes 
75 percent of leave takers and would create especially cruel 
ironies for people who use paid parental leave early in their 
lives and then need a family or medical leave later on. They 
would face reduced retirement either way.
    Third, its wage replacement and maximum benefit amount are 
too low to help most working and middle-class people and could 
exacerbate, rather than help, gender inequities.
    And fourth, it does not contemplate any new resources for 
SSA, which is an agency that sorely needs them. It is not 
budget-
neutral, and it would slightly accelerate trust fund 
challenges, according to the Urban Institute, The Heritage 
Foundation, and the American Action Forum.
    The FAMILY Act is a real paid leave plan----
    Senator Cassidy. Ms. Shabo, can you wrap up?
    Ms. Shabo. Yes.
    It would support families, businesses, our economy--it 
reflects shared values of work, family, and care without 
enforcing impossible new choices. And in this moment of intense 
divisions, it has the potential to unite people.
    So thank you. I apologize for going over and look forward 
to answering your questions.
    [The prepared statement of Ms. Shabo appears in the 
appendix.]
    Senator Cassidy. Ms. O'Boyle?

   STATEMENT OF CAROLYN O'BOYLE, MANAGING DIRECTOR, DELOITTE 
                    SERVICES LP, BOSTON, MA

    Ms. O'Boyle. Chairman Cassidy, Ranking Member Brown, other 
members of the subcommittee, good afternoon.
    Thank you for inviting me to testify at this hearing on the 
importance of paid family leave for American families. I 
appreciate the subcommittee's attention to such an important 
issue, as well as the opportunity to share with you Deloitte's 
experiences in our 
industry-leading paid family leave program.
    My name is Carolyn O'Boyle. I am a managing director in 
Deloitte's talent organization and have the privilege of 
working to enhance employee engagement through innovative 
experiences, processes, and policies such as paid family leave. 
And family leave is not just an abstract concept for me, since 
I took advantage of our program when I had my own son Jack.
    For Deloitte as a professional services firm, our people 
are our primary and greatest asset, and as such, their well-
being is critical to our success.
    In 2015, we conducted a marketplace survey on parental 
leave and found that 88 percent of the respondents would value 
a broader paid leave policy to include family care beyond 
parental leave. This, in addition to our focus on innovating 
our well-being offerings, prompted our CEO Cathy Englebert and 
her leadership team to address shifting caregiving dynamics and 
emerging flexibility needs.
    With a workforce spanning five generations and the changing 
nature of caregiving in the U.S., we recognize that both men 
and women of all generations face challenges in supporting the 
well-being of their families. We recognized that if our people 
were able to balance their caregiving needs with their 
professional lives, we would improve productivity, reduce 
turnover, and support the culture we aspire to have, one where 
our people feel supported in managing their personal lives and 
building a meaningful career.
    In September 2016, we introduced our expanded and holistic 
paid family leave program distinguished by several 
characteristics.
    First, the program recognizes that caregiving goes beyond 
that of welcoming a new child. The program provides up to 16 
weeks of paid leave to eligible U.S. employees to support a 
broader range of life events, from the arrival of new child to 
caring for an ill spouse or domestic partner, parent, child, or 
sibling.
    Second, the expanded program recognizes that both parents 
play an important role in caregiving and eliminates any 
disparity between primary and non-primary designations.
    Finally, our paid family leave program also provides our 
people with the flexibility to schedule the leave to meet the 
needs of their family.
    Before implementing this, we carefully assessed the costs 
and benefits of the new program, evaluating potential 
incremental salary costs against benefits to attrition, 
productivity, and engagement. Our experience over the past 21 
months has shown our actual costs to be lower than we 
originally anticipated, and we have already realized an 
improvement in attrition. And we have heard an overwhelming 
gratefulness from our employees, who simply appreciated the 
peace of mind in knowing that they could take the time needed 
during life's challenging situations.
    Since its inception, Deloitte's paid family leave program 
has impacted the lives of thousands of professionals and their 
families. And I would like to share with you a few of their 
stories.
    Consider Marcia, who requested paid family leave when her 
son needed more intensive treatment for symptoms arising from 
Asperger's syndrome and her elderly mother broke her pelvis at 
the same time. As Marcia noted, ``I was grateful to Deloitte 
for giving me the opportunity to support Noah through this 
program. Honestly, I do not know what I would have done if I 
did not have the access to the paid family leave program. It 
would have been incredibly stressful. If I had tried to keep 
working through all that was going on, my clients would not 
have had the best of me. That is for sure.''
    Or another employee--one of the many men who has been able 
to participate in the program--who sent our CEO a thank you 
note to tell her that, because he was able to stay home for 16 
weeks with their child, his wife was able to return to her 
medical practice. As he described it, ``The new paid family 
leave program is going to give me the opportunity to spend a 
great amount of quality time at home with our new baby. We are 
all so happy that we have been afforded this opportunity, and 
it is going to make a meaningful impact in our family life.''
    We also have a story from David, whose wife Theresa was 
diagnosed with stage 4 lung cancer. ``We had no one nearby,'' 
he says. ``Having the leave gave me more time to investigate 
and arrange support options available through the community and 
hospitals, and it gave me the freedom to be there for my wife, 
take her to appointments, and when she was in the hospital, to 
stay by her side the entire time.''
    Further analysis of participation data from the past 21 
months has shown several interesting outcomes, such as women 
taking slightly longer leaves than previously. Men are 
participating in parental leave at higher rates and taking 
longer leaves. Caregiver leave participation has remained 
relatively consistent.
    And finally, creating a culture that empowers our people to 
take advantage of this program has been as important as the 
program itself. Every day our professionals are helping our 
clients solve their greatest challenges in making a positive 
impact in their communities.
    Our leaders understand that if we want our people to grow 
and develop in their careers and provide our clients with 
exceptional service, we need to support them in all facets of 
their lives.
    To put it simply, we do not want our people to leave the 
workforce due to caregiving needs at home. It is our 
responsibility and commitment as an organization to ensure that 
our people do not have to make that choice between family and 
career.
    Thank you again, Chairman Cassidy and Ranking Member Brown, 
for providing me with this opportunity to share information 
with the subcommittee about Deloitte's paid family leave 
program.
    I look forward to answering any questions you or the other 
members may have at this time.
    Senator Cassidy. Thank you.
    [The prepared statement of Ms. O'Boyle appears in the 
appendix.]
    Senator Cassidy. I am told we have great turnout. Thank 
you.
    I am told by our committee staff that we should first begin 
with subcommittee members and then we will go to our normal 
order in terms of time of arrival.
    I am going to defer my questions and ask Senator Brown to 
go first.
    Senator Brown. Thank you, Mr. Chairman.
    Thank you all. It was an interesting discussion.
    Ms. O'Boyle, I want to talk for a moment about how you came 
to this decision. As you heard testimony on the Ernst-Rubio 
proposal--and Dr. Biggs had similar views and proposals--they 
were limited to parental leave. You obviously did something 
more than that: parental leave, medical leave, and caregiver 
benefits.
    Could you talk about that decision to do much more than 
parental leave?
    Ms. O'Boyle. Sure. So we realized that all of our people 
were vulnerable to some element of caregiving need brought 
about by a number of factors, including the presence of so many 
generations in the workforce, the changing nature of caregiving 
in the U.S., and shifting societal norms.
    That was supported by the market data that I referenced in 
my testimony, that 88 percent of respondents would place a 
value on a broader paid leave policy that would include family 
care.
    While we think that the baby boomer generation is most 
impacted by caregiving needs, data from multiple sources 
actually points to how this impacts all generations.
    So a recent study by AARP indicates that millennials spend 
about 21 hours a week on caregiving duties. So we realized that 
if we wanted to truly support our people in the way that they 
needed, we needed to broaden the scope of our offering to 
include broader leave.
    Senator Brown. Okay. Thank you for that.
    Ms. Shabo, would you kind of break down, if you can, the 
usage among parental family caregiving and medical leave, both 
under FMLA and the six States, I believe, and the District of 
Columbia that now do it? If you could, give us some analysis 
and some data.
    Ms. Shabo. Absolutely. So one of the misconceptions is that 
FMLA is just about new babies, and it is not. Seventy-five 
percent of people use it--as I said in my testimony--for family 
caregiving or personal medical leave.
    And most are using it for personal medical leave. About 55 
percent of uses are for somebody who has their own serious 
health condition. And that is something that lasts for more 
than 3 days or requires ongoing treatment from a physician.
    At the State level, it is closer to 75 to 85 percent who 
are using it for temporary disability insurance, and that is in 
California, New Jersey, and Rhode Island, which are the States 
that have had paid family leave and temporary disability 
insurance the longest.
    Among the family leave portions, the vast majority are 
parental leave. But in States with older populations, like 
Rhode Island for example, the family caregiving claims are 
actually higher than in some of the other States.
    So this is why a comprehensive policy is so important. And 
to underscore a point that Ms. O'Boyle made about millennials, 
often policymakers and even employers might think about 
millennials as just needing paid parental leave, but a full 
quarter of family caregivers are millennials, that is folks who 
are 18 to 34. Many of them are in the sandwich generation or 
elevating up into the sandwich generation
    Senator Brown. Thank you.
    Dr. Biggs, I thank you for being in front of this 
subcommittee/committee a number of times.
    I want to make a few comments before I ask you a couple 
questions. First of all, I put on the record that, for many of 
us on this committee, there is nothing bipartisan about 
privatizing Social Security. So start with that.
    The opinion piece in The Federalist that I mentioned 
earlier stated that the president of this women's forum views 
this plan as a first step to transform the current pay-as-you-
go system into what, I would assume, you as one of the 
architects of President Bush's--I do not believe you said 
privatizing Social Security--there was push-back on it because 
the country saw it that way.
    I know you talked about personal accounts, and I think by 
any fair analysis the Rubio-Ernst plan is a first step--
buttressed by the argument of the president of the Independent 
Women's Forum and any analysis, it is the same kind of 
privatization.
    My question, though, is this: the Ernst-Rubio proposal 
claims that someone would only have to delay their retirement 
by half as much as the amount of leave that they take. This 
calculation was debunked by the Urban Institute report, which 
found that someone who takes 12 weeks of leave would have to 
delay their retirement by 20 to 25 weeks and face a permanent 
benefit cut of 3 percent.
    So your construction here is narrow. It is only parental 
leave, not larger as Ms. O'Boyle and Ms. Shabo suggest. Why do 
you think we have to force a tradeoff or penalty for new 
parents who take paid leave as they near and enter retirement? 
Why do you set this up as a tradeoff? When you need it today, 
then you will have less in the future when your needs are 
probably greater.
    Dr. Biggs. Sure. Thank you very much.
    I will try to answer your questions, your comments in 
order.
    For myself, I was not the author of the article in The 
Federalist that you are citing. And I tend not to----
    Senator Brown. I did not say you were. I was using that 
as----
    Dr. Biggs. What I am saying is, it would be mistaken to 
ascribe those views to me. In working on the proposal, I never 
thought of it at all in terms of how it played out with the 
personal accounts debate.
    To be frank, whatever side people may be on with the idea 
of personal accounts for Social Security, I think it is pretty 
clear at this point that is not going to happen. The personal 
accounts were proposed as a way of saving the Social Security 
surplus, back when we had a Social Security surplus.
    Time has solved that problem. So we no longer have a Social 
Security surplus to save. So I think to fear that this is the 
first step in privatization is a mistaken fear.
    Thinking about why we work with the idea of the tradeoff 
between parental leave and retirement benefits, it is to get 
around some of the issues that I looked at in my testimony, in 
the sense that many people will not want to pay an extra 
payroll tax to finance parental leave. That reduces their take-
home pay.
    I believe--is the payroll tax 0.4 percent for the FAMILY 
Act?
    [No audible response.]
    Dr. Biggs. Okay.
    I think taxable payroll is somewhere around $7 trillion, so 
that is about a $35-billion reduction in people's take-home 
pay.
    Senator Cassidy. Dr. Biggs, can you hurry up with your 
answer?
    Senator Brown. I apologize. One statement.
    If you expand it to not just parental leave, you are going 
to find a lot more public support for it. That is just a 
reminder. That is almost by definition, you are going to have 
more people eligible, more people interested, and more public 
support for it.
    Dr. Biggs. My thinking on this was to try to do something 
perhaps more modest and more doable.
    Senator Cassidy. Can you leave it there, Dr. Biggs? You are 
a minute and a half over.
    Dr. Biggs. I apologize for that.
    The approach is to try something more modest and more 
practical. I think that it gets around some of the issues I 
discussed in my testimony.
    Senator Cassidy. Senator Casey?
    Senator Casey. Mr. Chairman, thank you very much.
    I want to thank the witnesses for your testimony today and 
for the highlighting of this critically important issue.
    Ms. O'Boyle, I will start with you. This question relates 
to children with disabilities. I know that in your firm you 
made some changes that led to a better policy as it relates to 
supporting parents of children with disabilities. Can you walk 
through that for us?
    Ms. O'Boyle. Walk through the policy?
    Senator Casey. Right.
    Ms. O'Boyle. So it is the 16 weeks that I was mentioning 
earlier. That is fully paid for all of our eligible U.S. 
employees for whatever need that they have, whether it is for 
parental leave or whether it is more broad for caregiver leave.
    That 16 weeks is on a rolling 52-week basis so that our 
employees can continue to take advantage of the leave over the 
course of their career as their needs change.
    Senator Casey. We can readily understand how that helps the 
workforce. Can you speak to--I know you may have addressed this 
more broadly before--the impact on your company overall?
    Ms. O'Boyle. Sure.
    So in our experience, we have seen improvements in employee 
attrition for employees taking a leave. While there are many 
factors, obviously, that influence turnover, post-leave 
turnover for women taking leave has improved by 32 percent, 
with a 45-percent improvement for men.
    This obviously translates into real dollars, as we 
generally consider the cost of turnover to be about 150 percent 
of a professional's salary. So that is rehiring, retraining, et 
cetera. Less quantifiable, we know that decreasing the stress 
our people experience from caregiving needs improves 
productivity, engagement, and performance, all positive 
benefits for the workforce.
    And again, in our experience, we found that the benefits 
are not limited to just those taking leave. We surveyed our 
people following the launch of our new program. From that 
survey and additional unsolicited feedback from our people, we 
know that there is tremendous option value for all of our 
professionals.
    So even if they do not expect to use the program, they feel 
secure in their ability to manage their future well-being 
needs, which translates into a longer trajectory in the 
workforce.
    Senator Casey. Thanks very much.
    Ms. Shabo, I want to get to a broader question that goes 
even beyond family and medical leave. But I wanted to first 
start with the question of the reality we confront today, which 
is--and I want to make sure I am not overstating this, but 
today we are facing a circumstance where that worker is at the 
mercy of the employer, whatever the employer will allow in 
terms of taking time off for a loved one or for the care of a 
child.
    Walk through for us some of the economic benefits of a much 
broader family leave policy. I know your testimony spoke to 
that, but just if you could itemize a few benefits.
    Ms. Shabo. Absolutely. You so correctly point out that 
today millions of workers, 100 million workers, are living in a 
land where they are subject to a boss lottery. Folks who work 
for Deloitte may have won that lottery.
    But the folks who work for Ms. O'Boyle, they are not living 
in silos. They live in families. So their spouse might not have 
access to leave. Their parent might need to be cared for, and 
so Ms. O'Boyle's employee is going to go care for that parent, 
rather than the sister who lives across the country and does 
not have any access to leave.
    So we are absolutely, as a country, experiencing huge costs 
associated with the status quo. And the benefits in contrast 
would be great.
    So today, families are losing close to $21 billion in wages 
from a lack of paid leave. But we see that when paid leave 
programs are in place in States like California, women are more 
likely to go back to work. They are more likely to earn higher 
wages. Folks are less likely to turn to public assistance 
programs. They are more likely to be independent.
    We are seeing also on the flip side, when people have 
elder-care challenges, they are losing close to $300,000 on 
average in income and retirement savings.
    So a plan like the FAMILY Act, which would require very 
small payroll deductions over the course of a person's life, 
adding up to probably a few thousand dollars over a 40-year 
work cycle, that is such a small amount relative to the cost 
that families, the economy, and businesses are experiencing 
now.
    The 150-percent cost related to turnover, that is standard. 
I think the estimates are anywhere between 16 and more than 200 
percent, depending on the type of business and employee.
    So, we are facing huge costs now, and there are huge 
benefits to be gained by investing a modest amount in paid 
leave.
    Senator Casey. Thank you. I appreciate your testimony.
    I know I have only a few more seconds.
    I will put in a plug for child care, because if you think 
about it in terms of the average middle-class family, that is 
among the highest costs they have. We are told, for example, in 
our State of Pennsylvania, that for a two-parent family, 
center-based care for an infant can be 13 percent of their 
income, which is far too high. If that same circumstance 
prevails for a single mom, center-based care for infant care 
can be 49 percent of the income on average.
    So obviously, as we do family medical leave, we also want 
to focus on child care. But I know that is for another day.
    Thanks very much. Thanks, Mr. Chairman.
    Senator Cassidy. Senator Crapo?
    Senator Crapo. Thank you very much, Mr. Chairman.
    And, Dr. Biggs, quickly, because I have a second question 
here, I know that AEI has written extensively about issues 
related to single mothers, women's labor force participation, 
and economic opportunity. Could you just give us some comment 
on the economic benefits of paid leave, such as labor force 
attachment and employee retention?
    Dr. Biggs. Sure. I would be happy to.
    There are really two issues. One is that, if a new mother 
feels more confident in being able to go back to her job, that 
she has paid leave, then she is less likely to quit the job. 
That retains seniority. Certain skills are specific to that 
job, so when she eventually does go back to work, her wages are 
higher.
    But there is a second issue as well that has not been 
touched on, which is that, if employers are more confident that 
a woman of child-bearing age will return to work after having a 
child, they will be more interested in investing in the skills 
of that female employee, of promoting them.
    Right now, if they fear that a woman is going to leave her 
job after having a child, they see her as a risky investment. 
So they might put more attention on male employees. When you 
put the two things together, it appears that post-childbirth 
paid leave substantially increases labor force attachment, work 
hours, and earnings. That is something that helps them both at 
that point, but obviously in building towards retirement as 
well.
    Senator Crapo. All right. Thank you very much.
    And I am sure I am not going to be able to get answers from 
all three of you on this question, but I am going to toss it 
out here and start with you, Dr. Biggs.
    It seems to me that we are seeing a little bit of a 
different point of view here on the panel between how to fund 
this program. One would be to put a new payroll tax in place 
and the other would be to access Social Security. Those are the 
two ideas that are in play; correct?
    And Ms. Shabo talks about how it is a very small impact for 
a very big benefit. Has anybody actually done the analysis--
because I know there are some concerns being raised by those 
who are focusing on the Social Security Trust Fund that the 
payroll tax should not start getting diverted for other 
purposes when we have the trust fund in such an unstable 
position.
    And so my question is, has somebody done the actual 
economic analysis to see what raising the payroll tax would do 
to the Social Security benefit and the strength of the fund, 
versus the access that is being proposed from your plan?
    Dr. Biggs, could you start? We have about 3 minutes, so if 
you could each keep your responses to less than a minute, I 
would appreciate it.
    Dr. Biggs. I think the FAMILY Act and the Social Security-
based proposal I have spoken about both would lead to increased 
earnings post-childbirth by helping women remain attached to 
their jobs. That would help them not only earn more, but also 
have a higher Social Security benefit in the future.
    At the same time, though, a payroll tax increase, as in the 
FAMILY Act, would cause a slight reduction in earnings, as any 
tax increase would.
    I have not tried to balance the two of them out. But that 
is one aspect, that it would dissuade work, but also people 
feel it might use up part of a payroll tax increase that could 
be used for----
    Senator Crapo. Okay. I am going to move on quickly to Ms. 
Shabo, and then I am going to move you on in a minute. So 
please try to be fast.
    Ms. Shabo. Sure. So, both of these proposals have been 
studied. The FAMILY Act model has been studied extensively at 
the State level through models that have been run on various 
State programs, through the analysis of the States that have 
created these programs, which have not seen any decline in 
wages at all or decline in jobs.
    And the FAMILY Act itself has been modeled extensively. The 
payroll deduction that is proposed in the FAMILY Act is in the 
range of what those models show: somewhere between .35 and .45 
percent. And this is consistent with what State modeling shows 
and what State experience has been.
    So this is a very--as I said--small cost for a big benefit. 
And we see that it has worked at the State level. I agree it 
will add to the Social Security coffers over time, because 
people will stay and work not just when they are having a new 
child, but even when they have their own family caregiving need 
or personal medical leave.
    Senator Crapo. All right.
    And, Ms. O'Boyle, you have about 60 seconds. I am sorry.
    Ms. O'Boyle. Well, I am afraid I cannot speak to the 
analysis of the public policies that are under consideration. I 
can tell you from our own experiences at Deloitte that the 
actual costs that we have incurred from our new program have 
been significantly less than we had anticipated.
    Because of the business model that we have as a 
professional services firm, we have largely been able to absorb 
any of the disruption associated with the leave-taking, and the 
costs that we have incurred have primarily been from people 
converting unpaid leave to paid leave or converting vacation 
time to paid leave as well.
    Senator Crapo. All right.
    Thank you very much.
    Senator Cassidy. Senator Enzi?
    Senator Enzi. Thank you, Mr. Chairman.
    This has been a very helpful day. I appreciate all of the 
testimony. It has led to a lot more questions for me. I do 
understand the benefit of supporting working families. I have 
been an advocate for allowing private companies to have flex-
time so that there could be some flexibility to be able to see 
family members or to do what we are talking about here.
    But I can see that I was going too small. I am not opposed 
to paid parental leave, but I am concerned about imposing more 
Federal regulations and mandates on businesses. I was 
interested to find out that six States are already doing this. 
I guess I could ask one question: what do we do with those six 
States? Does this supplant what they were doing so that they 
can use that money for something else?
    But I will not ask that right now. I will ask that in a 
written question. And I will follow up on the North Dakota 
hearing for small business for whatever suggestions there were 
there.
    And I have always gone with the small business definition--
and will in this case--of 50 employees or less, because that is 
the Obamacare model and the family leave model, even though it 
is not paid.
    Have any of you operated one of these small businesses?
    It is a simple ``yes'' or ``no.''
    Dr. Biggs. Sole proprietor.
    Senator Enzi. I have, and there are some complications that 
come in, particularly if you are in a very small town, you have 
very few employees, and there is no temporary workforce.
    There still has to be somebody who does the work. So I am 
still trying to figure that out, and I would be interested in 
the North Dakota approach to that.
    But my question to all three of you is, how would these 
proposals work for a very small business in a small town where 
they do not have a temporary labor workforce? Again, short 
answers, because there is not much time.
    Dr. Biggs. To the degree that a paid leave proposal helps 
women who have children remain attached to the prior employer, 
it actually could help them in the sense that the employer 
would lose the employee for a short period while they are 
taking parental leave, but they would not lose them 
permanently.
    So it would be finding a temporary replacement, not a 
permanent replacement. So I think you could argue that the 
burden that is on small businesses might actually be improved.
    Ms. Shabo. Yes, the good news for you, sir, is that there 
is a lot of data from small business groups that have surveyed 
their own members about what would work for them with respect 
to a paid leave plan. And the social insurance model with 
shared payroll deductions is something that 70 percent of small 
businesses in the country that were surveyed support. It is the 
model that a group called Main Street Alliance that brought 
together a working group of small businesses decided was best 
for them, because the issue that you are talking about, the 
replacement worker issue that is going to come up--if you have 
a woman who has given birth, you are almost certainly going to 
not have that person working for you for some period of time.
    How you manage your work during that time is probably 
something that maybe you dealt with or that you would be 
dealing with if you were in that small business now, as more 
women are in the workforce. But what these businesses have 
found is that the shared cost model actually frees up their 
assets to be able to either find that replacement worker, or 
pay overtime to their existing workers without them shouldering 
both the cost of providing leave and the cost of that 
replacement worker.
    So this is actually a solution that small businesses really 
have started to gravitate towards.
    I think your question is a great one. The North Dakota 
example, as I understand it from Senator Heitkamp, is----
    Senator Enzi. I will get that information. I am running out 
of time.
    Ms. O'Boyle. I would just add--obviously our experience is 
based on a large professional services firm. And certainly 
there is no one-size-fits-all model.
    One of the things, though, that we have found is that, even 
in some of our businesses that operate in a more structured 
corporate-like environment, this has created opportunities for 
people to grow and expand their responsibilities. So it has 
become a very nice development mechanism for them. They are 
able to stretch into new opportunities and to continue their 
growth and development while covering for people who are on 
leave.
    Senator Enzi. I can see all of those advantages. I have 
just worked it from the standpoint of being one of the 
employers. And what I found was that at the time that their 
leave ran out, they no longer worked for me. And now I do not 
have--I have been putting in the extra hours and things in 
order to cover for the person so they have the time that they 
need. And then there is no backup for me or for the others who 
work for me.
    So I will have some additional questions in writing to 
follow up on this, because I am sure there is a solution there 
somewhere. I just do not think that the two opportunities that 
we have here are the solution.
    Thank you.
    Senator Cassidy. Thank you, Senator Enzi.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    And thank you for holding this important hearing, and 
thanks to all the witnesses for your description of what the 
benefits of paid leave are. Certainly the State of Washington, 
having implemented a policy, we have been very interested in 
this. And also, we are one of the first in the Nation to have 
family leave.
    And as someone who then worked in the high-tech sector, I 
can tell you--a very male-dominated world--they all took family 
leave. And so I saw the great, great benefits from it.
    And so, thank you for articulating that today too, that it 
is on both sides, that they both want to take family leave.
    Also, I have been very involved here in implementing paid 
family leave at the U.S. Coast Guard. This was very, very 
important for a Coast Guard that looked at its workforce and 
decided that it was 40 percent women, and if they wanted to 
have retention, they had better come up with a good paid family 
leave policy.
    So we applaud the Coast Guard for working with us and 
others to implement that policy.
    So, as we look at this discussion, one thing I did not 
hear--I am sorry I had to step out a few times. One thing I did 
not hear was the correlation between medical leave and worker 
retention and productivity, particularly as it relates to 
medical leave.
    One of the things that I hear often about is that we have 
workers who literally go to work sick. Now how is that good in 
an environment where people are showing up just because they 
cannot take the time off?
    And I do not know, Ms. Shabo, if you have any testimony, or 
any of the other witnesses, about this? But I did not hear a 
lot of discussion about that particular point, and why this is 
so beneficial in an environment where public health is so 
important to all of us.
    Ms. Shabo. That is such a great question. Thank you for 
asking it.
    One of the most interesting studies that has come out 
recently was from the American Cancer Society. And they 
surveyed both cancer patients and survivors and their 
caregivers about access to leave. They found that 40 percent to 
50 percent did not have any paid family leave beyond a single 
paid sick day--or paid medical leave beyond sick days--and that 
the ability to take paid leave during cancer treatment and 
recovery was actually very highly correlated with workers being 
able to get back to work more quickly, feeling better, being 
able to adhere to treatment plans. So it is related.
    There is a study also on nurses with cardiac conditions who 
were able to return to work more quickly when they had paid 
medical leave.
    We also need to think about, in the Social Security 
context, whether there are people who have no other choice but 
to apply for SSDI when they have a serious health condition. 
And so, having paid medical leave available for up to 12 
weeks--there is no study on this yet--but intuition tells us 
that there is probably something there as well.
    If we offer paid medical leave as a benefit like the FAMILY 
Act would, we may end up overall boosting workforce 
participation for family caregiving as well as for personal 
medical leave.
    Senator Cantwell. I do not know if you know, either of you 
or any of the witnesses--we are facing a retirement crisis as 
well in America. I am very concerned about the lack of savings 
for retirement that is going to impact all of us. Do you think 
this too is a related issue, because if you do not have paid 
sick leave, then you are taking money out of your 401(k) or out 
of your retirement and using it there? And that is a problem.
    Ms. Shabo. Yes. There were studies that came out just a 
couple of weeks ago about how the workforce is getting older 
and older. And one of the largest growing shares of the 
workforce is aging workers.
    Those folks have chronic health conditions, but they have 
no other choice but to be working, in many circumstances. So 
the lack of retirement savings, the need to stay at work, the 
low wages that they are probably being paid, all of these sort 
of wrap up together to indicate that we really need to do 
something about access to medical leave for serious health 
issues so that those folks too can come back into the workforce 
and do what they need to do to protect themselves in their 
older years.
    Senator Cantwell. Well, I think somebody who works with me 
said ``prevention is medicine.'' Now for us in the northwest, 
we are all for this. We get $2,000 to $3,000 less per Medicare 
beneficiary, and we deliver better care and better outcomes.
    So when you talk about this instance of somebody in cardiac 
care having the time to heal, then to go back to work, you are 
cutting down on everybody's costs. You are cutting down on the 
whole system's cost by just giving somebody that extra time.
    And I tell you, with people living longer, we are going to 
realize that this is a critical part and aspect of care and 
that it helps all of us on our cost savings.
    Ms. Shabo. And it has a caregiving component too that we 
cannot forget. So the population is aging, but there are 
generations that follow the baby boom that are not replacing 
the numbers of people retiring.
    So we are going from one in seven younger people to care 
for an older person to a projection of one in three. That means 
that care burdens are going to be higher on those people who 
are probably also holding jobs while caring for an older loved 
one. And the presence of a caregiver is related to following 
treatment regimes, reduced hospital readmission.
    So, absolutely, this is all wrapped up, and it is part of 
why----
    Senator Cantwell. Well, I am proud that our State was one 
of the first to do family leave. I am proud that they are one 
of the first to do paid family leave.
    Thank you all very much.
    Senator Cassidy. Senator Isakson?
    Senator Isakson. Thank you, Dr. Cassidy. I appreciate it 
very much.
    Thank you all for coming. I am very interested in this for 
a lot of reasons, but I want to make one declaration at the 
beginning. My dear friend, Sherrod Brown from Ohio, frequently 
reminds us all that there are people out there who are getting 
ready to privatize things.
    We are not interested in privatizing Social Security or the 
Veterans, either one. And you follow me on both committees. So 
your admonition is well-taken.
    Ms. O'Boyle, in the case of Marcia and the gentleman who 
got 16 weeks to stay home with his and his wife's new baby, and 
David who had a wife with stage 4 lung cancer, those four who 
used those benefits----
    Ms. O'Boyle. I'm sorry?
    Senator Isakson. Those were the four you used as examples 
of benefits--and what was the benefit they got? And did they 
get 16 weeks paid at their pay level?
    Ms. O'Boyle. They did, yes.
    Senator Isakson. All right. And that was the benefit?
    Ms. O'Boyle. Correct. It was 16 weeks fully paid.
    Senator Isakson. And either a medical emergency or a family 
emergency, or something like that, was the qualifying factor?
    Ms. O'Boyle. Correct. There is a serious health condition 
for either them or one of their dependents.
    Senator Isakson. Ms. Shabo, are you contemplating in this a 
program that becomes a national program that applies to all 
businesses and all employees?
    Ms. Shabo. So the FAMILY Act, the program that I think is 
the best one based on the research and evidence, would create a 
social insurance fund. So it is not 100-percent paid by 
employers as the Deloitte model is and like some leading 
employers are doing.
    It is a shared contribution from employees and employers to 
fund a social insurance program that would result in a 66-
percent wage replacement rate for most workers.
    Senator Isakson. Is it a mandatory participation program?
    Ms. Shabo. Yes. And that is why the costs can be so low. 
They are spread over the workforce and they are spread over 
employers, and that works for small businesses and it will work 
for employees as well. And that is how it works in the States.
    Senator Isakson. Really quickly, let me add onto Senator 
Enzi, who is my dear friend. He was a shoe salesman--still is, 
by the way. I was a dirt dauber. I was a real estate broker, 
and that is where we made our careers. We both had small 
businesses.
    I had 1,000 salespeople working for me, but they were 
independent contractors, not employees. Mike, I imagine, had 
employees. Is that right?
    [No audible response.]
    Senator Isakson. But he had two or three employees.
    What you might mandate for somebody who has 1,000 
independent contractors and a very small employee base or a 
very small business becomes a cost they cannot afford or a 
reach too far to get. Whereas somebody like Deloitte--it is a 
high-end service business and can much more absorb the costs.
    Again, that is what I worry about: if we mandate a benefit 
that sounds great for everybody, it is not going to apply or be 
easy to put in place for everybody, but for a few. And that is 
what worries me a lot about it: if it is a nationally mandated 
program and a mandatory participation program.
    Ms. Shabo. Well, I think what you will see from studying 
the State evidence--and we would be glad to sit down with you 
and provide more of it--is that this actually is beneficial to 
companies because it is a small payroll deduction, so .02 
percent that you would pay in from your payroll, and in 
exchange your employees would have access to a paid leave 
benefit.
    So it is not coming out of your pocket when they need to 
take leave. It is coming out of the fund. And for independent 
contractors--I am glad you brought that up, because we know 
that about 10 percent of the economy is either contingent work 
or gig workers, and that is going to escalate. Those folks 
would pay in as they do to Social Security so that they would 
have the protection as well.
    Senator Isakson. Well, they pay their quarterly estimates. 
The employer does not withhold. They pay in the quarterly 
estimate.
    Ms. Shabo. Correct.
    Senator Isakson. Well, those are very important things to 
consider. Another important thing to consider is this--I ran a 
company for 30 years. And I did paid family leave, but I paid 
some people's leave a lot longer than other people's leave 
based on the value of the employee or how badly I needed them 
to stay connected to someone in the company, because you could 
do that--an independent contractor versus employee/employer 
relationship.
    You are right: having that benefit available saved me some 
of the best career people I ever had. So what you want to do is 
not only good for the workers of America, but it is good for 
business, people like Deloitte. But we have to find a way to do 
it where it does not bankrupt us at the low end but helps at 
the high end.
    Thank you very much. Thank you, Mr. Chairman.
    Senator Cassidy. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Let me thank the panel for their testimony today. I am very 
proud that New Jersey has had a paid family leave program in 
place since 2009, in addition to a longstanding temporary 
disability program. Both programs offer individuals partial 
income for up to 6 weeks.
    Our paid family leave program can be used to either bond 
with a newborn or care for a loved one. And our disability 
insurance program can be used in relationship to a pregnancy or 
personal illness and injury.
    So that means that across New Jersey, thousands of new moms 
and dads can care for a newborn baby, a parent can care for a 
critically ill child, a spouse can care for a spouse, or a 
child for an elderly mother or father. And there are thousands 
of people who are seriously sick or injured who can take care 
of themselves, rather than going to work sick.
    That includes people like Gisele from Maywood, who was able 
to use New Jersey's paid family leave program to supplement 
what her company offered and spend a full 12 weeks recovering 
from childbirth and bonding with a newborn.
    And then there is Layla from Jersey City, who used New 
Jersey's disability insurance to pay her bills while recovering 
from surgery.
    So, I can go on and on with examples, but what matters is 
that New Jersey families--and this is why the subject matter at 
hand here is something which I care so much about--can care for 
a loved one or recover from illness without worrying about 
paying the bills, because that is truly an awful choice to have 
to make. Do I go to work to put food on the table? Or do I care 
for a loved one when he or she needs me the most? Do I make 
sure that my rent is paid, or do I recover from surgery? So I 
am proud that no New Jerseyan has to make this awful choice.
    I personally am a co-sponsor of Senator Gillibrand's FAMILY 
Act, which I think would strengthen and support States like New 
Jersey that have existing paid leave and temporary disability 
programs.
    So, Ms. Shabo, I wonder if you could elaborate for me and 
New Jersey families on how the passage of the FAMILY Act would 
actually improve upon New Jersey's existing system and other 
States that may have such legislation in place?
    Ms. Shabo. Sure. And yes, congratulations to New Jersey. It 
will be celebrating a decade soon and is looking to expand its 
law in the legislature right now. Which is a sign of the 
program's success and ways that it can be improved.
    What the FAMILY Act would do most immediately for the 
constituents in your State would mean that an older person who 
needs care, who has a child who lives out of State, that child 
would be able to come and care for their parent even though the 
child does not live in New Jersey and is not covered by New 
Jersey's paid leave law.
    So creating a national program sets a baseline that means 
that every single person who is working would be able to take 
time to care for a loved one if they are living in the same 
State as their parent or somewhere else. The FAMILY Act would 
add on to New Jersey's program by providing additional weeks 
and by raising the cap on wage replacement. We know that that 
is so important for getting men involved.
    One of the great successes of California's program is 
because it has a higher wage cap. It has increased men's leave-
taking by more than 200 percent. We have seen some increase in 
New Jersey, but some of the constraints of New Jersey's law 
have not had quite as good an impact.
    So this would absolutely improve New Jerseyan's 
experiences, whether they are a care recipient or a caregiver.
    Senator Menendez. Now let me ask you. Are we the only 
industrialized country in the world that does not guarantee 
some form of paid leave?
    Ms. Shabo. We absolutely are. It is us, and Papua New 
Guinea, and a few other small island nations that do not have 
paid maternity leave. And we do not--with other high-wealth 
countries, we stand out as not providing paid medical leave as 
well.
    Senator Menendez. Now, I have seen some reports that 
suggest that that costs families in our country about $20 
billion a year. Is that the estimate that you have seen?
    Ms. Shabo. That is correct; $20.6 billion, I believe it is.
    Senator Menendez. Okay.
    Ms. Shabo. And it is costing our economy, in terms of 
women's labor force participation, an estimated $500 billion a 
year.
    Senator Menendez. It also creates a situation, is it not 
fair to say, that too many women get stuck in low-wage jobs?
    Ms. Shabo. Absolutely. So women are more likely to leave 
their workplace or to have to cut their hours. And that is just 
the cycle of that sticky floor that Senator Gillibrand was 
talking about.
    Senator Menendez. Is it not also an opportunity to create a 
more level playing field for small businesses so that they can 
actually compete with the talent that Googles and Facebooks are 
able to afford?
    Ms. Shabo. Absolutely. And that is one of the reasons that 
small businesses support paid family leave such as the FAMILY 
Act would propose. And New Jersey businesses themselves have 
seen no negative impact; they often say that New Jersey's 
program has had a positive impact on them, especially small 
businesses.
    Senator Menendez. Yes, and finally, so if companies like 
Deloitte and other significant companies know that paid family 
leave is good for profits, good for employee retention, good 
for productivity, good for morale, it should be good for 
anybody else?
    Ms. Shabo. Absolutely.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Cassidy. I will now ask my questions.
    Ms. O'Boyle, I have a sense that you all are in--you are so 
big. You are in 50 States, right?
    Ms. O'Boyle. Yes.
    Senator Cassidy. So even though six States and the District 
of Columbia now have paid family leave, you cannot say, well 
New York already has a requirement, but we have to do it in 
Louisiana. You see where I am going with that?
    Ms. O'Boyle. Yes.
    Senator Cassidy. But let us assume that all 50 States had 
paid family leave. Is it reasonable to assume that some States, 
some businesses would then change their benefit in order to 
integrate--if you will--with the Federal program, decreasing 
their expenditure relative to that which will be received from 
the Federal program?
    Ms. O'Boyle. Well, I can share with you the way we work 
with States today.
    Senator Cassidy. Now, we have to imagine that it is 50 
States. Because now you may work with a State, but you still 
have to have a policy which works if somebody moves halfway 
between--you see where I am going with that?
    Ms. O'Boyle. Yes.
    Senator Cassidy. So, if California has a law and the person 
lives in Nevada, and they are going to go from Nevada to 
California to care for a sick relative, do you have two 
different policies whether somebody lives in Nevada or 
California?
    Ms. O'Boyle. Well, Deloitte has a single policy that 
applies to all as a national employer. And we coordinate very 
closely with the States to execute their plans. And what 
Deloitte does is, we encourage our people to enroll in both 
programs, the State as well as the Deloitte program. And then 
Deloitte supplements over and above what a State may offer.
    Senator Cassidy. Do you pay the full amount that you 
normally would? Or do you just top off the--okay, you would 
receive under our program $100. Through the State you are 
getting $75. We will give you the difference of $25.
    Ms. O'Boyle. Correct. Deloitte ensures that they get the 
full 100 percent.
    Senator Cassidy. So you decrease your expenditure relative 
to what the State program is giving, but you make sure the 
individual is held whole?
    Ms. O'Boyle. Correct.
    Senator Cassidy. So if you will, the Federal program would 
supplant that which business is already doing, which would 
increase the cost to the Federal taxpayer? I am assuming that 
what you do would just be probably what other companies--
because it is quite rational to do it that way, frankly.
    Now, Dr. Biggs, you are very interested in Social Security. 
And we know that we have a program that if you are above a 
certain income level--I think 75 percent of Americans already 
have paid leave of some sort. We may not call it paid family 
leave, but they get paid leave.
    And below a certain level--I think $30,000 is roughly the 
break point that typically people do not get it. I will say, 
frankly, my concern is, if these folks who already are getting 
it now have business subtracting that which they pay and 
putting the financial burden on the taxpayer, the taxpayer is a 
little bit worse off.
    But let me ask--I am concerned about Social Security. And 
Social Security, if it eventually requires an increase in the 
payroll tax to make up for this looming deficit, I assume that 
there is a limit to the capacity to raise the payroll tax in 
order to help pay for our current obligations. There is a limit 
to how much we can raise that payroll tax without adversely 
affecting employment. Fair statement?
    Dr. Biggs. With any tax, the more you raise it, it has a 
disproportionate effect on economic activities--the dead weight 
loss of the tax.
    So that would be one issue about using a payroll tax to 
fund parental leave when you are already using that same tax to 
fund Social Security or Medicare.
    Senator Cassidy. So, in particular we know that for those 
employees above $30,000, I think 75 percent of them already 
have paid leave. And I will come to you, Ms. Shabo, because you 
are shaking your head. I am open to this.
    But if we know that Deloitte is going to subtract their 
contribution so that the money that would be paid by Deloitte 
is now being paid by the taxpayer--but we are taxing folks in 
order to pay this benefit.
    I am very concerned about our ability to pay our current 
obligations and wonder again if we just are not supplanting 
with Federal tax dollars for some folks--not for all, because 
some do not have the benefit. And we are very sensitive to the 
fact that some do not have the benefit.
    But if all we are doing is supplanting that which is being 
paid by Google already, I am not sure that that is the best 
deal for the taxpayer.
    Now, Ms. Shabo, you are shaking your head ``no.'' Why are 
you shaking your head ``no''?
    Ms. Shabo. Two reasons. So I am first shaking my head 
because that statistic about paid leave, that the higher-income 
folks--that is vacation. It could be PTO. It is not the 
dedicated paid family and medical----
    Senator Cassidy. Now is there a problem with somebody who 
has 6 weeks of vacation taking some of their vacation to care 
for a sick one? For a loved one?
    Ms. Shabo. There is. That is no vacation.
    Senator Cassidy. It may not be a vacation, but it is kind 
of the reality. My mother lived with me and died with 
Alzheimer's. I know this issue, let me just say.
    But I am very sympathetic to what these small business 
owners said, which is, I have a small business, and I have thin 
margins, and I have three employees. If they take their paid 
vacation, and then they take their paid this and their paid 
that, and I am paying it, and then they leave, I cannot run a 
business.
    So I am not being negative. I am just trying to figure out 
that tension.
    Ms. Shabo. So a vacation is also highly correlated with 
retention and morale, and all of those other things. I think 
you want your employee to have access to a shared benefit that 
is funded in a responsible, sustainable way like the FAMILY Act 
would be, be able to do their caregiving, take a vacation if 
they need to to rejuvenate afterwards, and come back to work.
    Senator Cassidy. I think, for the small businesswoman or 
the small businessman--because I was speaking to a small 
businesswoman just prior to the hearing. And she was speaking 
about the burden. So I think for the small folks, the five 
people in the shop, there is a different dynamic than Deloitte, 
which has--I cannot imagine how many people Deloitte has.
    Ms. Shabo. Absolutely.
    Senator Cassidy. More than Rhode Island, I suspect. 
[Laughter.]
    Well, I am also out of time. I will also have questions for 
the record.
    Incredibly illuminating--but I think my final assessment is 
that it is those lower-income people who do not have the 
benefit now, that we have limited capacity to raise payroll 
taxes if we are to make current obligations. So therefore, 
anything we are going to possibly do with that--if we ever have 
to raise the payroll tax, it should be dedicated to current 
obligations. There is limited capacity to raise it.
    And I am also struck that, for those bigger businesses 
offering it, we know empirically that they are subtracting that 
which they pay. They are not adding it to that which the 
government benefit would be. And I think we have to take that 
into account as we fashion this.
    Senator Brown, do you have another question?
    Senator Brown. No more questions.
    One request and one comment. If I could ask to enter into 
the record letters of support for S. 337 from a number----
    Senator Cassidy. Without objection.
    [The letters appear in the appendix beginning on p. 42.]
    Senator Brown. I think it is a question, Mr. Chairman--and 
thanks for raising it at the end the way you did.
    Again, I thank the three panelists.
    What values do we have as a society when we passed within 
the last year a tax cut where 80 percent of that tax cut will 
go to the wealthiest 1 percent, but we cannot afford to do 
this? We cannot afford to expand the Social Security system and 
pay for it in a responsible way?
    I really do think it is, what priorities do we set? Of 
course, there are limits, but it is what priorities we set. I 
feel good about what you have done, Ms. O'Boyle. I know that 
not everybody who works with you, obviously, works at your firm 
is moderate, is upper middle income or higher.
    But a lot of higher percentage earners at a firm like 
yours, and a lot of businesses--and you have provided for them 
very well. But a whole lot of people, when we talk about the 
dignity of work, a whole lot of Americans--what is it, 40 
percent of Americans do not have $400 if their car breaks down? 
And what do we do for that group of people?
    This Congress falls all over itself to give breaks to the 
large banks, falls all over itself to take away health care. A 
bunch of people who dress like me in suits who get good health 
care want to take it away. Yet we cannot take care of the 
people whom Ms. Shabo is arguing for.
    Those are my remarks.
    Thank you, Mr. Chairman, for doing this hearing.
    Senator Cassidy. Thank you.
    And I will just add to your remarks.
    I will say that the Tax Cuts and Jobs Act did result in 
multiple companies raising the amount of their generosity, if 
you will, for paid leave.
    And ultimately, the program has to be sustainable. It is 
false compassion if we put forward a plan which cannot be 
sustained. And unfortunately, that is many of our programs now.
    If you just look how the actuaries are telling us that 
Medicare will be bankrupt in 8 years, and the Social Security 
Trust Fund by 2034, and indeed, if we are going to bail it out, 
we would have to cut benefits by 17 percent now.
    So I think we have to not only--we have to have a 
compassion which we understand can persist and not just be a 
feel-good for the moment.
    Thank you all for your consideration, your thought, and for 
your coming to testify.
    I adjourn.
    [Whereupon, at 4:31 p.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


             Prepared Statement of Andrew G. Biggs, Ph.D., 
            Resident Scholar, American Enterprise Institute
    Chairman Cassidy, Ranking Member Brown, and members of the 
committee, thank you for the opportunity to discuss the importance of 
paid parental leave and how it might be provided in an affordable way 
via the Social Security program. Today I wish to make four main points:

          Paid parental leave can provide important health and 
        educational benefits to children while enabling mothers to 
        remain attached to their prior jobs, which can increase 
        earnings substantially once the mother returns to work.

          However, proposals to provide paid parental leave financed 
        by employers, workers or the government each have potential 
        disadvantages.

          An alternate approach would allow new parents to claim a 
        temporary Social Security benefit. To offset the cost of these 
        benefits, parental leave beneficiaries would agree to a 
        reduction in the value of their future Social Security 
        retirement benefits, such as via an increase in their normal 
        retirement age.

          While every proposal has pros and cons, the Social Security 
        parental leave proposal survives a number of objections raised 
        against it. This idea deserves consideration by Congress as a 
        way to help new parents devote additional time to their newborn 
        children at a crucial stage of their children's lives.
                  the benefits of paid parental leave
    The United States is one of relatively few countries that fail to 
provide paid leave for new parents, which is unusual given that U.S. 
policymakers of both parties have traditionally shown concern both for 
family and for workforce issues.

    Public opinion surveys indicate that Americans favor paid parental 
leave.\1\ More importantly, research indicates that Americans may be 
right to do so. Evidence suggests that when parents are offered paid 
leave, their children's health and upbringing benefit and mothers 
return to work with higher earnings.
---------------------------------------------------------------------------
    \1\ Horowitz, Juliana, Kim Parker, Nikki Graf, and Gretchen 
Livingston. ``Americans Widely Support Paid Family and Medical Leave, 
but Differ Over Specific Policies.'' Pew Research Center. March 23, 
2017.

    For instance, when Norway expanded its paid leave program in 1977, 
high school graduation rates increased by 2 percent and children's 
earnings at age 30 rose by 5 percent. For children of less-educated 
mothers, those gains were nearly twice as large.\2\
---------------------------------------------------------------------------
    \2\ Carneiro, Pedro, Katrine V. Loken, and Kjell G. Salvanes. ``A 
flying start? Maternity leave benefits and long-run outcomes of 
children.'' Journal of Political Economy 123, no. 2 (2015): 365-412.

    Likewise, by keeping new mothers connected with their previous 
jobs, women are able to retain seniority and job-specific skills. One 
study analyzing paid leave in New Jersey found that women who took 
leave were more likely to be working and less likely to depend upon 
public assistance 1 year following childbirth.\3\ California's paid 
leave program appears to have increased new mothers' work hours by 10 
to 17 percent in the 3 years following childbirth.\4\ Other research 
using a different dataset found similar earnings increases for post-
childbirth women in California.\5\ Recent research has confirmed that 
disruption of female employment at the time of childbirth is a major 
driver of the ``gender pay gap.'' \6\ Improvements to female earnings 
in line with those found in California would close much of that gap. 
These benefits help explain why a bipartisan coalition of analysts 
gathered by the American Enterprise Institute and the Brookings 
Institution have called paid parental leave ``an issue whose time has 
come.'' \7\
---------------------------------------------------------------------------
    \3\ Houser, Linda, and Thomas Paul Vartanian. ``Pay matters: The 
positive economic impacts of paid family leave for families, businesses 
and the public.'' Rutgers Center for Women and Work, 2012.
    \4\ Rossin-Slater, Maya, Christopher J. Ruhm, and Jane Waldfogel. 
``The effects of California's paid family leave program on mothers' 
leave-taking and subsequent labor market outcomes.'' Journal of Policy 
Analysis and Management 32, no. 2 (2013): 224-245.
    \5\ Baum, Charles L., and Christopher J. Ruhm. ``The effects of 
paid family leave in California on labor market outcomes.'' Journal of 
Policy Analysis and Management 35, no. 2 (2016): 333-356.
    \6\ Chung, YoonKyung, Barbara Downs, Danielle H. Sandler, and 
Robert Sienkiewicz. ``The Parental Gender Earnings Gap in the United 
States.'' U.S. Census Bureau. No. 17-68. 2017.
    \7\ AEI-Brookings Working Group on Paid Family Leave. ``Paid Family 
and Medical Leave: An Issue Whose Time Has Come.'' American Enterprise 
Institute. June 6, 2017.
---------------------------------------------------------------------------
         a proposal to fund paid leave through social security
    Paid leave must be funded somehow, but several existing approaches 
have downsides. Many Americans are reluctant to fund paid leave with a 
new payroll tax of 0.4 percent of their wages, as proposed in the 
FAMILY Act. Likewise, evidence indicates that if employers are mandated 
to provide paid leave, they will likely offset the costs by reducing 
wages or avoiding hiring women of child-bearing age.\8\ Finally, it is 
difficult for young workers to save to provide leave for themselves, 
given their low earnings, student loans and the often-short time 
between entering the workforce and having children.
---------------------------------------------------------------------------
    \8\ Gruber, Jonathan. ``The incidence of mandated maternity 
benefits.'' The American Economic Review (1994): 622-641.

    Kristin Shapiro, Washington, DC lawyer, and I considered an 
alternate approach in a joint Wall Street Journal op-ed and in a fuller 
treatment written by Shapiro and published by the Independent Women's 
Forum, a Washington think tank that focuses on women's issues.\9\
---------------------------------------------------------------------------
    \9\ Shapiro, Kristin A., and Andrew G. Biggs. ``A Simple Plan for 
Parental Leave.'' The Wall Street Journal. January 24, 2018. Kristin A. 
Shapiro. ``A Budget-Neutral Approach to Parental Leave.'' Independent 
Women's Forum. January 9, 2018.

    Shapiro and I argued for a parental leave benefit provided via the 
Social Security program. New parents could claim a temporary Social 
Security benefit, but in return must accept a slightly higher 
retirement age or other reduction to their future retirement benefits. 
The size of this retirement benefit offset would be set so that any 
parental leave payments received early in life would be repaid, with 
interest, over the course of an individual's retirement. The specifics 
depend upon a number of variables, such as how to ensure that benefits 
received by individuals who either die or claim Disability Insurance 
---------------------------------------------------------------------------
benefits prior to retirement are repaid.

    Based on a simulation by the Urban Institute, Social Security-based 
parental leave benefits would replace about 59 percent of prior 
earnings for the median new mother claiming benefits, while a lower-
income woman could expect a replacement rate of about 69 percent.\10\ 
In return for 12 weeks of paid leave benefits, beneficiaries would have 
to accept an increase in the Normal Retirement Age of about 25 weeks. 
This retirement age increase does not affect the age at which a person 
may claim Social Security retirement benefits. Rather, it simply 
implies a lower benefit, of about 3.2 percent, at whatever age the 
individual retires.
---------------------------------------------------------------------------
    \10\ Favreault, Melissa M., and Richard W. Johnson. ``Paying for 
Parental Leave With Future Social Security Benefits.'' The Urban 
Institute, April 2018.
---------------------------------------------------------------------------
           concerns with social security paid leave proposal
    The proposal for Social Security-based paid leave has generated 
significant interest. At the same time, a number of understandable 
concerns have been raised. Here I address several of those concerns.
Effects on women's retirement benefits
    Some have raised the concern that any increase in the retirement 
age or other reduction to retirement benefits would endanger the 
retirement income security of women who claim parental leave benefits. 
This concern is understandable: women have lower earnings and savings 
than men.

    However, two points are worth raising. First, retirement savings 
and retirement incomes for women have increased significantly in recent 
decades as female labor force participation has risen. A 2016 Census 
Bureau study found that from 1984 to 2007, the percentage of newly 
retired women receiving private retirement plan benefits doubled. The 
median household income for women aged 65 to 69 rose by 58 percent 
above inflation from 1989 through 2007.\11\ That's a far greater 
increase than for working-age individuals of either gender. So I would 
not rush to the conclusion that most women (or men, for that matter) 
live at significant risk of an inadequate retirement income.
---------------------------------------------------------------------------
    \11\ Bee, C. Adam, and Joshua Mitchell. ``The Hidden Resources of 
Women Working Longer: Evidence From Linked Survey-Administrative 
Data.'' No. w22970. National Bureau of Economic Research, 2016.

    Second, paid parental leave can lead to higher labor force 
participation and earnings once a mother chooses to return to the 
workforce. Higher earnings would lead to higher Social Security 
benefits, offsetting part or all of the benefit reduction associated 
---------------------------------------------------------------------------
with an increased retirement age.

    For a low-income woman, the 10 to 17 percent higher post-childbirth 
earnings found in California would lead to 5 to 9 percent higher net 
Social Security retirement benefits, even after the retirement age 
increase used to pay back the parental leave benefit. A middle-income 
woman could be expected to roughly break even after the effects of 
higher post-childbirth incomes and the retirement benefit offset are 
netted out.

    Moreover, to the degree that paid parental leave increases post-
childbirth labor force participation and earnings, personal savings 
such as those via 401(k) plans could also be expected to increase. 
Thus, paid parental leave could improve retirement income security for 
vulnerable women who claim it.
Effects on Social Security financing
    Social Security already has a significant funding shortfall, so 
policymakers would rightly be concerned that a paid parental leave plan 
would make matters worse.

    The Social Security paid leave proposal is designed so that, over 
an individual's full lifetime, the offset to future retirement benefits 
will fully pay back, with interest, the value of parental leave 
benefits received after the birth of a child. Thus, on a person-for-
person basis the proposal is revenue-neutral over the long term.

    One of the ways the Social Security actuaries calculated the 
program's unfunded liabilities is on a ``closed group'' basis. This 
method measures taxes and benefits for all individuals currently 
participating in Social Security, either as taxpayers or beneficiaries, 
and extends that measurement over those participants' full lifetimes. 
The closed group measure would not show an increase in Social 
Security's unfunded obligation, assuming the plan's parameters are set 
appropriately.

    To the degree that paid parental leave caused women to increase 
their earnings later in life, Social Security's closed group unfunded 
liability would decline very slightly. This is because higher earnings 
lead to a higher dollar value of future retirement benefits, which 
would cause the present value of the retirement benefit offset to 
exceed the present value of the parental leave benefit received earlier 
in life.

    Since Social Security is a pay-as-you-go program, some may be 
interested in how a paid parental leave benefit would affect the 
program's costs on an annual basis. Based on figures produced by the 
Urban Institute, by the 5th year following implementation annual 
benefit costs net of retirement benefit offsets would increase by about 
0.7 percent. This net cost would peak in 2045 at a 1.15 percent 
increase, falling to zero by 2063. By 2080 annual Social Security 
benefit costs would be about 2.1 percent lower because the value of 
retirement benefit offsets would exceed the value of parental leave 
benefits paid out in that year.

    Social Security's funding shortfalls are significant and Congress 
should address them as soon as possible. However, the costs of a paid 
leave program paid through Social Security are trivial relative to the 
trillion dollar-plus annual outlays of the Federal Government's largest 
single spending program.
Why should the government be involved at all?
    Paid parental leave is an employer benefit, and employers across 
the country willingly provide a range of benefits as a means to attract 
and retain employees. Many workers already have parental leave benefits 
provided by their employer. Why is a government program needed at all?

    For many larger employers, a government program is not needed. 
However, for small employers, the self-employed and gig-economy 
workers, the Social Security-based paid leave program could be very 
helpful. A small employer or start-up may be challenged providing even 
the basic employer benefits such as health care, a 401(k) or employer-
paid payroll and unemployment insurance taxes. While such employers may 
wish to offer paid leave as a way to attract and retain employees of 
child-bearing age they may not be able to afford to do so. This could 
make it impossible for these businesses to attract employees of child-
bearing age, and may make it impossible for such employees to choose to 
work at a small business or start-up rather than a large employer.

    To be clear, the Social Security-base proposal does not pay for 
benefits outright. Employees who choose a temporary paid leave benefit 
must accept a higher retirement age or other offset to their future 
retirement benefits. But the Social Security proposal allows 
individuals to take parental leave even if they are not employed by a 
business that can afford to offer such a benefit.
Why provide parental leave benefits through Social Security?
    The need to take a short period out of the workforce following the 
birth of a child can be thought of as a temporary disability, a period 
in which it is difficult--or at least undesirable--for a new parent to 
work. A number of OECD countries, as well as several U.S. States, 
provide parental leave benefits on this basis. Social Security already 
has a disability benefit formula that provides a progressive 
replacement of previous earnings, such that low earners receive a 
higher ``replacement rate'' than higher earners. Piggybacking a 
parental leave benefit on the Social Security disability insurance 
formula simplifies the development of this benefit policy.

    Likewise, SSA has the administrative structure to handle a paid 
leave benefit at lower cost than establishing a new agency. 
Applications could be made through SSA's website and SSA's field and 
phone staff are already familiar with the Social Security benefit 
formula, implying that fewer additional staff and less training would 
be needed.

                                 ______
                                 
      Questions Submitted for the Record to Andrew G. Biggs, Ph.D.
              Questions Submitted by Hon. Michael B. Enzi
    Question. As a former small business owner, I am concerned that any 
well-
intentioned policies could have unintended consequences. For example, 
if a small company finds a temporary worker for the position for an 
employee on medical leave, would that temporary worker, after the 
employee returns to work, then be able to claim unemployment insurance? 
If so, would such a claim increase the company's unemployment taxes due 
to an increase in claims?

    Answer. I am not an expert on the Unemployment Insurance system, 
and policies differ from State to State. But I believe that, in 
general, a temporary employee could claim unemployment benefits at the 
end of his or her period of employment. While this may result in costs 
to small business owners, the availability of Social Security-based 
parental leave may allow small businesses to better compete for 
employees against larger firms that currently are able to fund parental 
leave from their own resources. More broadly, these questions involve 
balancing any net costs to business owners against the gains to 
families and society of parents being able to spend time with their 
newborn children.

    Question. Under the proposed legislation and concepts being 
considered for paid family leave, would the temporary workers also be 
eligible for such leave if they have a medical or family issue occur 
during their temporary employment? If yes, are there any safeguards to 
prevent abuse or fraudulent claims, such a making a claim in the last 
week of one's employment?

    Answer. As outlined, the Social Security-based parental leave 
benefits would be available only to new parents, not for other reasons. 
Eligibility for Social Security-based parental leave benefits is based 
upon the individual's work history and earnings over the several prior 
years, not simply their employment at the time they claim benefits.

    Question. Under the proposed legislation and concepts being 
considered for paid family leave, for States that already have paid 
family leave, what would happen to the funds collected should a Federal 
plan be put into place?

    Answer. The Social Security-based proposal can exist alongside 
State plans or private employers' offering of paid parental leave. If 
individuals find that their State or employer's leave is superior to 
the Social Security proposal, they would likely opt not to apply for 
the Social Security-based benefits. Alternately, if their State or 
employer offers only modest benefits, they might to choose to combine 
the two benefits for a longer period of parental leave.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. The plan you developed with the Independent Women's Forum 
provides for paid leave for new parents, but does not include any other 
sort of family or medical leave.

    Under the Family and Medical Leave Act, we provide eligible workers 
with unpaid leave to care for a seriously ill spouse, child or parent; 
or to address his or her own health condition; or to deal with the 
deployment of a member of the armed services.

    Mr. Biggs, how would your plan address these other circumstances 
when paid leave would be critical for workers?

    How would your plan address workers who had multiple children or, 
if you covered them, health events?

    Answer. The Social Security parental leave proposal is focused on 
leave for new parents and at present does not include provisions for 
other forms of paid leave, such as to care for a family member. There 
is no reason the proposal could not allow these types of leave, 
financed with an agreed-upon delay in the full retirement age for 
receiving Social Security retirement benefits. The limiting issue with 
non-
parental leave, as with leave for multiple children, would be the 
amount of total paid leave claimed over a working lifetime. Congress 
may not wish for individuals to take so much leave as to lead to an 
excessive increase in the full retirement age for Social Security 
benefits. Thus, some cap on the number of leave segments available 
might be envisioned should Congress wish to extend leave for reasons 
other than child birth.

    Question. Carrie Lukas, the managing director of the Independent 
Women's Forum, wrote in an op-ed this past February that your proposal 
would encourage ``people to think about Social Security's assets as if 
those benefits are their property for use now or at retirement'' and 
would encourage us to ``transform the current pay-as-you-go system into 
one that pre-funds future benefits and with assets that belong to 
individuals.''

    In the past, you've advocated for structural reforms to Social 
Security that would replace the current program with a savings account 
and a flat universal benefit. You've written that ``personal accounts 
are a valid choice, and one I've supported in the past and continue to 
support.''

    Mr. Biggs, do you continue to support replacing the current Social 
Security system with one that includes personal accounts?

    Answer. The proposal I have made for Social Security in a 2014 
National Affairs article would begin with a retirement savings account 
funded on top of Social Security, not a ``carve-out'' account as 
envisioned during the George W. Bush administration. At the same time, 
over roughly 4 decades the traditional Social Security benefit would be 
phased down to a flat dollar benefit paid to all retirees. This flat 
benefit would increase traditional Social Security benefits for roughly 
the poorest third of retirees and eliminate poverty in old age, even 
before the personal account is considered. However, this proposal would 
reduce traditional benefits relative to current law scheduled levels on 
a progressive basis for roughly the richest two-thirds of retirees. 
Total benefits, including the supplementary personal account balances 
assuming investment in riskless assets, would be similar to those 
promised (but, due to insufficient funding, not payable) by the current 
law Social Security benefit formula.

    Question. Do you agree with Ms. Lukas and the Independent Women's 
Forum that your paid family leave proposal will lead to more acceptance 
of individual accounts in Social Security?

    Answer. No; I do not see the connection and never thought of it 
during the period in which Ms. Shapiro and I worked on the proposal. 
They are simply different policies in my mind.

    Question. If your paid leave plan started the transition toward 
replacing our current Social Security system with a system that relies 
on privatized, personal accounts, would you suggest we support or 
oppose the plan?

    Answer. I would suggest that you support any sort of Social 
Security reform plan that makes that important program viable for 
future generations. Congress had been aware of the need for Social 
Security reform for nearly 3 decades but, due to an unwillingness to 
present voters with painful solutions to different choices, has yet to 
do anything to act. More specifically, however, I would suggest that 
you support a Social Security reform proposal similar to my own 
regardless of whether Congress chose to implement a Social Security-
based paid leave program, and I would suggest that you support a Social 
Security-based paid leave program even if you opted for other routes to 
reform Social Security. It is perhaps worth noting that my own Social 
Security reform proposal does not include an increase in the Full 
Retirement Age, so any voluntary increase associated with the parental 
leave plan would not be stacked upon an additional increase associated 
with broader Social Security reform.

                                 ______
                                 
                 Question Submitted by Hon. Dean Heller
    Question. For many Nevadans, making ends meet and balancing the 
demands of work and family life is a daily struggle. Whether it's the 
single mother from Las Vegas who doesn't receive child support and 
works full time or it's the father of two in Elko who's struggling to 
pay his bills, parents today face difficult challenges when it comes to 
professional success and taking care of loved ones. I'm interested in 
examining approaches to expand access to paid family and medical leave 
that would be targeted to low-income workers. For example, there is a 
proposal known as the Earned Income Leave Benefit that would provide 12 
weeks of paid family and medical leave to workers in low-income 
households. Modeled after the Earned Income Tax Credit, the benefits 
available would be based on household income, and only workers in 
households with incomes below a certain threshold would be eligible.

    Are you familiar with this proposal? If so, please elaborate.

    Do you think this proposal would be a direct and cost-effective way 
to expand access to paid family and medical leave for workers who need 
it most?

    Answer. The Earned Income Leave Benefit is a targeted leave 
proposal, focusing benefits on lower-income families. At the same time, 
it would come with a higher price tag to the Federal Government than 
the Social Security-based parental leave plan, where individuals would 
effectively finance their own leave benefits by delaying retirement for 
a period. Both proposals have merit and I have no intention to 
disparage that plan. Different plans offer different levels of benefits 
to different households using different means of financing.

                  Question Submitted by Hon. Tim Scott
    Question. There is a growing consensus on Capitol Hill that 
recognizes the need to promote a Federal paid leave policy that 
empowers employees who are also new parents, caregivers, and even 
chronically ill. There is also an increasingly large number of 
employers who have instituted their own paid leave policies, indicating 
that job creators are recognizing the need and desire for such a 
benefit. Just like individuals confront a host of life events that are 
unique to themselves and their families, not all employers or 
industries are the same. A mandatory Federal paid leave policy applied 
to all industries may be detrimental to definite-term, project-specific 
industries due to their different work conditions and performance 
demands. Construction jobsites, for example, employ multiple 
contractors who work consecutively on time-sensitive projects where 
both employers and employees have agreed to contracts that cover pay 
and benefits, including family leave.

    As we continue to consider various national paid leave program 
proposals, what considerations should be made to accommodate and 
complement the unique needs of various and distinct industries? 
Specifically, could you provide a more detailed description of the 
provisions for effective, productive coverage for workers and employers 
in definite-term, multi-employer performance settings?

    Answer. I am not a labor lawyer and so my comments should be taken 
in that light. I do not know whether a definite-term employment 
contract can under current law prohibit (by agreement with the 
employee) the use of any kind of leave, but lacking changes made by 
Congress I believe the use of Social Security-based leave would fall 
under State laws regulating those types of employment contracts. I am 
sensitive to the need for employers to be able to retain employees at 
the times those employees are most needed, but believe employer needs 
should be balanced against the gains to families and the broader 
economy by making paid parental leave available to new parents.

                                 ______
                                 
               Prepared Statement of Hon. Sherrod Brown, 
                        a U.S. Senator From Ohio
WASHINGTON, DC--U.S. Senator Sherrod Brown (D-OH)--ranking member of 
the Senate Finance Committee's Subcommittee on Social Security, 
Pensions, and Family Policy--released the following opening statement 
at today's hearing.

    Thank you to Senator Cassidy for working with us to convene this 
hearing to explore ways we can work together to expand Social Security 
and the safety net to include paid family medical leave. It is a 
welcome glimpse of what we could achieve together if we focus on the 
needs of working families.

    Right now, the lack of paid family leave is a drag on our economy 
that holds workers back.

    American families lose nearly $21 billion in wages each year 
because they don't have access to paid leave. People who work in jobs 
like ours, who wear suits and have good benefits, may not realize that 
the vast majority of American workers have no paid family leave at all.

    For too many Americans, hard work doesn't pay off.

    When I say we don't value work in this country, I'm not just 
talking about wages--I'm talking about the benefits people earn. Or 
should earn.

    Eighty-five percent of the workforce--more than 100 million 
people--have no paid family medical leave.

    If a mother has a baby, she gets zero paid time off--not a single 
day. If she isn't back at work the day after she gives birth--something 
most of us would agree is cruel and absurd--she doesn't get a paycheck.

    And this isn't just about new mothers.

    All sorts of workers face impossible choices.

    Do they go into work knowing the risks to their own health and to 
others around them, or do they stay home and lose a paycheck?

    Do they send a sick child to school, knowing they're risking the 
health of their daughter and her entire classroom, or do they 
jeopardize their job by taking a day off?

    As they grow older, workers also often have to care for aging 
parents. When sons over the age of 50 leave the workforce to care for a 
parent, they lose an average of $304,000 in earnings and retirement 
savings. Daughters lose even more, an average of $324,000.

    If we truly value the dignity of work, we need to recognize that 
paid family leave is something all workers should have the opportunity 
to earn.

    Today's bipartisan hearing is an important baby step forward on 
this issue. Members of both parties are coming together to recognize 
that this isn't acceptable in a modern economy, and acknowledging that 
we have to expand our social insurance to include paid family medical 
leave.

    This isn't a partisan issue--it affects every sector of the 
economy, and workers of all ages with all types of families.

    And paid leave is good for business. A recent survey conducted by 
the professional services firm EY found that the majority of large 
companies support the creation of paid family and medical leave 
programs on the State or Federal level that are funded through tax 
contributions.

    Such a program would be particularly good for small businesses. It 
would make these programs more affordable, and put small businesses on 
a more even footing with large corporations that can afford bigger 
benefit packages, allowing them to better compete for talent.

    Today, Democrats have put forward a thoughtful approach that I 
believe could reach consensus. This is a common-sense bill that builds 
on the most successful and popular program we have in this country--
Social Security.

    It would offer low-cost, portable benefits that all American 
workers would earn, and it would be paid for by both workers and 
employers. It's an approach that's already been adopted by five 
States--soon to be six--and the District of Columbia.

    My Republican colleagues also have some ideas on the table, and I 
want to thank them for their desire to work together on this issue. 
Democrats too are at the table, ready to negotiate and reach a solution 
that can become law.

    Unfortunately, the approach some of our colleagues are currently 
proposing amounts to cutting Social Security for the workers who need 
it most.

    Using your retirement security to fund paid time off from work when 
you have a child is not paid family leave at all--it's robbing from 
your retirement to be able to care for loved ones now.

    Low-wage workers in physically demanding jobs are more likely to be 
forced into early retirement because of the toll their jobs take on 
their bodies. That already means taking a Social Security cut--and this 
plan would only make that cut bigger.

    In an opinion piece for The Federalist, the president of the 
Independent Women's Forum--the group that first put forward this idea--
wrote that she views this plan as a first step to, quote, ``transform 
the current pay-as-you-go system into one that pre-funds future 
benefits and with assets that belong to individuals.''

    In other words, some of the people pushing this plan view it as 
beginning the process of dismantling Social Security as we know it.

    I want to work together, but a plan that's a first step toward 
privatizing Social Security--the bedrock of our social safety net--is 
no place to start.

    We also know that only covering parental leave excludes the vast 
majority of workers. Three-quarters of Americans who use the Family and 
Medical Leave Act take time off to care for their own health or that of 
a seriously ill family member.

    Any national paid leave plan should build on the Family Medical 
Leave Act, and reflect the well-established needs laid out in that 
law--parental leave, family care leave, personal medical leave, and 
military caregiving leave.

    We must be able to have honest debate about these critical issues. 
Though we have differing perspectives, we're working toward the same 
goals and we can only achieve them by working together.

    We all want to help families navigate a changing economy, and make 
sure hard work pays off. We believe that all work has dignity. So I'm 
encouraged that my colleagues on both sides of the aisle are taking 
this seriously.

    Now that we have established that we need a national paid family 
medical leave plan, I hope we can get to work forging a bipartisan 
solution together.

                                 ______
                                 
  Consortium for Citizens With Disabilities Social Security Task Force

                    820 First Street, NE, Suite 740

                       Washington, DC 20002-4243

                           Tel: 202-567-3516

                           Fax: 202-408-9520

                         Website: www.C-C-D.org

             Statement on Proposals to Use Social Security 
                       to Pay for Parental Leave

The Independent Women's Forum (IWF) has proposed \1\ creating a new 
parental leave benefit, paid for by asking workers to take a cut in 
their future Social Security benefits. Under the IWF proposal, workers 
could receive up to 12 weeks of partially-paid parental leave, offset 
by a reduction or delay in their Social Security retirement benefits. 
Participation would be voluntary.
---------------------------------------------------------------------------
    \1\ http://pdf.iwf.org/budget-
neutral_approach_parental_leave_PF18.pdf.

The undersigned members of the Consortium for Citizens with 
Disabilities (CCD) Social Security Task Force oppose such proposals. 
The U.S. can create a paid leave plan affordably and responsibly--
without reducing workers' Social Security benefits or forcing them to 
delay retirement. We urge Congress to reject the IWF proposal and any 
similar proposals. We offer the following considerations related to the 
---------------------------------------------------------------------------
impact of such proposals on Social Security:

      Access to paid leave should not be carved out of funds dedicated 
to Social Security. Our Social Security system is a foundation of 
economic security for workers and their families in the event of a 
worker's retirement, disability, or death. Social Security represents a 
promise to U.S. workers that has been built up and honored for over 80 
years that should not be limited or cut. Expanding access to paid 
parental leave is an important goal for all workers, including people 
with disabilities and their families. However, proposals to fund paid 
leave out of workers' future Social Security benefits would break the 
promise of Social Security, and should be rejected.

      Workers should not be asked to pay for parental leave today by 
rolling the dice on their future needs for Social Security. Research 
\2\ consistently finds that it is difficult to estimate financial needs 
in retirement, and workers often underestimate. Asking workers in their 
prime reproductive years to make decisions based in part on their 
prediction of future Social Security retirement benefit needs is 
unnecessary and unwise. Workers with disabilities and their families 
would be more likely to face this risky roll of the dice because on 
average, they are more likely to work in low-wage, part-time, non-
managerial jobs \3\ that lack employer-based paid leave benefits.
---------------------------------------------------------------------------
    \2\ https://www.soa.org/resources/announcements/press-releases/
2018/consumer-concern-financial-risk/.
    \3\ https://thearc.org/wp-content/uploads/forchapters/
Georgetown_PFML-report_Dec17.pdf.

      Retirement security should be strengthened, not eroded or put at 
risk. According to the Urban Institute,\4\ under the IWF proposal ``. . 
. parents who take 12 weeks of paid leave through the program would 
have to delay their Social Security retirement benefits by 20 to 25 
weeks depending on the repayment details.'' Social Security represents 
a major source of income \5\ for most retirees: it provides over half 
of total income for most aged beneficiaries, and 90 percent or more of 
income for nearly 1 in 4 aged beneficiary couples and over 2 in 5 aged 
nonmarried beneficiaries. Even with Social Security, many seniors live 
in or near poverty \6\--and seniors with disabilities are particularly 
likely \7\ to experience poverty. The CCD Social Security Task Force 
has long supported strengthening--not weakening--Social Security as a 
cornerstone of a financially sound retirement.
---------------------------------------------------------------------------
    \4\ https://www.urban.org/research/publication/paying-parental-
leave-future-social-security-benefits.
    \5\ https://www.ssa.gov/policy/docs/chartbooks/fast_facts/2017/
fast_facts17.html#page5.
    \6\ Ibid.
    \7\ https://www.census.gov/content/dam/Census/library/publications/
2014/acs/acs-29.pdf.

      Any delays or permanent reductions in Social Security benefits 
could significantly harm the economic security of people with 
disabilities and their families. IWF's and similar proposals could be 
funded \8\ by raising the age at which a worker could collect full 
retirement benefits (in effect, a permanent reduction in benefits), or 
by withholding all of a worker's initial Social Security retirement 
benefits for an amount equal to the paid parental leave taken (a delay 
in benefits). The more times a worker takes parental leave, the greater 
the future benefit reduction. The proposed treatment of Social Security 
disability or survivors' benefits is not clear; any cuts in these 
benefits would be particularly harmful to people with disabilities and 
their families. Workers with disabilities on average earn significantly 
less \9\ than workers without disabilities and often have fewer 
opportunities to save.\10\ As a result, Social Security is particularly 
important to the economic security of people with disabilities, and any 
reductions or delays in benefits would disproportionately harm people 
with disabilities and their families.
---------------------------------------------------------------------------
    \8\ https://www.urban.org/research/publication/paying-parental-
leave-future-social-security-benefits/view/full_report.
    \9\ https://thearc.org/wp-content/uploads/forchapters/
Georgetown_PFML-report_Dec17.pdf.
    \10\ www.realeconomicimpact.org/assets/site_18/files/
other_documents/finra%20report/ndi-finrareport-accessible.pdf

      Congress should adequately fund the Social Security 
Administration (SSA) to operate and strengthen its existing core 
programs--not repurpose existing limited resources to implement a new 
program. From 2010 to 2018, SSA's operating budget shrank by nearly 9 
percent \11\ while workloads rose. As a result, customer service has 
been eroded across the agency. Today, nearly 1 million people are 
waiting an average of over 590 days for a hearing before an SSA 
Administrative Law Judge. These historic waits lead to extreme 
hardship: while awaiting a hearing, many struggle to pay rent or meet 
basic needs. Some lose their homes or go into bankruptcy, and in 2017 
approximately 10,000 people died \12\ while waiting for a hearing. 
Congress must fully fund SSA's operating budget to ensure timely, 
accurate disability determinations and humane, high-quality customer 
service across the agency. The IWF proposal would move in the opposite 
direction, ``. . . raising Social Security's annual costs, net of 
benefit offsets, about 1 percent over the long run,'' according to the 
Urban Institute.\13\
---------------------------------------------------------------------------
    \11\ https://www.cbpp.org/blog/cash-strapped-social-security-needs-
more-funds-to-improve-customer-service.
    \12\ https://www.washingtonpost.com/sf/local/2017/11/20/10000-
people-died-waiting-for-a-disability-decision-in-the-past-year-will-he-
be-next/?utm_term=.5704795c423a.
    \13\ https://www.urban.org/research/publication/paying-parental-
leave-future-social-security-benefits/view/full_report.

For these reasons, the undersigned members of the CCD Social Security 
Task Force urge Congress to reject the IWF proposal and any similar 
---------------------------------------------------------------------------
proposals to fund paid leave out of Social Security.

CCD members:

ACCSES
Allies for Independence
American Association on Health and Disability
American Association on Intellectual and Developmental Disabilities 
(AAIDD)
American Psychological Association
Autistic Self Advocacy Network
Bazelon Center for Mental Health Law
Christopher and Dana Reeve Foundation
Community Legal Services of Philadelphia
Easterseals
Family Voices
Justice in Aging
National Academy of Elder Law Attorneys
National Association of Councils on Developmental Disabilities
National Association of Disability Representatives
National Committee to Preserve Social Security and Medicare
National Disability Rights Network
National Organization of Social Security Claimants' Representatives
Paralyzed Veterans of America
Special Needs Alliance
The Arc of the United States
United Spinal Association

Joined by:

Lakeshore Foundation

                                 ______
                                 
                    National Alliance for Caregiving

                    4720 Montgomery Lane, Suite 205

                           Bethesda, MD 20814

                             (301) 718-8444

                           www.caregiving.org

                              July 9, 2018

Re:  Subcommittee on Social Security, Pensions, and Family Policy 
hearing, ``Examining the Importance of Paid Leave for Working 
Families,'' July 11, 2018

Dear Members of Congress,

Thank you for the opportunity to provide feedback as you weigh 
legislative options regarding paid family and medical leave. At some 
point, nearly everyone will need time away from work to deal with a 
serious personal or family illness, or to care for a new child. While 
we recognize and echo the stipulation that new parents need a national 
paid leave policy, we must include family caregivers of older adults 
and people with disabilities in the conversation. We want to be 
constructive partners in crafting a paid leave policy which will allow 
family caregivers to remain in the workforce and save for retirement 
while providing much-needed care to those with serious illnesses or 
disabilities.

About the National Alliance for Caregiving

The National Alliance for Caregiving (NAC), established in 1996, is a 
non-profit coalition of over 60 national organizations focusing on 
advancing family caregiving through research, innovation, and advocacy. 
For more than 20 years, we have led public policy research and advocacy 
efforts to support America's family caregivers. We are most well-known 
for research that establishes a current and descriptive profile of 
unpaid family caregivers in the United States, such as the nationally 
representative Caregiving in the U.S. studies with AARP, conducted in 
1997, 2004, 2009, and most recently in 2015.\1\ This work, along with 
the work of our colleagues, has led to increased national attention to 
the issue of caregiving across the lifespan. The data on family 
caregiving demonstrates why paid leave is important not only for new 
parents, but also for individuals who need to care for family members 
who are ailing, aging, or have disabilities.
---------------------------------------------------------------------------
    \1\ The National Alliance for Caregiving. (2018). General 
caregiving research. Retrieved from: https://www.caregiving.org/
research/general-caregiving/.
---------------------------------------------------------------------------

The Need to Support Paid Family Leave Across the Lifespan

Family caregivers are unpaid relatives, partners, friends, or neighbors 
who provide a wide range of assistance to individuals of all ages. They 
are the predominant providers of long-term services and supports to 
persons with illnesses or disabilities, and in general are thought to 
provide help that is of high quality and that is consistent with 
individual preferences. They play a significant role in ongoing, 
routine chronic care processes--and act as a member of the care 
delivery team. They may live with, or apart from, the person receiving 
care--and care may be of short or long duration. Important individual 
and societal consequences resulting from caregiving are well 
documented. Establishing public policies that sustain and support 
families and friends who provide health-related assistance to persons 
living with chronic disease and disability, or recovering from acute 
health events is, therefore, a critical consideration to supporting 
population health. Conversations surrounding paid leave must include 
family caregivers because a national paid leave policy would affect 
them significantly.

According to the most recent edition of our study, Caregiving in the 
U.S. 2015, conducted in collaboration with the AARP Public Policy 
Institute, an estimated 43.5 million adults in the United States 
provide unpaid care to an adult or a child. Most caregivers are women, 
but about 40 percent are men (and among younger cohorts, men and women 
are equally as likely to provide care). Caregivers spend approximately 
24.4 hours a week providing care to their loved one, with nearly one-
quarter providing 41 or more hours of care a week. A third of 
caregivers are ``higher-intensity'' (21+ hrs./wk.), providing 62.2 
hours of care each week on average. Three in five care recipients have 
a long-term physical condition, and the main reasons recipients 
reported for needing care are ``old age,'' Alzheimer's or dementia, 
surgery recovery, cancer, mobility issues, and mental health issues.\2\
---------------------------------------------------------------------------
    \2\ The National Alliance for Caregiving and AARP Public Policy 
Institute. (2015). Caregiving in the U.S. Retrieved from: https://
www.caregiving.org/wp-content/uploads/2015/05/2015_
CaregivingintheUS_Final-Report-June-4_WEB.pdf.

This study also shows that only about half of caregivers say another 
unpaid caregiver helps their care recipient. Certain groups of 
caregivers are more likely to be the sole unpaid caregiver, including 
higher-hour caregivers (57 percent with no other unpaid help) and those 
caring for a spouse (78 percent). Only 32 percent of caregivers report 
their loved one gets paid help from aides, housekeepers, or other 
people paid to help them. One in three caregivers has no help at all--
paid or unpaid. When asked if they had a choice in taking on the 
responsibility to provide care for their loved one, half of caregivers 
self-reported they had no choice in taking on their caregiving 
responsibilities.\3\
---------------------------------------------------------------------------
    \3\ Ibid.

Impact of Caregiving on Work

The financial challenges mounting against family caregivers occur in at 
least three distinct ways:

    1.  Through a lack of take-home pay because of reduced working 
hours;
    2.  By accumulating out-of-pocket caregiving-related monthly 
expenses; and
    3.  Through a diminished ability to save for retirement.

Further, while unpaid leave under the Family and Medical Leave Act 
(FMLA) provides important job protections, it is not available to all, 
and many cannot afford to take this leave. This lack of access results 
in many challenges for the family caregiver, as described in the 
scenario below.

        Becky is a 59-year-old woman who has spent the past three years 
        caring for her mom and an elderly uncle at the same time. 
        Becky, who had a job as a manager at a paper plant, made a good 
        living with a salary of about $70,000 and benefits. At first, 
        she tried to continue working while caring for her mother who 
        had dementia. Becky would check in with her mother several 
        times a day but, as her mother's dementia worsened, Becky was 
        afraid to leave her mother home alone. She tried to use paid 
        caregivers' help but found them too expensive and unreliable. 
        Then her uncle, a caregiver's widower, fell and broke his hip 
        and could no longer live alone. He too came to live with Becky. 
        Unfortunately, after a year in which her increasing lateness 
        and emergency absences caused problems with her boss, Becky 
        gave up and left her job to stay at home as a caregiver. For 
        three years, she cared for her two relatives until her mother 
        died and her uncle moved into a nursing home. What happened at 
        the end of three years? At 59 and with her technology skills a 
        little rusty, Becky found it quite difficult to get another job 
        at the same managerial level she had before. Eventually, she 
        found a job, but the benefits were not nearly as rich. There 
        was minimal health insurance, and the company had only a 
        defined contribution retirement plan to which employees could 
        contribute. Becky had lost three years of contributions to 
        Social Security and the paper company's defined benefit plan. 
        Also, because of no income and expenses in paying for 
        additional health care services for her mother and uncle, Becky 
        had been unable to save money for her retirement.

National Data on Caregiving and Work

When it becomes difficult to balance caregiving with work, or if the 
demands of work come into conflict with one's caregiving 
responsibilities, some caregivers make changes to their work situation. 
Six out of 10 caregivers report having to make a workplace 
accommodation as a result of caregiving, such as cutting back on their 
working hours, taking a leave of absence, receiving a warning about 
performance or attendance, or other such impacts. Higher-hour 
caregivers are more likely to report experiencing nearly all of these 
work impacts. Caregivers working at least 30 hours a week are more 
likely to report having workday interruptions as a result of 
caregiving. Caregivers employed for fewer than 30 hours are more likely 
to report cutting back their work responsibilities. Forty-eight percent 
of caregivers who take time off to fulfill caregiving responsibilities 
report losing income, and, of caregivers who leave the workforce, more 
than half (52 percent) said they did so because their jobs did not 
allow the flexibility they needed to work and provide elder care.\4\
---------------------------------------------------------------------------
    \4\ Ibid.

Other research has shown that the percentage of adult children 
providing personal care and/or financial assistance to a parent has 
more than tripled over recent decades. Currently, a quarter of adult 
children, mainly Baby Boomers, provide this type of care to a parent. 
The total estimated aggregate lost wages, pension, and Social Security 
benefits of these caregivers of parents are nearly $3 trillion. The 
individual cost impact of caregiving for women regarding lost wages and 
Social Security benefits is $324,044; men are not far behind with an 
estimated loss of $283,716 for men. On average, men and women are 
losing more than a quarter million dollars in future retirement income 
when providing eldercare--roughly $303,880 caring for an older 
relative.\5\ This data further makes the case that family caregivers 
need a funded national paid leave policy because without paid leave, we 
risk a future generation that lacks retirement security and will 
further strain our health and social care systems.
---------------------------------------------------------------------------
    \5\ MetLife, The National Alliance for Caregiving, and Center for 
Long Term Care Research and Policy, New York Medical College. (2011). 
Caregiving Costs to Working Caregivers: Double Jeopardy for Baby 
Boomers Caring for Their Parents. Retrieved from: https://
www.caregiving.org/wp-content/uploads/2011/06/mmi-caregiving-costs-
working-caregivers.pdf.

Employees in the 50+ age range--often their peak earning years--are 
also at the greatest risk of being a caregiver for an older relative. 
Employers can provide workplace accommodations such as paid family and 
medical leave so that caregivers can continue to stay in the workforce 
while providing care. Assessing the long-term financial impact of 
caregiving for aging parents on caregivers themselves is especially 
important since it can jeopardize their future financial security. 
There is also evidence that caregivers experience considerable health 
issues as a result of their focus on caring for others, particularly 
for medically complex diseases such as Alzheimer's and the related 
dementias. The need for flexibility in the workplace and in policies 
that would benefit working caregivers will increase as more working 
caregivers approach their own retirement while still caring for 
---------------------------------------------------------------------------
another, such as an aging parent.

Paid family and medical leave can also help offset the out-of-pocket 
costs that many caregivers face in providing care. A study from AARP, 
Family Caregiving and Out of Pocket Costs: 2016 Report, found that 
family caregivers, on average, are spending about $6,954 per year on 
out-of-pocket costs related to caregiving. Caregivers of people with 
dementia spent over ten thousand dollars to provide care (an average of 
$10,697) and long-distance caregivers spent over eleven thousand 
($11,923), a troubling statistic, given the rising incidence of 
dementia and the increase in families moving across country for work. 
The study also found that there are variations in caregiving 
expenditures related to the race/ethnicity of the caregiver. For 
instance, Hispanic/Latino and African American caregivers report that 
44 and 34 percent of their income respectively goes towards out-of-
pocket expenditures, compared to only 14 percent for white 
caregivers.\6\
---------------------------------------------------------------------------
    \6\ AARP. (2016). Family Caregiving and Out-of-Pocket Costs: 2016 
Report. Retrieved from: https://www.aarp.org/content/dam/aarp/research/
surveys_statistics/ltc/2016/family-caregiv
ing-costs.doi.10.26419%252Fres.00138.001.pdf.
---------------------------------------------------------------------------

The Promise of Paid Family Leave in Reducing Health System Costs

Four states currently have paid family and medical leave insurance 
programs: California, New Jersey, Rhode Island, and New York. These 
programs have shown promising results. For instance, California's paid 
family leave program, the first in the country, went into effect more 
than 14 years ago and might have positive implications for long-term 
care policy. A 2017 report published in the Journal of Policy Analysis 
and Management is the first empirical study to examine the effects of 
paid family leave on long-term care patterns. The study found that the 
implementation of paid family leave reduced nursing home utilization 
for older adults by 11 percent.\7\
---------------------------------------------------------------------------
    \7\ Arora, K., and Wolf, D. (2017). ``Does Paid Family Leave Reduce 
Nursing Home Use? The California Experience.'' Journal of Policy 
Analysis and Management, 37(1), pp. 38-62.

We are encouraged by recent federal activity on the issue of caregiving 
as America ages. Notably, we are thankful for congressional leadership 
on the RAISE Family Caregivers Act (Public Law No: 115-119) and the VA 
Mission Act (Public Law No: 115-182). The RAISE Family Caregivers Act 
noted the critical importance of supporting caregivers across the 
---------------------------------------------------------------------------
lifespan.

In the same way, we believe that existing legislative proposals to 
support family caregivers should be disease- and age-agnostic, 
recognizing the financial strain facing caregivers who must choose 
between work and family. While there are multiple proposals for paid 
family and medical leave, we believe that the Family and Medical 
Insurance Leave (FAMILY) Act (S.337/H.R. 947), which would establish a 
national paid leave program, is currently the strongest and most well-
rounded proposal to ensure that caregivers across the lifespan have 
access to paid leave. This bill would provide workers with up to 12 
weeks of partial income when they take time for their own serious 
health condition, including pregnancy and childbirth recovery; the 
serious health condition of a child, parent, spouse or domestic 
partner; the birth or adoption of a child; and/or for military 
caregiving and leave purposes. The benefit would be administered 
through a new Office of Paid Family and Medical Leave within the Social 
Security Administration, and payroll contributions would cover both 
insurance benefits and administrative costs.

We have been honored to be a part of the Respect A Caregiver's Time 
(ReACT) coalition (https://respectcaregivers.org/) which represents 
many national and multinational employers as they search for workplace 
solutions for family caregivers. Paid leave is one of the various 
promising proposals to aid working caregivers that came of that 
collaborative process. Private market innovators such as Adobe and 
Deloitte have been successful in supporting an aging workforce and 
providing needed flexibility to those who care. There is still much to 
be done to support family caregivers across the lifespan. We caution 
against programs that require a caregiver to ``borrow'' against their 
future retirement or Social Security income, for the reasons described 
above--caregivers are already facing retirement insecurity due to their 
caregiving role and may not be able to delay their own retirement due 
to a health issue.

A national paid family and medical leave policy would provide a 
necessary step in the path to ensuring financial independence for our 
nation's 43.5 million caregivers. The FAMILY Act would take us in the 
right direction. We are happy to answer any questions or to provide 
research and information for your decision-making process. In addition 
to contacting me directly, my Director of Advocacy, Michael R. Wittke, 
B.S.W., M.P.A., is available to you to provide additional information 
on state and federal family caregiving proposals. You can reach him by 
emailing <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d505456587d5e5c4f58">[email&#160;protected]</a>
giving.org.

Thank you again for your time and the opportunity to submit comments.

Sincerely,

C. Grace Whiting, J.D.
President and CEO
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7d0c5d6d4d2f7d4d6c5d2d0dec1ded9d099d8c5d0">[email&#160;protected]</a>

                                 ______
                                 
            American Association of University Women (AAUW)

                             July 10, 2018

Senator Bill Cassidy                Senator Sherrod Brown
Chairman                            Ranking Member
Subcommittee on Social Security, 
Pensions, and Family Policy         Subcommittee on Social Security, 
                                    Pensions, and Family Policy
U.S. Senate                         U.S. Senate
Committee on Finance                Committee on Finance
Washington, DC 20510                Washington, DC 20510

Dear Chairman Cassidy and Ranking Member Brown,

On behalf of the 170,000 bipartisan members and supporters of the 
American Association of University Women (AAUW), I would like to thank 
you for the opportunity to submit this letter in advance of the 
Subcommittee's hearing, ``Examining the Importance of Paid Family Leave 
for American Working Families.'' We ask that this letter be included in 
the hearing record.

Our current leave system is not meeting the basic health and economic 
needs of workers and their families. Unfortunately, more than 100 
million people, or around 85 percent of workers, do not have paid 
family leave, and around 60 percent of workers lack access to paid 
personal leave through their employers.\1\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics. (September 2017). National 
Compensation Survey: Employee Benefits in the U.S. (Tables 16 and 32). 
www.bls.gov/ncs/ebs/benefits/2017/ebbl0061.pdf.

To meet this critical need, AAUW supports the Family and Medical 
Insurance Leave (FAMILY) Act (S. 337) and urges this Subcommittee take 
up and pass the bill. The FAMILY Act would establish a self-funding 
paid family and medical insurance program. A national paid leave 
program would help to eliminate employees' fears of losing their jobs 
or risking their economic security in order to take necessary time off 
work. Ultimately, this act will benefit workers, their families, 
---------------------------------------------------------------------------
businesses, and our economy.

Access to paid family and medical leave is critical--it helps new 
parents, their children, older family members, and workers themselves 
deal with serious illnesses and injuries or the birth of adoption of 
children. Health outcomes are improved when paid leave is utilized.\2\ 
Some workers do have access to unpaid leave through the Family and 
Medical Leave Act (FMLA), which currently provides eligible workers 
with up to 12 weeks of unpaid job-protected leave for medical and 
parental purposes. However, FMLA is not enough--even when covered, many 
employees cannot afford to take unpaid leave that jeopardizes their 
family's economic security.\3\ Furthermore, many Americans do not 
qualify for FMLA.
---------------------------------------------------------------------------
    \2\ Institute of Medicine. (2008). Retooling for an Aging America: 
Building the Health Care Workforce. www.iom.edu/Reports/2008/Retooling-
for-an-Aging-America-Building-the-Health-Care-Workforce.aspx. Arbaje, 
et al. (2008). ``Postdischarge Environmental and Socioeconomic Factors 
and the Likelihood of Early Hospital Readmission Among Community-
Dwelling Medicare Beneficiaries.'' The Gerontologist, 48(4), 495-504. 
www.ncbi.nlm.nih.gov/pubmed/18728299. Arora, K., and Wolf, D.A. (2017, 
November 3). ``Does Paid Family Leave Reduce Nursing Home Use? The 
California Experience.'' Journal of Policy Analysis and Management, 
37(1), 38-62. https://onlinelibrary.wiley.com/doi/abs/10.1002/
pam.22038. Gomby, D., and Pei, D. (2009). Newborn Family Leave: Effects 
on Children, Parents, and Business. www.packard.org/wp-content/uploads/
2011/06/NFLA_fullreport_final.pdf.
    \3\ AAUW. (2017). AAUW Quick Facts: Paid Leave. www.aauw.org/files/
2017/08/QuickFacts
_PaidLeave-nsa.pdf.

The FAMILY Act would provide workers with up to 12 weeks of partial 
income replacement when they take time off for serious health 
conditions or caregiving purposes. The income replacement would amount 
to 66 percent of an individual's monthly wages, up to a capped amount 
for high-wage earners. The FAMILY Act would cover workers in all 
companies no matter the size. The program would be funded by small 
employee and employer payroll contributions of two tenths of 1 percent 
each or about $1.50 per week for the average worker. It would be 
administered through a new Office of Paid Family and Medical Leave 
within the Social Security Administration. The FAMILY Act's approach 
builds on the success of several state paid family and medical leave 
---------------------------------------------------------------------------
programs.

A federal paid leave program will build stronger families, healthier 
workers, and successful businesses. Paid leave contributes to improved 
newborn and child health by allowing both parents the time they need to 
help with healthcare decisions and responsibilities. For example, paid 
leave make it more likely that new mothers will be able to take the 
amount of time off recommended by doctors, and their children are more 
likely to receive medical check-ups and immunizations.\4\ Paid leave 
allows ill or injured adults time to recover. Paid leave enables people 
to help their loved ones, including older family members with health 
problems, recover from illness and avoid complications and hospital 
readmissions, which reduces health costs.\5\ Lastly, paid leave keeps 
people in their jobs while reducing turnover costs. Companies typically 
pay about one-fifth of an employee's salary to replace that 
employee,\6\ making such unnecessary turnover very costly for 
employers. As just one example, in California, a state that has a 
successful family leave insurance program, workers in low-wage, high-
turnover industries are much more likely to return to their jobs after 
using the state's program.\7\
---------------------------------------------------------------------------
    \4\ Gomby, D., and Pei, D. (2009). Newborn Family Leave: Effects on 
Children, Parents, and Business. www.packard.org/wp-content/uploads/
2011/06/NFLA_fullreport_final.pdf and Berger, L., Hill, J., and 
Waldfogel, J. (2005). ``Maternity Leave, Early Maternal Employment and 
Child Health and Development in the U.S.'' The Economic Journal, 
115(501), F44.
    \5\ Institute of Medicine. (2008). Retooling for an Aging America: 
Building the Health Care Workforce. www.iom.edu/Reports/2008/Retooling-
for-an-Aging-America-Building-the-Health-Care-Workforce.aspx.
    \6\ Boushey, H., and Glynn, S. (2012). ``There Are Significant 
Business Costs to Replacing Employees.'' Center for American Progress. 
www.americanprogress.org/wp-content/uploads/2012/11/CostofTurnover.pdf.
    \7\ Appelbaum, E., and Milkman, R. (2011). Leaves That Pay: 
Employer and Worker Experiences With Paid Family Leave in California. 
www.cepr.net/index.php/publications/reports/leaves-that-pay.

The FAMILY Act is the right next step toward supporting families and 
building successful businesses. The approach of the FAMILY Act is 
affordable, cost-effective, sustainably funded, and does not cut from 
or reduce benefits from other benefits programs on which people rely. 
To that end, we urge this Subcommittee to take up and pass the Family 
---------------------------------------------------------------------------
and Medical Insurance Leave (FAMILY) Act (S. 337).

Cosponsorship and votes associated with this legislation may be scored 
in the AAUW Action Fund Congressional Voting Record for the 115th 
Congress. Please do not hesitate to contact me at 202-785-7720 or Anne 
Hedgepeth, director of federal policy, at 202-785-7724, if you have any 
questions.

Sincerely,

Deborah J. Vagins
Senior Vice President, Public Policy and Research

Cc: Members of Subcommittee on Social Security, Pensions, and Family 
Policy

                                 ______
                                 
      National Committee to Preserve Social Security and Medicare

                      111 K Street, NE, Suite 700

                          Washington, DC 20002

                              202-216-0420

                             www.ncpssm.org

                             July 10, 2018

The Honorable Bill Cassidy, M.D.    The Honorable Sherrod Brown
Chairman                            Ranking Member
U.S. Senate                         United States Senate
Committee on Finance                Committee on Finance
Subcommittee on Social Security, 
Pensions, and Family Policy         Subcommittee on Social Security, 
                                    Pensions, and Family Policy
Washington, DC 20510                Washington, DC 20510

Dear Chairman Cassidy and Ranking Member Brown:

On behalf of the millions of members and supporters of the National 
Committee to Preserve Social Security and Medicare, I am writing to 
express our strong opposition to legislation that would create a new 
parental leave benefit that would be paid for by cutting the future 
Social Security benefits of those who choose to receive this proposed 
new benefit.

As we understand the proposal, which has been developed by the 
Independent Women's Forum (IWF), new parents would be allowed to 
receive up to twelve weeks of paid parental leave by borrowing from the 
eligible parents' future Social Security benefits. Apparently, the 
parental leave program would determine the amount of the leave benefit 
by using the Social Security Disability Insurance (DI) benefit formula. 
Participation would be voluntary, but a consequence of participation 
would be a reduction or delay in participants' future Social Security 
retirement benefits that would offset the costs of the family leave 
benefits they receive.

The National Committee believes that Congress should develop provisions 
that provide financial assistance to parents and other caregivers that 
ease the burden of child or elder care. However, paid caregiving leave 
should not be funded by raiding the Social Security trust funds. We 
offer the following observations:

      Essential Social Security benefits should not be traded away for 
paid family leave. Our Social Security system is a foundation of 
economic security for workers and their families in the event of a 
worker's retirement, disability or death. While we believe that 
expanding access to paid parental leave is important for all workers, 
we do not think that Social Security should be used to pay for these 
benefits.

      Workers should not face the cruel dilemma of future delays or 
reductions in Social Security benefits to pay for family leave benefits 
today. Study after study has shown how difficult it is for workers to 
estimate their financial needs in retirement. Having to choose at an 
early age between paid family leave in the here and now and reductions 
in future retirement benefits presents all parents with a cruel dilemma 
that is unnecessary and unwise.

      Retirement security should be strengthened, not eroded. 
According to the Urban Institute, under the IWF proposal, parents who 
take 12 weeks of paid leave would have to delay their Social Security 
retirement benefits by five to six months, depending on details in the 
legislation. Those receiving paid family leave for 24 weeks would see 
their future Social Security benefits reduced for a total of 10 to 12 
months. For many future retirees, this delay will be a severe financial 
burden, and one that may come as a surprise to those affected by it. It 
will be a burden because Social Security is a major source of income 
for most retirees; it provides over half of total income for most aged 
beneficiaries, and 90 percent or more of income for nearly one in four 
aged beneficiaries and over two in five aged non-married beneficiaries. 
Given the limited nature of other pensions and retirement income, these 
individuals will be ill-equipped to repay the family leave they 
received so many years ago.

      Delays or permanent reductions in Social Security benefits will 
harm seniors. The IWF and similar proposals could be paid for in a 
number of ways. For example, some might propose increasing the 
retirement age for individuals who previously received paid family 
leave (in effect a permanent reduction). Alternatively, costs could be 
recovered by withholding all of a retiree's initial Social Security 
until the paid family leave has been fully repaid. While we understand 
that the funding concept is to fully compensate the Social Security 
trust funds for all benefits paid, the extent of an individual's 
liability isn't entirely clear. For example, would former family leave 
recipients have to cover lost interest incurred by the trust funds? 
Would they be responsible for repaying leave payments made to 
individuals who die before reaching retirement age? Neither the trust 
funds nor retirees should have to pay for these costs.

      The Social Security Administration is already seriously 
underfunded and in no position to undertake a complex new workload. For 
a number of years now Congress has significantly underfunded SSA's 
administrative budget. Massive backlogs have developed in the hearing 
offices and those who request a hearing on their disability benefits 
are required to wait nearly two years, on average, for a decision on 
their claim. Administration of a paid family leave program would be a 
major new responsibility for SSA, one for which they would need 
substantial additional administrative funding. We are uncertain as to 
the likelihood that such funding will be made available, leading to the 
possibility that the agency would have to draw on already-existing 
resources to implement a program of paid family leave.

To be clear, the National Committee supports the concept of paid family 
leave. Ours is one of the few advanced countries in the world that does 
not provide some form of assistance to young families undertaking the 
task of caring for a newborn child. However, we do not think that those 
seeking to establish such a program should look to the Social Security 
program as a means of paying for the benefits or for their 
administration. Since the inception of the program, Americans have 
regarded their contributions to Social Security as sacrosanct and 
available only for Social Security. The National Committee believes it 
should stay that way, and therefore urges you to oppose any legislation 
that relies on Social Security as a means for financing a program of 
paid family leave.

Sincerely,

Max Richtman
President and CEO

cc: The Honorable Orrin Hatch       The Honorable Ron Wyden
   Chairman                         Ranking Member
   U.S. Senate                      U.S. Senate
   Committee on Finance             Committee on Finance
   Washington, DC 20510             Washington, DC 20510

                                 ______
                                 
                         Social Security Works

                           1440 G Street, NW

                          Washington, DC 20005

                             July 10, 2018

The Honorable Bill Cassidy          The Honorable Sherrod Brown
Chair                               Ranking Member
Subcommittee on Social Security, 
Pensions, and Family Policy         Subcommittee on Social Security, 
                                    Pensions, and Family Policy
U.S. Senate                         U.S. Senate
Committee on Finance                Committee on Finance
Washington, DC 20510                Washington, DC 20510

Dear Chairman Cassidy and Ranking Member Brown,

While Social Security Works appreciates that your subcommittee is 
holding hearings on the crucially important issue of paid family and 
medical leave, we strongly oppose any proposals that cut Social 
Security.

Americans are overwhelmingly supportive of paid leave and Social 
Security. As the wealthiest nation in the world at the wealthiest 
moment in its history, we can afford both. Specifically, Congress 
should add paid family and medical leave as a covered benefit under 
Social Security, as part of legislation that expands Social Security. 
It should reject proposals that seek to force Americans to make the 
unconscionable choice of whether to be economically less secure as 
young adults planning a family or in old age.

Our nation is facing a retirement income crisis caused by the decline 
of traditional pensions, the inadequacy of 401(k)s, decades of rising 
inequality and stagnating wages. It is also facing rising income and 
wealth inequality. Since 1979, the before-tax incomes of the top 1 
percent of America's households have increased more than four times 
faster than the incomes of the bottom 20 percent. The middle class is 
disappearing.

Young people are also facing an economic crisis. They are burdened by 
immoral amounts of student debt. The nation's fertility rate is 
dropping, apparently at least partly because of the cost of bearing and 
rearing children.

To address all of these problems, we should increase Social Security's 
modest benefits and add paid family and medical leave as an additional 
benefit--a universal benefit paid for by requiring the wealthiest among 
us to contribute their fair share. Policymakers who suggest forcing 
workers to give up part of their retirement benefits if they take paid 
leave are hurting families, increasing income inequality, and 
exacerbating the nation's looming retirement income crisis.

Social Security was created in 1935 to replace wages lost as a result 
of old age, so that Americans would have guaranteed income in 
retirement. In the decades following, Social Security was expanded to 
protect workers from other events that lead to loss of wages--long-term 
disability and the death of a family breadwinner.

Wages are also lost when people take time out of the paid workforce to 
have children, as well as to care for themselves and other family 
members when they are sick. While Social Security successfully covers 
long-term income losses, our Social Security system, unlike those of 
many other countries, lacks wage replacement for short-term income 
losses. It's long past time for us to join the rest of the 
industrialized world in having a national program of paid family and 
medical leave.

Proposals like the Independent Women's Forum (IWF) plan, however, are 
cynical and harmful to American families. The IWF proposal would allow 
new parents to take up to twelve weeks of leave with partial wage 
replacement--but only in return for a reduction in their Social 
Security benefits when it comes time to retire. This ``deal'' purports 
to add paid family leave to Social Security but in reality, it is 
simply a benefit cut. The last thing American families need is to be 
forced to cut their future benefits to pay for pressing needs like paid 
leave. Nor is there any reason to force them to make that choice. To 
repeat, we are the wealthiest country in the history of the world. 
Protecting Social Security and expanding it to include a real paid 
family and medical leave program is a question of political willpower 
and values, not affordability.

While the IWF claims they want to help women, in reality women's 
retirement security would take the biggest hit from this plan because 
women provide the substantial majority of caregiving and they will 
disproportionately borrow against their own Social Security benefits. 
It is important to note that women already have extremely low Social 
Security benefits, on average, both in absolute terms and in comparison 
to men's benefits. A woman's average monthly Social Security benefit is 
already 20 percent lower than a man's. They depend on Social Security 
more because they, on average, have lower wages, tend to work in jobs 
without supplemental retirement income plans and live longer than men. 
Indeed, two-thirds of those aged 65 and older who are living in poverty 
are women. That percentage is even higher at older ages.

In addition to forcing new parents, who need parental leave, to cut 
their own future retirement benefits, the IWF plan is also very 
narrowly targeted to only cover parental leave. It does nothing for 
those who need medical leave either for themselves or to care for a 
loved one.

American families should have paid family leave and a secure 
retirement. Every member of Congress should reject the IWF plan and any 
other plan that tries to disguise a Social Security benefit cut in the 
sheep's clothing of another deserving proposal, like paid family leave 
or student debt cancellation.

We look forward to your support in this matter. We offer our assistance 
to help create true paid family and medical leave in the United States 
as part of an expanded Social Security.

Sincerely,

Nancy J. Altman
President, Social Security Works

                                 ______
                                 
                           1,000 Days, et al.
July 11, 2018

Dear Member of Congress,

On behalf of the undersigned organizations and the tens of millions of 
working families we represent, we urge you to support the Family And 
Medical Insurance Leave (FAMILY) Act (S. 337/H.R. 947). The FAMILY Act 
would create a national family and medical leave insurance program to 
help ensure that people who work can take the time they need to address 
serious health and caregiving needs. It would help support working 
families' economic security, promote gender equity in workplaces, 
create a more level playing field for businesses of all sizes and 
strengthen our economy. The FAMILY Act is the national paid family and 
medical leave plan voters want and our country needs.

The benefits of paid family and medical leave are well documented, yet 
the vast majority of working people in the United States do not have 
access to this basic protection. More than 100 million people--or 85 
percent of workers--do not have paid family leave through their jobs, 
and more than 60 percent lack access to paid personal medical leave 
through their employer.\1\ Access rates for workers in lower-wage jobs 
are even lower, and most recent private sector advances are 
disproportionately concentrated in higher-skill industries and among 
higher-paid employees, creating even greater disparities between lower- 
and higher-paid workers.\2\ Even unpaid leave through the Family and 
Medical Leave Act (FMLA) is inaccessible to nearly two-thirds of 
working people, either because of eligibility restrictions or because 
they simply cannot afford to take unpaid leave.\3\ This means that when 
serious personal or family health needs inevitably arise, people face 
impossible choices between their families' well-being, their financial 
security and their jobs.
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics. (2017, September). National 
Compensation Survey: Employee Benefits in the United States, March 2017 
(Tables 16 and 32). Retrieved 19 June 2018, from https://www.bls.gov/
ncs/ebs/benefits/2017/ebbl0061.pdf.
    \2\ Ibid. See also National Partnership for Women and Families. 
(2017, September). Access to Paid Leave Remains `Dismal,' New Bureau of 
Labor Statistics Data Show, Despite Public Sector Progress. Retrieved 
21 June 2018, from http://www.nationalpartnership.org/news-room/press-
releases/access-to-paid-leave-remains-dismal-new-bureau-of-labor-
statistics-data-show-despite-public-sector-progress.html.
    \3\ diversitydatakids.org. (2015). Working Adults Who Are Eligible 
For and Can Afford FMLA Unpaid Leave (Share). Brandeis University, The 
Heller School, Institute for Child, Youth, and Family Policy 
Publication. Retrieved 19 June 2018, from http://
www.diversitydatakids.org/data/ranking/529/working-adults-who-are-
eligible-for-and-can-afford-fmla-unpaid-leaveshare/
#loct=2&cat=44,25&tf=17.

The FAMILY Act would create a strong, inclusive national paid family 
and medical leave insurance program and set a nationwide paid leave 
baseline. Employees would earn two-thirds of their wages, up to a cap, 
for a limited period of time (up to 60 workdays, or 12 workweeks in a 
year) to address their own serious health issue, including pregnancy or 
childbirth; to deal with the serious health issue of a family member; 
to care for a new child; and for certain military caregiving and leave 
purposes. Employees, employers and self-employed workers would fund 
both the benefits and the administrative costs of the program by 
contributing a small amount in each pay period to a self-sustaining 
fund, administered through a new Office of Paid Family and Medical 
Leave. Eligibility rules would allow younger, part-time, low-wage and 
contingent workers to contribute and benefit, regardless of their 
---------------------------------------------------------------------------
employer's size or their length of time on the job.

The FAMILY Act builds on successful state programs. California has had 
a paid family and medical leave insurance program in place since 2004, 
New Jersey since 2009, Rhode Island since 2014, and New York since 
2018. Strong new programs will take effect in Washington state and the 
District of Columbia in 2020 and Massachusetts in 2021. Evidence from 
the existing state programs shows these programs' value and 
affordability; all are financially sound and self-sustaining, and each 
state that has paid leave in place has or is exploring ways to make 
them even more accessible to people who need family leave. Analyses of 
California's law show that both employers and employees benefit from 
the program.\4\ In New Jersey, the program's costs have been lower than 
expected and public attitudes toward the program are favorable.\5\ 
Early research on Rhode Island's program found positive effects for new 
parents, and a majority of small- and medium-sized employers were in 
favor of the program one year after it took effect.\6\
---------------------------------------------------------------------------
    \4\ Appelbaum, E., and Milkman, R. (2013). Unfinished Business: 
Paid Family Leave in California and the Future of U.S. Work-Family 
Policy. Ithaca, NY: Cornell University Press.
    \5\ Press of Atlantic City. (2010, November 15). Paid Family Leave/
Working Well. Retrieved 19 June 2018, from http://
www.pressofatlanticcity.com/opinion/editorials/article_0d6ba980-3a1d-
56f7-9101-258999b5d9d0.html; See also Houser, L., and White, K. (2012, 
October). Awareness of New Jersey's Family Leave Insurance Program Is 
Low, Even as Public Support Remains High and Need Persists. Rutgers 
University, The State University of New Jersey Center for Women and 
Work Publication. Retrieved 19 June 2018, from http://njtimetocare.com/
sites/default/files/03_New%20Jersey%20Family%20Leave%20Insurance-
%20A%20CWW%20Issue%20Brief.
pdf.
    \6\ National Partnership for Women and Families. (2015, February). 
First Impressions: Comparing State Paid Family Leave Programs in Their 
First Years. Retrieved 19 June 2018, from http://
www.nationalpartnership.org/research-library/work-family/paid-leave/
first-impressions-comparing-state-paid-family-leave-programs-in-their-
first-years.pdf; Bartel, A., Rossin-Slater, M., Ruhm, C., and 
Waldfogel, J. (2016, January). Assessing Rhode Island's Temporary 
Caregiver Insurance Act: Insights from a Survey of Employers. U.S. 
Department of Labor Publication. Retrieved 19 June 2018, from https://
www.dol.gov/asp/evaluation/completed-studies/Assessing
RhodeIslandTemporaryCaregiverInsuranceAct_InsightsFromSurveyOfEmployers.
pdf.

The FAMILY Act would address the full range of care needs people face, 
including the growing need to provide elder care. Changing demographics 
mean more adults will need elder care and the number of potential 
family caregivers is shrinking: For every person age 80 and older, the 
number of potential family caregivers will fall from about seven in 
2010 to four by 2030, and then to less than three by 2050.\7\ It is 
also important to note that more than 75 percent of people who take 
family or medical leave each year do so for reasons other than 
maternity or paternity care. They take leave to care for family members 
with serious illnesses, injuries or disabilities or for their own 
serious health issue.\8\ The majority of parents, adult children and 
spouses who provide care for ill family members or children with 
disabilities also have paying jobs, and most work more than 30 hours 
per week while also managing their caregiving responsibilities.\9\ The 
majority of military caregivers--and more than three-quarters of 
caregivers for post-9/11 wounded warriors--are also in the labor 
force.\10\
---------------------------------------------------------------------------
    \7\ Redfoot, D., Feinberg, L., and Houser, A. (2013, August). The 
Aging of the Baby Boom and the Growing Care Gap: A Look at Future 
Declines in the Availability of Family Caregivers. AARP Public Policy 
Institute Publication. Retrieved 19 June 2018, from http://
www.aarp.org/content/dam/aarp/research/public_policy_institute/Itc/
2013/baby-boom-and-the-growing-care-gap-insight-AARP-ppi-Itc.pdf.
    \8\ Klerman, J.A., Daley, K., and Pozniak, A. (2012, September). 
Family and Medical Leave in 2012: Technical Report (Exhibit 7.2.8, p. 
142). Abt Associates Publication. Retrieved 19 June 2018, from https://
www.dol.gov/asp/evaluation/fmla/fmla-2012-technical-report.pdf.
    \9\ National Alliance for Caregiving. (2015, November). Caregiving 
in the U.S. National Alliance for Caregiving and AARP Public Policy 
Institute Publication. Retrieved 19 June 2018, from http://
www.caregiving.org/wp-content/uploads/2015/05/
2015_CaregivingintheUS_Final-Report-June-4_WEB.pdf.
    \10\ Ramchand, R., Tanielian, T., Fisher, M.P., Vaughan, C.A., 
Trail, T.E., Batka, C., Voorhies, P., Robbins, M.W., Robinson, E., and 
Ghosh-Dastidar, B. (2014). Hidden Heroes: America's Military Caregivers 
(Figure 3.8). RAND Corporation Publication. Retrieved 19 June 2018, 
from http://www.rand.org/health/projects/military-caregivers.html.

The FAMILY Act would support improved health outcomes and could lower 
health care costs. New mothers who take paid leave are more likely to 
take the amount of time away from work recommended by doctors,\11\ and 
their children are more likely to be breastfed, receive medical check-
ups and get critical immunizations.\12\ When children are seriously 
ill, the presence of a parent shortens a child's hospital stay by 31 
percent;\13\ active parental involvement in a child's hospital care may 
head off future health problems, especially for children with chronic 
health conditions,\14\ and thus reduce costs. Paid leave also lets 
people help older family members recover from serious illnesses, 
fulfill treatment plans, and avoid complications and hospital 
readmissions.\15\ Early research has found that California's paid leave 
program reduced nursing home utilization.\16\ And, for the millions of 
families in communities that are struggling with opioid and other 
substance use disorders, paid leave supports family caregivers, who 
play a key role in care and recovery by helping loved ones with health 
care arrangements and treatment.\17\
---------------------------------------------------------------------------
    \11\ Gomby, D., and Pei, D. (2009). Newborn Family Leave: Effects 
on Children, Parents, and Business. David and Lucile Packard Foundation 
Publication. Retrieved 19 June 2018, from http://paidfamilyleave.org/
pdf/NebwornFamilyLeave.pdf.
    \12\ Heymann, J., Sprague, A.R., Nandi, A., et al. (2017). ``Paid 
parental leave and family wellbeing in the sustainable development 
era.'' Public Health Reviews, 38(21). Retrieved 19 June 2018, from 
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC5810022/pdf/
40985_2017_Article
_67.pdf.
    \13\ Heymann. J. (2001, October 15). The Widening Gap: Why 
America's Working Families Are in Jeopardy--and What Can Be Done About 
It. New York, NY: Basic Books.
    \14\ Heymann, J., and Earle, A. (2010). Raising the global floor: 
dismantling the myth that we can't afford good working conditions for 
everyone. Stanford, CA.: Stanford Politics and Policy.
    \15\ See e.g., Institute of Medicine. (2008, April 11). Retooling 
for an Aging America: Building the Health Care Workforce, 254. 
Retrieved 19 June 2018, from http://www.nationalacademies.
org/hmd/reports/2008/retooling-for-an-aging-america-building-the-
health-care-workforce.aspx; Arbaje, et al. (2008). ``Postdischarge 
Environmental and Socioeconomic Factors and the Likelihood of Early 
Hospital Readmission Among Community-Dwelling Medicare Beneficiaries.'' 
The Gerontologist, 48(4), 495-504. Summary retrieved 19 June 2018, from 
https://www.ncbi.nlm.
nih.gov/pubmed/18728299.
    \16\ Arora, K., and Wolf, D.A. (2017, November 3). ``Does Paid 
Family Leave Reduce Nursing Home Use? The California Experience.'' 
Journal of Policy Analysis and Management, 37(1), 38-62. Retrieved 19 
June 2018, from https://onlinelibrary.wiley.com/doi/abs/10.1002/
pam.22038.
    \17\ Biegel, D.E., Katz-Saltzman, S., Meeks, D., Brown, S., and 
Tracy, E.M. (2010). ``Predictors of Depressive Symptomatology in Family 
Caregivers of Women With Substance Use Disorders or Co-Occurring 
Substance Use and Mental Disorders.'' Journal of Family Social Work, 
13(2), 25-44.

The FAMILY Act also would strengthen large and small businesses and 
support entrepreneurs. Paid leave reduces turnover costs--typically 
about one-fifth of an employee's salary \18\--and increases employee 
loyalty. In California, nine out of 10 businesses surveyed reported 
positive effects or no impacts on profitability and productivity after 
the state's paid leave program went into effect.\19\ Small businesses 
reported even more positive or neutral outcomes than larger 
businesses.\20\ Small business owners from across the nation expect 
that the FAMILY Act model would help level the playing field with large 
corporations, improve worker retention, productivity and morale, and 
help protect their economic security if an accident or medical 
emergency occurs.\21\ This is part of the reason that 70 percent of 
small businesses surveyed nationwide support the FAMILY Act approach of 
shared payroll deductions.\22\ By including self-employed people, the 
FAMILY Act would also help entrepreneurs balance the risks of starting 
a new business with the need to ensure their families' health and 
security.
---------------------------------------------------------------------------
    \18\ Boushey, H., and Glynn, S. (2012, November 16). There Are 
Significant Business Costs to Replacing Employees. Center for American 
Progress Publication. Retrieved 19 June 2018, from http://
www.americanprogress.org/wp-content/uploads/2012/11/CostofTurnover.pdf.
    \19\ See note 4.
    \20\ Ibid.
    \21\ Main Street Alliance. (2017). National Paid Family and Medical 
Leave: A Proposal for Small Business Success. Retrieved 19 June 2018, 
from https://d3n8a8pro7vhmx.cloudfront.net/mainstreetalliance/pages/10/
attachments/original/1486411533/PFML_2017_Report.pdf?14864
11533.
    \22\ Lake Research Partners. (2017, February). Polling commissioned 
by Small Business Majority and Center for American Progress. Retrieved 
19 June 2018, from http://www.smallbusiness
majority.org/sites/default/files/research-reports/033017-paid-leave-
poll.pdf.

National paid family and medical leave has broad support from voters 
across party lines. Supermajorities of voters across party lines 
support a comprehensive, 12-week national paid family and medical leave 
law, including 66 percent of Republicans, 77 percent of independents 
and 93 percent of Democrats. Nearly two-thirds of voters (64 percent) 
say they would ``strongly favor'' such a law.\23\ In focus groups 
conducted with conservative and independent voters in September 2017, 
voters preferred the FAMILY Act's ``personal and family security fund'' 
model over an employer tax credit, tax-free savings account or a 
limited parents-only leave program.\24\ Additional qualitative research 
conducted around the same time shows voters prefer a national plan that 
covers all family relationships and includes employment 
protections.\25\
---------------------------------------------------------------------------
    \23\ Lake Research Partners and the Tarrance Group. (2016, 
November). Polling commissioned by the National Partnership for Women 
and Families. Retrieved 19 June 2018, from http://
www.nationalpartnership.org/research-library/work-family/key-findings-
2016-election-eve-election-night-survey.pdf.
    \24\ Perry Undem Research and Bellwether Consulting. (2018, 
January). Highlights From Focus Groups With Conservative Voters on Paid 
Family and Medical Leave (on file with the National Partnership for 
Women and Families).
    \25\ Lake Research Partners and MomsRising.org (2018, February). 
Interested Parties Memo on Key Findings From Recent Qualitative 
Research. Retrieved 19 June 2018, from https://s3.amazonaws.com/
s3.momsrising.org/images/MomsRising__LPR_Interested_Parties_memo_on_
paid_leave.pdf.

It is well past time for the United States to adopt a nationwide paid 
family and medical leave standard--but policy details matter 
tremendously. Disparities in people's access to paid leave, changing 
demographics and the realities working families face today require that 
any national plan be comprehensive of working people's needs as 
reflected in the FMLA, inclusive of all working people across the 
United States and provide a meaningful duration of leave and wage 
replacement rate to make taking leave financially possible for all 
working people. Responsible governance requires that any plan be 
affordable, cost-effective and sustainably funded with new revenue--not 
funded by cutting or reducing benefits from programs people rely on. 
---------------------------------------------------------------------------
Any plan that fails to meet these tests is unacceptable.

The FAMILY Act is the only national paid family and medical leave 
proposal that reflects what most people in the United States need. We 
urge you to support and co-sponsor this essential legislation today and 
to reject inadequate proposals that would fail to meet the needs of the 
nation's workforce, families or businesses--and that would do more harm 
than good.

Sincerely,

National Organizations

1,000 Days
9to5, National Association of Working Women
A Better Balance
American Academy of Nursing
American Association of People with Disabilities
American Association of University Women (AAUW)
American Civil Liberties Union
American Federation of Teachers, AFL-CIO
American Medical Student Association
American Medical Women's Association
American Psychological Association
American Public Health Association
American Society on Aging
American Sustainable Business Council
A. Philip Randolph Institute
Association of Flight Attendants--CWA
Association of Reproductive Health Professionals (ARHP)
Association of University Centers on Disabilities
Association of Women's Health, Obstetric, and Neonatal Nurses
Autistic Self Advocacy Network
Bend the Arc Jewish Action
Black Women's Health Imperative
Black Women's Roundtable
Caregiver Action Network
Catalyst
Center for American Progress Action Fund
Center for Community Change Action
Center for Popular Democracy Action
CLASP
Coalition on Human Needs
Communications Workers of America (CWA)
Congregation of Our Lady of Charity of the Good Shepherd, U.S. 
Provinces
Demos
Ecumenical Poverty Initiative
Every Child Matters
Faith in Public Life
Family Equality Council
Family Values @ Work
Family Voices
First Focus Campaign for Children
The Gerontological Society of America
Hadassah, The Women's Zionist Organization of America, Inc.
Hispanic Federation
Human Rights Watch
Interfaith Worker Justice
Jewish Women International
Jobs With Justice
The Leadership Conference on Civil and Human Rights
Main Street Alliance
Mi Familia Vota
Mom2Mom Global
MomsRising
NAACP
NARAL Pro-Choice America
National Alliance for Caregiving
National Asian Pacific American Women's Forum (NAPAWF)
National Association for Rural Mental Health
National Association of County Behavioral Health and Developmental 
    Disability Directors
National Association of Social Workers
National Center for Lesbian Rights
National Center for Transgender Equality
National Consumer Voice for Quality Long-Term Care
National Council of Jewish Women
National Education Association
National Employment Law Project
National Employment Lawyers Association
National Health Law Program
National Institute for Reproductive Health (NIRH)
National LGBTQ Task Force Action Fund
National Network to End Domestic Violence
National Organization for Women
National Partnership for Women and Families
National Respite Coalition
National Women's Health Network
National Women's Law Center
NETWORK Lobby for Catholic Social Justice
Organization United for Respect at Walmart
Oxfam America
ParentsTogether
Partnership for America's Children
People for the American Way
People's Action Institute
Physicians for Reproductive Health
PL+US: Paid Leave for the U.S.
Poligon Education Fund
Promundo-U.S.
Public Advocacy for Kids
RESULTS
ROC United
SEIU
Small Business Majority
TASH
U.S. Breastfeeding Committee
U.S. Women's Chamber of Commerce
UltraViolet
Union for Reform Judaism
United Food and Commercial Workers International Union
United State of Women
United Steelworkers
URGE: Unite for Reproductive and Gender Equity
Voices for Progress
Women of Reform Judaism
The Women's Caucus of the American Psychiatric Association
Women's Media Center
Workplace Fairness
Young Invincibles
YWCA USA
ZERO TO THREE

Alabama

AIDS Alabama

California

2020 Mom
Asset Building Strategies
Business and Professional Women
BreastfeedLA
CA Work and Family Coalition
California Breastfeeding Coalition
Center for WorkLife Law, University of California, Hastings College of 
Law
ChangeLab Solutions
Child Care Law Center
EMC Strategies
Equal Rights Advocates
Family Voices of California
Food Chain Workers Alliance
Futures Without Violence
Legal Aid at Work
Maternal Mental Health NOW
National Council of Jewish Women, Los Angeles Section
YWCA Berkeley/Oakland
YWCA San Francisco and Marin

Colorado

13th Moon Midwifery
9to5 Colorado
All Families Deserve a Chance Coalition
Colorado Coalition for the Homeless
Colorado Consumer Health Initiative
Colorado Fiscal Institute
Colorado Lactation Consultant Association
Colorado Organization for Latina Opportunity and Reproductive Rights 
(COLOR)
Movement Advancement Project
NARAL Pro-Choice Colorado
National Coalition Against Domestic Violence
National Council of Jewish Women, CO. State Policy Advocate, Advocacy 
    Chair, Advocacy Committee
SynerGenius Telepresence
United for a New Economy
Women's Lobby of Colorado

Connecticut

All Our Kin
Connecticut Women's Education and Legal Fund (CWEALF)
Connecticut Working Families Organization
Hispanic Federation--CT

Delaware

Breastfeeding Coalition of Delaware
Delaware Ecumenical Council on Children and Families

District of Columbia

Herd on the Hill
Jacobs Institute of Women's Health
Jews United for Justice

Florida

Advocacy Chair National Council of Jewish Women Palm Beach Section
Central Florida Jobs With Justice
FL Alliance of Community Development Corporations, Inc.
Hispanic Federation--FL
National Council of Jewish Women Florida State Policy Advocate Advocacy 
Chair
National Council of Jewish Women, Florida
National Council of Jewish Women, Valencia Shores Section
Organize Florida

Hawaii

Hawaii Children's Action Network
Healthy Mothers Healthy Babies Coalition of Hawaii
YWCA O'ahu

Illinois

AIDS Foundation of Chicago
EverThrive Illinois
HealthConnect One
National Council of Jewish Women, South Cook Section, State Policy 
Advocate
NCJW Illinois, State Policy Advocate
Oak Park River Forest Food Pantry
Sargent Shriver National Center on Poverty Law
Women Employed
YWCA of the University of Illinois

Indiana

Indiana Coalition Against Domestic Violence
Indiana Institute for Working Families

Iowa

Leadership Team of the Sisters of Charity, BVM

Kansas

Kansas Breastfeeding Coalition, Inc.

Kentucky

Kentucky Equal Justice Center
Lactation Improvement Network of Kentucky

Louisiana

National Council of Jewish Women, Greater New Orleans Section

Maine

Maine Women's Lobby

Maryland

Jews United for Justice
Job Opportunities Task Force
Lactation Education Resources
Leadership for Education Equity
Maryland Family Network
NARAL Pro-Choice Maryland
National Advocacy Center of the Sisters of the Good Shepherd
Public Justice Center
Racial and Ethnic Health Disparities Coalition

Massachusetts

Equal Exchange
Jewish Alliance for Law and Social Action
Massachusetts Communities Action Network

Michigan

Sugar Law Center for Economic and Social Justice

Minnesota

Children's Defense Fund--Minnesota
ISAIAH
Minnesota Association of Professional Employees
TakeAction Minnesota

Missouri

NARAL Pro-Choice Missouri

Nebraska

Sisters of Mercy West Midwest Justice Team

Nevada

Advanced Breastfeeding Support of Las Vegas
Make It Work Nevada

New Hampshire

Campaign for a Family Friendly Economy

New Jersey

Anti-Poverty Network of New Jersey
New Jersey Citizen Action
NJ Breastfeeding Coalition, Inc.
NJ Time to Care Coalition
SPAN Parent Advocacy Network
Union of Rutgers Administrators, AFT Local 1766

New Mexico

Southwest Women's Law Center

New York

AAUW of Rockland County
Arrangements Abroad Inc.
Center for Children's Initiatives
Center for Frontline Retail
The Children's Agenda
Citizen Action of New York
Early Care and Learning Council
Fearless Talent Development Inc.
Gender Equality Law Center
Greater New York Labor-Religion Coalition
Hope's Door
Indivisible Westchester
Labor-Religion Coalition of NYS
League of Women Voters of St. Lawrence County, NY
Legal Momentum
Masten Block Club Coalition and the Board of Block Clubs of Buffalo and 
    Erie County
National Federation of Business and Professional Women's Clubs-NYC 
    (NFBPWC-NYC)
New York Paid Leave Coalition
New York Union Child Care Coalition
PowHer New York
Rios de Agua Viva United Church of Christ
Westchester National Organization for Women
Women's Resarch and Education Fund
The YMCA of Greater Rochester
YWCA of Binghamton and Broome County

North Carolina

Action NC
NARAL Pro-Choice North Carolina
National Coalition of 100 Black Women Inc.--Queen City Metropolitan 
Chapter
NC AFL-CIO
NC Alliance for Retired Americans
NC Child
North Carolina Council of Churches
North Carolina Justice Center
North Carolina Women United
Women AdvaNCe
Working America North Carolina
YWCA Asheville

North Dakota

Family Voices of ND
North Dakota Women's Network

Ohio

Appalachian Breastfeeding Network
Innovation Ohio
NARAL Pro-Choice Ohio
National Coalition of 100 Black Women Central Ohio
National Council of Jewish Women, Ohio State Policy Advocate
Ohio Domestic Violence Network
The Ohio Women's Public Policy Network

Oregon

Asian Pacific American Network of Oregon (APANO)
Cascade AIDS Project
Center for Parental Leave Leadership
Children First for Oregon
Family Forward Oregon
NARAL Pro-Choice Oregon

Pennsylvania

Maternity Care Coalition
One PA
PathWays PA
Southwest PA National Organization for Women
Women and Girls Foundation of Southwest Pennsylvania
Women's Law Project
YWCA Titusville

Rhode Island

Rhode Island KIDS COUNT

South Dakota

Brookings Supports Breastfeeding

Tennessee

Black Children's Institute of Tennessee
State Policy Advocate National Council of Jewish Women--Tennessee

Vermont

Hunger Free Vermont
Main Street Alliance of VT
Peace and Justice Center
Vermont Family Network
Voices for Vermont's Children

Virginia

Division for Early Childhood of the Council for Exceptional Children 
(DEC)
NARAL Pro-Choice Virginia
National Military Family Association
Virginia Organizing

Washington

Economic Opportunities Institute
Legal Voice
PAVE Family to Family Health Information Center
YWCA Clark County

West Virginia

WV Citizen Action Group

Wisconsin

9to5 Wisconsin
Keep Families First Coalition
Marathon County Democratic Party
Mid-Day Women's Alliance of Appleton, WI
Unitarian Universalist Women's Federation
Wisconsin Alliance for Women's Health
Wisconsin Breastfeeding Coalition
Wisconsin Early Childhood Association

                                 ______
                                 
                Paid Leave for the United States (PL+US)

                            P.O. Box 411075

                        San Francisco, CA 94141

                             July 11, 2018

Chairman Cassidy and Ranking Member Brown, as you examine the 
importance of paid family leave for American working families, we urge 
you to take into consideration the voices of workers and employers.

Below are quotes from some of the statements PL+US has collected from 
across the country. Full statements will be shared with Members of the 
Committee individually.

                                NATIONAL

                 Listed alphabetically by organization

Brian Rosenberg--Founder Gays With Kids

As a gay dad, I didn't get any paid leave when my kids were born. So 
after I used all my vacation, I worked from home, holding our baby 
while I worked, grateful my colleagues excused the screaming infant in 
the background. It was hard, but it would have been awful not to be 
there at all. Our country and our families are changing, and as the 
founder of Gays With Kids, the world's leading community for gay dads 
and dads-to-be, I know this more than most. We gay dads are responsible 
not only for creating our families, but for raising our kids, too. And 
many of us spend our entire savings, or even have to take out loans, to 
create our families. Without paid family leave, these dads find it 
impossible to take unpaid leave.

Andy Katz-Mayfield--CEO of Harry's

I'm neither a politician nor an expert on social security. But I am a 
dad. Personally, I feel incredibly lucky to have had the resources, 
infrastructure, and flexibility to have had the opportunity to spend 
time with my family after my daughter was born. Moreover, as the 
founder and CEO of Harry's, I'm in a unique position to ensure that all 
parents on our team have access to parental leave. I'm proud that our 
policy offers 16 paid weeks for all new parents--mothers, fathers, 
adoptive parents, and birthing parents--because spending time with a 
newborn shouldn't have to be a privilege or a financial burden.

Jennifer Y. Hyman--CEO and Co-Founder of Rent the Runway

As the CEO and Co-Founder of Rent the Runway, I equalized benefits for 
all 1,300 hourly and salaried employees across my company several 
months ago. While it is important for business leaders to create social 
change, it is incumbent upon our government to ensure that every worker 
across the U.S. is given adequate paid leave to care for their family. 
. . . History has shown that we cannot rely on business leaders alone 
on the issue of paid leave; lack of government policy means that most 
American employers do not grant any, enough or equal paid leave to all 
employees. . . . To deny America's workers time to celebrate the birth 
of a newborn, to grieve the death of a loved one or to care for a sick 
family member is to rob them of their humanity. We already distinguish 
between one's value to a company's bottom line via compensation; 
however, one's value as a human being is equal. Lack of paid parental 
leave is a widespread business practice, but that precedent does not 
make it right--it is time to change paid leave legislation to provide 
every American with the humanity they deserve.

John Foraker--CEO of OFARM

I am a father of four and CEO of Once Upon A Farm (OFARM) . . . one of 
our core values at OFARM is to fight for and support efforts to drive 
positive social change and food justice for the benefit of parents, 
kids and families. We believe Paid Family Leave (PFL) is an issue with 
clear benefits to society that are worth fighting for. We strongly 
support the implementation of comprehensive national PFL legislation 
and are hopeful elected leaders will see the significant positive 
benefits to our society and economy from implementation of such policy.

At OFARM, we are doing our part. . . . We have 35 people in our company 
and 15 kids ages 6 and under. As we grow, there will be many more OFARM 
babies in the coming years and we know that our success over the long 
term will depend on the quality, happiness, and productivity of our 
employees so we want to make the transition into parenthood easier for 
our employees. . . . The U.S. can do better, and we are encouraged 
there's potential movement in Washington to address this important 
societal issue. We stand ready to help in any way we can.

Pat Miguel Tomaino--Director of Socially Responsible Investing Zevin 
Asset Management, LLC

Zevin Asset Management wishes to encourage the efforts of this 
subcommittee on paid family leave and to underscore the importance of 
improving paid family leave policy--not only for workers, but for the 
companies and investors which rely on their long-term health and human 
capital. As a testament to the investment community's keen interest in 
improving paid family leave policy, I refer the subcommittee to [an] 
investor statement on paid family leave published last month. Please 
review the statement in its entirety. Very clearly, investors are 
seeking greater equality, adequacy and accessibility in companies' paid 
family leave policies. . . . [S]uitable paid family leave positions 
workers and companies to seize long-term opportunities and guard 
against human capital risk. However, more support from government is 
needed. Federal policy certainty and targeted resources would promote 
the long-term interests of U.S. employers. [An investor statement 
endorsed by 58 investment companies and asset owners with assets 
totaling $169 billion is available at http://www.zevin.com/documents/
familyleave.pdf.]

                                 STATE

             Listed alphabetically by state then last name

Marie Morgan--Birmingham, Alabama

Studies show that it's advantageous for the child's growth and 
development as well as maternal health and recovery and paternal 
bonding. Paid family leave really addresses the health of the family as 
a whole which obviously positively impacts individuals but also lowers 
healthcare costs and increases long-term productivity.

Tasha Porcello--Anchorage, Alaska

Forcing new parents to choose between their income and/or jobs and 
their family is bad for families, employers and the country. Parents 
who adopt children need time. Adult children who are caregivers for 
elderly/disabled parents need time without fear of losing their jobs. 
Employees who are not torn between work duties and families are better 
more productive employees. Good for businesses as well.

Brenda Hall Martin--North Pole, Alaska

As a teacher, I always had family paid leave and assumed everyone else 
did, too! I used it when I had my two children AND when my father was 
dying of cancer. Life is stressful and challenging enough without 
having to worry about loss wages when dealing with emergencies. Please 
help. Thank you. This is long overdue!

Karen Schairer--Sedona, Arizona

If pro-lifers are really interested in infant well-being, then a mother 
should have enough money to care for her child, and enough time to give 
it the love it needs. Anything less is the worst kind of hypocrisy.

Sandy Whitley--Mesa, Arizona

I am a nurse and I see almost everyday the stress and strain of loved 
ones not being present to care for and comfort their loved one in a 
hospital bed. It is traumatic for everyone involved. It is the same 
always--I cannot afford to take time off work.

Barbara Wood--Prescott, Arizona

The foundation of a good family is to allow individuals to have time 
with their family without the fear of losing their jobs.

Faebyan Whittle--Fayetteville, Arkansas

Paid family leave matters because it gives parents and children a 
strong foundation-our human history is based on our relationships to 
our family. Its about time to normalize the importance of family in the 
workplace. Patagonia is a company I respect for giving both parents 
paid leave. Its about time to see both global and small businesses do 
the same.

Ryan Cervantes--Los Angeles, California

I am a gay man, and while I am not a father now, I hope to be someday. 
When I was younger I worked as a nanny and loved the day-to-day work of 
caring for young children. I'm not alone, studies show that the 
majority of Millennial men consider parenthood as central to their 
identity, are doing more childcare than ever before, and the rates of 
stay-at-home fathers are climbing. When I am a father, I want to have 
the same access to paid parental leave as birthing mothers, as well as 
time for family caregiving. When men are able and encouraged to take 
paid family leave, it has lasting positive effects on families and 
children, as well as improving gender equity. This is why I strongly 
support comprehensive, inclusive, federal policy on paid family leave.

Todd Chittenden--Eureka, California

I worked for a company many years ago in the State of California that 
allowed me to take bonding leave. I was able to do this a second time 
for my youngest son as well. I wish that all new parents could get the 
same good fortune I had, simple as that. I now have a 14-year-old, and 
an 11-year-old who I believe benefited much from the extra time I was 
able to spend with them, and for the most part, are incredible human 
beings. This is why I support extending paid family leave to all 
families in the U.S.

Meika Ellison--Sacramento, California

I'm a mother to a 3-year-old and have been struggling ever since her 
birth because I never received paid leave. I was living in Missouri and 
tried my best to hide my pregnancy at my job. They found out before my 
probation was over so they fired me and even had the nerve to suggest 
abortion. I came back home to California and couldn't pick up work 
because of how much I was showing. This is wrong! We need a high 
quality paid family leave policy that makes people feel safe and not 
stressed when they're about to give life.

Girshriela Green--Los Angeles, CA

While working at Walmart I saw many of my coworkers struggle when 
welcoming a new baby. So many of my coworkers didn't have the time that 
they needed to recover from childbirth or to care for a newborn. 
Earlier this year, full-time Walmart associates succeeded in winning 
the same paid family leave policy as salaried employees--6 weeks of 
parental leave for all new parents in addition to 10 more weeks for 
birthing moms. This is a tremendous victory for 500,000 working people 
in the United States--but it's not enough. 550,000 part-time associates 
at Walmart still don't have access to any paid family leave at all. 
Many of these people would like to work full-time but Walmart denies 
them hours in order to deny them benefits. We are still fighting and 
organizing to win paid family leave for our part-time coworkers, but we 
don't know how long that could take. I support strong public policy on 
paid family leave so that everyone has the time to be with their family 
when they are needed most, and so that nobody is left out.

Rosario Luis--Orange, California

A few years ago, I was waiting to welcome my first child into this 
world and also saying goodbye to my father who was hospitalized due to 
brain trauma. It was such a challenging, beautiful, and incredibly 
stressful time for my husband and me. I needed paid family leave to 
care for my father and my new child. But the options I had were not 
enough. I know I'm not alone in my experience. It's unjust that working 
families do not have adequate paid family leave. I ended up leaving my 
job working for a non-profit because of the passing of my father while 
I was four months pregnant was an excruciatingly painful time in my 
life. Three months after the birth of my first baby I got a new job and 
went back to work and my husband became the primary caregiver. My 
earning were just enough to pay for our rent, food, and diapers. Now 
I'm in a similar position. When I give birth to my second child in a 
few months, I still won't have access to paid family leave.

Colin Mutchler--Oakland, California

I'm a father of a 2.5 year old, and we are now pregnant with our 
second. We both had good leave--were able to bond with our baby and not 
stress about money/living expense. . . . As someone who has benefitted 
from paid family leave, I want all families to have access to paid 
family leave because it improves bonding and helps with recovery. If we 
really care about families, we need to make sure a national policy 
includes all families.

Samantha Riegelsberger--Turlock, California

My son was diagnosed with a serious mental disorder in March of 2018. I 
needed to go on paid family leave for 6 weeks. I worried about my son 
and got him where he needed to go. As it was ending, I had to start 
worrying about income. Although our situation didn't change I needed to 
work. Unfortunately my work of over 4 years has no opening for a 
schedule change which complicates things now having to job search for 
one that does fit my schedule needs. Months later, still on medical 
leave, I have had no income and accumulated debt which paid for our 
food and bills that we needed. Families shouldn't be struggling in a 
time of dismay.

Niko Walker--Los Angeles, California

I am a transgender male from Los Angeles, California, and support equal 
access to paid family leave for all new parents--including non-birthing 
parents. Paid family leave provides critical support for families when 
welcoming a new child. However, many private sector policies provide 
less leave to non-birthing parents or none at all. This discrimination 
against dads and non-birthing parents creates de-facto exclusion for 
the LGBTQ+ community, as same-sex couples are more likely than 
heterosexual couples to be raising an adopted or fostered child. The 
families that are receiving the least amount of paid leave may also be 
the ones that need it the most. According to the National Center on 
Adoption and Permanency, studies suggest that lesbians and gay men may 
be more likely than heterosexual adults to adopt older children and 
those with special needs. . . . Offering less paid family leave to dads 
and adoptive parents leaves these families, and children, less than 
adequate time to address the important issues in their lives.

Karen Tucker--Denver, Colorado

I am a full time career professional with a toddler and baby #2 due in 
3 weeks. This policy is crucial for my financial independence and 
success for my family.

Ocean Pellet--Waterford, Connecticut

One needs a way to care for ones family members without loosing the 
ability to pay the rent and feed the family. Paid family leave would go 
a long way to keep families healthy and in their homes.

Darla Wilson--Wilmington, Delaware

As a single mother, I was fortunate to be able to utilize the paid 
family leave provided by my employer. I believe ALL working Americans 
deserve the same benefit, so I support a national paid family leave 
policy and applaud the Senate for finally taking the initial step 
toward that end.

Carol Cox--Fort Meyers, Florida

I had to quit a full-time job to take care of my aging mother. If I had 
been able to take some paid family leave, I might not have had to 
retire from a job I loved.

Andrea Keller--Ketchum, Idaho

I am a mother to be in November and don't need the added stress of 
finances when me and my newborn are trying to bond within the 1st year 
of his life. Any and all leave would help so significantly words cannot 
describe.

Sarah Kiely--Chicago, Illinois

This should be the end of my first week back to work, instead, it's the 
end of my 4th week back to work. When I was pregnant and reviewing my 
company (a hospital) policy on maternity leave I was distraught. I 
would need to save and use all my vacation days to help me get paid 
during my maternity leave. I stressed about how long I would have with 
my baby during those early weeks of life when everyone says how 
important it is for a child to be with their mother. I got paid for 7 
weeks but used all my vacation hours (123 hours). I was fortunate to 
receive one week paid, and 4 weeks paid at 75 percent (other women 
aren't as lucky) from our company. I went an additional two weeks 
unpaid and had to repay my health care premiums. We couldn't afford for 
me to take more time away, so after nine weeks I went back to work . . 
. after major surgery (C-section). My daughter and I were just getting 
into our natural rhythm and I could no longer be with her. It broke my 
heart but it's what we had to do. My husband stays home with her during 
the day and works nights and weekends. . . . Politicians talk about how 
important family is, yet we currently do not have much time together as 
a family unit because we can't afford the outrageous cost of childcare.

Paige Boesen--Chicago Heights, Illinois

I'm currently 7 months pregnant and will have unpaid maternity leave 
from my employer. This would make a world of difference for my husband 
and I. It's slightly scary to think of living on one income for 12 
weeks.

Adriana House--Avon, Illinois

It is important for the health of every family, it is civil in a civil 
country, and nobody should have to choose between their family and the 
ability to arrive at the end of the month! For many people that means 
food on the table!

Colleen Wilkerson--Indianapolis, Indiana

If you have ever had a serious health issue, or take care of a 
seriously ill family member (I do), or want/need to bond with your 
newborn or newly adopted child, then Paid Family Leave (PFL) is 
essential. In a modern, progressive society ALL working citizens in the 
U.S. deserve it.

Margaret Runaas--Ainsworth, Iowa

Our children are our future, and paid maternity and paternity leave are 
vital for providing the care that infants need in their critical first 
weeks of life. I am one of the lucky few who was able to have paid 
leave for myself and my husband when my son was born. With all of the 
difficulties we faced in my son's first weeks of life, it would have 
been almost impossible to establish breastfeeding without both of us at 
home. All parents should have this opportunity, not just a privileged 
few.

Cassandra Lyons--Lexington, Kentucky

Include the voices of workers in the hearing on paid family leave. DC 
insiders should not be playing politics with our livelihood without our 
input.

Bobbiejo Winfrey--Louisville, Kentucky

Because of family leave, my parents were able to come down from 
Kentucky and visit me while I was in another state, Florida, recovering 
from a six organ transplant which involved a six month hospital stay. 
Being able to see one of them during that hard and long recovery helped 
me to survive, especially as I was in a strange environment and far 
from my home and my community. I have already been blessed with more 
than 12 more years of life because of the transplant, so I am ever 
grateful that my parents had the family leave that they did and want 
others to benefit from the same if needed.

Felicia Adams--New Orleans, Louisiana

When my mother was diagnosed with Parkinson's disease in 2013, it 
changed the course of not just her life, but our whole family. . . . My 
mother raised five children, worked her whole life, and now is a 
grandmother to thirteen. It wasn't easy for her to admit she needed 
help, but that was the reality we faced. . . . We realized that the 
only way we could make sure Mom had the care she needed and deserved 
was for me to care for her. I moved in with my parents, quit my job, 
and delayed finishing nursing school. . . . We know that too many 
families dealing with Parkinson's or other chronic medical issues are 
not nearly as lucky. Not everyone has a relative who can drop out of 
school or take the financial hit to quit their job. . . . Far from 
being a welfare handout, family leave allows workers to take care of 
their families without jeopardizing their employment. Even a short-term 
job loss can be devastating for a family living paycheck-to-paycheck, 
and maintaining job continuity is a key factor in allowing workers to 
earn raises and other career advancements. . . . I have no regrets 
about the time I took to care for my mother. Throughout this whole 
process, we have trusted in God and in each other, as we always have. 
But a little help to ease the way could do a lot of good for a lot of 
Louisiana families, and we sincerely hope Congress will engage in a 
serious debate and consideration of a paid family leave policy.

Amy Pulliam--Baton Rouge, Louisiana

When my daughter, Virginia, was only 3 months old, she needed surgery 
to repair her heart. Virginia's surgery was at a hospital in Houston, 
and she stayed there for 3 months to recover, which meant that my 
fiance and I had to drive 5 hours back and forth from where we live 
near Baton Rouge so that we could be with her. I used all of my 
vacation time to make sure that I could be there for my daughter and it 
was not nearly enough. I've had to cut down to part-time hours and my 
fiancee is working nights. . . . This is no way to treat families. . . 
. My family struggled with all of the expenses related to traveling to 
and from Houston, and on top of that we had to pay for the insurance my 
company offers so that we could keep it during this time. Virginia is 
now 18 months old, and she's amazing to me. At some point down the 
line, she will need another surgery, and I'll need to take more time 
off, but I still don't have any paid family caregiving leave that would 
mean so much for my family.

Eric Poulin--South Portland, Maine

I'm a millennial, prime age for starting a family and settling down. 
But the cost of buying a house and having a child is so prohibitively 
expensive in this country that my wife and I are holding off. And based 
on our salaries and jobs, we're better off than many in our generation. 
It's insane and inhumane that paid family leave is not required of all 
employers.

Bre Ono--Maryland

I am a mom to an almost 3-year old daughter and I'm pregnant with my 
second child due October 2018. When my daughter was born in 2015, I was 
covered by some short term disability for childbirth recovery, but like 
so many people in this country, it was not enough time, and I had to 
rely on piecing together my PTO and FMLA to ensure that I had the time 
needed with my newborn. Additionally, when my daughter was 2 months 
old, I had a health diagnosis that would cause me to go beyond the 
available weeks of FMLA. This was a time of true uncertainty for me and 
my husband. Because I work in the healthcare field, I know the 
importance of paid family leave. All newborns need time to bond with 
their parents and adequate moms need time to recover from childbirth. 
But we don't all have equal access to high-quality paid family leave. 
Some employers offer substantial paid family leave policies, while 
others simply comply with FMLA, and the majority of working people are 
faced with the difficult choice of going without a paycheck or leaving 
a newly arrived child before they are ready.

Linda Cades--Kennedyville, Maryland

When my first baby was born, I was teaching at a university. He was 
born July 31; the semester began in mid-August, and I went back to 
work. I could have taken the semester off, but it would have been 
unpaid. I later worked for another college. Faculty could take a paid 
semester off. Staff, much lower paid employees, could take paid time 
off but only by using any accumulated sick or vacation time. That might 
be as little as 2 weeks, forcing them back to work and saddling them 
with high childcare bills they could ill afford. People also need help 
caring for ill family members. When my Dad was diagnosed with lung 
cancer, my Mom was already well into a 15 year battle with Alzheimer's 
disease. She was too ill to care for him, so I took a leave of absence 
to see him through his treatment. I was lucky: I had about 4 months of 
accumulated sick/vacation leave and used all of it. After that, it 
would have been unpaid. Most of my colleagues would have had to take 
unpaid leave to help their families.

Sarah Richardson--Windsor Mill, Maryland

Even before I became a mother 2 months ago, I have seen the struggles 
of my friends and family as they tried to balance having a child, 
having the time to bond and take care of their children, and being able 
to make ends meet. I am a federal employee, with one of the best leave 
plans in the country, and I was only able to take two months of leave 
before I had to go back to work. Some of that is unpaid Family Medical 
Leave (FMLA) because even I did not have enough time in my leave bank 
to cover my doctors' appointments (I had a high risk pregnancy that 
required extra monitoring and recovery time), as well as time to spend 
with my child. The first few month of a child's life are critical for 
bonding with their parents. But we as a nation are makings profits and 
money more important that families. Many of my friends who wanted to 
have children are putting it off or not having them because they can't 
afford the time to take off work. The cost to our wallets and our 
careers is making children a luxury item that many cannot afford. If we 
could get 6 months of paid leave for both mothers and fathers, it is 
making a sound investment in our families and our country's future.

Peter Cox--Boston, Massachusetts

This is a parents' issue, not a women's issue or a men's issue. In a 
modern America where equal rights and gender equity in the workplace 
count, paid parental leave is a huge, foundational policy choice. As 
working parents, we support paid parental leave for Moms and Dads!

Carrie Latourette--Grand Ledge, Michigan

At the time my children were born, I was fortunate to be employed by a 
company that offered paid family leave. All of us benefited from that 
arrangement. As a mom, I was able to focus on bonding with my babies. 
For many weeks, my children had their mother's undivided attention. 
When I returned to the workforce, my employer had my appreciation and 
loyalty. This should be everyone's story.

Mary Suagee-Beauduy--Cass Lake, Minnesota

I was able to stay home with my two children when they were born. I 
breastfed them both to give them a lifetime of good health. Bonding 
between parents and their infants is well documented and sets the stage 
for well-adjusted and productive human beings. Every citizen should be 
able to start life with these benefits. I support family leave for 
everyone. This needs to be a national policy.

Cecelia Mackenzie--Myrtle, Mississippi

One thing the United States of America has seemed to lost is the focus 
on and importance of families. I believe in families with all my heart 
and that they should be made a priority if we are to ever become 
``great again.'' I hope Congress will consider hearing real people to 
know that this is a real problem for many of them. You have been tasked 
with making choices that are best for our country, and the best way to 
do that is to have all the facts and see exactly how it affects people, 
for both good and bad.

Natasha Hopkins--Missouri

For decades, American workers have sustained a record of increased 
productivity in spite of decreased benefits; scant, stagnant or reduced 
wages; and, insufficient appreciation for their contributions to the 
operational success, repute and prosperity of respective enterprises. 
At the very least, a comprehensive paid family leave policy would 
ensure the provision of quality, dignified care for the infirm when 
needed; preserve strong familial bonds, peace of mind and a measure of 
financial stability; and, secure a more robust work force with shared 
affinities.

J. Esposito--Sparks, Nevada

My daughter had to move back in with my husband and I because there 
wasn't paid family leave available to her after the birth of her son. 
My daughter-in-law had to return to work five weeks after the birth of 
her baby because she couldn't afford to take even one more day off of 
work or she would lose her home. It shouldn't have to be a choice 
between keeping a roof over your head (your own roof, not your parents' 
roof) and having a child. It should not cause food insecurity or 
homelessness, but unfortunately in this country it causes both. We are 
the only first-world country which doesn't offer paid family leave, and 
it's absurd.

Taryn Clayton--Phillipsburg, New Jersey

It's heartbreaking to leave a 6 week old baby and go back to work 
because you can't afford to go without a paycheck.

Carol Carlson--Summerfield, North Carolina

We need to value families in the work force and their need to care for 
children and older members of their families.

Yulia Mikhailove--Socorro, New Mexico

This is one of the few non-partisan, common-sense issues. How can one 
NOT support family leave? I cannot think of single possible argument 
against it. I was fortunate enough to be able to stay home when my kids 
were babies, because my husband earned enough to support us all and had 
an insurance through his work, but for many new parents this is not an 
option.

Linda McCoy--Edmond, Oklahoma

I have spent several years taking care of my elderly parents. Every 
time I had to leave work or miss work all together, my pay was docked. 
They didn't need me at home all the time, but when they did need me I 
had to leave. This put a severe financial hardship on me. After my dad 
passed, Mom was fine, until she started falling. It finally got to the 
point I had to stop working outside the home so I could care for her. 
She now pays me what I was making working an intermediate hours job to 
care for her 24/7. There isn't enough money to hire help. . . . Had I 
had paid family leave, I wouldn't be in the bind we're in now.

Laura Bahar--Cincinnati, Ohio

[Paid Family Leave] matters to me because I'm expecting twins at the 
end of the year and I need time to bond with my babies.

Carol Nowlin--Columbus, Ohio

I had an emergency C-section and was in no condition to return to work. 
I had to fight to get 8 weeks of absence and financial necessity was a 
driving factor in my quick return. Paid family leave would tell parents 
they are valued workers too.

Ashley Thurston--Galion, Ohio

In America today, a family NEEDS two incomes to survive. I'm a working 
mother that has had to struggle though what should be one of the 
happiest times in our lives. Then struggle after returning to work, 
just to catch up.

Ann Cleaver--Easton, Pennsylvania

I am pregnant with my second child. My husband and I have crushing 
school debt and I am unable to take a single sick or vacation day 
during my pregnancy to save them all to be able to afford to even take 
6 weeks off to be with my newborn. I went to school to be a speech 
therapist and help others and don't even deserve paid leave? It 
outrages me I have to use vacation and holidays and god forbid not get 
sick while pregnant not to go into credit card debt and borrow money to 
afford bills while recovering from giving birth. We need to learn from 
other developed nations and provide this basic right!

Sherri D'Orio--Pittsburgh, Pennsylvania

Anyone who has gone through the first weeks of a baby's life would 
understand how important it is.

James Langenhahn--Pittsburgh, Pennsylvania

Family leave is crucial to families in crisis.

Theo Giesy--Gloucester, Virginia

Just as every worker should have paid sick leave to take care of his/
her illnesses, every worker should have paid time off to care for a 
dependent who is ill. Every new parent should have paid time off to 
bond with the new addition to the family. Caring for loved ones is an 
important part of being human. No one should have to choose between 
caring for loved ones and supporting them.

Tiara Leonard--Alexandria, Virginia

Paid family leave provides time for parents to bond with their new 
children. This bonding time during early childhood translates to strong 
sense of self for all those involved. A life with purpose translates to 
positive impacts in communities. Positive impacts yield a fruitful 
nation.

Christa Sharpe--Alexandria, Virginia

Giving mothers protected time home with their newborns leads to fewer 
cases of SIDS, higher levels of child attachment and security (which 
gives long term social and personal health benefits as the child ages!) 
and creates a culture that values children, breastfeeding, and the 
biological, neurological and social benefits that are gained from 
mother-child time together. This would 100% set every child in the US 
on the right path of health, safety, attachment and security . . . and 
allow new mothers the time to heal, connect with their child, and 
reduce their rates of depression, anxiety and isolation post-birth! 
This WILL lead to a healthier and more productive, peaceful nation. 
Don't just let wealthy, privileged moms who work at the most 
progressive companies have this benefit. ALL children and ALL moms 
deserve this, and it's what's best for our nation. Please get on board 
with research and preventative care--and protect the need for ALL 
mothers to recover from birth and nurture

Jess Svabenik--Gig Harbor, Washington

Paid family leave is not about providing money for parents, but about 
providing parents for babies in their first and most fragile moments. 
I'm a mom, and I think its so important to think about our kids, and 
what they need. I support strong federal policy on paid family leave 
because when we leave it up to employers to provide this critical 
benefit, so many lower-wage working people get less leave, or none at 
all. Just because your parent makes a lower wage, you shouldn't get 
less time with your parents when you're at your most fragile.

                                 ______
                                 
                  Kathryn Zeanah, Ph.D., LP, NCSP and 
                      Susan Borchers Zeanah, M.Ed.

                             July 11, 2018

U.S. Senate
Committee on Finance
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

Chairman Cassidy, Ranking Member Brown, and Members of the 
Subcommittee:

In October 2017, our family was blessed with the addition of our second 
child. We were overjoyed and wanted nothing more than to immerse 
ourselves in getting to know this new little being who filled us all 
with so much love. And while we did do that, we also had to field phone 
calls from the HR department at my work so that they could know exactly 
what day my daughter was born and could calculate exactly how much 
unpaid time I was going to be taking. I work as a school psychologist, 
and in the district where I work, there is an incredibly complicated 
matrix with all kinds of stipulations and caveats about how much time a 
person can take off after they have a child, but you only get paid time 
if you have enough sick time saved up to cover it. And even then, 
you're only allowed to take 6 (!) weeks, even if you have more time 
saved.

My wife and I carefully calculated, planned, and budgeted for the 
amount of time that we anticipated I would have to take as unpaid. 
Then, shortly after my daughter was born, we learned that we had 
misinterpreted the guideline and miscalculated the amount of time. Now, 
instead of taking 2 weeks unpaid, I would be forced to take an entire 
month unpaid or return to work when my daughter was only 6 weeks old 
and my body was not fully healed. We were forced to use some of our 
savings to cover the unanticipated unpaid time. Fortunately, we had a 
little bit of money in our savings to be able to do this so that my 
body could heal and my daughter could stay home for a few extra weeks. 
But not without sacrifice, as we had to use money that otherwise would 
have been put toward our children's future college tuition or perhaps 
our own retirement fund.

It is unacceptable that our country has yet to recognize the importance 
of providing families with paid time off to care for their loved ones. 
And now, some of your colleagues have introduced a bill that would 
force families to take from Social Security now in order to take paid 
time off, but leaving them in dire straits when they actually get to 
the point that they will need to use social security. Speaking as 
someone who has already had to dip into savings in order to cover 
expenses now, this is incredibly short sighted and unacceptable.

I hope you will continue to fight for what is truly best for our 
families, by supporting and co-sponsoring the FAMILY Act (S. 337), 
which would create a strong, inclusive paid family and medical leave 
program that does not raid Social Security.

Thank you for your time.

Sincerely,
Kathryn Zeanah, Ph.D., LP, NCSP, and
Susan Borchers Zeanah, M.Ed.

                                 ______
                                 
                         Levi Strauss & Company

                             July 20, 2018

The Honorable Orrin Hatch           The Honorable Ron Wyden
Chairman                            Ranking Member
U.S. Senate                         U.S. Senate
Committee on Finance                Committee on Finance
Washington, DC 20510                 Washington, DC 20510

The Honorable Bill Cassidy          The Honorable Sherrod Brown
Chairman                            Ranking Member
U.S. Senate                         U.S. Senate
Subcommittee on Social Security, 
Pensions, and Family Policy         Subcommittee on Social Security, 
                                    Pensions, and Family Policy
Washington, DC 20510                Washington, DC 20510

Dear Senators Hatch, Wyden, Cassidy, and Brown:

On July 11, 2018, the Senate Finance Subcommittee on Social Security, 
Pensions, and Family Policy held a valuable hearing titled ``Examining 
the Importance of Paid Family Leave for American Working Families'' 
that reviewed the merits of different proposals to expand access to 
paid family leave in America. I am writing to you today on behalf of 
Levi Strauss & Co. to express our support for S. 337, the Family and 
Medical Insurance Leave Act (``FAMILY Act'').

Founded over 160 years ago, Levi Strauss & Co. is today an iconic 
American company known the world over as the market-leader in denim 
jeans and casual pants. Our products are sold under the 
Levi's<SUP>'</SUP>, Dockers<SUP>'</SUP>, Signature by Levi Strauss & 
Co.<SUP>TM</SUP>, and Denizen<SUP>TM</SUP> brands. Headquartered in San 
Francisco, Levi Strauss & Co. employs a workforce of roughly 7,500 
individuals in 41 states in a variety of roles including distribution, 
design, logistics, and retail.

At Levi Strauss & Co., our people make us who we are. This means 
creating an environment that enables our employees to be healthy, 
happy, and successful at home and at work. To further that mission, 
last year, Levi Strauss & Co. expanded our parental leave policy. We 
offer all LS&Co. hourly and salaried U.S. employees with 8 weeks of 
paid parental leave. Our policy covers mothers and fathers at the time 
of a child's birth or adoption as well as the placement of a foster 
child in an employee's care. This paid leave is in addition to existing 
short-term disability benefits for birth mothers. We know first-hand 
the importance of paid leave in our employees' lives. Unfortunately, 
only 15 percent of workers in the United States have access to paid 
family leave through their employers, and fewer than 40 percent have 
access to personal medical leave through employer-provided short-term 
disability insurance. It is time for all workers in the United States 
to have the same support that we offer our employees.

The FAMILY Act will create an affordable, sustainable, and national 
paid family and medical leave program. Under the bill, two-thirds of an 
employee's wages are guaranteed up to a cap for 60 work days in a year 
in order to care for a new child, an employee's own serious health 
issues, including pregnancy, or for a family member's serious health 
issues. The program is responsibly funded through a small payroll 
contribution from employers and employees--just two tenths of 1 percent 
each. With this structure, the FAMILY Act can provide critical support 
to all of America's families just when they need it most.

Levi Strauss & Co. supports the FAMILY Act \1\ because access to paid 
family and medical leave is both the right and the smart thing to do 
for businesses, workers, and families. Research from companies and 
states that already offer paid leave shows that it reduces employee 
turnover and improves employee loyalty, lowering re-training costs for 
private companies. Studies also demonstrate that paid leave provides 
income stability for workers, improves newborn health outcomes, and 
ensures parents have quality bonding time with a new child. And, for 
companies like us, the FAMILY Act would help level the playing field by 
ensuring that all workers have a baseline of paid leave. It is time for 
the U.S. to adopt a comprehensive national paid family and medical 
leave policy like the FAMILY Act.
---------------------------------------------------------------------------
    \1\ https://www.levistrauss.com/2016/12/12/levi-strauss-co-expands-
parental-leave-for-u-s-employees/.

Thank you for holding this important hearing, and I look forward to 
working with you to expand access to paid family leave in the United 
---------------------------------------------------------------------------
States.

Thank you,

Anna Walker
Senior Director, Global Policy and Advocacy

Cc: Senator Kirsten Gillibrand
    Senator Joni Ernst

                                 ______
                                 
               Prepared Statement of Hon. Bill Cassidy, 
                     a U.S. Senator From Louisiana
    Working families are at the core of our social fabric and economic 
success. American workers increasingly feel good about their 
prospects--a recent poll shows economic optimism at a 13-year high. Yet 
some families have been left behind. For nearly a decade, wages and 
growth were stagnant. Health care and education costs skyrocketed. 
American families expect more.

    Over the past 2 years, I have worked to help families get more 
money in their pocketbooks and better benefits to navigate the ebbs and 
flows of life. Many families in my home State of Louisiana are seeing 
last year's tax cut reflected in their paychecks, and I continue to 
work on lowering health care costs for families. To consider another 
thing which may help, today we will examine a paid leave benefit for 
working families.

    A 2017 Pew poll shows overwhelming majorities of Americans support 
paid sick leave and paid maternity leave. Paternity leave and family 
leave also have strong public support. Yet views on the structure and 
funding of a paid leave program vary.

    By way of background, the Family and Medical Leave Act of 1993 
provides most U.S. workers with up to 12 weeks of job-protected leave 
to care for a new child or to address an illness. However, it does not 
cover all workers--such as some small business and part-time employees. 
And, the guarantee is for unpaid leave. Many workers can't afford to 
take time off.

    Most employees receive some type of paid time off--for holidays, 
vacation, or illness. Yet the Pew study indicates fewer workers have 
access to defined paid family leave versus other types of leave. And 
paid family leave is rare in low-income households.

    There are several reasons to support paid leave for workers. I will 
mention three:

        1.  Improving health outcomes. As a doctor, I am concerned 
        about infant and maternal health. At 6 per 1,000 live births, 
        infant mortality is higher in the United States than in 25 of 
        28 other developed countries. A recent study reports that if a 
        new mother takes paid leave, readmittance rates for her and her 
        infant decrease by 50 percent. (February 2018, Maternal and 
        Child Health Journal.)

        2.  Helping families manage work and home responsibilities, 
        particularly for lower-income workers. Pew reports, among 
        individuals taking family or medical leave, only 38 percent in 
        families with income less than $30,000 received any pay. For 
        families with higher incomes, the figure is 74 percent.

        3.  Creating incentives to stay in the workforce, which 
        supports productivity and economic growth. Long-run economic 
        growth is a function of workforce participation and labor 
        productivity. With an aging population, it is essential that 
        our workforce remains strong.

           2012 Rutgers study--women who work 20+ hours per week before 
        childbirth and who take paid leave afterward--they are 93 
        percent more likely to be working 9 months postpartum, versus a 
        woman who doesn't take leave.

           AEI-Brookings study--work hours for mothers who took paid 
        leave were 10-17 percent higher than before paid leave was 
        instituted.

    With last year's tax cuts bill, we see workers getting some help. 
First, the bill included a 2-year pilot program authored by Senators 
Fischer and King: a tax credit to employers who offer low- and 
moderate-income employees at least 2 weeks of paid leave. Numerous 
companies announced new or expanded paid leave programs after the tax 
bill--including Starbucks, Walmart, and Lowe's.

    As we will see today, there is bipartisan interest in expanding 
paid maternal, family, and medical leave. I am pleased to convene this 
initial conversation--to consider policy options and trade-offs.

    Preserving the retirement benefits promised to American workers is 
paramount. Any proposal that relies on Social Security cannot weaken 
Social Security. The 2018 Trustees Report projects that Social Security 
will go bankrupt by 2034, and that in order to close the shortfall, 
benefits today would have to be cut by 17 percent for all 
beneficiaries, including those already collecting. I am committed to 
addressing this looming crisis, because we cannot let that happen. 
Doing nothing is not an option.

    Another Social Security priority is the Windfall Elimination 
Provision, which impacts many civil servants. Although not directly 
related to today's topic, WEP must be included in the discussion of 
preserving Social Security benefits.

    Again, I'm pleased to convene these panels of experts to consider 
policies that help working families, and create incentives for 
Americans to stay in the workforce and help build the greatest economy 
in the world.

                                 ______
                                 
                Prepared Statement of Hon. Joni Ernst, 
                        a U.S. Senator From Iowa
    Chairman Cassidy, Ranking Member Brown, and members of the 
subcommittee, thank you for inviting me to testify before you today. I 
also want to thank my dear friend and colleague, Senator Gillibrand, 
for being an important voice in this discussion.

    The issue of paid leave is incredibly important. Millions of 
mothers, fathers, grandparents, and families across the country 
struggle with the realities of childbirth and infant care while also 
working hard to put food on the table and raise strong and healthy 
families. It is long overdue that Congress not just have a conversation 
on these matters but get serious about a path forward.

    As a mother myself, I know that being a parent is never an easy 
task. Additionally, throughout my career, I have worked with and heard 
from numerous working parents, including those on my own staff, who 
have struggled to navigate the challenges of balancing work with the 
need to provide safe and supportive care for their new babies. Some are 
fortunate enough to have paid benefits provided by their employers. 
However, many families in America do not have this luxury.

    To illustrate just how difficult it is for working moms and dads, I 
want to share the story of a constituent named Jessica. Jessica is the 
epitome of what it means to be an Iowan. She's been working since she 
was sixteen and done everything from working at a call center, to 
waitressing, which is her current position.

    Jessica is also married and she and her husband are the proud 
parents of two young boys. They work day in and day out to provide for 
their growing family. Along the way it hasn't been easy. Money, at 
times, has been tight and both Jessica and her husband had to decide 
between working and meeting rent and taking time to care for their 
newborn.

    Common sense tells us that it's important for parents to spend time 
with their newborn. The bond that is formed when parents first lay eyes 
on their child only becomes stronger the longer they spend together.

    A recent study by the International Journal of Child Care and 
Education Policy found the amount of time that new parents spend around 
their newborn has a direct influence on the quality of mother-child 
interactions as well as childhood and adolescent outcomes.\1\
---------------------------------------------------------------------------
    \1\ https://link.springer.com/article/10.1186/s40723-018-0041-
6#Sec19.

    Paid family leave policies have been shown to increase 
breastfeeding rates \2\ and are associated with better infant health 
outcomes as well as decreased rates of low birth weight and infant 
mortality.\3\
---------------------------------------------------------------------------
    \2\ https://www.ncbi.nlm.nih.gov/pubmed/26991788.
    \3\ http://www.mdpi.com/2227-9032/4/2/30/html.

    When Jessica had her son Karter, she was only able to take two 
weeks off before returning to work. This is despite the fact that she 
had a C-section which made it difficult and painful for her to work in 
---------------------------------------------------------------------------
the first few weeks after delivery.

    She would go to work in the morning but when her lunch break came 
she would go to the bathroom, pump milk, and then run home to give it 
to her husband. All within an hour. Her husband works nights so when 
Jessica returned home at the end of the day she only had a few precious 
hours to spend with Karter and her husband before he had go to work. 
Jessica is expecting her third child and is due in December. She is 
unsure how much time she and her husband will be able to take off. 
Jessica's experience is a similar story in households around the 
country. As a Nation, we can do better for our families.

    President Trump highlighted paid leave during his State of the 
Union address and his administration was the first to budget for a 
national paid leave program. Through the leadership of Ivanka Trump, 
the administration has worked closely to develop a dialogue with 
Congress. I'm glad to see that members of the House and Senate and from 
both sides of the aisle are paying attention to this issue, recognizing 
that moms and dads across the country are trying to figure out how to 
ensure their babies are well cared for and nurtured in those precious 
first few weeks of life.

    By paying attention to these needs, we are also recognizing the 
important economic contribution of these families who give so much to 
our communities. Our policies should reflect the evolving needs of this 
workforce and reduce barriers that pose challenges to parents balancing 
families and work.

    As a conservative, I want to craft paid leave policy that can not 
only attract consensus, but is viable for families, employers, and the 
economy, recognizing that working parents by definition are an 
essential part of many businesses. Few businesses can afford more taxes 
or more cuts to their bottom line. So we have to find a solution that 
doesn't make our economy worse off or decrease the jobs available to 
working parents.

    I feel it is important to target a paid leave benefit to 
individuals who don't have access to these benefits such as the two-
thirds of low-income families that don't have paid leave. These 
families are also more likely to work on an hourly basis where if they 
do not work, they do not get paid--they don't enjoy sick leave or 
vacation or other forms of leave that can help bridge the gap.

    For the past few months, I have been working with Senators Marco 
Rubio and Mike Lee on the issue of paid leave. We have been exploring 
how new parents could elect to receive a paid leave benefit through 
Social Security. In return for receiving these benefits, participants 
would defer the collection of their Social Security benefits upon 
retirement. We are still working through the complexities but I am 
hopeful we can craft a policy that will benefit families who need paid 
leave the most.

    Thank you again, Chairman Cassidy and Ranking Member Brown, for 
holding this hearing today. I look forward to working with you on the 
important issue of paid leave.

    Helping families is an issue we can all agree on and I hope that we 
can have a productive dialogue on how Congress can best help them.

                                 ______
                                 
           Prepared Statement of Hon. Kirsten E. Gillibrand, 
                      a U.S. Senator From New York
    Thank you, Chairman Cassidy and Ranking Member Brown, for holding 
this very important hearing today.

    Here's the truth: at some point, every one of us is going to have a 
situation where we just need to take some time to be with our families 
and take care of them.

    It might be a medical emergency--maybe your spouse is diagnosed 
with cancer--or maybe you suddenly need to care for an aging parent 
who's been diagnosed with Alzheimer's, or maybe you're starting a new 
family and just had a baby.

    Whatever the case, no working American should ever have to choose 
between their family and their paycheck.

    But if you don't have paid leave, then that's exactly the choice 
you have to make. And this is especially true if you are working a low-
wage job.

    And that's unfortunately what millions of Americans have to deal 
with every time there's a family emergency.

    Right now, 85 percent of all American workers don't have access to 
paid family and medical leave.

    And lower-income workers are even less likely to have it.

    We are the only industrialized country in the world that doesn't 
guarantee some form of paid leave to workers.

    Recent reports have shown that this costs families $20 billion a 
year.

    And it also creates a sticky floor, where too many women get stuck 
in low-wage jobs with no way to advance, every time they come back from 
taking paid leave.

    So Congress desperately needs to catch up. We need a national paid 
leave program now.

    The good news is that both parties recognize this problem.

    Individual States are taking the lead, all over the country, with 
many bipartisan State laws.

    And I'm grateful that my Republican colleagues are committed to 
supporting a national paid leave program that's based on a social 
insurance model.

    But I urge them to support the comprehensive and fiscally 
responsible FAMILY Act.

    Here's why. First, the FAMILY Act is an earned benefit. It stays 
with you throughout your life, wherever you work, wherever you live.

    Second, the FAMILY Act is affordable, especially compared to the 
cost of inaction. It only costs as much as a cup of coffee per week, 
and it provides 66 percent of your wages, which is very important for 
low-wage workers.

    Third, the FAMILY Act covers all workers, including part-time 
workers, for any event a family might face. Three out of four people 
who take unpaid FMLA leave, take it for reasons other than the birth of 
a new child. The FAMILY Act covers birth and adoption, taking care of 
an older family member, or addressing one's own personal medical needs.

    Fourth, the FAMILY Act levels the playing field for small 
businesses, so they can actually compete for talent with the Googles 
and Facebooks of the world. That's why it has been endorsed by small 
business groups.

    It has also been endorsed by many larger business, many of which 
provide leave. They know that paid leave is good for profit, it's good 
for employee retention, it's good for productivity, and it's good for 
morale.

    And finally, the FAMILY Act does not create the false choice 
between covering someone during a medical emergency today and cutting 
their social security retirement benefits later.

    It doesn't take money from the social security trust fund, which 
would harm the current and future financial security of our seniors.

    People can and should be able to have paid leave while they're 
working and a safe and secure retirement later on.

    This is a good bill that's been endorsed by a coalition that 
includes Fortune 500 companies and small business. It's good for 
workers, it's good for businesses, and it's good for the country.
    I urge my colleagues to support the FAMILY Act, and I encourage 
this committee to continue paying attention to this important issue.

    Thank you.

                                 ______
                                 
                Prepared Statement of Carolyn O'Boyle, 
                Managing Director, Deloitte Services LP
    Chairman Cassidy, Ranking Member Brown, other members of the 
subcommittee, good afternoon. Thank you for inviting me to testify at 
this hearing on the importance of paid family leave for American 
families. I appreciate the subcommittee's attention to such an 
important issue, as well as the opportunity to share with you 
Deloitte's experiences with implementing our own industry-leading Paid 
Family Leave Program.

    My name is Carolyn O'Boyle. I am a Managing Director in Deloitte's 
Talent organization, serving as the Chief Operating Officer and the 
leader of the Talent Strategy and Innovation team. I have worked at 
Deloitte for 17 years, in both our Consulting practice and Talent 
organization, and in that latter capacity have had the privilege of 
working to enhance employee engagement by developing innovative 
experiences, processes, and policies for our people. And family leave 
is not just an abstract program for me, since I took advantage of our 
program when I had my son, Jack.

    To understand why we created an inclusive and flexible family leave 
program, let me briefly share with you more about our organization and 
our workforce. In the Deloitte U.S. firm, we employ over 90,000 
professionals working across 20 industry sectors. Our people provide 
industry-leading audit & assurance, consulting, tax, risk and financial 
advisory services to clients.

    Our people are our primary and greatest asset and, as such, their 
well-being is critical to our success. At Deloitte, we are committed to 
fostering what we call a ``culture of courage''--one in which our 
strategy and investments best support the needs of our people. We care 
about them and want them to be successful in both their professional 
and personal lives. We do this by creating an inclusive culture where 
everyone can feel valued and by giving them the support to focus on 
their unique needs.

    Recognizing that our professionals have unique needs throughout 
their lives and careers, we are continually scanning the market--and 
surveying our people--to make sure our benefits are competitive and 
impactful. In 2015, we conducted a marketplace pulse survey on parental 
leave and found that 88 percent of the respondents would value a 
broader paid leave policy to include family care beyond parental leave. 
This, in addition to our focus on innovating our well-being related 
offerings, prompted our CEO, Cathy Engelbert, and her leadership team 
to address shifting caregiving dynamics and emerging flexibility needs.

    Previously, parental leave at Deloitte provided up to 8 weeks of 
paid leave to eligible professionals welcoming a new child through 
birth or adoption as a primary caregiver or 3 weeks as a non-primary 
caregiver. However, with a workforce spanning 5 generations and the 
changing nature of caregiving in the U.S. today, we recognized that 
both men and women of all generations face challenges in supporting the 
well-being of their families. These challenges can manifest themselves 
in multiple forms, from lost productivity, to employee disengagement, 
to higher turnover. At Deloitte, we had observed that turnover for 
employees was significantly higher in the year following a leave. We 
also understood the stress that our people faced from trying to manage 
through these situations. We recognized that if our people were able to 
balance their caregiving needs with their professional lives, they 
would be more productive and we would reduce turnover, and support the 
culture we aspire to have--one where our people feel supported and have 
the resources to manage their personal lives and work, while building a 
meaningful career.

    As a result, in September 2016, we introduced our expanded and 
holistic Paid Family Leave Program, the first of its kind in 
professional services, distinguished by several characteristics.

    First, the program recognizes that caregiving goes beyond that of 
welcoming a new child. The program provides up to 16 weeks of paid 
leave to eligible U.S. employees--male and female--to support a broader 
range of life events--from the arrival of a new child, to caring for a 
spouse or domestic partner, parent, child, or sibling with a serious 
health condition. Second, the expanded program recognizes that both 
parents play an important role in caregiving and eliminates any 
disparity between primary and non-primary designations.

    Our Paid Family Leave Program also provides our people with the 
flexibility to schedule the leave to meet the needs of their family. 
The 16 weeks can be taken all together or in any increments beyond the 
minimum of three days a week. Offering this kind of inclusive and 
flexible leave empowers our people to manage their work and personal 
lives to meet unique needs.

    Before implementing the policy, we took an important step in our 
decision-making process by calculating and analyzing the costs and 
benefits of the new policy to our firm. First, we estimated the cost of 
replacement labor during a projected number of weeks needed to fill 
gaps for those on leave. Additionally, we considered the significant 
amount of benefits from leave programs that are qualitative in nature. 
We concluded the expanded Paid Family Leave Program would benefit our 
business and our future growth by helping us retain talent, reduce 
absenteeism, and positively impact employee engagement and 
productivity. What we did not expect, was the overwhelming response of 
gratefulness from our employees who simply appreciated the peace of 
mind in knowing they had the opportunity to take the time needed during 
life's challenging situations.

    Since the policy's implementation, more than 5,000 Deloitte 
professionals have accessed the program, providing even greater insight 
into its benefits. We found our businesses were able to temporarily 
backfill many of the roles with other team members and our projected 
costs were significantly lower than we originally anticipated.

    Our culture and team-based service delivery model allows us to flex 
when one of our professionals takes leave. We acknowledge, however, 
that there is no one-size-fits-all model that will work for all 
organizations. That said, we do believe caregiving programs like 
Deloitte's positively impact the broader economy. Statistics show that:

          Workers miss an average of 6.6 days of work per year tending 
        to caregiving demands, costing the US economy approximately $25 
        billion in lost productivity annually. (Gallup)

          And, when workers are forced to exit the labor force to 
        address caregiving needs, they lose income (an average of 
        $324,000 in lifetime wages) and Social Security benefits. 
        (Metlife)

    The impact that this program had on our people was evident 
immediately, as seen in some of the responses that our CEO Cathy 
Engelbert received to the announcement:

          I don't have children but have aging parents and am very 
        happy to see that included as an option for the future for me 
        if needed. It means a lot.

          Specifically for me, as a gay man who anticipates growing a 
        family through adoption, I am sincerely grateful to have the 
        opportunity to have significant paid time off to bond with my 
        child/children regardless of my gender, relationship status, 
        birth/adoption of a child, etc.

          I actually cried when I read this. Thank you so very much 
        for this new benefit. My siblings and I had to put our dad in 
        assisted living last February. Prior to his admission, many 
        hours were spent in emergency rooms, going to doctor's. 
        appointments and comforting my mom, who was also unwell.

    Since its inception, Deloitte's Paid Family Leave Program has 
impacted the lives of thousands of professionals and their families. 
Like many of our professionals, Marcia falls into the ``sandwich 
generation,'' providing care for her aging mother and her son. Marcia 
requested paid family leave when her 17-year-old son Noah needed more 
intensive treatment for symptoms arising from his Asperger's syndrome 
and her elderly mother fell and broke her pelvis at the same time. As 
Marcia noted, ``I was grateful to Deloitte for giving me the 
opportunity to support Noah through this program. Honestly, I don't 
know what I would have done if I didn't have access to the Paid Family 
Leave Program. It would have been incredibly stressful. If I'd tried to 
keep working through all that was going on, my clients wouldn't have 
had the best of me, that's for sure.''

    We also are seeing greater participation from men in the program. 
Our CEO received a thank you note from an employee, who wanted Cathy to 
know that because he was able to stay home for 16 weeks with their 
child, his wife was able to return to her medical practice:

          My wife is currently pregnant, and has a demanding medical 
        career. Asia will only be able to take a few weeks off after 
        our baby girl is born, and we were worried about having enough 
        time at home with our new baby before having to send her to 
        daycare. The new Paid Family Leave Program is going to give me 
        the opportunity to spend a great amount of quality time at home 
        with our new baby. We are all so happy that we have been 
        afforded this opportunity and it is going to make a meaningful 
        impact in our family life.

    Similarly, one of our professionals told Cathy about his son who 
has autism. This dad was challenged with managing his demanding work 
schedule:

          [When] I told you the story of my son who has autism and the 
        challenges of balancing my commitment to client service with 
        the need to take the time to fully implement his learning 
        program at a critical time in his development, your 
        recommendation was to be bold and lead by example to take the 
        time to use the program if it suited me. I wanted to inform you 
        that I have taken your advice. I have had good, supportive 
        conversations with my leaders . . . and good conversations with 
        the client leads who were equally supportive of my needs. The 
        Deloitte team has rallied around me to make sure I can truly 
        disconnect for the short time I am going to be taking. I wanted 
        to specifically thank you for your guidance, because I am sure 
        I would not have had the courage to do this on my own.

    About a month before Deloitte announced the expanded Paid Family 
Leave Program, managing director David's wife Theresa was diagnosed 
with Stage 4 lung cancer. David and Theresa realized their time was 
limited. David doesn't know what they would have done without the 
leave. Theresa needed full-time care, but they had just moved 1,200 
miles away from home--the diagnosis came through the day after they 
sold their home in Washington State and moved to San Diego. ``We had no 
one nearby,'' he says. ``Having the leave gave me more time to 
investigate and arrange support options available through the community 
and hospitals. And it gave me the freedom to be there for my wife, take 
her to appointments, and when she was in the hospital, to stay by her 
side the entire time.''

    As these stories illustrate, this expanded leave program has had a 
profound impact on our people, and the realized benefits have far 
outstripped concerns about operational disruption from expanded leave. 
We have observed several interesting outcomes. First, for professionals 
taking advantage of the program for parental leave, women are taking 
slightly longer leaves than previously. For men, we are seeing both an 
uptick in participation and an increase in leave duration, but we have 
received feedback that our program positively contributes to the 
careers of women who don't work for us because we offer it for men as 
well. This reinforces the research on changing societal/generational 
norms that suggested men were looking for more partnership in early 
childcare. This outcome also supports broader inclusion goals that we 
have as an organization--since making it more acceptable and conducive 
for men to take time off removes a hurdle to women advancing into 
leadership roles. Second, the participation rate for caregiver leave 
has remained relatively stable since this program was introduced, 
suggesting there is a stable group of employees facing these challenges 
at any point. Having the program in place allows us to more effectively 
plan and manage our workforce. Finally, as the participation numbers--
and personal stories--suggest, implementing the new program was only 
one component of our success. Equally important has been a culture that 
empowers our people to take advantage of this benefit. Through strong 
leadership support, frequent public storytelling and role modeling 
behavior, our people have felt comfortable taking leave, secure in the 
belief that they would be supported and not face negative 
repercussions.

    Every day our professionals are helping our clients solve their 
greatest challenges and making a positive impact in their communities. 
Our leaders understand that if we want our people to grow and develop 
in their careers, and provide our clients with exceptional service, we 
need to support them in all facets of their lives. To put it simply, we 
do not want our people to leave the workforce due to caregiving needs 
at home. It's our responsibility and commitment as an organization to 
our people to ensure that they don't have to make that choice between 
family and career.

    Thank you again, Chairman Cassidy and Ranking Member Brown, for 
providing me with this opportunity to share information with the 
subcommittee about Deloitte's Paid Family Leave Program. I look forward 
to answering any questions you or the other members may have about it 
at this time.

                                 ______
                                 
         Questions Submitted for the Record to Carolyn O'Boyle
             Questions Submitted by Hon. Michael F. Bennet
    Question. From your testimony, it seems your new Paid Leave Program 
has had remarkable benefits for employees, but you've also cited 
several benefits for the firm: increased retention, reduced 
absenteeism, and improved engagement and productivity.

    Ms. O'Boyle, what do you think the impact of a national paid leave 
program would be on our economy and economic growth, from the company's 
point of view?

    Answer. In our experience, Deloitte's Paid Family Leave Program has 
been extremely beneficial--reducing turnover and increasing employee 
engagement. We acknowledge that there is no one-size-fits-all model 
that will work for all organizations. That said, we do believe 
caregiving programs like Deloitte's could positively impact the broader 
economy in these same ways.

    Question. You've mentioned that culture was equally important in 
empowering people to take advantage of your program. Could a national 
paid leave program be successful if it depends so much on each 
company's individual culture?

    Answer. Culture has been important in helping our professionals 
feel comfortable and empowered to take advantage of this program. 
Making a national paid leave program a benefit for all could provide a 
sense of that empowerment outside of any one company's culture.

    Question. Deloitte has operations in several States that have their 
own paid family leave programs, including recent legislation that was 
just passed in Massachusetts.

    Answer. To the extent a Deloitte employee may be eligible for both 
Deloitte's Paid Family Leave Program and a State family leave or wage 
replacement program, the employee would apply for both programs and the 
benefits would be coordinated. Specifically, Deloitte would offset any 
Paid Family Leave benefits it pays to the employee by the amount of the 
State benefit for which the employee is eligible so that the employee 
receives no more than 100 percent of his/her salary

    Question. In your testimony, you mentioned that men are now 
participating more and taking longer leaves. You said that making it 
more acceptable and conducive for men to take time off was removing a 
hurdle for women to advance into leadership roles. You even mentioned 
that higher participation by men was positively contributing to the 
careers of women who don't work at the firm.

    Could you describe how paid family leave can lead to better gender 
parity in the workplace?

    Answer. Well-intended, traditional leave programs that provide a 
disproportionate amount of time off for women versus men may 
unintentionally be perpetuating or reinforcing stereotypes around 
``traditional'' gender and family roles. However, today's workforce is 
dramatically different, with an increasingly wide range of non-
traditional family structures in place, including single-parent 
households, dual-income parents, female breadwinners, and a multi-
generational workforce--each of whom face their own set of unique 
challenges in supporting the well-being needs of their families. As 
such, by acknowledging that caregiving needs are ultimately gender-
neutral, paid family leave could break down some of the historical 
gender barriers and reduce gender-based biases, leading to greater 
parity in the workplace.

    Question. How important is it for men and women to receive the same 
amount of time off for things like a new baby?

    Answer. Given the changing nature of caregiving in the U.S. today, 
we believe that both men and women of all generations face challenges 
in supporting the well-being needs of their families. We do not believe 
these needs are gender-specific--rather, they are unique to each 
individual and family--and, as such, it's important that the amount of 
time off is also consistent.

    Question. In addition to parental leave, your policy also allows 
paid leave for things like caring for a spouse or parent. Some 
proponents argue this improves the gender parity of paid leave and the 
workplace. What have you seen at Deloitte?

    Answer. At Deloitte, we realized that our people--both men and 
women, across generations--face challenges in supporting the unique 
well-being needs of their families, brought on by a number of factors 
including the presence of many generations in the workforce, the 
changing nature of caregiving in the U.S., and shifting societal norms. 
Our Paid Family Leave Program ``levels the playing field'' in the eyes 
of our people by acknowledging that the role of caregiver wears no 
gender or generational label, thereby reducing stereotypes and 
promoting parity across gender and generations.

                                 ______
                                 
                  Question Submitted by Hon. Tim Scott
    Question. There is a growing consensus on Capitol Hill that 
recognizes the need to promote a Federal paid leave policy that 
empowers employees who are also new parents, caregivers, and even 
chronically ill. There is also an increasingly large number of 
employers who have instituted their own paid leave policies, indicating 
that job creators are recognizing the need and desire for such a 
benefit. Just like individuals confront a host of life events that are 
unique to themselves and their families, not all employers or 
industries are the same. A mandatory Federal paid leave policy applied 
to all industries may be detrimental to definite-term, project-specific 
industries due to their different work conditions and performance 
demands. Construction jobsites, for example, employ multiple 
contractors who work consecutively on time-sensitive projects where 
both employers and employees have agreed to contracts that cover pay 
and benefits, including family leave.

    As we continue to consider various national paid leave program 
proposals, what considerations should be made to accommodate and 
complement the unique needs of various and distinct industries? 
Specifically, could you provide a more detailed description of the 
provisions for effective, productive coverage for workers and employers 
in definite-term, multi-employer performance settings?

    Answer. We acknowledge that there is no one-size-fits-all model 
that will work for all organizations. Our experiences have been 
influenced by the fact that we're a professional services firm and our 
team-based service delivery model allows us to flex when one of our 
professionals takes leave. Any national legislative proposals would 
need to consider the diversity of business models in the economy.

                                 ______
                                 
    Prepared Statement of Vicki Shabo, Vice President for Workplace 
  Policies and Strategies, National Partnership for Women and Families
    Good afternoon, Chairman Cassidy, Ranking Member Brown, and members 
of the committee. I am pleased to be here to discuss how the United 
States can adopt a paid family and medical leave program that addresses 
the needs of working people, families and businesses across the 
country.

    My name is Vicki Shabo, and I am vice president for workplace 
policies and strategies at the National Partnership for Women and 
Families. The National Partnership is a nonprofit, nonpartisan advocacy 
organization based in Washington, DC. We promote fairness in the 
workplace, reproductive health and rights, access to quality, 
affordable health care, and policies that help women and men meet the 
dual demands of work and family. Our goal is to create a society that 
is free, fair and just, where nobody has to experience discrimination, 
all workplaces are family friendly, and every family has access to 
quality, affordable health care and real economic security.

    It is encouraging that our conversation today is premised on the 
notion that there is national economic value and a human investment 
imperative in creating a national paid leave program, and that using a 
social insurance model is the best way to go. I'm very hopeful that 
this general agreement signifies that national paid family and medical 
leave is now no longer a question of ``if'' or ``why'' but rather 
``when,'' ``what'' and ``how.'' The details matter tremendously. 
Fortunately, research, experience and public opinion demonstrate 
clearly that the United States needs a comprehensive, inclusive, 
affordable, and sustainable national paid leave plan that does not 
leave anyone behind.

    At the National Partnership, we have been working on this issue for 
decades. Since our founding in 1971 as the Women's Legal Defense Fund, 
the National Partnership has fought for every major Federal policy 
advance that has helped women and families, including our leadership in 
passing the Nation's unpaid leave law, the Family and Medical Leave Act 
(FMLA), 25 years ago. Today, we convene the National Work and Family 
Coalition, which includes hundreds of organizations nationwide fighting 
for a national paid family and medical leave plan and other policies to 
create a more family friendly and equitable economy and country.

    A key part of our work to advance paid leave has involved helping 
to test policy solutions, and we have been honored and humbled to work 
with advocates and legislators in dozens of States and cities that have 
adopted paid family and medical leave and paid sick days laws that now 
cover approximately 41 million people. Just last month, we celebrated 
Massachusetts becoming the sixth State plus the District of Columbia to 
enact a comprehensive paid family and medical leave insurance program, 
and it did so with bipartisan support and the signature of a Republican 
governor. Massachusetts joins Washington State in demonstrating that 
strong, sustainable policies are achievable through real bipartisan 
partnerships and the engagement of large and small businesses, consumer 
groups, children's advocates, medical professionals, and others.

    These States set important examples as Congress considers how to 
make paid leave available for the more than 100 million working 
people--85 percent of the workforce--who do not have paid family leave 
at their jobs right now.\1\ These are sons and daughters, mothers and 
fathers, husbands and wives who too often are forced to make 
heartbreaking choices involving work and financial stability, family 
responsibilities, and providing or receiving care. Lack of access to 
paid leave is particularly challenging for people who work in 
industries and occupations that pay low wages, for workers of color and 
for women, who continue to handle most caregiving for their families 
and suffer direct and indirect economic penalties that last into 
retirement. And it is not just these individuals and families who feel 
the effects of the country's paid leave gaps, but businesses, social 
service providers, health systems, and our economy too.
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics. (2017, September). National 
Compensation Survey: Employee Benefits in the United States, March 2017 
(Table 32 and Appendix 2). Retrieved 2 July 2018, from https://
www.bls.gov/ncs/ebs/benefits/2017/ebbl0061.pdf.

    America's need for paid leave is well-established and clear--and 
need doesn't distinguish by political party, or family type, or care 
need. No one should be kept from seeing their baby's first smile, 
whether at home or in the NICU, and no one should be forced to miss the 
opportunity to help a parent--or God forbid, a child--get to cancer 
treatments, or hold the hand of a spouse as she recovers from a stroke 
---------------------------------------------------------------------------
or an injury sustained in military service.

    Too often, conversations about paid leave focus exclusively on new 
moms and babies and--to be sure--the critical importance of parental 
leave for moms, dads, and kids is well-supported by health and economic 
research. But parental leave is not even half of what's needed, and a 
poorly designed program that results in a cut in Social Security 
retirement benefits and siphons much-needed resources from existing 
Social Security obligations without providing new revenue for benefits 
and administration would grave harm.

    In my testimony today, I will first talk about why the United 
States needs a comprehensive paid leave plan and present research and 
evidence that supports our vision of what a national paid leave plan 
should include. Right now, the only pending legislation that reflects 
that vision is the Family And Medical Insurance Leave (FAMILY) Act (S. 
337/H.R. 947). I will also discuss our deep concerns about a plan 
proposed by the Independent Women's Forum in which Senators Rubio, 
Ernst, and Lee have expressed interest. This plan has includes elements 
that are gravely concerning and would do more harm than good, 
including: (1) forcing unnecessary tradeoffs between paid leave and 
Social Security benefits, which will have devastating effects on the 
retirement security of women, low-wage workers, and people of color; 
(2) limiting guaranteed access to paid leave to parents of new children 
while excluding millions of others who need paid family or medical 
leave, which will lead to a double-hit for many older workers; and (3) 
setting benefits too low to make paid leave affordable for most people 
and, in the process, reinforcing rather than reducing gender bias. I 
look forward to this hearing today as the beginning of what I hope will 
be a robust bipartisan conversation that soon leads to a national paid 
leave solution.
   i. a shifting landscape for families: demographic and labor force 
 trends require a comprehensive national paid family and medical leave 
                                solution
    Discussions about paid leave--here in Congress, at the State and 
local levels, in the private sector, among researchers, and in the 
media--are more vibrant than ever. The economic imperative for a 
national policy on paid leave is now part of conversations in both the 
Democratic and Republican parties and in boardrooms and breakrooms in 
unprecedented and very welcome ways. Conservative and progressive 
economists and politicians warn that the country is missing out on 
substantial economic activity--estimated at $500 billion dollars by the 
U.S. Department of Labor--because women, in particular, are held back 
from participating in the workforce in equal shares as their peers in 
other high-wealth countries.\2\ Families lose an estimated $20.6 
billion in wages each year due to inadequate or no paid leave.\3\ 
Employers bear high costs of turnover, ranging between 16 percent and 
more than 200 percent of a worker's annual wages, when people leave 
their jobs \4\--which employees are about four times more likely to do 
when they do not have paid leave.\5\ And the human and fiscal costs of 
America's paid leave crisis--measured in child and maternal health 
effects, nursing home utilization, long-term health costs and more--are 
vast. This is why child development experts,\6\ business and management 
experts,\7\ medical providers and experts in social work and 
gerontology \8\ have joined advocacy and small business organizations 
\9\ in telling Congress that it is past time to address America's paid 
leave crisis with a comprehensive, national paid family and medical 
leave program.
---------------------------------------------------------------------------
    \2\ U.S. Department of Labor. (2015, September). The Cost of Doing 
Nothing: The Price We All Pay Without Paid Leave Policies to Support 
America's 21st Century Working Families. Retrieved 2 July 2018, from 
https://www.dol.gov/wb/resources/cost-of-doing-nothing.pdf; see also 
American Enterprise Institute and Brookings Institution. (2017, May). 
Paid Family and Medical Leave: An Issue Whose Time Has Come. Retrieved 
2 July 2018, from https://www.
brookings.edu/wp-content/uploads/2017/06/
es_20170606_paidfamilyleave.pdf.
    \3\ Glynn, S.J., and Corley, D. (2016, September). The Cost of 
Work-Family Policy Inaction: Quantifying the Costs Families Currently 
Face as a Result of Lacking U.S. Work-Family Policies. Center for 
American Progress publication. Retrieved 2 July 2018, from https://cdn.
americanprogress.org/wp-content/uploads/2016/09/22060013/
CostOfWorkFamilyPolicyIn
action-report.pdf.
    \4\ Boushey, H., and Glynn, S.J. (2012, November 16). There Are 
Significant Business Costs to Replacing Employees. Center for American 
Progress publication. Retrieved 2 July 2018, from https://
cdn.americanprogress.org/wp-content/uploads/2012/11/16084443/
CostofTurnover0815.
pdf.
    \5\ Menasce Horowitz, J., Parker, K., and Graf, N. (2017, March 
23). Americans Widely Support Paid Family and Medical Leave, but Differ 
Over Specific Policies. Pew Research Center publication. Retrieved 2 
July 2018, from http://www.pewsocialtrends.org/2017/03/23/americans-
widely-support-paid-family-and-medical-leave-but-differ-over-specific-
policies/ (unpublished calculation).
    \6\ Divecha, D., and Stern, R. (2015, February 10). ``Give our 
children a strong start.'' The Hill. Retrieved 2 July 2018, from http:/
/thehill.com/blogs/congress-blog/healthcare/232214-give-our-children-a-
strong-start.
    \7\ Letter From Business School Faculty to Congress in Support of 
National Paid Leave and the FAMILY Act. (2015, September 15). Retrieved 
2 July 2018, from http://worklife.
wharton.upenn.edu/wp-content/uploads/2012/11/Final-Business-School-
Professors-Letter-to-Congress-in-Support-of-the-FAMILY-Act-September-
15-2015.pdf.
    \8\ Aging and Social Work Experts' Letter to Congress in Support of 
Strong National Paid Family and Medical Leave. (2017, November 1). 
Retrieved 2 July 2018, from http://www.bc.edu/content/dam/files/
research_sites/agingandwork/pdf/documents/Caregiving_letter_10_30_2017
.pdf.
    \9\ FAMILY Act Coalition Letter to Congress. (2016, June 29). 
Retrieved 2 July 2018, from http://www.nationalpartnership.org/
research-library/work-family/coalition/family-act-coalition
-letter.pdf; National Partnership for Women and Families. (2017, 
February). Organizations Endorsing the Family And Medical Insurance 
Leave (FAMILY) Act. Retrieved 2 July 2018, from http://
www.nationalpartnership.org/research-library/work-family/coalition/
family-act-reintroduction-coalition-quote-sheet.pdf.

A. The Indisputable Need for Leave So Parents Can Care for Children--
        Not Just at Birth or Adoption But for the Long Haul
    Much of the national conversation about, and attention to, paid 
leave has focused on the needs of mothers and, increasingly, fathers to 
care for their newborn children. We absolutely know that parental 
leave--for all parents of new children, whether newborn, newly adopted 
or newly placed in a foster home--is important for families' economic 
security, women's workforce participation and earnings over time, child 
and maternal health, shared division of care within two-parent 
households, and family well-being.\10\ Parental leave also helps 
families maintain financial independence and reduce their use of public 
programs, such as Supplemental Nutrition Assistance Program (SNAP) or 
other public assistance.\11\ Rather than pursuing draconian SNAP and 
Medicaid work requirements that punish people for experiencing poverty, 
we should look to paid leave as a policy that truly promotes a 
connection to work. With paid leave, women are more likely to return to 
work and to earn higher wages within the year after a child's birth, 
and both women and men are significantly less likely to use SNAP or 
other public programs in the year after a child's birth.\12\ A national 
commitment to paid leave is a national commitment to increasing 
workforce attachment, labor force participation and financial 
independence.
---------------------------------------------------------------------------
    \10\ ZERO TO THREE and National Partnership for Women and Families. 
(2017, January). The Child Development Case for a National Paid Family 
and Medical Leave Program. Retrieved 2 July 2018, from http://
www.nationalpartnership.org/research-library/work-family/paid-leave/
the-child-development-case-for-a-national-paid-family-and-medical-
leave-insurance-program.pdf; American Academy of Pediatrics (2015, 
March 20). Major Pediatric Associations Call for Congressional Action 
on Paid Leave. Retrieved 3 July 2018, from https://www.aap.org/en-us/
about-the-aap/aap-press-room/pages/familyleaveact.aspx.
    \11\ Houser, L., and Vartanian, T.P. (2012, January). Pay Matters: 
The Positive Impacts of Paid Family Leave for Families, Businesses and 
the Public. Rutgers, the State University of New Jersey Center for 
Women and Work publication. Retrieved 2 July 2018, from http://www.
nationalpartnership.org/research-library/work-family/other/pay-
matters.pdf; Houser, L., and Vartanian, T.P. (2012, April). Policy 
Matters: Public Policy, Paid Leave for New Parents, and Economic 
Security for U.S. Workers. Rutgers, the State University of New Jersey 
Center for Women and Work publication. Retrieved 2 July 2018, from 
http://go.nationalpartnership
.org/site/DocServer/RutgersCWW_Policy_Matters_April2012.pdf; see also 
note 5.
    \12\ Houser, L., and Vartanian, T.P. (2012, January). Pay Matters: 
The Positive Impacts of Paid Family Leave for Families, Businesses and 
the Public. Rutgers, the State University of New Jersey Center for 
Women and Work publication. Retrieved 2 July 2018, from http://www.
nationalpartnership.org/research-library/work-family/other/pay-
matters.pdf; Houser, L., and Vartanian, T.P. (2012, April). Policy 
Matters: Public Policy, Paid Leave for New Parents, and Economic 
Security for U.S. Workers. Rutgers, the State University of New Jersey 
Center for Women and Work publication. Retrieved 2 July 2018, from 
http://go.nationalpartnership
.org/site/DocServer/RutgersCWW_Policy_Matters_April2012.pdf.

    Indeed, it is very encouraging that a growing number of lawmakers 
on both sides of the political aisle agree, at least in principle, that 
the United States needs a national approach to paid parental leave. But 
details matter tremendously--and a program that undermines social 
insurance protections without new revenue, fails to replace wages at 
rates that allow both lower-income and middle-income families to afford 
leave, and fails to provide employment security is not the approach we 
support or the country needs. I'll come back to those points in Section 
III below--but first I would like to address the evidence that 
demonstrates that a plan that provides leave only in connection with a 
---------------------------------------------------------------------------
child's birth or adoption isn't nearly enough.

    Children's health needs do not end after the first few months of 
their lives. Children, especially those with disabilities and chronic 
health issues, may need care for months or years. When a child is 
critically ill--whether at birth or later--the presence of a parent 
shortens her or his hospital stay by 31 percent.\13\ Active parental 
involvement in a child's hospital care may head off future health care 
needs and reduce costs.\14\ But parents without paid leave risk their 
economic security and their child's well-being by providing care. And 
sometimes it's the parent of a young child who needs care themselves or 
must provide care for another family member--and the lack of paid leave 
in those situations can have serious, long term effects on household 
financial stability too.
---------------------------------------------------------------------------
    \13\ Heymann. J. (2001, October 15). The Widening Gap: Why 
America's Working Families Are in Jeopardy--and What Can Be Done About 
It. New York, NY: Basic Books.
    \14\ Heymann, J., and Earle, A. (2010). Raising the global floor: 
dismantling the myth that we can't afford good working conditions for 
everyone. Stanford, CA: Stanford Politics and Policy.

    A more comprehensive approach would best serve parents and kids. A 
12-week unpaid leave sends millions of working families down deep 
financial rabbit holes, whereas a paid leave plan that provides even 
two-thirds' wage replacement for any FMLA reason during that time is 
estimated to reduce the percentage of families that face significant 
economic insecurity by a whopping 81 percent nationwide and by 82 
percent in the States represented by the chair and ranking member of 
this subcommittee.\15\
---------------------------------------------------------------------------
    \15\ diversitydatakids.org. (2018). Full-Year Working Adults Ages 
21-64 Living in Families Estimated to be Below 200 Percent of the 
Federal Poverty Line After Wage Loss Due to 12 Weeks of Paid/Unpaid 
Family or Medical Leave (Share). Brandeis University, The Heller 
School, Institute for Child, Youth, and Family Policy publication. 
Retrieved 2 July 2018, from http://www.diversitydatakids.org/data/
ranking/670/full-year-working-adults-ages-21-64-living-in-families-
estimated-to-be-below-200/#loct=2&cat=54,25&tf=21&ch=132,133,134 
(unpublished calculation by the National Partnership for Women and 
Families).

B. The Urgent and Growing Need for Family Care Leave and Personal 
        Medical Leave
    Put simply, paid leave for new parents is necessary, but it is not 
a sufficient or complete response to the needs of working people and 
families. In fact, according to the most recent data commissioned by 
the U.S. Department of Labor, leaves taken for the birth or placement 
of a child account for about one-fifth (21 percent) of the 20 million 
leaves taken for FMLA purposes each year.\16\ In contrast, as shown in 
the pie chart below, approximately 75 percent of people take leave to 
care for a seriously ill, injured, elderly or disabled loved one, a 
serious personal injury, illness or disability, or to address the 
deployment or injury of a military service member in their family.\17\
---------------------------------------------------------------------------
    \16\ Klerman, J.A., Daley, K., and Pozniak, A. (2012, September 7). 
Family and Medical Leave in 2012: Technical Report. Abt Associates 
publication. Retrieved 2 July 2018, from http://www.dol.gov/asp/
evaluation/fmla/fmla2012.htm.
    \17\ Ibid.

    [GRAPHIC] [TIFF OMITTED] T1118.001
    

    In States that have had temporary disability insurance (TDI) and 
paid family leave programs in place the longest, people who take paid 
medical leave through the States' TDI programs also account for a much 
larger share of claims than parental leave or family care leave.\18\
---------------------------------------------------------------------------
    \18\ Analysis of State temporary disability insurance and paid 
family leave insurance programs in California, New Jersey, and Rhode 
Island conducted by Dr. Sarah Jane Glynn for the National Partnership 
for Women and Families, January 2018, based on: State of California 
Employment Development Department. (2018, June 12). Disability 
Insurance (DI)--Monthly Data. Retrieved 2 July 2018, from https://
data.edd.ca.gov/Disability-Insurance/Disability-Insurance-DI-Monthly-
Data/29jg-ip7e/data; State of California Employment Development 
Department. (2018, June 12). Paid Family Leave (PFL)--Monthly Data. 
Retrieved 2 July 2018, from https://data.edd.ca.gov/Disability-
Insurance/Paid-Family-Leave-PFL-Monthly-Data/r95e-fvkm; New Jersey 
Department of Labor and Workforce Development. (2016, October). 
Temporary Disability Insurance Workload in 2015: Summary Report. 
Retrieved 6 July 2018, from https://www.nj.gov/labor/forms_pdfs/tdi/
TDI%20Report%20for%202015.pdf; New Jersey Department of Labor and 
Workforce Development. (2016, October). Family Leave Insurance Workload 
in 2015: Summary Report. Retrieved 6 July 2018, from https://
www.nj.gov/labor/forms_pdfs/tdi/
FLI%20Summary%20Report%20for%202015.pdf; Rhode Island Department of 
Labor and Training. (2017). TDI Annual Update: January-December 2016. 
Retrieved 6 July 2018, from http://www.dlt.ri.gov/lmi/pdf/tdi/2016.pdf; 
Silver, B., Mederer, H., and Djurdjevic. E. (2016, April). Launching 
the Rhode Island Temporary Caregiver Insurance Program (TCI): Employee 
Experiences One Year Later. Retrieved 6 July 2018, from http://
www.dlt.ri.gov/tdi/pdf/RIPaidLeaveFinalRpt0416URI.pdf.

    Health emergencies should not trigger financial emergencies--but 
too often they do because workers who cannot access paid leave either 
forgo leave altogether or face substantial financial challenges, 
leading them to dip into savings earmarked for another purpose, take on 
debt, put off paying bills or use public assistance programs.\19\
---------------------------------------------------------------------------
    \19\ Stepler, R. (2017, March 23). Key takeaways on Americans' 
views of and experiences with family and medical leave. Pew Research 
Center publication. Retrieved 6 July 2018, from http://
www.pewresearch.org/fact-tank/2017/03/23/key-takeaways-on-americans-
views-of-and-experiences-with-family-and-medical-leave/ft_17-03-
23_familyleavetakeaways_2/.

    A white paper the National Partnership will release soon, co-
authored by Dr. Sarah Jane Glynn, who is a fellow with the National 
Academy of Social Insurance and a member of the bipartisan Brookings-
AEI Working Group on Paid Leave, shows that demand for family 
caregiving and personal medical leave will only continue to grow. This 
white paper builds on a report we released last year, Our Aging, Caring 
Nation, which shows that a parents-only paid leave plan would leave 
behind too many people in every State.\20\ Louisiana's population, for 
example, has one of the highest shares of family caregivers, with one-
fifth of adults caring for family members with an illness or 
disability; a parental leave-only plan would do nothing to support 
them, enhance their families' economic stability or address their care 
needs.\21\
---------------------------------------------------------------------------
    \20\ National Partnership for Women and Families. (2017, June). Our 
Aging, Caring Nation: Why a U.S. Paid Leave Plan Must Provide More Than 
Time to Care for New Children. Retrieved 2 July 2018, from http://
www.nationalpartnership.org/research-library/work-family/paid-leave/
our-aging-caring-nation-why-a-us-paid-leave-plan-must-provide-more-
than-time-to-care-for-new-children.pdf.
    \21\ Ibid.

    Family caregiving is a major part of life for millions of working 
people. Today, 43.5 million people provide unpaid care to family 
members, and most family caregivers also have full-time, paying 
jobs.\22\ An estimated 36 million working age adults live with a family 
member with a disability.\23\ And there is increasing stress on members 
of the sandwich generation, the portion of the workforce that is caring 
for both children and older adults.\24\ Millennials (18- to 34-year-
olds), whom policymakers may incorrectly assume only need leave to care 
for a new child, actually need a much more comprehensive leave plan: 
Among the Nation's 40+ million caregivers, one in four is a millennial, 
who is typically providing 20 or more hours of care to a family member 
with a serious health issue and working full-time.\25\ In addition, the 
majority of military caregivers--and more than three-quarters of 
caregivers for post-9/11 wounded warriors--are also in the labor 
force.\26\
---------------------------------------------------------------------------
    \22\ National Alliance for Caregiving. (2015, June). Caregiving in 
the U.S. 2015. National Alliance for Caregiving and AARP Public Policy 
Institute publication. Retrieved 2 July 2018, from http://www.aarp.org/
content/dam/aarp/ppi/2015/caregiving-in-the-united-states-2015-report-
revised.pdf.
    \23\ Grant, K., Sutcliffe, T.J., Dutta-Gupta, I., and Goldvale, C. 
(2017, October 1). Security and Stability: Paid Family and Medical 
Leave and its Importance to People With Disabilities and Their 
Families. Georgetown Center on Poverty and Inequality publication. 
Retrieved 2 July 2018, from http://www.georgetownpoverty.org/wp-
content/uploads/2017/10/Georgetown_PFML
-report-hi-res.pdf.
    \24\ Parker, K., and Patten, E. (2013, January). The Sandwich 
Generation: Rising Financial Burdens for Middle-Aged Americans. Pew 
Research Center Publication. Retrieved 9 July 2018, from http://
www.pewsocialtrends.org/2013/01/30/the-sandwich-generation/; Institute 
for Women's Policy Research, and IMPAQ International. (2017, January 
19). Family and Medical Leave-Taking Among Older Workers. Retrieved 2 
July 2018, from https://iwpr.org/publications/family-medical-leave-
taking-among-older-workers/.
    \25\ Flinn, B. (2018, May). Millennials: The Emerging Generation of 
Family Caregivers. AARP Public Policy Institute Publication. Retrieved 
2 July 2018, from https://www.aarp.org/content/dam/aarp/ppi/2018/05/
millennial-family-caregivers.pdf.
    \26\ Ramchand, R., Tanielian, T., Fisher, M.P., Vaughan, C.A., 
Trail, T.E., Epley, C., Voorhies, P., Robbins, M.W., Robinson, E., and 
Ghosh-Dastidar, B. (2014). Hidden Heroes: America's Military Caregivers 
(see Figure 3.8). RAND Corporation publication. Retrieved 9 July 2018, 
from http://www.rand.org/health/projects/military-caregivers.html.

    Demographic trends point squarely to even more strain on people 
caring for elderly relatives in coming decades. In 2000, the median age 
in the United States was 35.3,\27\ but as the Baby Boom generation 
continues to age, the median age is projected to rise to 41 by 2060; 
the size of the population 65 years or older is projected to be larger 
than the population under 18 by then.\28\ These lopsided generational 
numbers don't add up when it comes to care. The mismatch between the 
Baby Boom generation and the generations that have followed means that 
the number of potential family caregivers for each person age 80 and 
older will fall from about one in seven in 2010 to one in four by 2030, 
and then to less than one in three by 2050.\29\ Each family member 
available to provide care will be called on to do more, for more aging 
loved ones, while likely also needing to hold a paying job. A plan that 
covers only new parents utterly fails to address their needs or those 
realities.
---------------------------------------------------------------------------
    \27\ U.S. Census Bureau. (2017, June 22). The Nation's Older 
Population Is Still Growing, Census Bureau Reports [press release]. 
Retrieved 7 July 2018, from https://www.census.gov/newsroom/press-
releases/2017/cb17-100.html.
    \28\ Ortman, J. (2012, December 14). A Look at the U.S. Population 
in 2060. Retrieved 7 July 2018, from https://www.census.gov/newsroom/
cspan/pop_proj/20121214_cspan_popproj.pdf.
    \29\ Redfoot, D., Feinberg, L., and Houser, A. (2013, August). The 
Aging of the Baby Boom and the Growing Care Gap: A Look at Future 
Declines in the Availability of Family Caregivers. AARP Public Policy 
Institute publication. Retrieved 2 July 2018, from http://www.aarp.org/
content/dam/aarp/research/public_policy_institute/ltc/2013/baby-boom-
and-the-growing-care-gap-insight-AARP-ppi-ltc.pdf.

    This is a care issue, a personal economic security issue for the 
growing legions of caregivers and a budget issue for the United States. 
The interactions between caregiving and retirement security are 
especially germane as this committee considers whether to force 
tradeoffs between Social Security retirement benefits and paid parental 
leave. AARP and MetLife Mature Market Institute estimate that a woman 
who is 50 years of age or older who leaves the workforce to care for an 
aging parent will lose more than $324,000 in wages and retirement.\30\ 
For men, the figure is substantial as well--close to $284,000 in lost 
wages and retirement.\31\ It would be a cruel double hit to adopt a 
paid leave plan that fails to cover family caregivers while 
simultaneously forcing trade-offs between parental leave and Social 
Security retirement benefits: Older workers caring for loved ones would 
not have paid leave when they need it--and those who took parental 
leave decades earlier would face delayed retirement and lower Social 
Security benefits from a plan that carves parental leave benefits out 
of Social Security retirement funds. Both a paid leave plan and Social 
Security must honor the value of caregiving.
---------------------------------------------------------------------------
    \30\ MetLife Mature Market Institute. (2011, June). The MetLife 
Study of Caregiving Costs to Working Caregivers: Double Jeopardy for 
Baby Boomers Caring for Their Parents. Retrieved 2 July 2018, from 
https://www.caregiving.org/wp-content/uploads/2011/06/mmi-caregiving-
costs-working-caregivers.pdf.
    \31\ Ibid.

    In addition, most working people will themselves need medical leave 
at some point in their lives and millions of people do not have it--a 
compelling national problem that any national paid family and medical 
leave program should solve. Less than 40 percent of the workforce has 
personal medical leave through an employer's TDI plan and access varies 
dramatically by job type and wage level.\32\ There are increasing 
numbers of mothers-to-be who face life-threatening complications during 
or after childbirth;\33\ a growing number of Americans with chronic 
health conditions;\34\ and a growing share of older people who remain 
in the workforce well past the traditional retirement age either 
because they want to continue working or because they have no other 
financial option but may also have chronic or acute health issues.\35\ 
Ensuring working people can have paid leave to take time away from 
their jobs with access to some wage replacement and then go back to 
work is far preferable to the alternatives, which include no leave, 
delayed care that jeopardizes their health and increases costs, or an 
exit from the workforce altogether.
---------------------------------------------------------------------------
    \32\ See note 1, table 16.
    \33\ Norton, A. (2012, October). ``Birth Complications on the Rise 
in the U.S., Study Finds.'' Huffington Post. Retrieved 2 July 2018, 
from http://www.huffingtonpost.com/2012/10/24/usbirth-
complications_n_2008771.html.
    \34\ See note 23; see also Bodenheimer, T., Chen, E., and Bennett, 
H.D. (2009, January 1). ``Confronting the Growing Burden of Chronic 
Disease: Can the U.S. Health Care Workforce Do the Job?'' 
HealthAffairs, 28(1), https://doi.org/10.1377/hlthaff.28.1.64.
    \35\ U.S. Bureau of Labor Statistics. (2017, October 24). Civilian 
labor force participation rate, by age, sex, race, and ethnicity, Table 
3.3 Civilian labor force participation rate, by age, sex, race, and 
ethnicity, 1996, 2006, 2016, and projected 2026. Retrieved 7 July 2018, 
from https://www.bls.gov/emp/ep_table_303.htm; Lester, G. (2009). The 
Aging Workforce and Paid Time Off. University of California, Berkeley 
Institute for Research on Labor and Employment publication. Retrieved 7 
July 2018, from http://www.irle.berkeley.edu/files/2009/The-Aging-
Workforce-and-Paid-Time-Off.pdf; see also note 20.

    Evidence of the value of paid leave to working people, their 
families, health systems and government is clear. Paid family leave can 
support working people who are helping older family members recover 
from serious health issues, fulfill treatment plans, and avoid 
complications and hospital readmissions--all of which boost health and 
reduce costs.\36\ Among cancer patients and survivors, access to paid 
leave is significantly related to completing treatment, managing 
symptoms and side effects, and being able to afford treatments--yet 
only half of cancer patients and survivors report having access to paid 
leave that extends beyond a few paid sick days.\37\ Among family 
members caring for a loved one with cancer, access to paid leave is 
significantly related to helping loved ones get to treatment, caring 
for them and caring for their own health, but only 4 in 10 caregivers 
say they are able to take paid leave.\38\ Family caregiving can also 
support aging in place, which can reduce costs on public programs, but 
this is more practical when paid leave is available. A California study 
found that implementation of the State's paid leave program accounted 
for an 11-percent relative decline in elderly nursing home usage.\39\ 
And, for the millions of families in communities that are struggling 
with opioid and other substance use disorders, paid leave supports 
family caregivers, who play a key role in care and recovery by helping 
loved ones with health care arrangements and treatment.\40\
---------------------------------------------------------------------------
    \36\ See e.g., Institute of Medicine. (2008, April 11). Retooling 
for an Aging America: Building the Health Care Workforce (p. 254). 
Retrieved 2 July 2018, from http://www.
nationalacademies.org/hmd/reports/2008/retooling-for-an-aging-america-
building-the-health-care-workforce.aspx; Arbaje, A.I., Wolff, J.L., Yu, 
Q., Powe, N.R., Anderson, G.F., and Boult, C. (2008). ``Postdischarge 
Environmental and Socioeconomic Factors and the Likelihood of Early 
Hospital Readmission Among Community-Dwelling Medicare Beneficiaries.'' 
The Gerontologist 48(4), 495-504. Summary retrieved 9 July 2018, from 
https://www.ncbi.nlm.nih.gov/pubmed/18728299.
    \37\ American Cancer Society Action Network. (2017, December 8). 
Key Findings--National Surveys of Cancer Patients, Survivors, and 
Caregivers. Retrieved 2 July 2018, from https://www.acscan.org/sites/
default/files/ACS%20CAN%20Paid%20Leave%20Surveys%20Key%20Find
ings%20Press%20Memo%20FINAL.pdf.
    \38\ Ibid.
    \39\ Arora, K., and Wolf, D.A. (2017, November 3). ``Does Paid 
Family Leave Reduce Nursing Home Use? The California Experience.'' 
Journal of Policy Analysis and Management, 37(1), 38-62. Retrieved 2 
July 2018, from http://onlinelibrary.wiley.com/doi/10.1002/pam.22038/
full.
    \40\ Biegel, D.E., Katz-Saltzman, S., Meeks, D., Brown, S., and 
Tracy, E.M. (2010). ``Predictors of Depressive Symptomatology in Family 
Caregivers of Women With Substance Use Disorders or Co-Occurring 
Substance Use and Mental Disorders.'' Journal of Family Social Work, 
13(1), 25-44. Retrieved 7 July 2018, from https://www.ncbi.nlm.nih.gov/
pmc/articles/PMC2834204/.
---------------------------------------------------------------------------
C. The Future of Work
    In addition to the demographic imperatives that intensify the need 
for paid leave, we must also look at the future of work and labor 
market trends. Of the 30 occupations with the most job growth 
anticipated between 2016 and 2026, two-thirds are occupations that 
typically pay wages below the current national median wage.\41\ These 
are also jobs that, today, are unlikely to offer paid family leave 
benefits.\42\ In addition, 10 of these 30 occupations pay low wages and 
are disproportionately held by women--which underscores the need for 
change because women continue to shoulder the bulk of caregiving for 
children and older adults in their families.\43\ Unless the private 
sector substantially enhances leave benefits for lower-wage workers--
which even conservative economists admit is extremely unlikely to 
happen \44\--public policy interventions that create a national 
baseline are required. Without them, the country will continue to 
suffer from unrealized economic growth and cost-savings--and working 
people across the country will continue to be unable to live their 
dearly-held values related to families and care.
---------------------------------------------------------------------------
    \41\ U.S. Bureau of Labor Statistics. (2018, April 11). Occupations 
with the most job growth, Table 1.4 Occupations with the most job 
growth, 2016 and projected 2026. Retrieved 7 July 2018, from https://
www.bls.gov/emp/ep_table_104.htm.
    \42\ See note 1, tables 16 and 32; see also DeSilver, D. (2017, 
March 23). Access to paid family leave varies widely across employers, 
industries. Pew Research Center publication. Retrieved 7 July 2018, 
from http://www.pewresearch.org/fact-tank/2017/03/23/access-to-paid-
family-leave-varies-widely-across-employers-industries/.
    \43\ See notes 22 and 41; see also U.S. Bureau of Labor Statistics. 
(n.d.). Household Data, Annual Averages, 11. Employed persons by 
detailed occupation, sex, race, and Hispanic or Latino ethnicity. 
Retrieved 7 July 2018, from https://www.bls.gov/cps/cpsaat11.pdf.
    \44\ Mathur, A., McCloskey, A.M., and Rachidi, A. (2017, January 
9). ``Child-Care and Paid-Leave Policies That Work for Working 
Parents.'' National Review. Retrieved 5 July 2018, from http://
www.nationalreview.com/article/443654/child-care-paid-leave-reforms-
trump-administration-congress; Gitis, B. (2016, August 15). The Earned 
Income Leave Benefit: Rethinking Paid Family Leave for Low-Income 
Workers. American Action Forum publication. Retrieved 5 July 2018, from 
https://www.americanactionforum.org/solution/earnedincome-leave-
benefit-rethinking-paid-family-leave-low-income-workers.

    Accounting for the future of work also means grappling with the 
impact of the contingent workforce and the ``gig'' economy, which is at 
least 10 percent of the workforce.\45\ It is important to adopt a 
national paid leave plan that includes people who are entrepreneurs, 
freelancers, contract workers, and others who have what today are 
considered ``nontraditional'' employment relationships that, in the 
future, may be commonplace. People should have access to paid leave, no 
matter their employers or their jobs.
---------------------------------------------------------------------------
    \45\ Mishel, L. (2018, June 7). Contingent Worker Survey is further 
evidence that we are not becoming a nation of freelancers. Economic 
Policy Institute publication. Retrieved 3 July 2018, from https://
www.epi.org/press/contingent-worker-survey-is-further-evidence-that-we-
are-not-becoming-a-nation-of-freelancers/.
---------------------------------------------------------------------------
D. Benefits to Business
    Paid leave not only benefits working families; it also benefits 
employers both directly and indirectly. This recognition, propelled by 
the growing body of evidence quantifying business value and 
experiences, is a new and welcome part of the growing bipartisan 
discussion on paid leave. Business value occurs whether paid leave is 
adopted as an internal policy or through legislation creating a paid 
family leave and medical leave insurance program.

    Businesses that choose to implement paid leave policies find they 
help attract talent. A 2016 survey by Deloitte found that 77 percent of 
workers with access to benefits reported that the amount of paid 
parental leave employers offer had some influence on their choice of 
one employer over another.\46\ And EY reports that nearly 40 percent of 
millennials say they would move to another country for better paid 
leave.\47\
---------------------------------------------------------------------------
    \46\ Deloitte. (2016, June 15). Parental leave survey: Less than 
half of people surveyed feel their organization helps men feel 
comfortable taking parental leave [press release]. Retrieved 2 July 
2018, from https://www.prnewswire.com/news-releases/deloitte-survey-
less-than-half-of-people-surveyed-feel-their-organization-helps-men-
feel-comfortable-taking-parental-leave-300284822.html.
    \47\ EY. (2015, May 5). Global generations: A global study on work-
life challenges across generations. Retrieved 2 July 2018, from https:/
/www.ey.com/Publication/vwLUAssets/EY-global-generations-a-global-
study-on-work-life-challenges-across-generations/$FILE/EY-global-
generations-a-global-study-on-work-life-challenges-across-
generations.pdf.

    Paid leave also positively affects employee retention. According to 
Pew Research Center data, a larger share of workers with paid leave 
return to their same employer,\48\ and the experiences of high-end 
companies like Google, Accenture and Aetna bear this out, with each 
reporting lower turnover rates among affected employees after improving 
their paid leave policies.\49\ Retaining workers is important because 
of the high costs that employers bear as a result of employee turnover. 
For high-wage, high-skilled workers, including in fields like 
technology, accounting and law, turnover costs can amount to 213 
percent of workers' salaries.\50\ Across all occupations, median 
turnover costs are estimated to be 21 percent of workers' annual wages 
and, even in middle- and lower-wage jobs, turnover costs are estimated 
to be 16 to more than 20 percent of workers' annual wages.\51\ Direct 
costs associated with turnover include separation costs, higher 
unemployment insurance, costs associated with temporary staffing, costs 
associated with searching for and interviewing new workers, and 
training costs for new workers.\52\ Indirect costs can arise from lost 
productivity leading to and following employee separations, diminished 
output as new workers ramp up, reduced morale and lost institutional 
knowledge.\53\
---------------------------------------------------------------------------
    \48\ See note 5.
    \49\ Stroman, T., Woods, W., Fitzgerald, G., Unnikrishnan, S., and 
Bird, L. (2017, February). Why Paid Family Leave Is Good for Business. 
Boston Consulting Group publication. Retrieved 2 July 2018, from http:/
/media-publications.bcg.com/BCG-Why-Paid-Family-Leave-Is-Good-Business-
Feb-2017.pdf.
    \50\ See note 4.
    \51\ Ibid.
    \52\ Allen, D.G., Bryant, P.C., and Vardaman, J.M. (2010). 
``Retaining talent: Replacing misconceptions with evidence-based 
strategies.'' The Academy of Management Perspectives, 24(2), 48-64.
    \53\ Hausknecht, J.P., and Holwerda, J.A. (2013). ``When does 
employee turnover matter? Dynamic member configurations, productive 
capacity, and collective performance.'' Organization Science, 24(1), 
210-225; see also note 30.

    Finally, paid leave improves employees' overall well-being: A 2016 
EY study found that more than 80 percent of companies that offer paid 
leave reported a positive impact on employee morale, and more than 70 
percent reported an increase in employee productivity.\54\ After Nestle 
improved its parental leave policy, health care costs for infants whose 
parents took paid leave under the policy went down and mothers who used 
the policy reported lower rates of anxiety and filed fewer mental 
health claims.\55\
---------------------------------------------------------------------------
    \54\ See note 49.
    \55\ The Paid Leave Project. (2017, December). Case Study: Nestle 
USA. Retrieved 2 July 2018, from http://www.paidleaveproject.org/wp-
content/uploads/2017/12/Nestle-Case-Study-layout-12-1-17.pdf.

    This data is compelling, but the reality is that--even faced with 
the most persuasive evidence possible--private-sector initiatives will 
never cover all, or even most, working people. That is why a public 
policy standard that recognizes the shared value of leave for 
---------------------------------------------------------------------------
employees, employers and the economy is needed.

    Businesses need not fear paid leave insurance programs. Research 
consistently shows that employers have not been unduly challenged by 
the public policies adopted in States, have not encountered negative 
effects of the policies, and, if anything, that companies have found 
these policies helpful. Businesses in California, New Jersey, and Rhode 
Island are supportive of those States' laws. In California, researchers 
found that the vast majority of employers see a positive effect or no 
effect on employee productivity, profitability, and performance related 
to the paid leave law that has been in place since 2004--and smaller 
businesses saw even more positive or neutral effects than larger 
businesses.\56\ Many may even have experienced cost-savings by 
coordinating their benefits with the State plan.\57\
---------------------------------------------------------------------------
    \56\ Milkman, R., and Appelbaum, E. (2013). Unfinished Business: 
Paid Family Leave in California and the Future of U.S. Work-Family 
Policy (pp. 67-68). Ithaca, NY: Cornell University Press; Bartel, A., 
et al. (2014, June 23). California's Paid Family Leave Law: Lessons 
From the First Decade. U.S. Department of Labor publication. Retrieved 
2 July 2018, from http://www.dol.gov/asp/evaluation/reports/
paidleavedeliverable.pdf.
    \57\ Ibid.

    Even the Society for Human Resource Management (SHRM), one of the 
chief opponents of paid family leave before it was passed in 
California, issued a report finding that employers' concerns about the 
program had ``not been realized'' and that the law created ``relatively 
few'' new burdens for employers.\58\ A report prepared on behalf of the 
New Jersey Business and Industry Association finds that the majority of 
both small and large New Jersey businesses adjusted easily to the 
State's law and experienced no effects on business profitability, 
performance, or employee productivity.\59\ This finding is consistent 
with qualitative research conducted among a cross-section of New Jersey 
employers.\60\
---------------------------------------------------------------------------
    \58\ Redmond, J., and Fkiaras, E. (2010, January). Legal Report: 
California's Paid Family Leave Act Is Less Onerous Than Predicted. 
Society for Human Resource Management publication. Retrieved 9 July 
2018, from https://www.sheppardmullin.com/media/article/809_CA%20Paid
%20Family%20Leave%20Act%20Is%20Less%20Onerous%20Than%20Predicted.pdf.
    \59\ Ramirez, M. (2012). The Impact of Paid Family Leave on New 
Jersey Businesses. New Jersey Business and Industry Association and 
Rutgers University, The State University of New Jersey presentation. 
Retrieved 9 July 2018, from http://bloustein.rutgers.edu/wp-content/
uploads/2012/03/Ramirez.pdf.
    \60\ Lerner, S., and Appelbaum, E. (2014, June). Business as Usual: 
New Jersey Employers' Experiences With Family Leave Insurance. Center 
for Economic and Policy Research publication. Retrieved 2 July 2018, 
from http://www.demos.org/sites/default/files/publications/nj-fli-2014-
06.pdf.

    In Rhode Island, business supporters were important allies in 
passing the paid leave law, and early research suggests that businesses 
in key industries have adjusted easily. A study of small and medium-
sized food service and manufacturing employers in Rhode Island by 
researchers at Columbia Business School reports no negative effects on 
employee workflow, productivity, or attendance, and finds that 61 
percent of employers report supporting the law.\61\ Larger and smaller 
businesses were actively engaged in crafting an extremely strong paid 
leave policy in Washington State, praised by the Washington Hospitality 
Association, the Northwest Grocery Association and the Washington 
Retail Association, and in Massachusetts as well.\62\
---------------------------------------------------------------------------
    \61\ Bartel, A., et al. (2016, January). Assessing Rhode Island's 
Temporary Caregiver Insurance Act: Insights From a Survey of Employers. 
U.S. Department of Labor publication. Retrieved 9 July 2018, from 
http://www.dol.gov/asp/evaluation/completed-studies/
AssessingRhodeIsland
TemporaryCaregiverInsuranceAct_InsightsFromSurveyOfEmployers.pdf.
    \62\ Washington Hospitality Association. (2017, June 30). 
Businesses support bipartisan law creating statewide paid family and 
medical leave. Retrieved 2 July 2018, from https://wahospitality.org/
blog/businesses-support-bipartisan-law-creating-statewide-paid-family-
and-medical-leave/; Leung, S. (2018, June 28). ``How progressives and 
businesses made an unlikely deal on family leave.'' The Boston Globe. 
Retrieved 2 July 2018, from https://www.
bostonglobe.com/business/other/2018/06/28/how-progressives-and-
businesses-made-unlikely-deal-family-leave/7fRz5Pv0VCy8WDbeG32VeP/
story.html?event=event25?event=event25.
---------------------------------------------------------------------------
 ii. a comprehensive, inclusive, affordable, and sustainable national 
       paid leave plan is what people want and the country needs
    The National Partnership and our partners in the advocacy, 
research, and business communities urge Congress to pass a national 
paid family and medical leave plan that addresses working people's need 
for leave for well-established FMLA reasons, offers meaningful benefits 
and is affordable and sustainable for workers, employers and the 
government. At this time, the Family And Medical Insurance Leave 
(FAMILY) Act (S. 337/H.R. 947) is the only Federal proposal that meets 
these essential requirements.

    The FAMILY Act would create a strong, inclusive national paid 
family and medical leave insurance program and set a nationwide paid 
leave baseline. It would cover eligible individuals across the country, 
no matter where they live, their employer or their job; and it would 
apply whether they are caring for a new child, a seriously ill or 
injured loved one, their own serious health condition or dealing with a 
family member's call to military duty or a service member's health 
issue. It would do so by creating a new, self-sustaining fund from 
which working people would receive paid leave for up to 12 weeks. 
Workers who typically earn low and even mid-level wages would receive 
two-thirds of their typical wages for that time. And people who need to 
take time away from their jobs would be protected from retaliation when 
they do.

    The FAMILY Act fund would be self-sustaining and deficit-neutral, 
just like the State programs that have paved the way. Payroll 
deductions from both employees and employers and contributions from 
self-employed workers would fund both the benefits and the 
administrative costs of the program. The program would be administered 
through a new Office of Paid Family and Medical Leave within the Social 
Security Administration (SSA) to help create an efficient, uniform 
standard. Program integrity measures would help ensure appropriate use, 
as has worked in the States. And employers that seek competitive 
advantages over competitors or have a particular desire to attract 
talent could add to FAMILY Act benefits.

    The FAMILY Act would provide the comprehensiveness and 
affordability that voters want in a paid leave plan, the help that 
small businesses need to ensure their workers have access to leave, and 
the consistency and certainty larger multi-State businesses want. It 
also reflects core values on which people of all ideologies and parties 
agree: connecting people to work, valuing care, honoring commitment to 
family, encouraging health and the responsible use of heath care 
services, supporting employment and business innovation, and 
strengthening our economy.

    Each component in the FAMILY Act is grounded in economic, health, 
business, and user-centered research, including research based on the 
experiences of workers and employers with State paid leave programs.
A. State Paid Leave Plans Show Us How to Design a Program Built to 
        Last--the FAMILY Act in Perspective
    Six States plus the District of Columbia now have or will soon have 
paid family and medical leave policies in place to guarantee private-
sector workers access to a portion of their wages when they need to 
take time away from their jobs to care for themselves, a seriously ill 
or injured loved one or a new child. California's program has been in 
place since 2004, New Jersey's since 2009, Rhode Island's since 2014 
and New York's launched this year. Each of these four States' programs 
build on decades-old TDI programs, which have provided wage replacement 
to workers with serious injuries or illnesses that required time away 
from work. Strong new programs, built from scratch, will begin 
collecting revenues within the next 2 years and begin offering paid 
leave benefits in Washington State and the District of Columbia in 
2020, and in Massachusetts in 2021.\63\
---------------------------------------------------------------------------
    \63\ National Partnership for Women and Families. (2018, July). 
State Paid Family and Medical Leave Insurance Laws. Retrieved 2 July 
2018, from http://www.nationalpartnership.org/research-library/work-
family/paid-leave/state-paid-family-leave-laws.pdf.

    Evidence from the longest-standing State programs in California, 
New Jersey, and Rhode Island shows that these programs benefit parents 
and children, people with serious health issues, employers, and 
taxpayers. Key data and findings are included in the attached National 
Partnership for Women and Families fact sheet, Paid Leave Works in 
California, New Jersey and Rhode Island. Researchers have also 
identified areas for improvement in existing programs to better meet 
people's needs. California has expanded its law multiple times and 
newer State programs have innovated on the older programs, including by 
offering higher rates of wage replacement for lower-wage workers, 
longer leave durations, a wider range of family members to whom a 
leave-taker can provide care and job protection guarantees that go 
beyond Federal or State FMLA laws. An attachment to this testimony 
---------------------------------------------------------------------------
includes a chart detailing the key parameters of each State's law.

    State policy designs offer lessons about what a workable national 
paid leave program should look like, and comparisons to more generous 
State plans show that the FAMILY Act is a reasonable, common-sense 
approach to guaranteeing paid leave to America's workforce. I'll touch 
briefly on key elements that must be embedded in any paid leave plan in 
order for it to meet the country's needs:

          Comprehensive of all FMLA-covered events and gender-equal. 
        The FAMILY Act would provide paid leave to people equally, no 
        matter their gender, for each FMLA-covered event--caring for a 
        family member with a serious health condition, one's own 
        serious health condition, military family care needs and care 
        for a new child. In every State that has adopted a paid leave 
        plan so far--and in the vast majority of the bills introduced 
        in more than 30 States in the most recent legislative 
        sessions--paid leave would be available for new parents, people 
        caring for seriously ill or injured family members and people's 
        own serious illnesses. To create consistency and to meet the 
        needs of the workforce and employers now and in the future, any 
        Federal plan must include all of the FMLA-covered reasons that 
        working people need leave and must offer gender-equal benefits.

          Adequate wage replacement. The FAMILY Act offers a 66-
        percent wage replacement rate, up to a $4,000 monthly cap. 
        Early research on California indicated that California's 
        original wage replacement rate of 55 percent was too low for 
        low-wage workers to be able to make maximum use of leave, even 
        as its weekly cap ($1,216 in 2018, around $1,000 in 2013) was 
        high enough for middle-income workers;\64\ As a result of early 
        studies and a market research report conducted by the 
        California Employment Development Department,\65\ the 
        California legislature updated the State's paid family leave 
        program in 2016 to increase the wage replacement rate up to 70 
        percent for lower-wage workers and 60 percent for others. Rhode 
        Island's plan offers approximately 60 percent of a worker's 
        wages (up to just over $800 per week); New York's plan will 
        offer a two-thirds wage replacement rate when the program is 
        fully phased in in 2021 (with a maximum weekly benefit capped 
        at $1,000); and Washington, the District of Columbia, and 
        Massachusetts have each included higher wage replacement rates 
        of 80 to 90 percent for lower-wage workers so they can afford 
        to take leave, with reduced wage replacement rates for higher-
        income workers (still averaging around two-thirds wage 
        replacement for median-wage workers, with weekly caps of $850-
        1,000 per week).\66\
---------------------------------------------------------------------------
    \64\ Bana, S., Bedard, K., and Rossin-Slater, M. (2018, May). 
``Trends and Disparities in Leave Use Under California's Paid Family 
Leave Program: New Evidence From Administrative Data.'' AEA Papers and 
Proceedings, 108, 388-391. Retrieved 3 July 2018, from https://
www.aeaweb.org/articles?id=10.1257/pandp.20181113; State of California 
Employment Development Department. (2015, December 14). Paid Family 
Leave Market Research. Retrieved 2 July 2018, from https://
www.edd.ca.gov/Disability/pdf/Paid_Family_Leave_Market_Research_
Report_2015.pdf; Milkman, R., and Appelbaum, E. (2013). Unfinished 
Business: Paid Family Leave in California and the Future of U.S. Work-
Family Policy (pp. 67-68). Ithaca, NY: Cornell University Press.
    \65\ State of California Employment Development Department. (2015, 
December 14). Paid Family Leave Market Research. Retrieved 2 July 2018, 
from https://www.edd.ca.gov/Disability/pdf/
Paid_Family_Leave_Market_Research_Report_2015.pdf.
    \66\ See note 63.

           Any Federal plan must replace at least two-thirds of a 
        worker's wages, as the FAMILY Act does, and offer a meaningful 
        capped benefit so that middle-wage workers can afford to take 
        leave. As Congress considers paid leave policy options, it 
        could also consider progressive wage replacement as the three 
        newest State programs have done, so that lower-wage workers 
---------------------------------------------------------------------------
        receive a higher share of their wages.

          Meaningful duration of leave. The FAMILY Act offers a 
        combined 12 weeks of leave annually for all FMLA purposes to 
        create consistency with the FMLA, reflect the minimum amount of 
        leave needed for maternal and child health and to provide 
        adequate paid time off for people dealing with personal or 
        family care needs.\67\ States' TDI and paid family leave 
        programs go further, and analysis shows that people only use 
        the leave they need, rather than the maximum amount 
        available;\68\ after all, with replacement of only a portion of 
        one's typical wages, people have an incentive to get back to 
        work when their need to provide or receive care is over.
---------------------------------------------------------------------------
    \67\ WORLD Policy Analysis Center. (2018, February). A Review of 
the Evidence on the Length of Paid Family and Medical Leave. Retrieved 
3 July 2018, from https://www.worldpolicycenter.
org/sites/default/files/WORLD%20Brief%20-
%20Length%20Paid%20Family%20and%20Medical
%20Leave.pdf.
    \68\ Analysis of State temporary disability insurance and paid 
family leave insurance programs in California, New Jersey, and Rhode 
Island conducted by Dr. Sarah Jane Glynn for the National Partnership 
for Women and Families, January 2018; see also Bana, S., Bedard, K., 
and Rossin-Slater, M. (2018, May). ``Trends and Disparities in Leave 
Use Under California's Paid Family Leave Program: New Evidence From 
Administrative Data.'' AEA Papers and Proceedings, 108, 388-391. 
Retrieved 3 July 2018, from https://www.aeaweb.org/articles?id=10.1257/
pandp.20181113.

           The duration of leave in the FAMILY Act is modest compared 
        to many State plans. California provides six weeks of paid 
        leave for family caregiving, including caring for a new child, 
        and 52 weeks of leave to recover from a temporary 
        disability;\69\ average utilization is 16 weeks for TDI and 5.4 
        weeks for paid family leave (women who give birth typically 
        take 12 weeks).\70\ New Jersey allows 6 weeks for family leave 
        and 26 weeks for temporary disability;\71\ average program 
        utilization is 71 days for TDI and 5.2 weeks for paid family 
        leave (again, women who give birth combine the two types of 
        leave).\72\ Rhode Island provides 4 weeks of family leave and 
        30 weeks of leave for temporary disability, up to a combined 
        total of 30 weeks per year;\73\ average utilization is 10.4 
        weeks for TDI and 3.6 weeks for paid family leave.\74\ New York 
        will eventually offer 12 weeks of family leave when the law is 
        fully phased in in 2021, and has long provided 26 weeks of 
        temporary disability leave.\75\ Washington State will soon 
        offer 12 weeks of family leave and 12 to 14 weeks of personal 
        medical leave, up to a combined total of 16 to 18 weeks per 
        year.\76\ And Massachusetts has just enacted a law that will 
        provide 12 weeks of family leave and 20 weeks of medical leave, 
        up to a combined total of 26 weeks annually.\77\
---------------------------------------------------------------------------
    \69\ Cal. Unemp. Ins. Code Sec. Sec. 3301(c), 2653.
    \70\ State of California Employment Development Department. (2018, 
June 12). Disability Insurance (DI)--Monthly Data. Retrieved 2 July 
2018, from https://data.edd.ca.gov/Disability-Insurance/Disability-
Insurance-DI-Monthly-Data/29jg-ip7e/data; State of California 
Employment Development Department. (2018, June 12). Paid Family Leave 
(PFL)--Monthly Data. Retrieved 2 July 2018, from https://
data.edd.ca.gov/Disability-Insurance/Paid-Family-Leave-PFL-Monthly-
Data/r95e-fvkm.
    \71\ N.J. Stat. Sec. 43:21-39(b).
    \72\ New Jersey Department of Labor and Workforce Development. 
(2017, August). Temporary Disability Insurance Workload in 2016: 
Summary Report. Retrieved 2 July 2018, from https://www.nj.gov/labor/
forms_pdfs/tdi/TDI%20Report%20for%202016.pdf; New Jersey Department of 
Labor and Workforce Development. (2017, August). Family Leave Insurance 
Workload in 2016: Summary Report. Retrieved 2 July 2018, from https://
www.nj.gov/labor/forms_pdfs/tdi/
FLI%20Summary%20Report%20for%202016.pdf.
    \73\ R.I. Gen. Laws Sec. Sec. 28-41-7, 28-41-35(d)(1), (f).
    \74\ Rhode Island Department of Labor and Training. (2017). 2016 
Annual Report. Retrieved 3 July 2018, from http://www.dlt.ri.gov/pdf/
2016AnnualRpt.pdf.
    \75\ N.Y. Workers' Comp. Law Sec. Sec. 204(2)(A), 205(1).
    \76\ S.B. 5975, 65th Leg., 3rd Special Sess. (Wash. 2017).
    \77\ H. 4640, 190th Gen. Court, Reg. Sess. (Mass. 2018).

          Inclusive family definitions. The FAMILY Act incorporates 
        the FMLA's definition of family members (parents, children 
        under 18, adult children incapable of self-care, spouses) and 
        domestic partners. Each State paid leave law includes those 
        covered in this definition and all but one (New Jersey) is 
        substantially more expansive, recognizing that families come in 
        many forms. For example, in 2013, California amended its law to 
        allow family caregiving for grandparents, grandchildren, 
        siblings, and parents-in-law, and now every State paid leave 
        program except New Jersey's includes caring for a grandparent 
        in addition to a parent, spouse, partner, or child. Four States 
        permit family care leave to be used for siblings; three 
        recognize grandchildren; two recognize parents-in-law.\78\ 
        Families in the United States are diverse, and Federal law 
        should recognize different ways that families manage the care 
        needs of their loved ones.
---------------------------------------------------------------------------
    \78\ See note 63.

          Affordable, sustainable funding. The FAMILY Act would be 
        funded through small payroll deductions shared equally by 
        employers and employees, or paid in full by independent 
        contractors who receive 1099 forms. This is consistent with 
        State financing of paid leave: each State plan is funded 
        through payroll deductions that are either paid by employers, 
        employees, or shared in some proportion by each. In no State 
        are payroll deductions onerous, ranging from 0.09 percent in 
        New Jersey (taxed on only the first $33,700 in wages) for 6 
        weeks of family and parental leave \79\ and 0.126 percent in 
        New York for 8 weeks of family leave (taxed on the first 
        $67,908 in wages), to up to 1 percent of wages in California 
        (taxed on employees' first $114,967 in wages), which funds a 
        statewide program offering 52 weeks of TDI and 6 weeks of 
        family care and parental leave, and 1.1 percent in Rhode Island 
        (taxed on employees' first $69,300 in wages), which funds a 
        State program offering 30 weeks of disability and 4 weeks of 
        family care and parental leave.\80\
---------------------------------------------------------------------------
    \79\ State of New Jersey Employment Development Department. (n.d.). 
FLI--Cost to the Worker. Retrieved 6 July 2018, from https://
www.nj.gov/labor/fli/content/cost.html; temporary disability insurance 
is shared in New Jersey--0.19 percent of the first $33,700 for workers 
and an amount ranging from 0.1 to 0.75 for employers on the first 
$33,700 of a workers' wages to fund the State's 26-week temporary 
disability insurance program. State of New Jersey Employment 
Development Department. (n.d.). TDI--Cost to the Worker--State Plan. 
Retrieved 6 July 2018, from https://www.nj.gov/labor/tdi/state/
sp_cost.html.
    \80\ See note 63.

           To my knowledge, there has not been any backlash in States 
        on these payroll deduction rates nor does the literature 
        reflect any indication of pushback on these rates as too high 
        or too onerous for either low-wage workers or, where 
        applicable, employers. Researchers have modeled the costs of 
        paid leave programs in States across the country and at the 
        Federal level and routinely estimate payroll deductions at or 
        below 1 percent--most within the 0.35 to 0.6 range--depending 
        on the duration of leave and the wage replacement rate.\81\
---------------------------------------------------------------------------
    \81\ Hayes, J., and Hartmann, H. (2018, February 2). Paid Family 
and Medical Leave Insurance: Modest Costs Are a Good Investment in 
America's Economy. Institute for Women's Policy Research publication. 
Retrieved 5 July 2018, from https://iwpr.org/wp-content/uploads/2018/
02/B368_Paid-Leave-Fact-Sheet-1.pdf; Pennsylvania Department of Labor 
and Industry. (2017, November 14). Paid Family and Medical Leave in 
Pennsylvania: Research Findings Report (p. 16). Retrieved 3 July 2018, 
from https://www.dol.gov/wb/media/Pennsylvania_Final_Report.pdf; 
Montana Budget and Policy Center. (2016, May). Helping People Balance 
Work and Family: It's Within Montana's Reach (Table 2). Retrieved 3 
July 2018, from http://www.mbadmin.jaunt.
cloud/wp-content/uploads/2016/07/Paid-Leave-Updated-Report-3.pdf; 
Glynn, S.J., Goldin, G., and Hayes, J. (2016). Implementing Paid Family 
and Medical Leave Insurance Connecticut (pp. 17-21). Institute for 
Women's Policy Research publication. Retrieved 3 July 2018, from 
https://www.ctdol.state.ct.us/FMLI%20report%20for%20CT.pdf; University 
of Minnesota (2016, February). Paid Family and Medical Leave Insurance: 
Options for Designing and Implementing a Minnesota Program (Table 63). 
Retrieved 3 July 2018, from https://mn.gov/deed/assets/paid-family-
medical_tcm1045-300604.pdf; Albelda, R., and Clayton-Matthews, A. 
(2016, July 18). Cost, Leave and Length Estimates Using Eight Different 
Leave Program Schemes for Washington (Table 2). Retrieved 3 July 2018, 
from http://governor.wa.gov/sites/default/files/documents/2016-11-
22_WAPaidLeave_modeling_final_report.pdf; see also ibid.

          Employment protections. The FAMILY Act would offer anti-
        retaliation protections to the 41 percent of workers who are 
        not covered by the Federal FMLA.\82\ This is critical because 
        research on California's program and New Jersey's has shown 
        that workers without FMLA job protection, particularly low-
        income workers, often fear repercussions for taking leave and 
        therefore forgo the paid leave that the State plan makes 
        available.\83\ Newer State laws address this critical need for 
        employment security, with Massachusetts offering full job 
        protection--reinstatement to the same or an equivalent job 
        after returning from leave--for family and medical leave, and 
        New York and Rhode Island offering job protection for family 
        leave. The State FMLA law in California was just amended to 
        offer job protection to new parents in smaller businesses so 
        that these paid leave-takers are protected; FMLA and anti-
        discrimination laws are also more expansive in Washington, DC 
        and Washington State and will protect some paid-leave takers 
        that are not covered by the Federal FMLA.\84\
---------------------------------------------------------------------------
    \82\ See note 16.
    \83\ See note 65; see also Setty, S., Skinner, C., and Wilson-
Simmons, R. (2016, March). Protecting Workers, Nurturing Families: 
Building an Inclusive Family Leave Insurance Program Findings and 
Recommendations From the New Jersey Parenting Project. National Center 
for Children in Poverty publication. Retrieved 3 July 2018, from http:/
/www.nccp.org/publications/pub_1152.html.
    \84\ See note 63.
---------------------------------------------------------------------------
B. Public Support for the FAMILY Act Approach
    Not only is the FAMILY Act informed by research and successful 
State experience, it is the type of plan voters support. Survey after 
survey confirms that people in the United States want and need paid 
family and medical leave and that a plan like the FAMILY Act fits their 
needs and desires. At the end of 2016, 71 percent of voters said they 
or their families would face substantial financial hardship if a 
serious family or medical need arose.\85\ Eight in 10 (82 percent) said 
it was important for Congress and the president to consider creating a 
national paid leave plan. More than three-quarters (78 percent) 
expressed support for a comprehensive, 12-week national paid family and 
medical leave law, including 66 percent of Republicans, 77 percent of 
independents and 93 percent of Democrats; nearly two-thirds of voters 
(64 percent) said they would ``strongly favor'' such a law.\86\ 
Research in 15 States conducted earlier in 2016 confirmed voters' 
willingness to pay for a paid leave plan, and most indicated they were 
willing to pay much more than the FAMILY Act would cost.\87\
---------------------------------------------------------------------------
    \85\ Lake Research Partners and the Tarrance Group. (2016, 
November). Polling commissioned by the National Partnership for Women 
and Families. Retrieved 2 July 2018, from http://
www.nationalpartnership.org/research-library/work-family/lake-research-
partners-2016-election-eve-omnibus-toplines-for-national-partnership-
for-women-and-families.pdf.
    \86\ Ibid.
    \87\ National Partnership for Women and Families. (2016, September 
29). Voters' Willingness to Pay for a National Paid Leave Fund. 
Retrieved 3 July 2018, from http://www.
nationalpartnership.org/research-library/work-family/paid-leave/memo-
voters-willingness-to-pay-for-a-national-paid-leave-fund.pdf.

    To follow up on national polling, the National Partnership 
commissioned a bipartisan research team to conduct focus groups with 
conservative and independent voters in September 2017 in Missouri, 
Nevada, Texas, and Virginia. These voters, most of whom had voted for 
the President Trump, preferred the FAMILY Act model to an employer tax 
credit, a tax-free savings account or a limited parents-only leave 
program; they found the shared contribution system used in the FAMILY 
Act to be fair, its cost to be reasonable and its comprehensive 
coverage of family care, personal medical leave, and parental leave to 
be essential to meeting their current or anticipated needs.\88\ 
Additional qualitative research commissioned around the same time by 
the national grassroots group, MomsRising, also concluded that voters 
see the need for paid leave that covers all family care needs and 
stress the importance of protecting leave-takers against adverse 
consequences at work.\89\
---------------------------------------------------------------------------
    \88\ Perry Undem Research and Bellwether Consulting. (2018, 
January). Highlights From Focus Groups With Conservative Voters on Paid 
Family and Medical Leave (on file with the National Partnership for 
Women and Families).
    \89\ Lake Research Partners and MomsRising.org (2018, February). 
Interested Parties Memo on Key Findings From Recent Qualitative 
Research. Retrieved 2 July 2018, from https://s3.amazonaws.com/
s3.momsrising.org/images/MomsRising__LPR_Interested_Parties_memo_on_
paid_leave.pdf.
---------------------------------------------------------------------------
C. Business Support for the FAMILY Act Approach
    More than 75 companies and business leaders across the country have 
endorsed the FAMILY Act.\90\ They represent a cross-section of 
industries, including apparel manufacturing and sales, food and 
hospitality, technology, and financial services. The reasons they give 
echo those offered by more than 200 business and management school 
experts who, in 2015, reached out to Congress asking for your support 
in passing the FAMILY Act \91\--gender equity, workforce and talent 
development, and U.S. competitiveness, among others.
---------------------------------------------------------------------------
    \90\ Better Workplaces, Better Businesses. (n.d.). Testimonials 
From Business Leaders Who Support the FAMILY Act. Retrieved 2 July 
2018, from http://betterwbb.org/testimonials-from-business-leaders-who-
support-the-family-act/.
    \91\ See note 7.

    Over the past 2 years, in individual discussions with company 
leaders and in meetings with employer coalitions and benefits 
consultants, we have seen a growing interest in establishing a national 
paid leave baseline. Some businesses want the certainty and stability 
that a Federal standard would provide; they believe paid leave is 
coming, either at the State level or nationally, and would prefer to 
level-set on a national basis. Others focus on the value that their own 
strong paid leave policies have had on their employees' lives and 
believe that all working people and families should have the same. For 
example, a senior leader at Environmental Science Associates (ESA), a 
mid-size company with several hundred employees at offices in 
California and several other States, has spoken publicly about the 
positive effects that California's law has had on employees there and 
indicated that ESA would like their employees in other States to have 
those benefits through public policy too.\92\
---------------------------------------------------------------------------
    \92\ Bonilla, A. (2017, March 29). ``Making the Business Case for a 
More Family Friendly and Prosperous America'' [video stream of Silicon 
Valley Community Foundation event]. Retrieved 6 July 2018, from https:/
/www.facebook.com/LeaveLogic/videos/1455624167795091/.

    It is not just larger businesses that support the FAMILY Act 
approach. Smaller businesses across the country see value in a shared-
cost model like the ones that have benefited small companies in 
California, New Jersey, and Rhode Island. These small business owners 
say the FAMILY Act model would help level the playing field with large 
corporations, improve worker retention, productivity and morale, and 
help protect their own economic security if an accident or medical 
emergency occurs.\93\ This is part of the reason that 70 percent of 
small businesses with 100 or fewer employees surveyed nationwide 
support the FAMILY Act model of shared payroll deductions.\94\
---------------------------------------------------------------------------
    \93\ Main Street Alliance. (2017). National Paid Family and Medical 
Leave: A Proposal for Small Business Success. Retrieved 2 July 2018, 
from https://d3n8a8pro7vhmx.cloudfront.net/
mainstreetalliance/pages/10/attachments/original/1486411533/
PFML_2017_Report.pdf?14864
11533.
    \94\ Lake Research Partners. (2017, February). Polling commissioned 
by Small Business Majority and Center for American Progress. Retrieved 
2 July 2018, from http://www.smallbusiness
majority.org/sites/default/files/research-reports/033017-paid-leave-
poll.pdf.
---------------------------------------------------------------------------
      iii. paid leave and retirement security are both important--
              one cannot come at the expense of the other
    The developing consensus that a social insurance model is the right 
way to design a national paid leave program is encouraging--and we 
agree that, with new resources for start-up and technology 
improvements, benefits and administration, the SSA is the agency that 
is best positioned to administer this benefit. But it is reckless and 
unnecessary to jeopardize Social Security's core functions and workers' 
retirement savings in order to provide paid leave. Social Security 
represents a promise to U.S. workers and their families that has been 
built up and honored for more than 80 years; Social Security has a 
history of updates to better reflect people's needs, but those updates 
have always been additive. Social Security should not be limited, cut, 
or privatized.

    No one should face delayed retirement and a benefit cut in the 
future because they access paid leave today. We are deeply concerned 
that, under a plan proposed by the Independent Women's Forum (IWF), 
working people would face exactly that Hobson's choice.\95\ The IWF 
proposal would fundamentally alter the operating principle of Social 
Security by contemplating that people who use the program early in life 
would later face a penalty for doing so. No paid leave program should 
ever penalize those who use it.
---------------------------------------------------------------------------
    \95\ We are responding here to the January 2018 ``policy focus'' 
paper published by the Independent Women's Forum, which proposes 
allowing people to use existing Social Security resources, at Social 
Security Disability Insurance wage replacement rates, to fund 12 weeks 
of paid parental leave. See Shapiro, K.A. (2018, Jan.), A Budget 
Neutral Approach to Parental Leave. Independent Women's Forum 
publication. Retrieved 9 July 2018 from http://iwf.org/publications/
2805496/Policy-Focus:-A-Budget-Neutral-Approach-to-Parental-Leave.

    There are five key problems with the IWF approach, based on the 
research and evidence presented above, the realities of retirement for 
millions of women, low-
income workers, and people of color, and the current circumstances of 
the SSA itself.
A. Parental Leave Only Is Insufficient
    First, as discussed in Section I, any plan that applies only to 
parents caring for new children and excludes 75 percent of people who 
take family and medical leave is unacceptable, short-sighted, and would 
very likely be detrimental to the income and retirement security of a 
growing share of the population caring for aging and ill loved ones or 
their own serious health issue. Parental-only leave would also lead to 
stark inequities within the workplace, even for people with young 
children: a parent of a newborn would have access to paid time away 
from work for bonding, but a coworker whose six-month-old is critically 
ill or whose spouse needs postpartum care would have no guarantee of 
time or income support.
B. Wage Replacement Rates and Benefit Caps Are Too Low to Be Meaningful 
        for Most People
    Second, although Social Security Disability Insurance (SSDI) rates 
do provide very high wage replacement to the very lowest income 
workers, its wage replacement rates drop sharply. The parental leave 
benefit proposed by IWF would provide inadequate levels of wage 
replacement to most workers (an estimated 45 percent of usual wages, 
according to IWF, or 54 percent, according to the Urban Institute). 
Moreover, the average SSDI monthly benefits (approximately $1,200 in 
2018) are much lower than what State plans offer.\96\ As noted above, 
researchers studying California's paid family leave program concluded 
that its original 55-percent wage replacement rate was too low for many 
workers to use, precipitating a change in California's law. Newer State 
programs have responded as well, by creating progressive wage 
replacement rates that provide more wage replacement to low-income 
workers during their leaves and meaningful wage replacement for all 
people who take leave. Researchers who have studied examples abroad 
conclude that wage replacement should be at least 67 percent of a 
worker's usual wages, and that an optimal wage replacement rate for 
both affordability and gender equity is 80 percent.\97\
---------------------------------------------------------------------------
    \96\ Social Security Administration. (2018). Annual Statistical 
Supplement, 2018 (Table 5.E1). Retrieved 3 July 2018, from https://
www.ssa.gov/policy/docs/statcomps/supplement/2018/5e.html#table5.e2.
    \97\ WORLD Policy Analysis Center. (2018, February). A Review of 
the Evidence on Payment and Financing of Family and Medical Leave. 
Retrieved 3 July 2018, from https://www.
worldpolicycenter.org/sites/default/files/WORLD%20Brief%20-
%20Payment%20and%20Fi
nancing%20of%20Paid%20Family%20and%20Medical%20Leave_0.pdf.
---------------------------------------------------------------------------
C. The IWF Policy Design Could Promote Gender Bias and Reinforce 
        Gendered Caregiving Norms
    The first and second problems together create a third: the risk of 
exacerbating gender-based bias and reinforcing, rather than breaking 
down, gender stereotypes. A program that only covers new parents and 
offers low wage replacement rates will be used primarily by lower-wage 
women who have given birth and have no other option and a significant 
need. Indeed, one reason the FMLA was designed to cover family 
caregiving leave and personal medical leave was to minimize the 
potential for employment discrimination.\98\ While fathers increasingly 
want to, and do, provide care for their families,\99\ norms and 
stereotypes about gender, work, and caregiving mean that some employers 
perceive mothers and young women as less committed workers. A paid 
leave program that is only accessible to parents, especially one with 
low wage replacement and low maximum benefits, could exacerbate 
implicit bias and discrimination, undermining the potential of gender-
equal leave to help create workplace equity and foster women's 
employment opportunities.
---------------------------------------------------------------------------
    \98\ Family and Medical Leave Act of 1993, Pub. L. No. 103-3, 
Sec. 2, 107 Stat. 6, 6-7 (1993), available at https://www.dol.gov/whd/
fmla/fmlaAmended.htm#SEC_2_FINDINGS_AND_PURPOS
ES.
    \99\ Harrington, B., Van Deusen, F., Sabatini Fraone, J., Eddy, S., 
and Haas, L. (2014). The New Dad: Take Your Leave. Perspectives on 
paternity leave from fathers, leading organizations, and global 
policies. Boston College Center for Work and Family publication. 
Retrieved 2 July 2018, from http://www.thenewdad.org/yahoo_site_admin/
assets/docs/BCCWF_The_New_Dad_2014_
FINAL.157170735.pdf; Heilman, B., Cole, G., Matos, K., Hassink, A., 
Mincy, R., and Barker, G. (2016). State of America's Fathers. A MenCare 
Advocacy Publication. Retrieved 2 July 2018, from http://men-care.org/
soaf/download/PRO16001_Americas_Father_web.pdf.
---------------------------------------------------------------------------
D. Retirement Penalties Would Average Tens of Thousands of Dollars--
        With Especially Harsh Effects in Retirement for Women, People 
        of Color, and Lower-Wage Workers
    Fourth, and of intense concern, is the penalty at retirement that 
workers who have used parental leave benefits will be forced to absorb. 
The IWF paper incorrectly assumes that people can make an unconstrained 
choice to work longer, and it also frames delayed retirement as a 
trade-off between working longer and a benefit cut, when in fact, 
delaying retirement itself means lower lifetime benefits. Urban 
Institute researchers estimate that a 12-week leave would require a 20-
25 week increase in the age at which a retiree can receive full 
benefits, which is equivalent to a 3-percent benefit cut.\100\ Two 12-
week leaves--the duration that a mother with two children might take--
would require a 6-percent benefit cut. The lifetime loss of benefits 
would average more than $12,500 for a mother of two, whether she delays 
her retirement date or retires on time with a reduced monthly benefit. 
A family that has four children would see a 10 percent reduction in 
Social Security benefits--essentially penalizing parents who choose to 
have larger families.\101\
---------------------------------------------------------------------------
    \100\ Favreault, M.M., and Johnson, R.W. (2018, April). Paying for 
Parental Leave With Future Social Security Benefits. Urban Institute 
publication. Retrieved 3 July 2018, from https://www.urban.org/sites/
default/files/publication/98101/paying_for_parental_leave_with_future_
social_security_benefits_0.pdf.
    \101\ Ibid.

    The IWF proposal would be particularly detrimental to women's 
retirement security, as well as to people of color and low-wage 
workers, who are less likely to have employer-provided paid parental 
leave \102\ and therefore would be more likely to use parental leave 
benefits that will cost them retirement income they will need later. 
Social Security benefits comprise a larger total share of retirement 
income for these workers in retirement,\103\ so the IWF proposal is 
especially concerning. Women would be substantially harmed because they 
spend more time out of the workforce or reduce their working hours to 
care for children and older adults and also have lower average wages 
for full-time, year-round work relative to men. These factors 
contribute to a gender gap in Social Security retirement benefits, 
which are an average of 20 percent lower for women--$1,244 for women 
compared to $1,565 per month for men, as of December 2017.\104\ For 
women of color, the double bind of the wage gap and the racial wealth 
gap is even more punishing at retirement.\105\ The fundamental goal of 
a national paid leave program should be to strengthen and support women 
and working families; the IWF proposal instead promises to take the 
most from those who can afford it the least.
---------------------------------------------------------------------------
    \102\ See note 1, table 32; Analysis of demographic data from 
several U.S. Government surveys conducted for the National Partnership 
for Women and Families by E. Del Morone, E. Hamilton, E. Krevsky, A. 
Sproveri, and C. Viall, The George Washington University Trachtenberg 
School of Public Policy and Public Administration, May 2018 (on file 
with the National Partnership for Women and Families).
    \103\ Dushi, I., Iams, H.M., and Trenkamp, B. (2017, May). ``The 
Importance of Social Security Benefits to the Income of the Aged 
Population.'' Social Security Bulletin, 77(2), 1-12. Retrieved 3 July 
2018, from https://www.ssa.gov/policy/docs/ssb/v77n2/v77n2p1.html.
    \104\ Social Security Administration. (2018). Annual Statistical 
Supplement, 2018 (Table 5.A6). Retrieved 3 July 2018, from https://
www.ssa.gov/policy/docs/statcomps/supplement/2018/5a.html#table5.a6.
    \105\ McCulloch, H. (2017, January). Closing the Women's Wealth 
Gap: What it Is, Why it Matters, and What Can Be Done About it. Closing 
the Women's Wealth Gap Initiative publication. Retrieved 3 July 2018, 
from https://womenswealthgap.org/wp-content/uploads/2017/06/Closing-
the-Womens-Wealth-Gap-Report-Jan2017.pdf; see also Richard, K. (2014, 
October). The Wealth Gap for Women of Color. Center for Global Policy 
Solutions publication. Retrieved 3 July 2018, from http://
www.globalpolicysolutions.org/wp-content/uploads/2014/10/Wealth-Gap-
for-Women-of-Color.pdf; National Academy of Social Insurance. (n.d.). 
Social Security and People of Color. Retrieved 3 July 2018, from 
https://www.nasi.org/learn/socialsecurity/people-of-color.

E. The Social Security Administration Needs Enhanced Resources and Not 
        a Diversion of Existing Resources to Administer a New Benefit
    Fifth, the IWF proposal does not contemplate any new resources for 
the SSA to create or administer this new benefit. SSA is already 
underfunded, has backlogs and is unable to provide the high-level of 
customer service that people need.\106\ Congress should provide the SSA 
more funds to help retirees and people with disabilities live with 
greater financial security and to shore up SSA technology and 
infrastructure--not repurpose limited resources and further stretch 
already-overburdened SSA staff to implement a new program and add new 
benefits from existing funds.
---------------------------------------------------------------------------
    \106\ Romig, K. (2017, October 6). More Cuts to Social Security 
Administration Funding Would Further Degrade Service. Center on Budget 
and Policy Priorities publication. Retrieved 3 July 2018, from https://
www.cbpp.org/research/social-security/more-cuts-to-social-security-
administration-funding-would-further-degrade.
---------------------------------------------------------------------------
F. Additional Concerns About Setting a Harmful Precedent
    Beyond the four corners of the IWF proposal itself, the concept 
creates a dangerous precedent of diverting existing, dedicated Social 
Security funds for non-
retirement purposes and encouraging an individualized, pro-
privatization mindset about this bedrock social insurance program. The 
president of the IWF has said as much.\107\ Social Security works 
because everyone pays in; a national paid leave program would work 
because everyone would pay in. This would keep costs low and benefits 
meaningful and available when people need them.
---------------------------------------------------------------------------
    \107\ Lukas, C. (2018, February 2). Why Running Parent Leave 
Through Social Security Is The Smartest Live Option. The Federalist 
publication. Retrieved 3 July 2018, from https://thefederalist.com/
2018/02/02/running-parent-leave-social-security-smartest-live-option/ 
(IWF president Carrie Lukas writes that ``encouraging people to think 
about Social Security's assets as if those benefits are their property 
for use now or at retirement could even encourage people to want to 
move more in that direction [of privatization and individual control of 
Social Security assets] and transform the current pay-as-you-go system 
into one that pre-funds future benefits and with assets that belong to 
individuals.'')

    Finally, while the IWF proposal purports to be budget-neutral, the 
Urban Institute analysis found that such a program would in fact run a 
cash deficit every year of its operation because the costs of one 
cohort's leave-taking would not be recouped until their retirement 
benefit offsets had been fully realized--generally decades later. 
Furthermore, it would raise the net costs of the Social Security 
program by an estimated 1 percent per year and would slightly 
accelerate the projected date at which Social Security would no longer 
be able to pay full scheduled retirement benefits.\108\
---------------------------------------------------------------------------
    \108\ See note 99.

    We at the National Partnership for Women and Families are eager to 
engage in a bipartisan process that results in a strong, comprehensive, 
sustainable and affordable national paid family and medical leave 
social insurance program. We look forward to working with you and your 
colleagues to help ensure that people who work have the security and 
stability they need to take time from their jobs to gaze into the eyes 
of a new child and form a lifelong bond, hold the hand of a dying 
---------------------------------------------------------------------------
parent, or recover from their own serious health issue.

    Research and evidence show what a workable plan should include and 
how it can be designed efficiently and effectively to provide baseline 
paid leave coverage to every working person in the country, no matter 
where they live or work or the job they hold. I urge you not to be 
tempted by a half-measure that would do more harm than good. The FAMILY 
Act is the paid leave plan the country needs to strengthen families, 
businesses and our economy and promote many of the core values we 
collectively hold most dear.

    Thank you. I look forward to answering your questions.

                                              State Paid Family and Medical Leave Insurance Laws--July 2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                    District of
                        California          New Jersey        Rhode Island         New York           Columbia          Washington       Massachusetts
--------------------------------------------------------------------------------------------------------------------------------------------------------
Status              Enacted 2002,       Enacted 2008,      Enacted 2013,      Enacted 2016,      Enacted 2017,      Enacted 2017,      Enacted 2018,
                     effective 2004;     effective 2009     effective          effective          effective July     effective          effective July
                     expanded 2016,                         January 2014       January 2018       2020               January 2019       2019, January
                     effective 2018;                                                                                 (premiums) and     2020, January
                     expanded 2017,                                                                                  January 2020       2021
                     effective 2020                                                                                  (benefits)
 
                    (A.B. 908, 2015-    (N.J. Stat. Ann.   (R.I. Gen. Laws    (S. 6406C, Part    (D.C. Law 21-264   (S.B. 5975, 65th   (H. 4640 Sec.
                     2016 Leg., Reg.     Sec.  43:21-38)    Sec. Sec. 28-41-   SS, 239th Leg.,    (D.C. 2016))       Leg., 3rd          29, 190th Gen.
                     Sess. (Cal. 2016)                      35(h))             Reg. Sess. (N.Y.                      Special Sess.      Court, Reg.
                     (enacted); S.B.                                           2016) (enacted))                      (Wash. 2017)       Sess. (Mass.
                     63, 2017-2018                                                                                   (enacted))         2018) (enacted))
                     Leg., Reg. Sess.
                     (Cal. 2017)
                     (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Reasons for paid    1. Bonding with     1. Care for new    1. Bonding with    1. Bonding with    1. Bonding with    1. Bonding with    1. Bonding with
 leave               new child (birth,   child (birth,      new child          new child          new child          new child          new child
                     adoption, foster)   adoption,          (birth,            (birth,            (birth,            (birth,            (birth,
                                         foster)            adoption,          adoption,          adoption,          adoption,          adoption,
                                                            foster)            foster)            foster)            foster)            foster)
 
                    2. Care for family  2. Care for        2. Care for        2. Care for        2. Care for        2. Care for        2. Care for
                     member with         family member      family member      family member      family member      family member      family member
                     serious health      with serious       with serious       with serious       with serious       with serious       with serious
                     condition           health condition   health condition   health condition   health condition   health condition   health condition
 
                    3. Care for own     3. Care for own    3. Care for own    3. Qualifying      3. Care for own    3. Care for own    3. Care for own
                     disability (must    disability (must   disability (must   exigency arising   serious health     serious health     serious health
                     be unable to        be continuously    be unable to       out of spouse,     condition          condition          condition
                     perform regular     and totally        perform regular    domestic
                     or customary        unable to          or customary       partner, child,
                     work), includes     perform            work; partially    or parent being
                     pregnancy           customary work),   unemployed         on active duty
                                         includes           workers may be     (or having been
                                         pregnancy          able to claim      notified of an
                                                            benefits)          impending call
                                                                               or order to
                                                                               active duty)
 
                    (Cal. Unemp. Ins.   (N.J. Stat. Ann.   (R.I. Gen. Laws    4. Care for own    (D.C. Law 21-264   4. Qualifying      4. Qualifying
                     Code Sec. Sec.      Sec. Sec.  43:21   Sec. Sec.  28-39   disability (must   Sec. Sec.  101(1   exigency arising   exigency arising
                     2626, 3302(e))      -27(g), (o))       -2, 28-41-5(d)),   be unable to       2)-(17), 104(a)-   out of family      out of family
                                                            28-41-35(a))       perform work)      (b) (D.C. 2016))   member being on    member being on
                                                                                                                     active duty (or    active duty (or
                                                                                                                     having been        having been
                                                                                                                     notified of an     notified of an
                                                                                                                     impending call     impending call
                                                                                                                     or order to        or order to
                                                                                                                     active duty)       active duty)
 
                                                                              (N.Y. Workers'                        (S.B. 5975, 65th   5. Care for
                                                                               Comp. Law Sec.                        Leg., 3rd          family member
                                                                               201(14) (as                           Special Sess.      who is a covered
                                                                               amended by S.                         (Wash. 2017)       servicemember
                                                                               6406C))                               (enacted))
 
                                                                                                                                       (H. 4640 Sec.
                                                                                                                                        29(2)(a), 190th
                                                                                                                                        Gen. Court, Reg.
                                                                                                                                        Sess. (Mass.
                                                                                                                                        2018) (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Definition of       Child, parent,      Child, parent,     Child, parent,     Child, parent,     Child, parent,     Child, parent,     Child, parent, or
 family member       spouse, domestic    spouse, domestic   spouse, domestic   spouse, domestic   spouse, domestic   spouse, domestic   parent of a
                     partner             partner, civil     partner,           partner,           partner,           partner,           spouse or
                                         union partner      grandparent        grandparent,       grandparent,       grandchild,        domestic
                                                                               grandchild         sibling            grandparent,       partner, spouse,
                                                                                                                     sibling            domestic
                                                                                                                                        partner,
                                                                                                                                        grandchild,
                                                                                                                                        grandparent,
                                                                                                                                        sibling
 
                    Amended in 2013     (N.J. Stat. Ann.   (R.I. Gen. Laws    (N.Y. Workers'     (D.C. Law 21-264   (S.B. 5975 Sec.    (H. 4640 Sec.
                     (effective 2014)    Sec.  43:21-27(n   Sec.  28-41-35(a   Comp. Law Sec.     Sec.  101(7)       2, 65th Leg.,      29(1), 190th
                     to add              ))                 ))                 201(16), (17),     (D.C. 2016))       3rd Special        Gen. Court, Reg.
                     grandparent,                                              (19)-(21) (as                         Sess. (Wash.       Sess. (Mass.
                     grandchild,                                               amended by S.                         2017) (enacted))   2018) (enacted))
                     sibling, and                                              6406C))
                     parent-in-law
 
                    (Cal. Stat. Sec.
                     Sec.  3302(f)-(j)
                     )
--------------------------------------------------------------------------------------------------------------------------------------------------------
Maximum length of   6 weeks for family  6 weeks for        4 weeks for        For family leave,  8 weeks for        12 weeks for       12 weeks for
 paid leave          leave               family leave       family leave       8 weeks in 2018;   parental leave,    family leave       family leave
                                                                               increasing to 10   6 weeks for
                                                                               weeks in 2019      family care, 2
                                                                               and to 12 weeks    weeks for own
                                                                               in 2021            serious health
                                                                               (increases         condition
                                                                               subject to
                                                                               delay)
 
                    (Cal. Unemp. Ins.   26 weeks for own   (R.I. Gen. Laws    26 weeks for own   No more than 8     12 weeks for own   26 weeks for
                     Code Sec.           disability         Sec.  28-41-35(d   disability         weeks total/year   serious health     caring for a
                     3301(c))                               )(1))                                 for combined       condition (14 if   covered service
                                                                                                  family and         employee           member
                                                                                                  medical leave      experiences
                                                                                                                     pregnancy-
                                                                                                                     related serious
                                                                                                                     health condition
                                                                                                                     that results in
                                                                                                                     incapacity); no
                                                                                                                     more than 16
                                                                                                                     weeks total/year
                                                                                                                     for combined own
                                                                                                                     serious health
                                                                                                                     condition and
                                                                                                                     family leave (18
                                                                                                                     if employee
                                                                                                                     experiences
                                                                                                                     pregnancy-
                                                                                                                     related serious
                                                                                                                     health condition
                                                                                                                     that results in
                                                                                                                     incapacity)
 
                    52 weeks for own    (N.J. Stat. Ann.   30 weeks for own   (N.Y. Workers'     (D.C. Law 21-264   (S.B. 5975 Sec.    20 weeks for own
                     disability          Sec.  43:21-38)    disability; no     Comp. Law Sec.     Sec. Sec.  101(1   6, 65th Leg.,      serious health
                                                            more than 30       Sec.  204(2)(A),   2)-(17), 104(d)    3rd Special        condition
                                                            weeks total/year   205(1)(A) (as      (D.C. 2016))       Sess. (Wash.
                                                            for combined own   amended by S.                         2017) (enacted))
                                                            disability and     6406C))
                                                            family care
 
                    (Cal. Unemp. Ins.                      (R.I. Gen. Laws                                                               No more than 26
                     Code Sec.  2653)                       Sec. Sec.  28-41                                                            weeks total/year
                                                            -7, 28-41-35(e))                                                            for combined
                                                                                                                                        family and
                                                                                                                                        medical leave
 
                                                                                                                                       (H. 4640 Sec.
                                                                                                                                        29(2)(c), 190th
                                                                                                                                        Gen. Court, Reg.
                                                                                                                                        Sess. (Mass.
                                                                                                                                        2018) (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Minimum increment   Statute does not    Statute does not   No minimum         For family care,   Leave can be       8 consecutive      Statute does not
 of leave time for   mention the         mention the        increment of       benefits can be    taken in one-day   hours              mention the
 which benefits      minimum length of   minimum length     leave time;        paid in            increments                            minimum length
 are payable         leave time, just    of leave time,     claimants must     increments of 1                                          of leave time,
                     benefits for        just benefits      initially be out   full day or one-                                         just benefits
                     intermittent        for intermittent   of work for at     fifth of the                                             for intermittent
                     leave               leave              least 7            weekly benefit                                           leave
                                                            consecutive days
                                                            to be eligible
                                                            for benefits
 
                    (Cal. Unemp. Ins.   (N.J. Stat. Ann.   (11-000-002 R.I.   (N.Y. Workers'     (D.C. Law 21-264   (S.B. 5975 Sec.    (H. 4640 Sec.
                     Code Sec.  3303)    Sec.  43:21-39)    Code R. Sec.       Comp. Law Sec.     Sec.  101(9)       6, 65th Leg.,      29(2)(c), 190th
                     \1\                                    Sec.  16(G),       204(2)(A) (as      (D.C. 2016))       3rd Special        Gen. Court, Reg.
                                                            37(D))             amended by S.                         Sess. (Wash.       Sess. (Mass.
                                                                               6406C))                               2017) (enacted))   2018) (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Employee            Employee must have  Employee must      Employee must      For family care,   Employee must      Must have worked   Must meet the
 eligibility         been paid $300 in   have had at        have been paid     employee must be   spend more than    for at least 820   financial
 requirements        wages during the    least 20           wages in Rhode     currently          50 percent of      hours in 4 out     eligibility
                     base period \2\     calendar weeks     Island and paid    employed by a      work time in the   of the 5           requirements of
                                         of covered New     into the TDI/TCI   covered employer   District of        quarters prior     the state
                                         Jersey             fund and must      and must have      Columbia for a     to leave           unemployment
                                         employment,        have been paid     been employed by   covered employer   application        insurance law
                                         earning $168 or    at least $12,120   a covered          or be based in                        (currently, one
                                         more each week,    in the base        employer for 26    the District of                       must have earned
                                         or must have       period             or more            Columbia and                          at least $4,700
                                         been paid $8,400                      consecutive        regularly spend                       in the last 4
                                         or more in such                       weeks (or 175      a substantial                         completed
                                         employment                            days of            amount of work                        calendar
                                         during the base                       employment for     time for the                          quarters and at
                                         period \3\                            part-time          covered employer                      least 30 times
                                                                               employees)         in the District                       the weekly
                                                                                                  of Columbia and                       unemployment
                                                                                                  not more than 50                      benefit amount
                                                                                                  percent of work                       that person
                                                                                                  time for that                         would be
                                                                                                  covered employer                      eligible to
                                                                                                  in another                            collect)
                                                                                                  jurisdiction;
                                                                                                  and must have
                                                                                                  been a covered
                                                                                                  employee for
                                                                                                  some or all of
                                                                                                  the 52 calendar
                                                                                                  weeks preceding
                                                                                                  the covered
                                                                                                  event
 
                                                           Alternately,       For own            Self-employed      (S.B. 5975 Sec.    (H. 4640 Sec.
                                                            employees          disability,        individual must    Sec.  2-3, 65th    29(1), 190th
                                                            qualify if they    employee must      have earned self-  Leg., 3rd          Gen. Court, Reg.
                                                            earned at least    have been          employment         Special Sess.      Sess. (Mass.
                                                            $2,020 in a        employed by a      income for work    (Wash. 2017)       2018) (enacted))
                                                            quarter of their   covered employer   performed more     (enacted))         \5\
                                                            base period,       for 4 or more      than 50 percent
                                                            their total base   consecutive        of the time in
                                                            period taxable     weeks (or 25       the District of
                                                            wages were at      days of            Columbia during
                                                            least 150          employment for     some or all of
                                                            percent of their   part-time          the 52 calendar
                                                            highest quarter    employees)         weeks preceding
                                                            of earnings, and                      the covered
                                                            their taxable                         event, and must
                                                            wages during                          have opted into
                                                            their base                            the paid leave
                                                            period are                            program
                                                            $4,040 or more
                                                            \4\
 
                                                                              (N.Y. Workers'     (D.C. Law 21-264
                                                                               Comp. Law Sec.     Sec. Sec.  101(3
                                                                               203 (as amended    )-(4), (6) (D.C.
                                                                               by S. 6406C))      2016))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Discrimination      Not more than       Not more than      Not more than      Yes                Yes                Yes                Yes
 prohibited          Federal Family      Federal FMLA and   Federal FMLA and
                     and Medical Leave   New Jersey         RI Parental and
                     Act (FMLA) and      Family Leave Act   Family Medical
                     California Family   (NJ FLA)           Leave Act
                     Rights Act (CFRA)                      (PFMLA)
 
                                                                              (N.Y. Workers'     (D.C. Law 21-264   (S.B. 5975 Sec.    (H. 4640 Sec.
                                                                               Comp. Law Sec.     Sec. Sec.  101(1   72, 65th Leg.,     29(9), 190th
                                                                               120 (as amended    8), 110 (D.C.      3rd Special        Gen. Court, Reg.
                                                                               by S. 6406C))      2016))             Sess. (Wash.       Sess. (Mass.
                                                                                                                     2017) (enacted))   2018) (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Method to fund      Own disability and  State's temporary  Own disability     Own disability is  Funded by          For the program's  For the program's
 insurance system    family care are     disability         and family care    funded jointly     employer only.     first year, the    first year, the
                     funded by the       insurance          are funded by      by employee and    The current rate   total premium      total premium
                     employee only       program is         the employee       employer payroll   is 0.62 percent    rate is 0.4        rate is 0.63
                     (currently at 1     financed jointly   only. The          contributions.     of wages or of     percent of an      percent of an
                     percent of          by employee and    current            Each worker        annual self-       individual's       employee's
                     worker's first      employer payroll   withholding rate   contributes one    employment         taxable wage       wages; employers
                     $114,967 in         contributions.     is 1.1 percent     half of 1          income.            base; employers    can deduct from
                     wages) \6\          As of January 1,   of worker's        percent of the                        can deduct from    the employee's
                                         2018, each         first $69,300 in   worker's wages,                       the wages of       wages the full
                                         worker             wages.\8\          up to 60 cents                        each employee      amount of the
                                         contributes 0.19                      per week. The                         the full amount    premium for
                                         percent of the                        employer                              of the premium     family leave and
                                         taxable wage                          contributes the                       for family leave   40 percent of
                                         base (the first                       balance of the                        and 45 percent     the premium for
                                         $33,700 in                            plan costs not                        of the premium     medical leave.
                                         covered wages                         covered by the                        for medical
                                         paid during the                       employee.\9\                          leave.
                                         calendar year),
                                         up to $64.03 per
                                         year. The
                                         contribution
                                         rate for
                                         employers varies
                                         from 0.10 to
                                         0.75 percent.
                                         For 2018,
                                         employers
                                         contribute
                                         between $33.70
                                         and $252.75 on
                                         the first
                                         $33,700 paid to
                                         each employee
                                         during the
                                         calendar
                                         year.\7\
 
                                                                                                 (D.C. Law 21-264   For each           For each
                                                                                                  Sec.  103 (D.C.    following year,    following year,
                                                                                                  2016))             the premium rate   the premium rate
                                                                                                                     is adjusted        is adjusted
                                                                                                                     annually based     based on the
                                                                                                                     on the solvency    fund's
                                                                                                                     of the fund.       expenditures.
 
                                        Family care is                        Family care is                        Employers with     Employers with
                                         funded entirely                       funded by the                         fewer than 50      fewer than 25
                                         by the employee.                      employee only.                        employees are      employees are
                                         Currently, each                       The current rate                      not required to    not required to
                                         worker                                is 0.126 percent                      pay their          pay their
                                         contributes 0.09                      of the worker's                       portion; if they   portion
                                         percent of the                        first $67,907.84                      do pay, they are
                                         taxable wage                          in wages, up to                       eligible for
                                         base (first                           $85.56 per year                       State
                                         $33,700 in                            \11\                                  assistance.
                                         covered wages                                                               Employers with
                                         paid during the                                                             150 or fewer
                                         calendar year),                                                             employees are
                                         and the maximum                                                             also eligible
                                         yearly deduction                                                            for State
                                         for family leave                                                            assistance with
                                         insurance is                                                                premiums
                                         $30.33 \10\
 
                                        .................                                                           (S.B. 5975, 65th   (H. 4640 Sec.
                                                                                                                     Leg., 3rd          Sec.  29(6)-(7),
                                                                                                                     Special Sess.      30, 190th Gen.
                                                                                                                     (Wash. 2017)       Court, Reg.
                                                                                                                     (enacted))         Sess. (Mass.
                                                                                                                                        2018) (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Size of employer    All private sector  Private and        All private        Most private       Private sector     All employers are  Private sector
 covered             employers are       public sector      sector employers   sector employers   employers          covered            employers and
                     covered             employers          are covered        are covered        covered by the                        the state
                                         covered by the                                           D.C.                                  government are
                                         New Jersey                                               Unemployment                          covered
                                         Unemployment                                             Compensation Act
                                         Compensation Law                                         are covered
                                         must provide
                                         paid leave for
                                         family care and
                                         temporary
                                         disability, with
                                         some exceptions
                                         for government
                                         employers \13\
 
                    (Cal. Unemp. Ins.                      Only some public   Self-employed      Self-employed      (S.B. 5975, 65th   Self-employed
                     Code Sec. Sec.                         employees are      individuals can    individuals can    Leg., 3rd          individuals* and
                     3302, 2606, 675,                       covered            opt in             opt in             Special Sess.      local
                     135)                                                                                            (Wash. 2017)       governments can
                                                                                                                     (enacted))         opt in
 
                    Self-employed                          (R.I. Gen. Laws    Certain public     Employees of the   Self-employed      *Some self-
                     individuals can                        Sec. Sec.  28-39   employers (other   D.C. city          individuals and    employed
                     opt in                                 -2, -3)            than the State     government and     independent        individuals may
                                                                               government) can    the United         contractors can    be automatically
                                                                               opt in to family   States             opt in             covered
                                                                               care or own        Government, or
                                                                               disability; the    of any employer
                                                                               State              the District is
                                                                               government,        not authorized
                                                                               certain public     to tax under
                                                                               employers, and     Federal law or
                                                                               public employees   treaty, are not
                                                                               represented by     covered
                                                                               an employee
                                                                               organization can
                                                                               only opt in to
                                                                               family care
 
                    Only some public                                          (N.Y. Workers'     (D.C. Law 21-264   (S.B. 5975, 65th   (H. 4640 Sec.
                     employees are                                             Comp. Law Sec.     Sec.  101(4)       Leg., 3rd          Sec.  29(1),
                     covered \12\                                              Sec.  201(4),      (D.C. 2016))       Special Sess.      (6)(e), 190th
                                                                               212(2), (4)(B),                       (Wash. 2017)       Gen. Court, Reg.
                                                                               212-A, 212-B (as                      (enacted))         Sess. (Mass.
                                                                               amended by S.                                            2018) (enacted))
                                                                               6406C))
 
                    ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
Benefit amount      Beginning on        The weekly         The average        For family care,   For workers paid   For workers paid   For workers paid
                     January 1, 2018,    benefit rate is    weekly benefit     in 2018, the       wages less than    50 percent or      50 percent or
                     for a 4-year        66 percent of a    rate is 4.62       weekly benefit     or equal to 150    less of the        less of the
                     period:             worker's average   percent of wages   rate is 50         percent of the     Statewide          Statewide
                                         weekly wage,       paid during the    percent of a       D.C. minimum       average weekly     average weekly
                                         with a maximum     highest quarter    worker's average   wage multiplied    wage (AWW), the    wage (AWW), the
                                         benefit of $637    of worker's base   weekly wage        by 40, the         weekly benefit     weekly benefit
                                         in 2018 (maximum   period, up to      (AWW), not to      weekly benefit     rate is 90         rate is 80
                                         adjusted           $831 per week      exceed 50          rate is 90         percent of the     percent of the
                                         annually based     for claims         percent of the     percent of the     worker's AWW.      worker's AWW.
                                         on Statewide       effective          State AWW;         worker's average
                                         average weekly     January 1, 2018    benefit amounts    weekly wage
                                         wage) \14\         or later           increase in 2019   rate.
                                                            (maximum           to 55 percent of
                                                            adjusted           the worker's
                                                            annually based     weekly wage up
                                                            on Statewide       to 55 percent of
                                                            average weekly     the State AWW;
                                                            wage) \15\         in 2020 to 60
                                                                               percent of the
                                                                               worker's weekly
                                                                               wage up to 60
                                                                               percent of the
                                                                               State AWW; and
                                                                               in 2021, to 67
                                                                               percent of the
                                                                               worker's weekly
                                                                               wage up to 67
                                                                               percent of the
                                                                               State AWW
                                                                               (increases
                                                                               subject to
                                                                               delay)
 
                    (A) For workers                                           For own            For workers paid   For workers paid   For workers paid
                     whose quarterly                                           disability, the    more than 150      more than 50       more than 50
                     earnings are at                                           weekly benefit     percent of the     percent of the     percent of the
                     least $929 but                                            rate is 50         D.C. minimum       Statewide AWW,     Statewide AWW,
                     less than \1/3\                                           percent of the     wage multiplied    the weekly         the weekly
                     of the State                                              employee's         by 40, the         benefit rate is    benefit rate is
                     average quarterly                                         weekly wage,       weekly benefit     90 percent of      80 percent of
                     wage, the weekly                                          with a maximum     rate is 90         the employee's     the employee's
                     benefit will be                                           benefit of $170;   percent of 150     AWW up to 50       AWW up to 50
                     70 percent of the                                         however, if the    percent of the     percent of the     percent of the
                     worker's weekly                                           employee earns     D.C. minimum       Statewide AWW,     Statewide AWW,
                     wage;                                                     less than $20      wage multiplied    plus 50 percent    plus 50 percent
                                                                               per week, the      by 40 plus 50      of the             of the
                                                                               benefit will be    percent of the     employee's AWW     employee's AWW
                                                                               their full         amount by which    that is more       that is more
                                                                               average weekly     the worker's       than 50 percent    than 50 percent
                                                                               wage               average weekly     of the Statewide   of the Statewide
                                                                                                  wage exceeds 150   AWW.               AWW.
                                                                                                  percent of the
                                                                                                  D.C. minimum
                                                                                                  wage multiplied
                                                                                                  by 40, up to a
                                                                                                  maximum of
                                                                                                  $1,000 per week
                                                                                                  (beginning in
                                                                                                  2021, maximum
                                                                                                  will be
                                                                                                  increased
                                                                                                  annually to
                                                                                                  account for
                                                                                                  inflation)
 
                    (B) For workers     The average        In December 2017,  (N.Y. Workers'     (D.C. Law 21-264   The maximum        The maximum
                     whose quarterly     weekly benefit     the average        Comp. Law Sec.     Sec.  104(g)       weekly benefit     weekly benefit
                     earnings are at     for family care    weekly benefit     Sec.  204(2)(A),   (D.C. 2016))       is $1,000 in the   is $850 in the
                     least \1/3\ of      was $524 in        was $542 for       (B) (as amended                       program's first    program's first
                     the State average   2016; benefit      family care and    by S. 6406C))                         year, and will     year, and will
                     quarterly wage,     for own            the average for                                          be adjusted        be adjusted
                     the weekly          disability is      own disability                                           annually to an     annually to an
                     benefit rate will   not publicly       was $492 \19\                                            amount equaling    amount equaling
                     be 23.3 percent     available \18\                                                              90 percent of      64 percent of
                     of the State                                                                                    the State AWW.     the State AWW.
                     average weekly
                     wage OR 60
                     percent of the
                     worker's weekly
                     wage, whichever
                     is greater.
 
                    The maximum weekly                                                                              (S.B. 5975, 65th   (H. 4640 Sec.
                     benefit is $1,216                                                                               Leg., 3rd          29(3(b)), 30,
                     in 2018 (maximum                                                                                Special Sess.      190th Gen.
                     adjusted annually                                                                               (Wash. 2017)       Court, Reg.
                     based on                                                                                        (enacted))         Sess. (Mass.
                     Statewide average                                                                                                  2018) (enacted)
                     weekly wage).
                     Workers with
                     quarterly
                     earnings less
                     than $929 will
                     receive a weekly
                     benefit of $50
                     \16\
 
                    (A.B. 908, 2015-
                     2016 Leg., Reg.
                     Sess. (Cal. 2016)
                     (enacted))
 
                    Note: The San
                     Francisco Board
                     of Supervisors
                     passed an
                     ordinance
                     requiring covered
                     employers to
                     provide
                     supplemental
                     compensation to
                     covered employees
                     taking leave to
                     care for a new
                     child for up to 6
                     weeks such that
                     the combined
                     weekly benefit
                     equals 100
                     percent of the
                     employee's weekly
                     wage. This
                     requirement
                     applies to
                     employers with 50
                     or more employees
                     starting in
                     January 2017,
                     expands to
                     employers with 35
                     or more employees
                     in July 2017 and
                     to employers with
                     20 or more
                     employees in
                     January 2018.
 
                    (San Francisco,
                     Cal. Ordinance
                     160065)
 
                    As of December
                     2017, the average
                     weekly benefit in
                     the State for
                     family care was
                     $601 and the
                     average for own
                     disability was
                     $550 \17\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Job protection      Not more than FMLA  Not more than      Leave for family   Leave for family   Not more than      Not more than      Yes
 while on leave      and CFRA            FMLA and NJ FLA    care is job-       care is job-       FMLA and D.C.      FMLA and WA FMLA
                                                            protected but      protected but      FMLA
                                                            leave for own      leave for own
                                                            disability is no   disability is no
                                                            more protected     more protected
                                                            than under FMLA    than under FMLA
                                                            or RI PFMLA        or NY PFMLA
 
                                                           (R.I. Gen. Laws    (N.Y. Workers'                        (S.B. 5975, 65th   (H. 4640 Sec.
                                                            Sec.  28-41-35(f   Comp. Law Sec.                        Leg., 3rd          Sec.  29(2(e)),
                                                            ))                 203-b (as                             Special Sess.      30, 190th Gen.
                                                                               amended by S.                         (Wash. 2017)       Court, Reg.
                                                                               6406C))                               (enacted))         Sess. (Mass.
                                                                                                                                        2018) (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
Waiting period      Beginning on        7 days, but if     Due to a           For family care,   1 week without     For family care    7 calendar days;
                     January 1, 2018,    disability lasts   legislative        none               pay from the       and own serious    waiting period
                     none                3 weeks, the       approved change,                      insurance          health             is not required
                                         worker gets paid   claims filed                          system; only one   condition, 7       for family leave
                                         for those 7        effective July                        waiting period     calendar days      taken
                                         days; must be      1, 2012, or                           per year                              immediately
                                         consecutive        later no longer                       regardless of                         after a period
                                                            need to serve a                       the number of                         of medical leave
                                                            non-paid waiting                      qualifying                            for pregnancy or
                                                            period                                events for which                      childbirth
                                                                                                  a worker takes                        recovery
                                                                                                  leave
 
                    (Cal. Unemp. Ins.   (N.J. Stat. Ann.   Caregiver/bonding  For own            (D.C. Law 21-264   For bonding        (H. 4640 Sec.
                     Code Sec.           Sec.  43:21-38)    and own            disability, 7      Sec.  104(b)       leave, none        Sec.  29(3(a)),
                     3303(b) (as                            disability         days               (D.C. 2016))                          30, 190th Gen.
                     amended by A.B.                        claims must be                                                              Court, Reg.
                     908))                                  out of work for                                                             Sess. (Mass.
                                                            7 consecutive                                                               2018) (enacted))
                                                            days as one of
                                                            the eligibility
                                                            requirements
 
                                                           (11-000-002 R.I.   (N.Y. Workers'                        (S.B. 5975, 65th
                                                            Code R. Sec.       Comp. Law Sec.                        Leg., 3rd
                                                            Sec.  16(G),       204(1) (as                            Special Sess.
                                                            37(D))             amended by S.                         (Wash. 2017)
                                                                               6406C))                               (enacted))
--------------------------------------------------------------------------------------------------------------------------------------------------------
The National Partnership for Women & Families is a nonprofit, nonpartisan advocacy group dedicated to promoting fairness in the workplace, access to
  quality health care and policies that help women and men meet the dual demands of work and family. More information is available at
  NationalPartnership.org.
 2018 National Partnership for Women and Families. All rights reserved.
\1\ http://www.edd.ca.gov/disability/Part-time_Intermittent_Reduced_Work_Schedule.htm.
\2\ http://www.edd.ca.gov/Disability/Am_I_Eligible_for_PFL_Benefits.htm.
\3\ http://lwd.state.nj.us/labor/fli/content/fli_faq.html#21.
\4\ http://www.dlt.ri.gov/tdi/tdifaqs.htm.
\5\ https://www.mass.gov/service-details/check-eligibility-for-unemployment-benefits.
\6\ http://www.edd.ca.gov/Payroll_Taxes/Rates_and_Withholding.htm.
\7\ http://lwd.dol.state.nj.us/labor/tdi/state/sp_cost.html.
\8\ http://www.dlt.ri.gov/lmi/news/quickref.htm.
\9\ http://www.wcb.ny.gov/content/main/DisabilityBenefits/Employer/complyWithLaw.jsp.
\10\ http://lwd.dol.state.nj.us/labor/fli/content/cost.html.
\11\ https://paidfamilyleave.ny.gov/paid-family-leave-information-employers.
\12\ http://www.edd.ca.gov/disability/FAQ_PFL_Eligibility.htm.
\13\ http://lwd.state.nj.us/labor/fli/content/fli_faq.html; http://lwd.state.nj.us/labor/tdi/employer/state/sp_emp_coverage.html.
\14\ http://lwd.dol.state.nj.us/labor/fli/worker/state/FL_SP_calculating_benefits.html; http://lwd.dol.state.nj.us/labor/tdi/state/
  sp_calculating_bene_amounts.html.
\15\ http://www.dlt.ri.gov/tdi/tdifaqs.htm; http://www.dlt.ri.gov/lmi/news/quickref.htm).
\16\ http://www.edd.ca.gov/Disability/About_PFL.htm.
\17\ http://www.edd.ca.gov/about_edd/Quick_Statistics.htm).
\18\ http://lwd.dol.state.nj.us/labor/forms_pdfs/tdi/FLI%20Summary%20Report%20for%202016.pdf.
\19\ (http://www.dlt.ri.gov/lmi/uiadmin.htm).

   fact sheet: paid leave works in california, new jersey, and rhode 
                                 island
January 2018

    Five U.S. States and the District of Columbia have laws 
guaranteeing paid family and medical leave. Evidence from the first 
three States to enact paid leave demonstrates how well these policies 
work--and this body of evidence will continue to grow as new programs 
take effect in New York, Washington State, and the District of 
Columbia. These programs provide workers with a share of their wages 
when they need time to care for a family member with a serious health 
condition, bond with a new child, or deal with their own serious 
medical issue.
Paid Leave Policies Have Helped Millions of Families
          California workers filed nearly 2.8 million paid family 
        leave claims between the implementation of the State's paid 
        family leave program in 2004 and November 2017. More than 2.4 
        million of these claims were by parents seeking time to care 
        for new children.\1\ In that same period (July 2004--November 
        2017), more than 9.5 million claims were filed by workers for 
        their own disability.\2\ California families have experienced 
        positive economic and health effects due to the program, and 
        the vast majority of California employers perceive a positive 
        effect on employee productivity, profitability and performance, 
        or no effect, which means the fears some employers articulated 
        when the policy was being considered never materialized.\3\ The 
        California program has been expanded multiple times since its 
        adoption--to broaden the range of family members for whom 
        caregiving leave can be taken, to increase benefit levels for 
        lower- and middle-wage workers, and to make more workers 
        eligible for job protection when they take parental leave.\4\
---------------------------------------------------------------------------
    \1\ State of California Employment Development Department. (2018). 
Paid Family Leave (PFL)--Monthly Data. Retrieved 25 January 2018, from 
https://data.edd.ca.gov/Disability-Insurance/Paid-Family-Leave-PFL-
Monthly-Data/r95e-fvkm/data.
    \2\ State of California Employment Development Department. (2018). 
Disability Insurance (DI)--Monthly Data. Retrieved 26 January 2018, 
from https://data.edd.ca.gov/Disability-Insurance/Disability-Insurance-
DI-Monthly-Data/29jg-ip7e/data.
    \3\ Appelbaum, E., and Milkman, R. (2013). Unfinished Business: 
Paid Family Leave in California and the Future of U.S. Work-Family 
Policy. Ithaca, NY: Cornell University Press; see also Bartel, A., 
Baum, C., Rossin-Slater, M., Ruhm, C., and Waldfogel, J. (2014, June 
23). California's Paid Family Leave Law: Lessons From the First Decade. 
U.S. Department of Labor Publication. Retrieved 26 January 2018, from 
http://www.dol.gov/asp/evaluation/reports/PaidLeaveDeliverable.pdf.
    \4\ 2013 Cal. Stat. ch. 350; 2016 Cal. Stat. ch. 5; 2017 Cal. Stat. 
ch. 686.

          In New Jersey, workers filed more than 255,000 leave claims 
        between the family leave insurance program's implementation in 
        2009 and December 2016--more than 205,000 filed by parents 
        seeking time to bond with a new child.\5\ Three out of four 
        workers (76.4 percent) say they view the program favorably, and 
        support crosses gender, race/ethnicity, age, marital status, 
        union affiliation, employment status and income.\6\ The 
        majority of both small and large businesses say they have 
        adjusted easily.\7\
---------------------------------------------------------------------------
    \5\ State of New Jersey Department of Labor and Workforce 
Development. (2010-2017). Family Leave Program Statistics (2010-2016). 
Retrieved 26 January 2018, from http://lwd.dol.state.nj.us/labor/fli/
content/fli_program_stats.html; State of New Jersey Department of Labor 
and Workforce Development. (2010). 2009 Monthly Statistics. Retrieved 
26 January 2018, from http://lwd.dol.state.nj.us/labor/fli/content/
2009_monthly_report_fli.html (unpublished calculation; data are through 
December 2016).
    \6\ Houser, L., and White, K. (2012). Awareness of New Jersey's 
Family Leave Insurance Program Is Low, Even as Public Support Remains 
High and Need Persists. Center for Women and Work at Rutgers, The State 
University of New Jersey publication. Retrieved 26 January 2018, from 
http://njtimetocare.com/sites/default/files/
03_New%20Jersey%20Family%20Leave%20In
surance-%20A%20CWW%20Issue%20Brief.pdf.
    \7\ Ramirez, M. (2012). The Impact of Paid Family Leave on New 
Jersey Businesses. New Jersey Business and Industry Association and 
Bloustein School of Planning and Public Policy at Rutgers, The State 
University of New Jersey presentation. Retrieved 26 January 2018, from 
http://bloustein.rutgers.edu/wp-content/uploads/2012/03/Ramirez.pdf.

          In Rhode Island, workers filed nearly 34,000 claims between 
        the State's implementation of its paid family leave program in 
        2014 and the end of 2017--more than three-quarters of approved 
        claims were to bond with a new child.\8\ Research among new 
        parents, family caregivers and businesses suggests the law is 
        working well.\9\ Rhode Island's program improved upon the 
        programs in California and New Jersey by guaranteeing workers 
        reinstatement to their jobs and offering protection from 
        workplace retaliation for taking paid leave.
---------------------------------------------------------------------------
    \8\ Rhode Island Department of Labor and Training. Monthly TDI/TCI 
Claims Summary. Retrieved 26 January 2018, from http://www.dlt.ri.gov/
lmi/uiadmin.htm (Unpublished calculation; data are through December 
2017).
    \9\ Bartel, A., Rossin-Slater, M., Ruhm, C., and Waldfogel, J. 
(2016, January). Assessing Rhode Island's Temporary Caregiver Insurance 
Act: Insights From a Survey of Employers. U.S. Department of Labor 
publication. Retrieved 26 January 2018, from https://www.dol.gov/asp/
evaluation/completed-studies/
AssessingRhodeIslandTemporaryCaregiverInsuranceAct_InsightsFromSu
rveyOfEmployers.pdf.

          In New York, legislators adopted a new paid family leave 
        program with nearly unanimous bipartisan support.\10\ The 
        program took effect in 2018 and will be fully phased in by 
        2021.\11\ Eighty percent of New York voters said they supported 
        the proposal prior to enactment.\12\ When fully implemented, 
        New York will provide 12 weeks of job-protected paid family 
        leave.\13\
---------------------------------------------------------------------------
    \10\ 2016 N.Y. Laws ch. 54, Sec. 9, available at https://
www.nysenate.gov/legislation/bills/2015/s6406/amendment/c.
    \11\ National Partnership for Women and Families. (2017, July). 
State Paid Family Leave Insurance Laws. Retrieved 26 January 2018, from 
http://www.nationalpartnership.org/research-library/work-family/paid-
leave/state-paid-family-leave-laws.pdf.
    \12\ Siena College telephone survey of 805 registered voters in New 
York, conducted January 24-28, 2016, by Siena College Research 
Institute. Retrieved 26 January 2018, from https://www.siena.edu/news-
events/article/albany-corruption-is-serious-problem-89-of-nyers-say.
    \13\ See note 11.

          In the District of Columbia, a new paid family and medical 
        leave law is scheduled to take effect in 2020. The program will 
        provide up to 8 weeks of leave for new parents, 6 weeks to care 
        for a seriously ill family member and two weeks to care for 
        one's own serious health condition. The program was the first 
        paid leave program in the country to be enacted without an 
        existing temporary disability insurance law.\14\
---------------------------------------------------------------------------
    \14\ See note 11.

          Most recently, Washington State lawmakers enacted a paid 
        family and medical leave law with strong bipartisan support. It 
        will take effect in 2019 and 2020 and provide between 12 and 18 
        weeks of leave for workers to care for a new child, care for a 
        family member's serious health condition or deal with their own 
        serious health condition.\15\
---------------------------------------------------------------------------
    \15\ See note 11.
---------------------------------------------------------------------------
                proven results for workers and families
          Paid leave improves child health outcomes. Paid leave gives 
        parents time to establish a strong bond with a new child during 
        the first months of life, which results in long-term health 
        benefits for both children and parents. Breastfeeding duration 
        increased substantially among California women who took paid 
        leave, with significant increases in breastfeeding initiation 
        among mothers in lower quality jobs.\16\ For low-income 
        families in New Jersey, researchers found that new mothers who 
        use the paid leave program breastfeed, on average, one month 
        longer than new mothers who do not use the program.\17\ 
        Preliminary research in California suggests that paid leave may 
        also help prevent child maltreatment by reducing risk factors, 
        such as family and maternal stress and depression.\18\ A 
        longitudinal study in California indicates many positive health 
        outcomes for elementary school aged children following the 
        implementation of paid leave, including lower probabilities of 
        having ADHD, hearing problems or recurrent ear infections or 
        being overweight--especially among children with lower 
        socioeconomic status and with mothers who have lower 
        educational attainment.\19\
---------------------------------------------------------------------------
    \16\ Appelbaum, E., and Milkman, R. (2013). Unfinished Business: 
Paid Family Leave in California and the Future of U.S. Work-Family 
Policy. Ithaca, NY: Cornell University Press.
    \17\ Setty, S., Skinner, C., and Wilson-Simmons, R. (2016, March). 
Protecting Workers, Nurturing Families: Building an Inclusive Family 
Leave Insurance Program, Findings and Recommendations From the New 
Jersey Parenting Project. National Center for Children in Poverty 
publication. Retrieved 26 January 2018, from http://nccp.org/projects/
paid_leave_
publications.html.
    \18\ Klevens, J., Luo, F., Xu, L., et al. (2015, November 28). 
``Paid family leave's effect on hospital admissions for pediatric 
abusive head trauma.'' Injury Prevention. Retrieved 6 May 2016, from 
http://injuryprevention.bmj.com/content/early/2016/01/05/injuryprev-
2015-041702.
    \19\ Lichtman-Sadot, S., and Pillay Bell, N. (2017, July). ``Child 
Health in Elementary School Following California's Paid Family Leave 
Program.'' Journal of Policy Analysis and Management. Retrieved 25 
January 2018, from http://www.nationalpartnership.org/research-library/
work-family/paid-leave/paid-leave-works-in-california-new-jersey-and-
rhode-island.pdf.

          Fathers and children benefit from paid leave. Access to paid 
        family leave encourages fathers to use leave for bonding and 
        caregiving. And when fathers take leave after a child's birth, 
        they are more likely to be involved in the direct care of their 
        children long-term.\20\ In California, the number of fathers 
        filing leave claims increased by more than 400 percent between 
        2005 and 2013, as the State's program became better 
        established.\21\ In the first year of Rhode Island's program, a 
        greater proportion of new dads took leave to bond with a 
        newborn or adopted child than did new dads in the first year of 
        the California or New Jersey programs.\22\ As a much newer 
        program, this suggests a broader cultural shift around fathers 
        taking leave and, potentially, greater knowledge of its 
        benefits.
---------------------------------------------------------------------------
    \20\ Nepomnyaschy, L., and Waldfogel, J. (2007). ``Paternity Leave 
and Fathers' Involvement With Their Young Children: Evidence From the 
American Ecls-B.'' Community, Work, and Family, 10(4), 427-453.
    \21\ State of California Employment Development Department. (2014, 
July). Paid Family Leave: Ten Years of Assisting Californians in Need. 
Retrieved 26 January 2018, from http://www.
edd.ca.gov/Disability/pdf/
Paid_Family_Leave_10_Year_Anniversary_Report.pdf.
    \22\ National Partnership for Women and Families. (2015, February). 
First Impressions: Comparing State Paid Family Leave Programs in Their 
First Years. Retrieved 26 January 2018, from http://
www.nationalpartnership.org/research-library/work-family/paid-leave/
first-impressions-comparing-state-paid-family-leave-programs-in-their-
first-years.pdf.

          Paid leave helps caregivers arrange care for their families. 
        Studies in California and Rhode Island found that parents who 
        use those States' paid family leave programs are much more 
        likely than those who do not to report that leave has a 
        positive effect on their ability to care for their new children 
        and arrange child care.\23\ Paid leave also helps people who 
        care for older adults: a California study found that the 
        implementation of the State's paid leave program accounted for 
        an 11-percent relative decline in elderly nursing home 
        usage.\24\
---------------------------------------------------------------------------
    \23\ See note 16; Silver, B., Mederer, H., and Djurdjevic, E. 
(2015, November 16). Launching the Rhode Island Temporary Caregiver 
Insurance Program (TCI): Employee Experiences One Year Later. Rhode 
Island Department of Labor and Training and University of Rhode Island 
publication. Retrieved 26 January 2018, from http://www.dlt.ri.gov/TDI/
pdf/RIPaidLeave2015DOL.
pdf.
    \24\ Arora, K., and Wolf, D.A. (2017, November 3). ``Does Paid 
Family Leave Reduce Nursing Home Use? The California Experience.'' 
Journal of Policy Analysis and Management, 37(1), 38-62. Retrieved 26 
January 2018, from http://onlinelibrary.wiley.com/doi/10.1002/
pam.22038/full.

          Paid leave helps workers provide for their families. An 
        analysis of California's paid leave program found that the 
        program increases the short-term and long-term labor force 
        participation rates of family caregivers with an 8-percent 
        increase in the short run and a 14-percent increase in the long 
        run. The long-term increase in labor force participation was 
        higher among workers in lower-income households.\25\
---------------------------------------------------------------------------
    \25\ Saad-Lessler, J., and Bahn, K. (2017, September 27). The 
Importance of Paid Leave for Caregivers. Center for American Progress 
publication. Retrieved 26 January 2018, from https://
www.americanprogress.org/issues/women/reports/2017/09/27/439684/
importance-paid-leave-caregivers/.

          Paid leave means families are less likely to use public 
        assistance. An analysis of States with paid family leave or 
        temporary disability insurance programs found that new mothers 
        in those States are less likely than new mothers in other 
        States to receive public assistance or food stamp income (now 
        known as SNAP, the Supplemental Nutrition Assistance Program) 
        following a child's birth, particularly when they use the paid 
        leave programs.\26\ New mothers in States without paid leave 
        programs report participating in some type of public assistance 
        program more than twice as often as those living in States with 
        paid leave programs. And in the year following a child's birth, 
        new mothers living in States with temporary disability 
        insurance programs are 53 percent less likely than women in 
        other States to report using SNAP.\27\
---------------------------------------------------------------------------
    \26\ Houser, L., and Vartanian, T. (2012, April). Policy Matters: 
Public Policy, Paid Leave for New Parents, and Economic Security for 
U.S. Workers. Center for Women and Work at Rutgers, The State 
University of New Jersey publication. Retrieved 26 January 2018, from 
http://go.nationalpartnership.org/site/DocServer/
RutgersCWW_Policy_Matters_April2012.pdf.
    \27\ Ibid.
---------------------------------------------------------------------------
                  demonstrated benefits for businesses
          Paid leave improves businesses' bottom lines. Paid leave 
        insurance programs are an affordable, sustainable way for 
        businesses of all size to support their employees when serious 
        family and medical needs arise. A recent survey conducted by 
        the professional services firm EY found that the majority of 
        large companies support the creation of paid family and medical 
        leave programs on the State or Federal level that are funded 
        through tax contributions.\28\ In New Jersey, about six in 10 
        medium- and large-sized businesses report no increased 
        administrative costs as a result of the State's paid family 
        leave program.\29\ A survey of California employers revealed 
        that 87 percent confirmed that the State program had not 
        resulted in any increased costs, and 60 percent report 
        coordinating their benefits with the State's paid family leave 
        insurance system--which likely results in ongoing cost 
        savings.\30\
---------------------------------------------------------------------------
    \28\ EY. (2017, March). ``Viewpoints on paid family and medical 
leave: Findings from a survey of U.S. employers and employees'' (Fig. 
26). Retrieved 26 January 2018, from http://www.ey.com/Publication/
vwLUAssets/EY-viewpoints-on-paid-family-and-medical-leave/$FILE/EY-
viewpoints-on-paid-family-and-medical-leave.pdf.
    \29\ See note 7.
    \30\ See note 16.

          Paid leave is good for small businesses. Multiple surveys 
        have found that the majority of small business owners support 
        the creation of family and medical leave insurance programs at 
        the State and Federal levels, as these programs make the 
        benefit affordable, reduce business costs, protect small 
        business owners themselves and increase their 
        competitiveness.\31\ In California, although all employers 
        report positive outcomes associated with paid leave, small 
        businesses (those with fewer than 50 employees) report more 
        positive or neutral outcomes than large businesses (500+ 
        employees) in profitability, productivity, retention and 
        employee morale.\32\ A survey conducted for the New Jersey 
        Business and Industry Association found that, regardless of 
        size, New Jersey businesses say they have had little trouble 
        adjusting to the State's law.\33\
---------------------------------------------------------------------------
    \31\ Rouzer, S. (2017, February 7). New Report: Small Business 
Owners Support Paid Family Leave, FAMILY Act. Main Street Alliance 
publication. Retrieved 26 January 2018, from http://
www.mainstreetalliance.org/small_business_owners_support_family_act; 
Small Business Majority and Center for American Progress. (2017, March 
30). Small Businesses Support Paid Family Leave Programs. Retrieved 26 
January 2018, from http://www.smallbusinessmajority.org/our-research/
workforce/small-businesses-support-paid-family-leave-programs.
    \32\ See note 16.
    \33\ See note 5

          Employee retention can also improve significantly with paid 
        leave, especially among lower-wage workers. A report from 
        Rutgers' Center for Women and Work found that women who take 
        paid leave are 93 percent more likely to be in the workforce 
        nine to 12 months after a child's birth than women who take no 
        leave.\34\ In California, workers in lower-quality jobs who 
        used the State paid leave program reported returning to work 
        nearly 10 percent more than workers who did not use the 
        program.\35\
---------------------------------------------------------------------------
    \34\ Houser, L., and Vartanian, T.P. (2012, January). Pay Matters: 
The Positive Economic Impacts of Paid Family Leave for Families, 
Businesses and the Public. Center for Women and Work at Rutgers, The 
State University of New Jersey publication. Retrieved 26 January 2018, 
from http://www.nationalpartnership.org/research-library/work-family/
other/pay-matters.pdf.
    \35\ See note 16.

          Paid leave improves employee morale. A recent EY survey 
        found that more than 80 percent of businesses that offer paid 
        family leave report a positive impact on employee morale, and 
        more than 70 percent report an increase in employee 
        productivity.\36\ In California, virtually all employers (99 
        percent) report that the State's program has positive or 
        neutral effects on employee morale.\37\ Several New Jersey 
        employers interviewed as part of a small study note that the 
        State's paid leave program helps reduce stress among employees 
        and helps improve morale among employees who took leave and 
        their co-workers.\38\
---------------------------------------------------------------------------
    \36\ See note 28.
    \37\ See note 16.
    \38\ Lerner, S., and Appelbaum, E. (2014, June). Business as Usual: 
New Jersey Employers' Experiences With Family Leave Insurance. Center 
for Economic and Policy Research publication. Retrieved 26 January 
2018, from http://www.cepr.net/documents/nj-fli-2014-06.pdf.

          Paid leave programs are used as intended by workers without 
        burdening employers. The California Society for Human Resource 
        Management, a group of human resources professionals that 
        opposed California's paid family leave law, declared that the 
        law is less onerous than expected,\39\ and few businesses in 
        their research reported challenges resulting from workers 
        taking leave. In Rhode Island, a study of small and medium-
        sized employers conducted after the State's program came into 
        effect found no negative effects on employee workflow, 
        productivity or attendance; the majority of employers surveyed 
        said they were in favor of the new program.\40\
---------------------------------------------------------------------------
    \39\ Redmond, J., and Fkiaras, E. (2010, January). California's 
Paid Family Leave Act Is Less Onerous Than Predicted. Society for Human 
Resources Management publication. Retrieved 26 January 2018, from 
https://www.sheppardmullin.com/media/article/809_CA%20Paid%20
Family%20Leave%20Act%20Is%20Less%20Onerous%20Than%20Predicted.pdf.
    \40\ See note 9.
---------------------------------------------------------------------------
                  a clear case for a national solution
    All workers in the United States need to be able to take time away 
from their jobs when serious family and medical needs arise, without 
jeopardizing their financial stability. The success of the programs in 
California, New Jersey, and Rhode Island demonstrates that progress is 
possible--and that there is an effective, affordable and proven model 
that works for families, businesses and economies.

    People's access to paid leave shouldn't depend on where they live, 
whom they work for, or what job they hold. It is past time for a 
national solution. Gone should be the days when only 15 percent of 
workers in the United States have access to paid family leave, and 
fewer than 40 percent have paid medical leave.\41\ Everyone needs and 
deserves time to care for their health and their families. Learn more 
at NationalPartnership.org/PaidLeave.
---------------------------------------------------------------------------
    \41\ U.S. Department of Labor, Bureau of Labor Statistics. (2017, 
September). Employee Benefits in the United State National Compensation 
Survey, March 2017 (Tables 16 and 32). Retrieved 26 January 2018, from 
https://www.bls.gov/ncs/ebs/benefits/2017/ebbl0061.pdf.

    The National Partnership for Women and Families is a nonprofit, 
nonpartisan advocacy group dedicated to promoting fairness in the 
workplace, access to quality health care and policies that help women 
and men meet the dual demands of work and family. More information is 
---------------------------------------------------------------------------
available at NationalPartnership.org.

                                 ______
                                 
           Questions Submitted for the Record to Vicki Shabo
              Questions Submitted by Hon. Michael B. Enzi
    Question. As a former small business owner, I am concerned that any 
well-
intentioned policies could have unintended consequences. For example, 
if a small company finds a temporary worker for the position for an 
employee on medical leave, would that temporary worker, after the 
employee returns to work, then be able to claim unemployment insurance? 
If so, would such a claim increase the company's unemployment taxes due 
to an increase in claims?

    Answer. This is an excellent question. For context, it may be 
helpful to look at the behavior of employers who navigate work coverage 
during employees' leaves--in general, few employers hire temporary 
workers, although I understand that in small businesses and in certain 
sectors, hiring replacement workers may be required. Overall, however, 
recent survey data shows that, among companies with 100 or fewer 
employees, just 14 percent hire an outside temporary replacement worker 
when employees take a family or medical leave (Small Business Majority 
and Center for American Progress (2017, March), Small Businesses 
Support Paid Family Leave Programs, retrieved 6 August 2018, from 
http://www.smallbusinessmajority.
org/our-research/workforce/small-businesses-support-paid-family-leave-
programs). This is consistent with research on the lived experiences of 
employers in California and New Jersey after the adoption of those 
States' paid family leave programs, who most often cover work by 
assigning other employees to cover the work temporarily or covering the 
work themselves (Milkman, R., and Appelbaum, E. (2013), Unfinished 
Business: Paid Family Leave in California and the Future of U.S. Work-
Family Policy, Ithaca, NY: Cornell University Press; see also Lerner, 
S., and Appelbaum, E. (2014, June), Business as Usual: New Jersey 
Employers' Experiences With Family Leave Insurance, Center for Economic 
and Policy Research publication, retrieved 6 August 2018, from http://
cepr.net/documents/nj-fli-2014-06.pdf).

    As Congress proceeds with considering paid leave legislation, 
legislative language should address and eliminate employer experience-
rating penalties so as not to affect employers' permanent or temporary 
employee hiring decisions (for example, unlawfully avoiding hiring 
women of reproductive age or those likely to have family caregiving 
responsibilities or illnesses or disabilities of their own), but 
certainly, temporary employees with requisite work history from a 
temporary assignment and any prior employment history should be 
eligible for unemployment insurance if they are out of work after a 
temporary assignment ends. I would urge that any language serve three 
policy goals: (1) reduce barriers to smooth business operations during 
an employee's absence, whether by hiring a replacement or cross-
training existing employees; (2) minimize the risk of discrimination or 
implicit bias against the workers or applicants who an employer assumes 
will be more likely than others to take a family or medical leave; and 
(3) ensure that temporary workers are eligible for unemployment 
insurance if they have filled in to cover for an employee on leave and 
are subsequently searching for future employment.

    All of the above assumes that a temporary worker was hired directly 
by an individual employer. Employees who are placed in a temporary 
position through a temp agency may be eligible for unemployment through 
the agency rather than the through the business establishment in which 
he or she was placed.

    Question. Under the proposed legislation and concepts being 
considered for paid family leave, would the temporary workers also be 
eligible for such leave if they have a medical or family issue occur 
during their temporary employment? If yes, are there any safeguards to 
prevent abuse or fraudulent claims, such a making a claim in the last 
week of one's employment?

    Answer. Paid leave policies should make paid family and medical 
leave available to every person with recent work history and requisite 
earnings; best practice is to make the benefit portable so that 
temporary and contract workers and those who work for multiple 
employers are eligible without putting the full burden of paying for 
leave on an employer or on the worker and their family. Paid leave 
provides income security during periods of serious family and medical 
leave; eligibility criteria require a medical certification that 
demonstrates the workers' legitimate need for leave, and State evidence 
shows miniscule rates of misuse, fraud or abuse. Paid family and 
medical leave is not intended as a substitute for unemployment 
insurance or any other program and penalties would apply to anyone who 
misuses the program.

    Under the FAMILY Act, S. 337, an individual must meet multiple 
criteria to be eligible for benefits: (1) enough work and earnings 
history to be insured for disability benefits under the Social Security 
Act when his or her application is filed; (2) earned income from 
employment during the 12 months prior to filing an application for 
family or medical leave; and (3) engaged in ``qualified caregiving,'' 
which requires submitting FMLA-type certification from a medical 
provider (section 5(a)). In addition, an individual applying for 
benefits is subject to a 5-day waiting period (1 work week) during 
which benefits will not be paid (section 5(b)(3)(A)). The benefit 
amount an individual receives is offset by the receipt of other public 
benefits (section 5(b)(4)) and an applicant is ineligible if he or she 
receives certain other benefits through the Social Security program 
(section 5(e)(1)). Under the FAMILY Act, applicants who file false 
claims are barred from using the program for 1 year (section 5(e)(2)).

    Senator Rubio's proposal, now introduced as S. 3345, would also 
appear to cover temporary workers with requisite Social Security 
earnings credits. This legislation, like the FAMILY Act, serves as a 
social insurance model that insures all eligible working people 
independent of the nature of their employment. S. 3345 is only limited 
to leave to care for a newborn or newly adopted child, however, which 
excludes about 75 percent of people who need leave in a year.

    Question. Under the proposed legislation and concepts being 
considered for paid family leave, for States that already have paid 
family leave, what would happen to the funds collected should a Federal 
plan be put into place?

    Answer. Neither S. 337 (the FAMILY Act) nor S. 3345, Senator 
Rubio's bill, preempt or supersede State or local laws that provide 
similar paid family and medical leave benefits. The FAMILY Act 
establishes that State paid family leave insurance and temporary 
disability leave insurance benefits would be coordinated with Federal 
family and medical leave benefits in a manner determined by 
regulations.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. The three newest State programs have all done progressive 
wage replacement, so that lower-wage workers receive a higher share of 
their wages.

    Ms. Shabo, could you speak about the trade-offs around flat or 
progressive wage replacement rates, and how Congress should be thinking 
about the right level of wage replacement for each income group?

    Answer. A meaningful paid family and medical leave program should 
provide adequate, equitable wage replacement to any eligible worker 
with a covered serious family or medical need. State programs have 
taken two general approaches to wage replacement. Older State programs 
provide one replacement rate up to a cap, so that all low- and middle-
wage workers have a consistent share of their wages, while the benefit 
cap functions to limit wage replacement rates for higher-income 
workers. Newer State programs (Washington State, the District of 
Columbia and Massachusetts) and California's updated program have more 
finely tailored wage replacement rates, with a higher share of wage 
replacement available to lower-income workers and a lower wage 
replacement rate available for middle-income workers (again, for 
higher-wage workers, the maximum benefit functions to limit wage 
replacement to a declining share of their wages). The cut-point is 
based on a fraction or multiple of the State average weekly wage or 
minimum wage. Our chart, available at http://
www.nationalpartnership.org/research-library/work-family/paid-leave/
state-paid-family-leave-laws.pdf, provides details on each State 
program.

    Research shows the importance of higher wage replacement rates for 
lower-
income workers, who are the least likely to have any supplementary 
wages or paid time off from their employers and also the least likely 
to be able to meet their basic expenses on a lower fraction of their 
typical income. Low wage replacement rates may be a barrier to program 
utilization. For example, research on California's paid family leave 
insurance program--the first in the country--indicated that the 
program's original wage replacement rate of 55 percent was too low for 
many eligible low-wage workers to be able to make use of leave, even as 
its weekly cap of just above $1,000 per week was high enough for 
middle-income workers to use the program (Bana, S., Bedard, K., and 
Rossin-Slater, M. (2018, May), Trends and Disparities in Leave Use 
Under California's Paid Family Leave Program: New Evidence From 
Administrative Data, AEA Papers and Proceedings, 108, 388-391, 
retrieved 3 July 2018, from https://www.aeaweb.org/articles?id=10.1257/
pandp.20181113; State of California Employment Development Department 
(2015, December 14), Paid Family Leave Market Research, retrieved 30 
July 2018, from https://www.edd.ca.gov/Disability/pdf/
Paid_Family_Leave_Market_Research_Report_2015.
pdf; Milkman, R., and Appelbaum, E. (2013), Unfinished Business: Paid 
Family Leave in California and the Future of U.S. Work-Family Policy 
(pp. 67-68), Ithaca, NY: Cornell University Press). Modeling based on 
evidence from California suggests that a higher wage replacement rate 
will help promote labor force attachment for women: researchers predict 
that a 10-percent bump in wage replacement will increase the likelihood 
that a new mother will be working within the 1 to 2 years following 
birth, beyond the increases already observed from the State's existing 
program (Bana, S., Bedard, K., and Rossin-Slater, M. (2018, March), The 
Impacts of Paid Family Leave Benefits: Regression Kink Evidence From 
California Administrative Data, Working Paper 24438, National Bureau of 
Economic Research, retrieved 30 July 2018, from http://www.nber.org/
papers/w24438.pdf). Research also indicates that men's likelihood of 
taking leave is particularly sensitive to wage replacement rates, 
meaning that too-low wage replacement poses a barrier to gender equity 
and men's caregiving (World Policy Analysis Center (2018, February), A 
Review of the Evidence on Payment and Financing of Family and Medical 
Leave, retrieved 6 August 2018, from https://www.worldpolicycenter.org/
sites/default/files/WORLD%20Brief%20-
%20Payment%20and%20Financing%20of%20Paid%20Family
%20and%20Medical%20Leave_0.pdf).

    Based on research conducted into California's lower-than-expected 
paid leave utilization which showed the importance of higher wage 
replacement, the California legislature updated the State's paid family 
leave program in 2016 to increase the wage replacement rate to 70 
percent for lower-wage workers and 60 percent for middle-wage workers, 
with the $1,216 weekly benefit cap. Newer paid leave programs in 
Washington State and the District of Columbia will provide 90-percent 
wage replacement to the lowest-wage workers, while Massachusetts will 
provide 80 percent to the lowest-wage workers. In these newer programs 
with tiered wage replacement, middle-wage workers typically receive 
about two thirds of their wages, while higher-wage workers receive 50 
percent or less.

    In our view, Congress should ensure that any Federal plan replaces 
at least 66 percent of a worker's typical wages, as the Family And 
Medical Insurance Leave (FAMILY) Act (S. 337) would do, and offers a 
meaningful capped benefit so that middle-wage workers can afford to 
take leave and so that the program facilitates gender equity in leave-
taking and workforce participation. As Congress considers paid leave 
policy options, it could also consider higher wage replacement rates 
for lower-wage workers, while retaining approximately two-thirds wage 
replacement for middle-wage workers, as the three newest State programs 
will do. For context, New York's program will offer a two-thirds wage 
replacement rate, with a maximum weekly benefit cap of $1,000, when the 
program is fully phased in in 2021. As noted above, programs passed in 
Washington State, the District of Columbia and Massachusetts have 
included progressive wage replacement rates that amount to 80 to 90 
percent for lower-wage workers and around two-thirds for middle-wage 
workers, with weekly caps of $850 to 1,000 per week.

    Question. Six States and the District of Columbia now have either 
active programs or are implementing programs to provide paid family 
leave.

    Why is it important that we provide paid family leave at a national 
level? What benefits would this provide over a patchwork of State 
programs?

    Answer. Every working person in the United States should have 
access to paid family and medical leave, no matter where they live, 
their employer or their job. A national paid leave plan would promote 
higher rates of labor force participation and higher earnings 
(especially among women), improved child and maternal health, greater 
income and retirement security for family caregivers, certainty for 
employers, and growth in the Nation's GDP. A national program, which 
sets a nationwide baseline, is the surest way to achieve these 
outcomes. A State patchwork will not ever ensure that every working 
person has access to paid leave, and might serve to magnify rather than 
shrink disparities: As the National Partnership found in a report we 
issued nearly 3 years ago, A National Imperative: State Disparities 
Demonstrate Urgent Need for Federal Paid Family and Medical Leave Law, 
the States whose populations have the most to gain from paid leave in 
terms of labor force participation, poverty reduction and population 
health improvements, are those without a history of innovating in the 
area of work-family supports.

    There are also practical reasons for adopting a program at the 
national level:

          A national program would provide portable coverage for 
        working people who move across State lines or work for 
        employers in multiple States. This will help ensure highly 
        mobile populations, such as military spouses, have equitable 
        access to paid leave. It is also a way to help support people 
        pursuing the American Dream by enhancing their ability to seek 
        better opportunities and upward mobility without regard to a 
        paid leave policy landscape that changes from State to State.

          A national program would ensure that a child who lives and 
        works in one State is able to care for an ailing parent who 
        lives in another. The rapid aging of the United States' 
        population and the workforce, and the larger size of the Baby 
        Boom population (in need of care) relative to the smaller size 
        of the Generation X (caregivers to aging Boomers), necessitates 
        solutions to maximize the younger generations' ability to 
        provide care. This is especially true for aging populations in 
        rural and Rust Belt communities, whose children may have moved 
        away to pursue better opportunities in other States.

          A national paid leave program would create a uniform 
        national baseline for multi-State employers, ensuring that all 
        employees in multi-State companies have consistent benefits. It 
        would also help to smooth out and offer more certainty to 
        employers in a rapidly changing policy landscape, where States 
        are filling the gaps by adopting their own, varied State paid 
        leave programs.

          A national paid leave program would assist small businesses 
        in competing for talent with larger ones that are better able 
        to offer paid leave benefit on their own. Small business' 
        desire to offer leave but concerns about bearing the full cost 
        on an as-needed, unpredictable basis is one reason that 70 
        percent of smaller businesses nationwide told researchers they 
        support a national paid leave plan funded through shared 
        payroll deductions (Small Business Majority and Center for 
        American Progress (2017, March), Small Businesses Support Paid 
        Family Leave Programs, retrieved 6 August 2018, from http://
        www.smallbusinessmajority.org/our-research/workforce/small-
        businesses-support-paid-family-leave-programs). It would also 
        create consistency across States for multi-State small 
        businesses.

          A national program would be more efficient to set up and 
        administer. The first four States to adopt paid family leave 
        programs were those that had long-standing State temporary 
        disability insurance programs; it was relatively easy and 
        inexpensive to build paid family leave benefits into these 
        existing administrative infrastructures. Those four States were 
        the exception, however. In order to create State paid leave 
        programs going forward, States will need to build whole new 
        systems from scratch or seek Federal permission to use 
        unemployment insurance systems (which themselves require 
        technology and data upgrades in many States (Dixon, R. (2013, 
        November), Federal Neglect Leaves State Unemployment Systems in 
        a State of Disrepair, National Employment Law Project 
        publication, retrieved 6 August 2018, from https://
        www.nelp.org/wp-content/uploads/2015/03/NELP-Report-State-of-
        Disrepair-Federal-Neglect-Unemployment-Systems.pdf)), at a cost 
        of tens of millions of dollars per State. And even after they 
        do, people who move from State to State and multi-State 
        businesses will have to manage dealing with different rules and 
        procedures across State lines--and State governments will have 
        to build and maintain their own systems. It is much better, 
        clearer, cheaper, and simpler to create a national program.

    States have always been proving grounds for policy ideas, and State 
paid leave programs have been no exception. Now, however, it is time 
for a nationwide program that sets a floor for the country upon which 
States can improve.

    Question. In the recent tax legislation, we created a 2-year pilot 
program that provides tax incentives to employers that provide paid 
family leave, provided they meet certain requirements.

    Will you speak a little about what's lost when we allow paid family 
leave to be determined on a company-by-company basis? What are the 
benefits or limitations of the tax credit approach?

    Answer. It is admirable that employers and business leaders are 
increasingly recognizing the benefits of offering paid leave (Stroman, 
T., Woods, W., Fitzgerald, G., Unnikrishnan, S., Bird, L. (2017, 
February), Why Paid Family Leave is Good Business, BCG publication, 
retrieved 6 August 2018, from https://www.bcg.com/publications/2017/
human-resources-people-organization-why-paid-family-leave-is-good-
business.aspx), and we applaud the forward-thinking companies that have 
created or expanded leave offerings for their employees (National 
Partnership for Women and Families (2018, April), Leading on Leave: 
Companies With New or Expanded Paid Leave Policies (2015-2018), 
retrieved 6 August 2018, from http://www.
nationalpartnership.org/research-library/work-family/paid-leave/new-
and-expanded-employer-paid-family-leave-policies.pdf). But private-
sector action is the exception and not the rule: just 13 percent of 
private-sector workers have access to paid family leave through their 
employers, and fewer than 40 percent have access to paid personal 
medical leave through an employer's short-term disability program (U.S. 
Bureau of Labor Statistics (2017, September), National Compensation 
Survey: Employee Benefits in the United States, March 2017 (Table 16 
and Table 32 for private industry workers), retrieved 30 July 2018, 
from https://www.bls.gov/ncs/ebs/benefits/2017/ebbl0061.pdf). Access to 
employer-provided paid family leave is about six times more common for 
the highest-wage workers (24 percent) than for the lowest-wage workers 
(4 percent) (Ibid.). Even within worksites, there are huge disparities: 
only 22 percent of employees work at worksites that offer paid 
maternity leave and 9 percent work at worksites that offer paid 
paternity leave to ``all'' workers, and about one-fifth are employed at 
worksites that offer paid maternity and paternity leave to ``some,'' 
but not ``most'' or ``all,'' employees within the same worksite 
(Klerman, J.A., Daley, K., and Pozniak, A. (2012, September), Family 
and Medical Leave in 2012: Technical Report (Exhibit 7.2.1), Abt 
Associates publication, retrieved 6 August 2018, from https://
www.dol.gov/asp/evaluation/fmla/FMLA-2012-Technical-Report.pdf).

    Despite headlines touting the benefits of leading employers, paid 
leave access rates have hardly budged in recent years, rising from 10 
percent of private industry workers with paid family leave in 2010 to 
13 percent in 2017--and almost all of the increase has been among the 
highest income workers (U.S. Bureau of Labor Statistics (2010, 
September), National Compensation Survey: Employee Benefits in the 
United States, March 2010 (Table 32 for private industry workers), 
retrieved 6 August 2018, from https://www.bls.gov/ncs/ebs/benefits/
2010/ownership/prvt_all
.pdf; see note 8). It is little wonder that lawmakers and policymakers 
across the ideological spectrum increasingly agree that a public policy 
solution is needed to solve the United States' paid leave crisis. But 
the details matter tremendously.

    There is little reason to expect that the temporary tax credit 
included in the tax legislation passed last year will significantly 
move the needle. As far as I know, only one company has publicly said 
it will use the tax credit provision to pay for part of an expanded 
leave policy; that company--Rolls Royce--also said its policy change 
was ``2 years in the making'' suggesting that it was not the credit 
itself that sparked the policy change (Cebul, D. (2018, May), Rolls-
Royce uses Trump-era tax cuts to improve employee benefits, retrieved 6 
August 2018, from https://www.defense
news.com/industry/2018/05/03/rolls-royce-uses-trump-era-tax-cuts-to-
improve-employee-benefits/; see also Marone, A. (2018, August 2), 
Thanks to GOP Tax Cuts, Companies Are Providing New Benefits to 
Employees and Their Families, retrieved 6 August 2018, from https://
www.atr.org/family). This demonstrates a challenge with tax credits: 
they simply subsidize employers who already have policies or are 
already planning to take action rather than incentivizing changes in 
companies more broadly. This only exacerbates sharp divisions among 
companies and employees' experiences.

    From an employee's perspective, the tax credit continues to 
perpetuate the ``boss lottery'': whether leave is available or not 
still depends entirely on their employer's decisions.

    Moreover, the parameters of the tax credit itself mean that 
employers who take the tax credit may still fail to guarantee access to 
paid leave of a meaningful duration, at a wage replacement rate that 
makes it affordable to use, or for all of the reasons people need paid 
Family and Medical Leave Act (FMLA) leave. Employer participation is 
voluntary, and employers could offer leave for as little as two weeks, 
at as little as 50 percent wage replacement, for as few as just one of 
the reasons people need leave (26 U.S. Code Sec. 45S--Employer credit 
for paid family and medical leave, retrieved 6 August 2018, from 
https://www.law.cornell.edu/uscode/text/26/45). And leave would only 
need to be provided to employees under a certain salary threshold, 
potentially creating new inequities in a worksite.

    From an employer's perspective, the take-up rate may be low because 
the tax credit does little to make providing leave affordable, 
particularly for small companies or low-margin businesses. Employers 
who offer leave in order to receive the tax credit are required to make 
substantial and often unpredictable out-of-pocket expenditures to 
provide paid leave when employees need it, in exchange for a small tax 
credit that is not available until year-end tax filings. For example 
(assuming an employer with a generous policy), for an employee with a 
salary of $36,000 per year who takes 12 weeks of leave at 66 percent 
pay, an employer would have to pay $5,483 out-of-pocket for the 
employee's salary during the leave period, and eventually receive a 
$905 tax credit, for a total net annual cost of $4,578. Ensuring paid 
leave coverage for the same employee under the FAMILY Act would cost 
just $72 for the entire year; during a period of leave, the employee's 
wage replacement would be covered by the FAMILY Act's trust fund 
(National Partnership for Women and Families (2017, November), Tax 
Credits Do Little to Make Paid Leave Affordable for Employers, 
retrieved 6 August 2018, from http://www.nationalpartnership.org/
research-library/work-family/paid-leave/tax-credits-do-little-to-make-
paid-leave-affordable-for-employers.pdf).

    Question. The FAMILY Act would offer anti-retaliation protections 
for all workers. When the Family and Medical Leave Act of 1993 was 
passed, it excluded employers with under 50 employees. That, along with 
other eligibility requirements, meant that it now only covers roughly 
60 percent of all employees. However, while it may be easier for a 
large corporation like Deloitte to move personnel around and provide 
temporary replacement for workers with little cost, small businesses 
may have a harder time.

    How do the employment protections of the FAMILY Act take small 
businesses into account?

    Answer. The FAMILY Act would offer anti-retaliation protections to 
the 41 percent of workers who are not covered by the Federal FMLA 
(Klerman, J.A., Daley, K., and Pozniak, A. (2012, September), Family 
and Medical Leave in 2012: Technical Report (Exhibit 7.2.1), Abt 
Associates publication, retrieved 6 August 2018, from https://
www.dol.gov/asp/evaluation/fmla/FMLA-2012-Technical-Report.pdf). This 
is critical because research on the paid leave insurance programs in 
California and New Jersey has shown that workers without FMLA job 
protection, particularly low-income workers, often fear repercussions 
for taking leave and therefore forgo the paid leave that the State plan 
makes available (State of California Employment Development Department 
(2015, December 14), Paid Family Leave Market Research, retrieved 30 
July 2018, from https://www.edd.ca.gov/Disability/pdf/Paid_
Family_Leave_Market_Research_Report_2015.pdf; see also Setty, S., 
Skinner, C., and Wilson-Simmons, R. (2016, March), Protecting Workers, 
Nurturing Families: Building an Inclusive Family Leave Insurance 
Program Findings and Recommendations From the New Jersey Parenting 
Project, National Center for Children in Poverty publication, retrieved 
30 July 2018, from http://www.nccp.org/publications/pub_1152.html). 
Especially when paid leave plans are funded through employee payroll 
deductions, it's essential to ensure that workers can actually use the 
program.

    Newer State laws go beyond the baseline proposed under the FAMILY 
Act in addressing this critical need for employment security. 
Massachusetts will offer full job protection--reinstatement to the same 
or an equivalent job after returning from leave--for family and medical 
leave to all workers, including those in smaller businesses or with 
less job tenure. New York and Rhode Island offer job protection for 
family care and parental leave to all workers, including those who fall 
outside the State or Federal FMLA laws. The State FMLA law in 
California was just amended to offer job protection to new parents in 
smaller businesses so that these paid leave-takers are protected; FMLA 
and antidiscrimination laws are also more expansive in Washington, DC 
and Washington State and will protect some paid leave-takers who are 
not covered by the Federal FMLA.

                                 ______
                                 
                  Question Submitted by Hon. Tim Scott
    Question. There is a growing consensus on Capitol Hill that 
recognizes the need to promote a Federal paid leave policy that 
empowers employees who are also new parents, caregivers, and even 
chronically ill. There is also an increasingly large number of 
employers who have instituted their own paid leave policies, indicating 
that job creators are recognizing the need and desire for such a 
benefit. Just like individuals confront a host of life events that are 
unique to themselves and their families, not all employers or 
industries are the same. A mandatory Federal paid leave policy applied 
to all industries may be detrimental to definite-term, project-specific 
industries due to their different work conditions and performance 
demands. Construction job sites, for example, employ multiple 
contractors who work consecutively on time-sensitive projects where 
both employers and employees have agreed to contracts that cover pay 
and benefits, including family leave.

    As we continue to consider various national paid leave program 
proposals, what considerations should be made to accommodate and 
complement the unique needs of various and distinct industries? 
Specifically, could you provide a more detailed description of the 
provisions for effective, productive coverage for workers and employers 
in definite-term, multi-employer performance settings?

    Answer. It's encouraging to see a growing consensus on Capitol Hill 
that paid leave is an issue that Congress must address, and you 
correctly note the importance of addressing leave not just for new 
parents but also for caregivers and people who themselves may have 
chronic health issues. Although it is true that some companies, like 
Deloitte, are establishing programs for their own workers, most are 
not. The gaps left by the private sector are enormous--whether measured 
in the costs to workers and families, the costs to businesses 
themselves in turnover and lost productivity, or to the costs and lost 
value to the Nation's economy. This is why public policy must set a 
cost-effective and efficient baseline that individual companies and 
industries can use as a platform for further augmentation and 
innovation.

    A social insurance approach like the FAMILY Act can be especially 
beneficial for the definite-term and multi-employer performance 
settings raised in this question. Contract workers who need paid leave 
would be able to access it through the FAMILY Act fund while allowing 
the employer or multiple employers to hire replacement workers for 
those that must be out. This is likely much more beneficial than the 
status quo, which would either have those workers be off the job with 
no pay--possibly jeopardizing the economic security of themselves and 
their households, requiring dipping into savings, turning to public 
assistance programs or even filing for bankruptcy--or put the full cost 
of paying for leave on their employer, leaving the employer fewer 
resources to hire a replacement. The FAMILY Act model insures both 
workers and employers against these types of losses. Program integrity 
measures would help ensure appropriate use, as has worked in the 
States.

                                 ______
                                 

                             Communications

                              ----------                              


                       American Benefits Council

                      1501 M Street, NW, Suite 600

                          Washington, DC 20005

                              202-289-6700

                         Facsimile 202-289-4582

                    www.americanbenefitscouncil.org

    Submitted by Ilyse Schuman, Senior Vice President, Health Policy

    The American Benefits Council (``the Council'') commends the Senate 
Subcommittee on Social Security, Pensions, and Family Policy for 
holding a hearing focusing on the importance of paid family leave for 
working families.

    The Council is a public policy organization representing 
principally Fortune 500 companies and other organizations that assist 
employers in providing benefits to employees. The American Benefits 
Council's members are primarily very large companies with operations 
across the country--often in all 50 states and numerous localities. The 
vast majority of large employers already sponsor excellent paid leave 
programs that enable employees to address their own, and their family 
members' health needs, as well as to have personal, holiday or vacation 
time. These programs foster greater productivity and contribute to the 
success of the business.

    As more states and political subdivisions enact paid leave laws, it 
has become increasingly difficult for large, multistate employers to 
consistently offer and administer paid leave. Many state and local 
mandates use completely different definitions of terms and have 
inconsistent recordkeeping requirements and thresholds that trigger 
coverage or accrual of benefits. As a result, employers have had to 
design their leave programs to meet administrative and other 
requirements, rather than meet employer and employee objectives.

    As the Subcommittee discusses paid family leave, we ask you to 
recognize the challenge presenting by the increasingly complex myriad 
of state and local paid leave laws. We urge you to consider an approach 
to paid leave that provides a federal, uniform and voluntary paid leave 
option that will benefit employers and employees alike. Such an 
approach would enable companies to design uniform programs that benefit 
their employees and their families wherever they may live or work.

    Uniform, voluntary federal standards would be both efficient and 
equitable. Multistate employers need the predictability and uniformity 
of a national paid leave solution, so they can maintain consistent 
policies for their entire workforce across different states and local 
jurisdictions. By having the option of a single, national standard for 
paid leave they can treat all their employees equally, rather than on a 
fragmented, jurisdiction-by-jurisdiction basis. Companies need programs 
that fit what have become increasingly mobile workforces. A voluntary 
national standard could make it easier to communicate available 
programs so that employees get full value and would limit complexity of 
administration for employers.

    We urge policymakers to craft a federal solution that addresses the 
challenge faced by working families and also the complexity of often 
conflicting state and local leave laws. Accordingly, a national paid 
leave policy must be:

          Practical: Paid time off is a practical workforce issue and 
        should be a nonpartisan issue. This benefit is already provided 
        by employers across the United States. Any policy adopted 
        should promote ease of communication and use for employees as 
        well as ease of administration by the employer.

          Voluntary: A national paid leave policy needs to be 
        voluntary on the part of the employer. Any regulation of paid 
        leave should allow large companies to maintain uniform paid 
        leave practices across the country by conforming to a single 
        set of rules so long as they provide a specified level of paid 
        leave to their workforce.

          Uniform: As noted, it is critical that companies have the 
        ability, if desired, to design uniform paid leave policies that 
        do not vary based on the state or local jurisdiction in which 
        they operate. Uniformity allows for consistent treatment of 
        employees and ease of mobility for workers. State and local 
        mandates can still apply to businesses that do not provide paid 
        leave, but those companies that choose to adopt a federal 
        minimum standard should be deemed to satisfy all paid leave 
        mandates.

          Flexible: Paid leave is distinct from the evolving world of 
        flexible work practices whereby, for example, employees may be 
        able to telecommute, share jobs, or work more during certain 
        days or weeks and less during other days or weeks. A national 
        policy on paid leave should not disrupt the evolution of 
        flexible workplace practices.

    Thank you for your consideration of our comments. Please let us 
know how the Council can further assist in your efforts.

                                 ______
                                 
                American Council of Life Insurers (ACLI)

                      101 Constitution Avenue, NW

                       Washington, DC 20001-2133

                              www.acli.com

The American Council of Life Insurers (ACLI) appreciates the 
opportunity to submit the following statement for the record for the 
Subcommittee on Social Security, Pensions, and Family Policy's hearing 
``Examining the Importance of Paid Family Leave for American Working 
Families'' held July 11, 2018. We appreciate the Subcommittee raising 
the level of awareness regarding this public policy issue.

ACLI advocates on behalf of approximately 290 member companies 
dedicated to providing products and services that contribute to 
consumers' financial and retirement security. ACLI members represent 95 
percent of industry assets, 93 percent of life insurance premiums, and 
98 percent of annuity considerations in the United States. Seventy-five 
million families depend on our members' life insurance, annuities, 
retirement plans, long-term care insurance, disability income insurance 
and reinsurance products. Taking into account additional products 
including dental, vision and other supplemental benefits, ACLI members 
provide financial protection to 90 million American families.

The hearing comes at an opportune time. As referenced at the hearing, 
there has been a dramatic increase in the filing of proposed state 
legislation over the last several years that creates rights for 
employees for paid leave to (1) bond with new children, (2) care for 
family members with serious health conditions, (3) attend to a 
qualifying exigency created by a family member being called to active 
military duty and/or (4) for the employee's own medical condition. Some 
of the proposed legislation permits self-funded and/or insured 
solutions while other legislation contemplates the creation of new 
governmental departments that will have the exclusive responsibility 
for the administration of these leave programs and associated premiums.

Many private insurers are equipped to provide the aforementioned 
employee benefits as they have the capital, organizational structure, 
and professional staff with expertise to handle benefits including paid 
family and medical leave. Insurers have a deep reservoir of customer 
service, claims and administrative staff who are skilled at 
administering these benefits. Many insurers currently offer ``absence 
management'' services for employers that include tracking and 
administration of the Family and Medical Leave Act (FMLA) and hundreds 
of state and local unpaid leave laws. Insurers also provide insured 
solutions to employers who offer both short- and long-term disability 
benefits to their employees and also assist employers with self-
insured benefits on an administrative services only (ASO) basis. There 
are a number of states that currently require employers to provide 
statutory disability and/or family leave benefits to their employees, 
and almost all of these states permit and encourage private insurer 
involvement in providing these benefits.

On January 1, 2018, New York became one of four states (the others are 
California, New Jersey and Rhode Island) to now offer paid family leave 
benefits so that employees may take paid leave to bond with a new 
child, to care for a family member with a serious health condition or 
for a qualifying military exigency caused by a covered family member 
being called to military duty (PFML). These leave programs, in essence, 
mirror rights under the FMLA but enhance those rights by providing paid 
benefits. The District of Columbia, Massachusetts and Washington have 
also passed paid family and medical leave legislation; however, those 
laws do not go into effect until at least 2020.

In addition to these state efforts, federal proposals are being 
considered as referenced by Senators Kirsten Gillibrand (D-NY) and Joni 
Ernst (R-IO) at the hearing. As Congress continues discussions and 
drafts legislation to provide for paid leave, we would recommend that 
it leverage the private insurance industry as you move forward. 
Chairman Bill Cassidy (R-LA) applauded the steps many private employers 
are already taking to provide these benefits to their employees. We 
respectfully request that you consider the role of the private 
insurance industry (in particular the private disability insurance 
carriers) providing these benefits, especially the employee medical 
leave portion. Currently more than 30 insurers provide disability 
insurance benefits that businesses and employers can voluntarily offer 
to their employees.

It makes sense from a number of policy perspectives for other 
jurisdictions that are contemplating PFML legislation to also draft the 
legislation in a way that permits private insurer involvement and 
leverages the established private market. Having insurers participate 
in programs to provide and to administer these benefits makes sense for 
the following three key reasons:

      It will reduce the financial and administrative burden on 
government agencies.

      Insurers already have the expertise, systems, and staff in 
providing and administering like benefits.

      It provides employers with a way to manage a number of leave 
programs and benefits in one consolidated platform thereby increasing 
ease of use and compliance.

ACLI believes that the following are key features that should be 
considered and included in PFML legislation to effectively accomplish 
the goal of permitting private insurer involvement:

Flexibility of design. Set minimum standards but allow insurers and 
employers the flexibility to design and offer coverage that provides 
equal or better benefits than any designated state benefits.

Flexibility in rates. To maintain a healthy and competitive market, 
insurers should be allowed to establish appropriate rates based on 
market forces as is currently the case with other employee benefit 
coverages. To protect employees, the legislation could require that the 
benefit be funded equally by both the employer and employee and/or 
could set maximum rates that can be charged to employees. If insurers 
and employers have the ability to negotiate rates, it will be more 
likely that fair market prices will be established that accurately 
reflect claim incidence.

Leaves run concurrently with FMLA. Insurers recommend that any proposed 
legislation be clear that the paid family and/or medical leave run 
concurrently with unpaid FMLA leave so that employees cannot ``stack'' 
their leaves and end up with double or more the amount of leave 
contemplated by the statutes. For example, if the paid family/medical 
leave permits 12 weeks of leave; employees should be required to have 
those paid family/medical leave benefits run concurrently with the 12 
weeks of unpaid leave under the FMLA to the extent the leave qualifies 
under both statutes.

Alternative approach: tax credits. Legislation has been enacted at the 
federal level and proposed at the state level which takes the approach 
of offering tax benefits to employers who adopt paid family and medical 
leave that meets certain minimum criteria. The benefit of this 
legislative approach is that it provides the greatest flexibility to 
employers and might be the simplest legislation to draft and 
administer. Insurers recommend that legislators consider this efficient 
and more flexible approach in any future discussions and bill drafting.

Thank you for the opportunity to submit our comments.

                                 ______
                                 
                 American Sustainable Business Council

                     1001 G Street, NW, Suite 400E

                          Washington, DC 20001

July 11, 2018

The Honorable Bill Cassidy
Chairman
Subcommittee on Social Security, Pensions, and Family Policy
Committee on Finance
U.S. Senate
219 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Sherrod Brown
Ranking Member
Subcommittee on Social Security, Pensions, and Family Policy
Committee on Finance
United States Senate
219 Dirksen Senate Office Building
Washington, DC 20510

RE: Subcommittee hearing, ``Examining the Importance of Paid Family 
Leave for American Working Families,'' July 11, 2018

Dear Chairman Cassidy and Ranking Member Brown:

The American Sustainable Business Council (ASBC), on behalf of the 
250,000 businesses we represent, is writing to you today to express our 
support for the Family and Medical Insurance Leave Act, better known as 
the FAMILY Act. ASBC is fully supportive of a national paid leave 
program that is comprehensive and sustainable, and the FAMILY Act is 
the bill that would accomplish this goal.
  the united states is falling behind the rest of the developed world
Paid family and medical leave can and should ensure an employee income 
during a work absence for a range of reasons. The right program will 
allow employees to meet the needs of a new family or take proper care 
of a seriously ill loved one (or themselves) without financial penalty. 
Because these are inherently stressful life situations, practical 
support, such as paid leave, makes a profound and lasting difference to 
employees and their loved ones.

Currently, the United States is the only developed nation that does not 
have a national paid family and medical leave law. The current national 
law, the Family and Medical Leave Act (FMLA), is woefully inadequate. 
It only provides up to 12 weeks of unpaid leave to roughly half of 
American workers. Since the law does not apply to companies with fewer 
than 50 employees, millions of hard-working employees are unable to 
even benefit from this law because they are either self-employed or 
work for a small business. Even workers that are covered by the FMLA 
may find themselves unable to actually take leave because they work in 
a low-wage job and do not have the economic security to even benefit 
from the leave that is allowed under the law.
         the family act is the high-value low-cost path forward
The FAMILY Act would create an affordable, inclusive, and comprehensive 
leave policy that would provide all workers with up to 12 weeks of paid 
leave. This bill would be paid for by matching contributions from 
employees and employers, which is both responsible and sustainable. The 
actual costs to both workers and employers would be less than two-one 
hundredths of a percent per paycheck or roughly $1.50 per week. The 
minimal costs of the FAMILY Act would have a tremendous value for 
workers; they would be able to receive sixty-six percent of their 
normal wages.

Other legislative proposals for family leave would require workers to 
draw from their Social Security retirement funds or only cover parental 
leave. The FAMILY Act would not force workers to make choices that 
would harm the long-term financial stability of their families. Workers 
should not be forced to choose whether to delay their retirement 
because they have to care for a new child or other family member. 
Further, the government should not be mandating workers to drain their 
Social Security retirement during a time when many workers are already 
struggling to save enough for their retirement. American workers need a 
paid leave plan that helps them remain financially secure without 
jeopardizing the long-term health of their families.
          the business case for paid family and medical leave
Polls have shown that nearly seventy percent of small businesses 
support the implementation of a national paid leave policy like the 
FAMILY Act. Businesses that have already implemented paid leave 
policies have seen both employee productivity and profits rise. A 
common-sense program like the FAMILY Act will help the many American 
businesses who struggle with employee turnover and the resulting lost 
productivity as some of their biggest costs, which often amount to 
thousands of dollars per employee. Additionally, eighty percent of 
businesses with paid leave programs have found that their employees 
demonstrated higher levels of satisfaction at work and, in many 
instances, this increase in worker morale has led to more reliably 
productive workplaces. A more reliably productive workplace leads to a 
more profitable business.

In states like California and New Jersey that have already implemented 
paid family and medical leave, the programs are popular with businesses 
and employees alike. Businesses are able to utilize existing state 
resources to assist in creating the necessary infrastructure to 
implement and sustain paid leave programs. Approximately sixty percent 
of California businesses reported cost savings by coordinating their 
benefits with the state program. Meanwhile, a poll in New Jersey found 
that, three years after the state' s paid family leave program took 
effect, more than seventy-five percent of voters viewed it favorably.

Additionally, in California, the paid leave law reduced disparities in 
amount of leave time taken between employees in lower-income and 
higher-income jobs. According to polls and other studies, the employees 
in the lower-income positions started to use more of their leave 
following the implementation of this policy. California is also doing 
more to address lingering disparities by continually increasing the 
percentage of take-home wages for most of the recipients.

By 2020, six states and the District of Columbia will have passed and 
implemented paid leave policies for all workers in their states. This 
doesn't even include the growing number of state and local governments 
providing their employees with varying levels of paid family and 
medical leave. What is abundantly clear, more and more Americans--as 
well as their elected leaders--know that these programs are not only 
smart public policy, they are smart business policy.

Paid leave is a central component of the High-road workplace 
principles, of which ASBC and its members believe in and abide by. 
High-road companies consider the impact of their business practices on 
their employees, the communities they operate in, and the products and 
services they provide to the marketplace. These companies understand 
that the High-road incentivizes their employees to work more 
productively and be more reliable because their employers are doing the 
same for them.

High-road workplaces do more than just benefit employees and the bottom 
line. They also benefit American communities because they reduce 
employee reliance on taxpayer-funded safety nets, put more money into 
our local economies, and improve the well-being and future prospects of 
families. Yet despite the clear moral and economic benefits of the 
High-road, some employers continue their substandard workplace 
practices. As a result, they burden the U.S. economy as a whole and 
penalize companies that do pay their fair share. By passing the FAMILY 
Act, you would be disincentivizing these bad actors and level the 
playing field for all companies.

As business leaders, we know that providing paid family leave is good 
for business and we believe it is good for our country.

Sincerely,

The American Sustainable Business Council

                                 ______
                                 
     Association of Women's Health, Obstetric, and Neonatal Nurses

                   1800 M Street, NW, Suite 740 South

                          Washington, DC 20036

                              800-354-2268

                           202-728-0575 (fax)

                             www.awhonn.org

July 23, 2018

Senator Bill Cassidy                Senator Sherrod Brown
Chairman                            Ranking Member
Subcommittee on Social Security, 
Pensions, and Family Policy          Subcommittee on Social Security, 
                                    Pensions, and Family Policy
U.S. Senate                         U.S. Senate
Committee on Finance                Committee on Finance
Washington, DC 20510                Washington, DC 20510

Re: ``Examining the Importance of Paid Family Leave for American 
Working Families,'' July 11, 2018

Dear Chairman Cassidy and Ranking Member Brown,

Thank you for the opportunity to submit this statement for the record 
on the July 11, 2018 Senate Committee on Finance Subcommittee on Social 
Security, Pensions, and Family Policy hearing ``Examining the 
Importance of Paid Family Leave for American Working Families.''

As an organization that represents 350,000 nurses who are clinically 
active in hospitals, perinatal facilities, and Health Centers, the 
Association of Women's Health, Obstetric, and Neonatal Nurses (AWHONN) 
promotes breastfeeding as the ideal and normative method for feeding 
infants. Women should be encouraged and supported to exclusively 
breastfeed for the first six months of an infant' s life and continue 
to breastfeed for the first year and beyond.

Financial pressure often forces new mothers to return to work, but 
doing so interferes with breastfeeding. Paid leave for new mothers 
would remove the financial pressure and therefore increase the rate of 
breastfeeding. Because breastfeeding has short-term and long-term 
health benefits, an increase in the breastfeeding rate would have 
public health benefits. If 90% of new mothers breastfed exclusively for 
6 months, 13 billion health care dollars would be saved.\1\ These long-
term public health benefits would translate into a healthier future 
workforce, including an increase in the number of young adults who meet 
the minimum standards for health required to fill the ranks of our 
armed services.
---------------------------------------------------------------------------
    \1\ Bartick, M., and Reinhold, A. (2010). ``The burden of 
suboptimal breastfeeding in the United States: A pediatric cost 
analysis.'' Pediatrics, 125, e1048-e1056. doi:10.1542/peds.2009-16162.

AWHONN supports the implementation of legislation, policies, and public 
health initiatives that ensure the right to breastfeed; increase the 
rate of initiating and maintaining exclusive breastfeeding in the 
United States; raise awareness of the benefits of breastfeeding; and 
expand research related to breastfeeding. Such initiatives should 
include, but not be limited to, enhanced family medical leave policies 
that provide women with paid maternity leave to fully establish and 
maintain exclusive breastfeeding for at lea s t the first six months of 
---------------------------------------------------------------------------
their infants' lives.

For the above reasons, AWHONN supports S. 337, the Family and Medical 
Insurance Leave (FAMILY) Act. AWHONN supports this bill so women can 
establish and sustain breastfeeding while minimizing loss of income for 
their families. Financed by a new, mandatory payroll contribution, this 
bill would establish a fund administered by the Social Security 
Administration to provide paid leave for 12 weeks for any family member 
for any family-related medical leave including maternity care. It would 
make paid leave affordable for employers of all sizes and for workers 
and their families and be funded by a small employee and employer 
payroll contribution. The FAMILY Act builds on successful state 
programs in California, New Jersey, Rhode Island and New York.

By contrast, the proposal testified to by Sen. Joni Ernst, by borrowing 
against future Social Security benefits, would provide working families 
with financial security during their child-rearing years at the expense 
of those same families' financial security at the time of their 
retirement or permanent disability of a wage earner. AWHONN opposes 
this bill because it unfairly targets women and comes at the expense of 
delayed benefits when they might be most needed.

If you have any questions or desire to further discuss these issues, 
please contact AWHONN Government Affairs Director Seth Chase at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4734242f26342207302f28292969283520">[email&#160;protected]</a> or 202-261-2427.

Sincerely,

Suzanne Berry, MBA, CAE
Interim Chief Executive Officer
                                 ______
                                 
                    Berner International Corporation

                        New Castle, Pennsylvania

                      Statement by Georgia Berner

                           paid family leave
As the retired President and CEO of Berner International Corporation, 
it is difficult to understand the opposition to having a National 
Family and Medical Leave insurance program. How exactly does it not 
make sense? Finding and retaining the best and brightest employees is a 
time consuming and costly function of running a business. To offer 
benefits that support employees and their families creates a 
partnership where both employer and employee have a sense of stability 
and security, employees are productive and healthy, and U.S. companies 
are strong and profitable. Berner is the first U.S. manufacturer of air 
curtains. Air curtains create an air seal across an open doorway that 
keeps cold air on one side and warm air on the other, saving energy and 
creating healthy, comfortable environments. Located in New Castle, 
Pennsylvania, Berner has become an employer of choice in the region, 
grown to over 65 employees and continues to offer fully paid health 
benefits to all full-time employees.

                                 ______
                                 
            Consortium for Citizens With Disabilities (CCD)

                    820 First Street, NE, Suite 740

                       Washington, DC 20002-4243

                           Tel: 202-567-3516

                           Fax: 202-408-9520

                         Website: www.c-c-d.org

                          Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="335a5d555c73501e501e571d5c4154">[email&#160;protected]</a>

           Statement on Proposals to Use Social Security to 
                         Pay for Parental Leave

  Consortium for Citizens With Disabilities Social Security Task Force

The Independent Women's Forum (IWF) has proposed creating a new 
parental leave benefit, paid for by asking workers to take a cut in 
their future Social Security benefits. Under the IWF proposal, workers 
could receive up to 12 weeks of partially paid parental leave, offset 
by a reduction or delay in their Social Security retirement benefits. 
Participation would be voluntary.

The undersigned members of the Consortium for Citizens with 
Disabilities (CCD) Social Security Task Force oppose such proposals. 
The U.S. can create a paid leave plan affordably and responsibly--
without reducing workers' Social Security benefits or forcing them to 
delay retirement. We urge Congress to reject the IWF proposal and any 
similar proposals. We offer the following considerations related to the 
impact of such proposals on Social Security:

      Access to paid leave should not be carved out of funds dedicated 
to Social Security. Our Social Security system is a foundation of 
economic security for workers and their families in the event of a 
worker's retirement, disability, or death. Social Security represents a 
promise to U.S. workers that has been built up and honored for over 80 
years that should not be limited or cut. Expanding access to paid 
parental leave is an important goal for all workers, including people 
with disabilities and their families. However, proposals to fund paid 
leave out of workers' future Social Security benefits would break the 
promise of Social Security, and should be rejected.

      Workers should not be asked to pay for parental leave today by 
rolling the dice on their future needs for Social Security. Research 
consistently finds that it is difficult to estimate financial needs in 
retirement, and workers often underestimate. Asking workers in their 
prime reproductive years to make decisions based in part on their 
prediction of future Social Security retirement benefit needs is 
unnecessary and unwise. Workers with disabilities and their families 
would be more likely to face this risky roll of the dice because on 
average, they are more likely to work in low-wage, part-time, non-
managerial jobs that lack employer-based paid leave benefits.

      Retirement security should be strengthened, not eroded or put at 
risk. According to the Urban Institute, under the IWF proposal ``. . . 
parents who take 12 weeks of paid leave through the program would have 
to delay their Social Security retirement benefits by 20 to 25 weeks 
depending on the repayment details.'' Social Security represents a 
major source of income for most retirees: it provides over half of 
total income for most aged beneficiaries, and 90 percent or more of 
income for nearly 1 in 4 aged beneficiary couples and over 2 in 5 aged 
nonmarried beneficiaries. Even with Social Security, many seniors live 
in or near poverty--and seniors with disabilities are particularly 
likely to experience poverty. The CCD Social Security Task Force has 
long supported strengthening--not weakening--Social Security as a 
cornerstone of a financially sound retirement.

      Any delays or permanent reductions in Social Security benefits 
could significantly harm the economic security of people with 
disabilities and their families. IWF's and similar proposals could be 
funded by raising the age at which a worker could collect full 
retirement benefits (in effect, a permanent reduction in benefits), or 
by withholding all of a worker's initial Social Security retirement 
benefits for an amount equal to the paid parental leave taken (a delay 
in benefits). The more times a worker takes parental leave, the greater 
the future benefit reduction. The proposed treatment of Social Security 
disability or survivors' benefits is not clear; any cuts in these 
benefits would be particularly harmful to people with disabilities and 
their families. Workers with disabilities on average earn significantly 
less than workers without disabilities and often have fewer 
opportunities to save. As a result, Social Security is particularly 
important to the economic security of people with disabilities, and any 
reductions or delays in benefits would disproportionately harm people 
with disabilities and their families.

      Congress should adequately fund the Social Security 
Administration (SSA) to operate and strengthen its existing core 
programs--not repurpose existing limited resources to implement a new 
program. From 2010 to 2018, SSA's operating budget shrank by nearly 9 
percent while workloads rose. As a result, customer service has been 
eroded across the agency. Today, nearly 1 million people are waiting an 
average of over 590 days for a hearing before an SSA Administrative Law 
Judge. These historic waits lead to extreme hardship: while awaiting a 
hearing, many struggle to pay rent or meet basic needs. Some lose their 
homes or go into bankruptcy, and in 2017 approximately 10,000 people 
died while waiting for a hearing. Congress must fully fund SSA's 
operating budget to ensure timely, accurate disability determinations 
and humane, high-quality customer service across the agency. The IWF 
proposal would move in the opposite direction, ``. . . raising Social 
Security's annual costs, net of benefit offsets, about 1 percent over 
the long run,'' according to the Urban Institute.

For these reasons, the undersigned members of the CCD Social Security 
Task Force urge Congress to reject the IWF proposal and any similar 
proposals to fund paid leave out of Social Security.

    CCD members:
    ACCSES
    Allies for Independence
    American Association on Health and Disability
    American Association on Intellectual and Developmental Disabilities 
(AAIDD)
    American Psychological Association
    Autistic Self Advocacy Network
    Bazelon Center for Mental Health Law
    Christopher and Dana Reeve Foundation
    Community Legal Services of Philadelphia
    Easterseals
    Family Voices
    Justice in Aging
    National Academy of Elder Law Attorneys
    National Association of Councils on Developmental Disabilities
    National Association of Disability Representatives
    National Committee to Preserve Social Security and Medicare
    National Disability Rights Network
    National Multiple Sclerosis Society
    National Organization of Social Security Claimants' Representatives
    Paralyzed Veterans of America
    Special Needs Alliance
    The Arc of the United States
    United Spinal Association

    Joined by:
    Lakeshore Foundation

CCD is the largest coalition of national organizations working together 
to advocate for federal public policy that ensures the self-
determination, independence, empowerment, integration and inclusion of 
children and adults with disabilities in all aspects of society. The 
CCD Social Security Task Force focuses on disability policy issues in 
the Title II disability programs and the Title XVI Supplemental 
Security Income (SSI) program.

For more information, contact the CCD Social Security Task Force Co-
Chairs: Lisa Ekman, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bf7f2e8fab5fef0f6faf5dbf5f4e8e8f8e9b5f4e9fc">[email&#160;protected]</a>/(202) 457-7775; Tracey 
Gronniger, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfcbd8cdd0d1d1d6d8dacdff">[email&#160;protected]</a>
justiceinaging.org/(202) 683-1993; Jeanne Morin, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c9ceccd1cacd8dd3d3c2e3c4cec2cacf8dc0ccce">[email&#160;protected]</a>/
(202) 297-3616; Web Phillips, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42322a2b2e2e2b323135022c213231312f6c2d3025">[email&#160;protected]</a>/(202) 216-8358; T.J. 
Sutcliffe, sutcliffe
@thearc.org/(202) 783-2229 ext. 314.

                                 ______
                                 
                        ERISA Industry Committee

                     701 8th Street, NW, Suite 610

                          Washington, DC 20001

                             (202) 789-1400

                              www.eric.org

July 24, 2018

U.S. Senate
Committee on Finance
Dirksen Senate Office Building
Washington, DC 20510

Ladies and Gentlemen,

The ERISA Industry Committee (ERIC) appreciates the opportunity to 
submit a statement for the record for the hearing held on Wednesday, 
July 11, 2018 before the Senate Finance Subcommittee on Social 
Security, Pensions, and Family Policy, entitled ``Examining the 
Importance of Paid Family Leave for American Working Families.''

ERIC is the only national association that advocates exclusively for 
the nation's largest employers on health, retirement, and compensation 
public policies at the federal, state, and local levels. Our members 
provide generous paid leave benefits to tens of thousands of workers 
across the country, and therefore have a strong interest in laws and 
policies that affect their ability to offer competitive paid leave 
benefits to their employees. Large employers continue to be at the 
forefront of employee benefits. Through paid family leave and short and 
long-term disability policies, large employers are stepping up and 
providing important safety net benefits for their employees. A number 
of these large employers work in almost every state and are therefore 
subjected to newly adopted state government mandates on paid family and 
medical leave. These mandates are imposing significant and unnecessary 
compliance burdens through one-size fits-all models that have the 
potential to cause employers to adversely alter their employee 
benefits.

The conversation about a national paid family and medical leave law is 
an important one. It has been twenty-five years since the Family and 
Medical Leave Act (FMLA) was signed into law, guaranteeing millions of 
Americans unpaid leave from work to care for themselves or a close 
family member. Since FMLA, however, there has been a greater importance 
placed on paid family leave and what it can mean for both employees and 
employers. Large employers saw the benefit of offering this voluntary 
benefit and have been doing so for years. Large employers that operate 
in more than one state do their best to maintain a national policy that 
satisfies the growing number of state mandates. Uniformity is key for 
employers that want to provide the same benefits package to employees 
regardless of geographic location. A national standard would ensure the 
greatest type of uniformity and lessen the patchwork effect that is 
currently being promulgated.

Any national paid family and medical leave law should account for and 
shield those employers that have already been providing paid family and 
medical leave benefits. This is most easily achieved through federal 
preemption. An employer that satisfies a federal standard for paid 
family leave should be deemed to have satisfied any state law that 
governs the same type of paid family leave for employees.

However, should preemption be unachievable, a federal paid family and 
medical leave law should establish a social insurance program rather 
than a strict government mandate. A social insurance program could 
utilize existing infrastructure (e.g., unemployment insurance) and 
government resources, which would lessen the burdens and costs to 
employers. Furthermore, the funding of benefits through a federal 
program should be the sole responsibility of employees as the ultimate 
beneficiaries. As the individuals receiving the wage replacement while 
away from work, it should be from their wages that amounts are deducted 
to ensure the solvency of a central fund from which benefits are paid.

Ultimately, we share the goal of increasing access to paid family and 
medical leave to employees of private-sector employers. But, for 
employers that already provide a family and medical leave through their 
own policies, it is important that they can continue designing and 
maintaining plans that work effectively and efficiently based on the 
needs of their workforces and the industries in which they operate.

ERIC appreciates the opportunity to provide a statement for the record. 
If you have any questions concerning our comments, or if we can be of 
further assistance, please contact me at (202) 627-1930 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="67100f06091402092702150e044908150049">[email&#160;protected]</a>

Sincerely,

Will Hansen
Senior Vice President, Retirement and Compensation Policy

                                 ______
                                 
                   First Focus Campaign for Children
Dear Subcommittee Chairman Cassidy, Ranking Member Brown, and Members 
of the Subcommittee on Social Security, Pensions, and Family Policy. We 
thank you for the opportunity to submit this statement for the record 
on the hearing focused on addressing the need for a comprehensive, 
bipartisan nationwide paid leave policy.

First Focus Campaign for Children is a bipartisan advocacy organization 
dedicated to making children and families a priority in federal policy 
and budget decisions. As an organization dedicated to promoting the 
safety and well-being of all children in the United States, we support 
the establishment of a universal paid family and medical leave program 
that ensures families must never have to choose between financial 
stability and the ability to care for children or other loved ones in a 
time of need.

The United States drastically lags behind the rest of the developed 
world when it comes to paid family leave. We are the only OECD 
(Organisation for Economic Co-operation and Development) country that 
does not provide paid maternity leave nationwide, and paid leave is 
given to both parents in 23 OECD countries.\1\
---------------------------------------------------------------------------
    \1\ Oecd.org. (2016). Parental leave: Where are the fathers? 
[online]. Available at: https://www.oecd.org/policy-briefs/parental-
leave-where-are-the-fathers.pdf [accessed 24 Jul. 2018].

Creating a national paid family and medical leave program in the U.S. 
would have significant positive implications for reducing child poverty 
and improving child health. The birth of a child often results in large 
medical bills for families, and the income earned during paid leave can 
be used to cover these medical expenses and prevent a family from 
---------------------------------------------------------------------------
falling behind on other bills such as rent and utilities.

Infants in the U.S. are 76% more likely to die than those born in other 
countries.\2\ Infant and maternal mortality rates in the U.S. are far 
too high in comparison to other wealthy nations, and a national policy 
on paid family leave would help combat this. A study from Public Health 
Reports finds an increase of 10 weeks paid maternity leave predicted a 
10% decrease in neonatal and infant mortality rates.\3\
---------------------------------------------------------------------------
    \2\ Thakrar, A., Forrest, A., Maltenfort, M. and Forrest, C. 
(2018). ``Child Mortality in the U.S. and 19 OECD Comparator Nations: A 
50-Year Time-Trend Analysis.'' Health Affairs, [online] 37(1), pp. 140-
149. Available at: https://www.healthaffairs.org/doi/abs/10.1377/
hlthaff.
2017.0767.
    \3\ Heymann, J., Raub, A. and Earle, A. (2011). ``Creating and 
Using New Data Sources to Analyze the Relationship Between Social 
Policy and Global Health: The Case of Maternal Leave.'' Public Health 
Reports [online] 126(3_suppl), pp. 127-134. Available at: https://www.
ncbi.nlm.nih.gov/pmc/articles/PMC3150137/.

Multiple states have already successfully implemented paid leave 
policies, yet a national paid leave program must be created to reach 
the millions of men and women who lack access to both unpaid and paid 
leave. While the Family and Medical Leave Act (FMLA), adopted over 25 
years ago, provides critical job protection for millions of workers in 
the U.S., only about 60% of the nation's workforce is eligible for 
protection, and there are many more employees who cannot afford to take 
leave that is unpaid.\4\ Currently, only 15% of American workers have 
access to paid leave, and those who do not must choose between losing 
valuable income or providing loved ones, and themselves, the care they 
need.\5\
---------------------------------------------------------------------------
    \4\ Abt Associates Inc. (2014). Family and Medical Leave in 2012: 
Technical Report. Cambridge MA. Available at: https://www.dol.gov/asp/
evaluation/fmla/FMLA-2012-Technical-Report.pdf.
    \5\ Nationalpartnership.org. (2018). Oppose Retirement Penalties 
for Parents Toolkit [online]. Available at: http://
www.nationalpartnership.org/research-library/work-family/coalition/
oppose-retirement-penalties-for-parents-coalition-toolkit.pdf [accessed 
23 Jul. 2018].

The Family and Medical Insurance Leave (FAMILY) Act of 2017, introduced 
by Senator Kirsten Gillibrand (D-NY) and Congresswoman Rosa Delaura (D-
CT-3), would create a program that combines employer and employee 
payroll contributions to create a shared fund for paid family and 
medical leave for all employers of all sizes. Workers in all companies 
would be eligible for up to 12 weeks of partial income, earning 66% of 
their monthly wages up to a capped amount, for family and medical 
leave. Paid leave could be used during a pregnancy, for childbirth 
recovery, serious health condition of a child, parent, spouse or 
domestic partner, adoption of a child, and/or military caregiving and 
---------------------------------------------------------------------------
leave.

The FAMILY Act would allow for working individuals to take paid time 
off, and would not discriminate based on gender or the nature of their 
job. By allowing both parents to take valuable time off after the birth 
or adoption of a child, men are able to be more involved in direct care 
therefore creating greater equality in households.\6\
---------------------------------------------------------------------------
    \6\ Nationalpartnership.org. (2018). Fathers Need Paid Family and 
Medical Leave Fact Sheet [online]. Available at: http://
www.nationalpartnership.org/research-library/work-family/paid-leave/
fathers-need-paid-family-and-medical-leave.pdf [accessed 24 Jul. 2018].

It would also improve both maternal and child health, because mothers 
are more able to breastfeed,\7\ parents are more likely to have their 
children immunized and take them to important check-ups.\8\ Studies 
show chat when families have access co paid leave, children get over 
illnesses and heal faster.\7\
---------------------------------------------------------------------------
    \7\ Earle, A., Mokomane, Z. and Heymann, J. (2011). ``International 
Perspectives on Work-
Family Policies: Lessons From the World's Most Competitive Economies.'' 
The Future of Children, 21(2). Available at: https://
www.ncbi.nlm.nih.gov/pubmed/22013634.
    \8\ Berger, L., Hill, J. and Waldfogel, J. (2005). ``Maternity 
leave, early maternal employment and child health and development in 
the U.S.'' The Economic Journal, 115(501). Available at: https://
onlinelibrary.wiley.com/doi/abs/10.1111/j.0013-0133.2005.00971.x.

Due to a lack of paid leave, as of 2015, 1 in 4 women returned to work 
just 2 weeks after giving birth.\9\ This is detrimental for women's 
health as it has been proven chat returning to work prior to 6 weeks 
after giving birth puts mothers at a much greater risk for postpartum 
depression.\10\
---------------------------------------------------------------------------
    \9\ Paquette, D. (2015). ``The shocking number of new moms who 
return to work two weeks after childbirth.'' The Washington Post 
[online]. Available at: https://www.washingtonpost.com/news/wonk/wp/
2015/08/19/the-shocking-number-of-new-moms-who-return-to-work-two-
weeks-after-childbirth/?utm_term=.43afa961b0f6 [accessed 24 Jul. 2018].
    \10\ Dagher, R., McGovern, P. and Dowd, B. (2013). ``Maternity 
Leave Duration and Postpartum Mental and Physical Health: Implications 
for Leave Policies.'' Journal of Health Politics, Policy, and Law, 
39(2). Available at: https://www.ncbi.nlm.nih.gov/pubmed/24305845.

The FAMILY Act also has positive consequences for family economic 
security. According to the National Partnership for Women and Families, 
the FAMILY Act could reduce by 81% the number of the nation's families 
facing economic insecurity when they need time to care. In addition, 
new mothers who take paid leave are over 50% more likely to receive a 
future pay increase.\11\ In addition to helping families, nationwide 
paid family and medical leave would help the American economy. Our 
current lack of paid leave costs the economy $20.6 billion per 
year.\12\
---------------------------------------------------------------------------
    \11\ Houser, L. and Vartanian, T. (2012). Pay Matters: The Positive 
Economic Impacts of Paid Family Leave for Families, Businesses and the 
Public. New Brunswick, NJ: Rutgers Center for Women and Work. Available 
at: http://www.nationalpartnership.org/research-library/work-family/
other/pay-matters.pdf.
    \12\ Saad-Lessler, J. and Bahn, K. (2017). The Importance of Paid 
Leave for Caregivers--Center for American Progress [online]. Center for 
American Progress. Available at: https://www.americanprogress.org/
issues/women/reports/2017/09/27/439684/importance-paid-leave-
caregivers/#fn-439684-11 [accessed 24 Jul. 2018).

In contrast, we have concerns about the proposal included in Senator 
Ernst's testimony, which would require families to pull from Social 
Security funds in order to cover paid family leave. In the long-term, 
this would hurt low-income families, creating financial stress as they 
age into retirement. This proposal would also only account for paid 
parental leave, thus not allowing workers to take paid time off to care 
---------------------------------------------------------------------------
for themselves or other loved ones suffering from chronic illness.

A universal paid family and medical leave program in the U.S. is needed 
now more than ever. According to a 2014 report from the U.S. Census 
Bureau, the population aged over 65 will be double what is was in 2012 
by 2050.\13\ With a growing aging population, our nation must be ready 
to support the increasing amount of unpaid caregivers who will have to 
take time off work to care for a spouse, parent, or other loved ones.
---------------------------------------------------------------------------
    \13\ Ortman, J., Velkoff, V. and Hogan, H. (2014). An Aging Nation: 
The Older Population in the United States [online]. Census.gov. 
Available at: https://www.census.gov/prod/2014pubs/p25-1140.pdf 
[accessed 24 Jul. 2018).

We thank you again for the opportunity to submit this written 
testimony. We look forward to working with you to help ensure that all 
families and children are prioritized in the implementation of a 
---------------------------------------------------------------------------
national paid leave policy.

                                 ______
                                 
               Franciscan Sisters of Perpetual Adoration

July 13, 2018

U.S. Senate
Committee on Finance
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

RE: STATEMENT FOR THE RECORD--Subcommittee Hearing, ``Examining the 
Importance of Paid Family Leave for American Working Families''

Chairman Hatch, Ranking Member Wyden, and members of the Subcommittee 
on Social Security, Pensions, and Family Policy:

I write today on behalf of Franciscan Sisters of Perpetual Adoration, a 
religious congregation of Roman Catholic Sisters. The Franciscan 
Sisters of Perpetual Adoration wishes to encourage the efforts of this 
subcommittee on paid family leave and underscore the importance of 
improving paid family leave policy--not only for workers, but for the 
companies and investors which rely on their long-term health and human 
capital.

As a testament to the investment community's keen interest in improving 
paid family leave policy, I refer the subcommittee to the following 
investor statement on paid family leave published last month and 
endorsed by 58 investment companies and asset owners with assets 
totaling $169 billion. Please review the statement in its entirety. 
Very clearly, investors are seeking greater equality, adequacy and 
accessibility in companies' paid family leave policies.

As discussed in the investor statement, suitable paid family leave 
positions workers and companies to seize long-term opportunities and 
guard against human capital risk. However, more support from government 
is needed. Federal policy certainty and targeted resources would 
promote the long-term interests of U.S. employers. As an investment 
company focused on sustainable and socially responsible performance, 
therefore, Franciscan Sisters of Perpetual Adoration urges Congress to 
act to improve paid family leave.

Most sincerely,

Susan Ernster, FSPA
Treasurer/CFO

INVESTOR STATEMENT ON PAID FAMILY LEAVE

Published June 1, 2018
Available online at http://www.zevin.com/documents/familyleave.pdf
We write today as representatives of investors with assets totaling 
$169 billion and a keen interest in investment risks and opportunities 
related to human capital management. Paid Family Leave is a critical 
issue impacting U.S. families, as well as our portfolio companies' 
long-term performance. Federal inaction on paid family leave has 
increased pressure on large employers to enhance their policies for all 
employees. Investors are concerned about the long-term performance and 
risk management of companies that maintain unequal and inadequate paid 
family leave policies.

Companies that fail to review, disclose, and improve their approach to 
paid family leave could be left behind. In the last few months alone, 
Starbucks, Walmart, CVS Health and other large employers have announced 
extended paid parental leave policies.\1\ Companies are finally taking 
action in response to public advocacy by employees, as well as pressure 
from investors, including shareholder proposals urging companies to 
address critical caregiving needs.\2\
---------------------------------------------------------------------------
    \1\ ``Walmart and Now Starbucks: Why More Big Companies Are 
Offering Paid Family Leave.'' The New York Times, 24 Jan. 2018, https:/
/www.nytimes.com/2018/01/24/upshot/parental-leave-company-policy-
salaried-hourly-gap.html.
    \2\ ``Starbucks investors press coffee chain for change on unequal 
family leave.'' The Guardian, 2 Oct 2017, https://www.theguardian.com/
business/2017/oct/02/starbucks-investors-coffee-family-parental-birth-
leave.

It is well known that the current state of paid family leave is not 
working for U.S. families in general and has negative impacts on 
certain segments of the population in particular. Approximately 9 out 
of 10 private sector workers in the U.S. do not have access to a single 
day of paid family leave, and one in four new moms is back at work just 
10 days after childbirth.\3\ The lack of proper paid family leave, as 
further defined below, can disproportionately impact women, forcing 
them to leave their career track in order to care for children, and 
contributing to systemic and long-term gender pay gap issues.
---------------------------------------------------------------------------
    \3\ ``13 Percent of Private Industry Workers Had Access to Paid 
Family Leave in March 2016: The Economics Daily.'' U.S. Bureau of Labor 
Statistics, 4 Nov. 2016. Web 9 May 2017.

The status quo is also bad for business--subjecting companies to 
avoidable long-term risks and costs, such as workforce retention issues 
and higher turnover, loss of high-quality talent, and diminishing 
diversity levels. For example, it is costly for companies to replace 
workers (and train their replacements) when poor paid family leave 
policies cause them to leave the workforce. On the other hand, 
according to the Center for Economic and Policy Research, companies 
offering paid family leave to all workers report increased morale, as 
well as cost savings, from less employee turnover.\4\ In a recent New 
York Times report, a Starbucks official stated that improved paid 
family leave ``brings the talent we're looking for, and industry-
leading retention.''\5\
---------------------------------------------------------------------------
    \4\ ``Leaves That Pay: Employer and Worker Experiences With Paid 
Family Leave in California,'' Center for Economic and Policy Research, 
January 2011, http://cepr.net/publications/reports/leaves-that-pav.
    \5\ ``Walmart and Now Starbucks: Why More Big Companies Are 
Offering Paid Family Leave,'' The New York Times, 24 Jan. 2018, http://
www.nytimes.com/2018/01/24/upshot/parental-leave-company-policy-
salaried-hourly-gap.html.

Unequal paid family leave can also lead to litigation risk. For 
example, last year, the Equal Employment Opportunity Commission sued 
Estee Lauder, citing disparities between paid leave for mothers and 
---------------------------------------------------------------------------
fathers.

Recent progress at the companies mentioned above signals a wave of 
action among U.S. corporations and a potential watershed moment for 
paid parental leave in the U.S. As the labor market tightens, more and 
more companies are positioning themselves to attract and keep talent 
with incentives such as paid family leave and other family-friendly 
policies. Policies that leave out hourly or part-time workers, that 
ignore fathers and adoptive parents, or that do not provide adequate 
length of leave for families to recover or bond with newly arrived 
children will no longer suffice. We believe that the ``Paid Leave Arms 
Race'' \6\ that has played out in the professional services, financial, 
and knowledge economy sectors is now moving into the service and retail 
sectors. As such, we are urging companies across our portfolios to 
revisit their approach.
---------------------------------------------------------------------------
    \6\ ``Deloitte Enters the Paid Family Leave Arms Race With 16 Weeks 
of Family Leave,'' Fortune, Sep. 8 2016, http://fortune.com/2016/09/08/
deloitte-family-leave/.

Companies should strive for best practice to realize all of the 
---------------------------------------------------------------------------
benefits of paid family leave. Policies in this area should:

      Be equal . . . between classes of employees, salaried and 
hourly, full-time and part-time, corporate office and field . . . 
between new parents regardless of gender or family circumstance. 
Providing an additional 6 to 8 weeks of short-term disability for birth 
mothers is acceptable.

      Be adequate . . . in length for the health of newly arrived 
children and birthing mothers, and provide the necessary bonding time 
for new parents. Although Walmart excluded their part-time workforce, 
the length of Walmart's new policy sets the baseline standard for 
companies: 16 weeks of fully paid parental leave to employees who give 
birth, and 6 weeks fully paid to all other new parents.

      Be accessible . . . to all employees. Policies should be easy to 
find and understand, and managers should encourage employees of all 
genders to fully utilize their paid family leave . . . to the public 
and investors. Increasingly, investors and job seekers desire 
transparency in companies' human capital management policies in a range 
of areas, from diversity and inclusion to compensation and benefits. We 
believe that these factors are material for large employers. Sound 
management of these factors can increase future opportunities (just as 
mismanagement can increase future costs).

We are keen to pursue dialogues with companies on how sound human 
capital management, including strong paid family leave policies, can 
support long-term investor value. As investors, we urge large employers 
to review and expand policies consistent with the above standards.

                              SIGNATORIES

Zevin Asset Management              Walden Asset Management

Clean Yield Asset Management        The Sustainability Group of Loring, 
                                    Wolcott, and Coolidge

Tri-State Coalition for Responsible 
Investment                          NorthStar Asset Management, Inc.

Arjuna Capital                      Impax Asset Management LLC

Trillium Asset Management           Sisters of the Presentation of 
                                    Aberdeen, S.D.

Progressive Asset Management        Franciscan Sisters of Perpetual 
                                    Adoration

Sisters of Saint Joseph of Chestnut 
Hill, Philadelphia, PA              Everence and the Praxis Mutual 
                                    Funds

International Brotherhood of 
Teamsters                           Sisters of Charity of Nazareth

Seventh Generation Interfaith Inc.  Dominican Sisters--Grand Rapids

Region VI Coalition for Responsible 
Investment                          Skye Advisors

Sisters of St. Agnes Justice, 
Peace, and Integrity of Creation 
Office                              Manaaki Foundation

Community Capital Management, Inc.  Northwest Coalition for Responsible 
                                    Investment

Midwest Coalition for Responsible 
Investment                          Sisters of Charity, Halifax

Tri-State Coalition for Responsible 
Investment                          Socially Responsible Investment 
                                    Coalition

JLens                               Mercy Investment Services

Congregation of St. Joseph          Daughters of Charity, Province of 
                                    St. Louise

Mirova                              Stance Capital

SharePower Responsible Investing, 
Inc.                                Vert Asset Management

Epic Capital Wealth Management      Three Corners Capital

Greenvest/VFG                       Newground Social Investment

CtW Investment Group                Nathan Cummings Foundation

AFL-CIO                             FNV

Sisters of St. Dominic of Caldwell, 
NJ                                  Dominican Sisters of Hope

Ursuline Sisters of Tildonk, U.S. 
Province                            Friends Fiduciary Corporation

Bon Secours Health System, Inc.     Socially Responsible Investment 
                                    Coalition

Congregation of Sisters of St. 
Agnes                               Nia Impact Capital

Nia Community Foundation

                                 ______
                                 
                        The Heritage Foundation

                      214 Massachusetts Avenue, NE

                          Washington, DC 20002

                             (202) 546-4400

                              heritage.org

   Meeting Working Families' Needs and Desires for Paid Family Leave 
              Without Creating a New National Entitlement

                            Rachel Greszler

 Research Fellow in Economics, Budgets and Entitlements, The Heritage 
                               Foundation

My name is Rachel Greszler. I am a Research Fellow in Economics, 
Budgets and Entitlements at The Heritage Foundation. The views I 
express in this statement for the record are my own and should not be 
construed as representing any official position of The Heritage 
Foundation.

Before beginning my formal statement examining the implications of 
various proposals to increase access to paid family leave in the U.S., 
I would like to provide some personal information that has helped shape 
my views on paid family leave.

I am a mother of six children, ranging in age from 4 months to 9 years. 
I have been blessed with the ability to take family leave--mostly paid, 
but some unpaid--following the birth of each of my children, and I am 
incredibly grateful for those times of family leave.

I would love for all mothers to be able to receive the same opportunity 
that I have had to spend some time at home--without financial 
hardship--following the birth or adoption of a child. I would also like 
to see businesses provide paid leave for purposes other than just 
maternity leave.

However, my experience has shown me that the best type of paid family 
leave is not a one-size-fits all federal policy, but rather one that 
comes from the voluntary decision of private employers to provide paid 
leave. Employers working with employees offers far more flexibility and 
accommodation than any federal program could provide.

Each of my six paid family leaves has been different--one included 
intermittent bed rest and a C-section, another a premature delivery, 
and some involved very little engagement with work while on leave while 
others involved a significant amount. A federal paid family leave 
program could not have provided me with the same benefits and 
flexibility that l received. A federal program would not have provided 
immediate access to benefits for unplanned health events, and it would 
not have allowed me to ease back into work on a flexible schedule when 
desired. Moreover , I would not have maintained momentum in my career 
if I had routinely disengaged from work completely for three months at 
a time every year-and-a-half over the past decade--something that a 
federal paid leave program would urge, if not require.

I am excited that more and more companies are realizing the value of 
paid family leave for their workers and their businesses and I am very 
hopeful that this rise in employer-provided paid family leave will 
continue. I hope that the federal government will avoid enacting 
policies that will hinder or eliminate employer-provided paid leave 
programs or that will burden taxpayers with increased federal taxes and 
will instead look to reduce regulatory and tax burdens so that more 
employers have the resources they need to be able to provide paid 
family leave benefits for their workers.

Summary

Americans widely support paid family leave for workers, and that 
support is evident in the growth of employer-based and state-based paid 
family leave programs. Despite those expansions, many federal lawmakers 
seek to implement a national paid family leave program. A federal 
mandate on employers would reduce overall employment and lead to 
discrimination against women of childbearing age. A taxpayer-
financed paid leave program would be incredibly costly, subject to 
abuse and misuse, and would crowd out existing paid leave programs, 
shifting the costs onto federal taxpayers. Moreover, a federal paid 
leave program would inevitably grow in size, scope, and cost over time.

A new proposal that has support among some conservative lawmakers would 
allow workers to trade future Social Security benefits for paid leave 
benefits. Tempting as this proposal is--giving workers the option to 
draw Social Security benefits when they need them most, while 
minimizing both costs and crowd-out effects by requiring workers to pay 
for the benefits they receive--it would nonetheless add another 
national entitlement and open the door to significant and costly 
unintended consequences.

All federal entitlements have an overwhelming tendency to expand in 
size and scope over time, and with those expansions come increased 
costs, higher taxes, and unsustainable deficits. Instead of expanding 
Social Security into a cradle-to-grave social cure-all--creating a 
piggy bank that seeks to meet all of workers' socially desirable income 
needs--policymakers should reduce Social Security's burden on workers' 
paychecks by returning the program to its original purpose of poverty 
protection for the elderly. Most Americans already pay far more in 
Social Security taxes than they do in federal income taxes, and they do 
not need another component that could increase Social Security's costs 
and hasten its insolvency.

While federal lawmakers should not enact a new national paid leave 
entitlement, they can and should enact policies that would make paid 
family leave more accessible and affordable for ordinary Americans. 
Some of those policies include increased access to tax-free savings for 
paid family leave, allowing lower-wage private sector workers to 
receive paid time off in exchange for overtime hours, giving states the 
option to use their Unemployment Insurance (UI) systems for paid family 
leave benefits, and increasing access to and enrollment in temporary 
disability insurance policies that provide maternity leave benefits.

Access to Paid Family Leave in the U.S.

We do not know exactly what percentage of workers have access to some 
form of paid family leave because many workers utilize informal paid 
leave programs. However, the commonly cited statistic--based on a 
Bureau of Labor Statistics survey of formal paid leave programs--that 
only 12 percent to 15 percent of workers in the U.S. have access to 
paid family leave is inaccurate.\1\ State-based paid family leave 
policies alone cover 21 percent of all workers.\2\ Moreover, many 
workers have access to paid family leave through formal employer-
provided paid family leave policies; employer-provided vacation and 
sick leave; and temporary disability insurance policies.
---------------------------------------------------------------------------
    \1\ Bureau of Labor Statistics, ``Employee Benefits Survey,'' March 
2016, https://www.bls.gov/ncs/ebs/benefits/2016/benefits_leave.htm 
(accessed July 19, 2018).
    \2\ Employment in California, New York, Rhode Island, and New 
Jersey totaled 31.384 million in May 2018, out of total U.S. employment 
of 149.636 million. Bureau of Labor Statistics, ``Economic News 
Release,'' Table 3. Employees on nonfarm payrolls by state and select 
industry indicator, seasonally adjusted, May 2018, https://www.bls.gov/
news.release/laus.t03.htm (accessed July 19, 2018).

A Kaiser/HRET survey found that 34 percent of private-industry workers 
report that they work for companies that offer paid family leave (and 
21 percent have paid paternity leave).\3\ Similarly, an Abt Associates 
survey commissioned by the Bureau of Labor Statistics in 2012 found 
that 34.2 percent of worksites provided formal paid leave for Family 
and Medical Leave Act (FMLA) qualifying reasons, 37.4 percent provided 
some other type of arrangement (such as vacation or sick days) and only 
25.6 percent provided no pay.\4\ Among worksites covered by FMLA, only 
17 percent provided no pay.\5\ Moreover, that same report found that 65 
percent of workers who took family leave received pay for it.\6\
---------------------------------------------------------------------------
    \3\ Nisha Kurani et al., ``Paid Family Leave and Sick Days in the 
U.S.: Findings From the 2016 Kaiser/HRET Employer Health Benefits 
Survey,'' May 31, 2017, http://www.kff.org/womens-health-policy/issue-
brief/paid-family-leave-and-sick-days-in-the-u-s-findings-from-the-
2016-kaiser
hret-employer-health-benefits-survey/ (accessed July 18, 2018).
    \4\ Jacob Alex Klerman, Kelly Daley, and Alyssa Pozniak, ``Family 
and Medical Leave in 2012: Technical Report,'' Abt Associates, prepared 
for U.S. Department of Labor, September 2012, revised April 2014, pp. 
96-97, https://www.dol.gov/asp/evaluation/fmla/FMLA-2012-Technical-
Report.pdf (accessed July 18, 2018). Full pay: 13.3 percent of 
worksites; partial pay: 20.9 percent of worksites; did not know or 
refused to answer the question: 2.4 percent of worksites.
    \5\ Ibid.
    \6\ Forty-eight percent of workers who took family leave reported 
that they received full pay for their leave while 17 percent said they 
received partial pay.

Short-term or temporary disability insurance provides another way that 
many workers receive paid family leave in the United States. In 2017, 
50 percent of full-time, private-sector workers had access to temporary 
disability insurance.\7\ While access to paid family leave is lowest 
among lower-wage workers, it appears to be on the rise. Over just the 
past 3 years, more than 100 large, name-brand companies announced new 
or expanded paid family leave policies,\8\ and as of February 1, 2018, 
when Lowe's announced its new policy, the largest 20 employers in the 
U.S. all provide paid family leave.\9\ Particularly important is growth 
in programs at companies like Walmart, Target, McDonald's, Starbucks, 
Lowe's, and Home Depot, which employ many low-wage workers who 
traditionally lacked access to paid family leave.
---------------------------------------------------------------------------
    \7\ Bureau of Labor Statistics, ``National Compensation Survey: 
Employee Benefits in the United States,'' March 2017, ``Table 16. 
Insurance benefits: Access, participation, and take-up rates, private 
industry workers,'' https://www.bls.gov/ncs/ebs/benefits/2017/
ownership/private/table16a.pdf (accessed February 12, 2018).
    \8\ National Partnership for Women and Families, ``Leading on 
Leave,'' April 2018, http://www.nationalpartnership.org/research-
library/workfamily/paid-leave/new-and-expanded-employer-paid-family-
leave-policies.pdf (accessed July 19, 2018).
    \9\ Claire Cain Miller, ``Lowe's Joins Other Big Employers in 
Offering Paid Parental Leave,'' The New York Times, February 1, 2018, 
https://www.nytimes.com/2018/02/01/upshot/lowes-joins-other-big-
employers-in-offering-paid-parental-leave.html (accessed July 19 , 
2018).

Notwithstanding this recent uptick in paid family leave offerings among 
some large employers in low-wage industries, an overwhelming majority 
of lower-income workers do not have access to paid family leave--at 
least not formal paid leave. Part of this stems from the fact that low-
wage workers are more likely to work in very small firms that tend to 
lack the financial and functional resources to provide paid leave. 
Among workers ages 18 to 61, 28 percent of those living in poverty (and 
30 percent of those with children) are employed by small firms with 
fewer than 10 employees, compared to 18 percent of all workers.\10\
---------------------------------------------------------------------------
    \10\ Data are from the March 2017 Consumer Population Survey's 
Annual Social and Economic Supplement.

Expanding paid family leave to this difficult-to-reach group of low-
wage workers without crowding out privately provided paid leave 
policies, and in a way that provides meaningful benefits, is a 
difficult task. Instead of economically harmful mandates on employers 
or a one-size-fits-all federal program that would crowd out existing 
policies, lawmakers should seek policies that can help expand employer-
provided paid leave programs because employers are better-equipped to 
respond to the unique needs of their workers with minimal cost and 
---------------------------------------------------------------------------
maximum flexibility.

Americans Want Paid Family Leave but They Want Employers--Not 
Taxpayers--to Provide It

According to a recent Pew poll, 82 percent of Americans believe that 
mothers should receive paid leave after the birth or adoption of a 
child and 69 percent believe fathers should receive similar leave.\11\ 
Eighty-five percent of Americans believe workers should receive paid 
leave to deal with their own serious health condition, and 69 percent 
believe that leave should extend to workers to care for family members 
with serious health conditions.\12\
---------------------------------------------------------------------------
    \11\ Juliana Menasce Horowitz, Kim Parker, Nikki Graf, and Gretchen 
Livingston, ``Americans Widely Support Paid Family and Medical Leave, 
but Differ Over Specific Polices,'' Pew Research Center, March 23, 
2017, http://assets.pewresearch.org/wp-content/uploads/sites/3/2017/03/
22152556/Paid-Leave-Report-3-17-17-FINAL.pdf (accessed July 19, 2018).
    \12\ Ibid.

Overwhelmingly, Americans who support paid family leave think that 
employers--as opposed to federal or state taxpayers--should provide it. 
About 12 percent of those who support paid family leave think the 
federal government, meaning taxpayers, should provide it; about 10 
percent think state governments should be responsible; and close to 60 
percent think that employers should provide paid leave (leaving about 
18 percent who think that workers should save for their own leave).\13\
---------------------------------------------------------------------------
    \13\ Employers and governments are abstract terms that actually 
refer to the people who work for, and receive goods and services from, 
employers and governments. Ultimately, employer-
provided leave is paid for through factors such as lower pay for 
workers, higher prices for products and services, and lower profits 
distributed to shareholders. Government-provided paid leave must be 
paid for through higher taxes or fewer government services.

Americans' preferences along with employers' uptick in the provision of 
paid family leave suggests that policymakers should not rush to enact a 
federal paid family leave program. Instead, they should allow employer-
provided programs to continue to expand and look to fill the gaps in 
paid family leave through alternative pathways that would not disrupt 
existing paid leave programs or create a costly new entitlement.
A One-Size-Fits-All Government Program Will Not Meet Workers Needs

The Occupational Information Network (O*Net) lists more than 1,100 
occupational categories for employment in the U.S.\14\ Needless to say, 
American workers span very diverse occupations and employment 
situations, from manufacturing to medical jobs and from standard nine-
to-five work days to self-selected gig-economy schedules.
---------------------------------------------------------------------------
    \14\ O*Net Resource Center, O*Net 22.3 Database, ``Occupational 
Titles: Occupational Data,'' available for download at https://
www.onetcenter.org/database.html?p=3#occ (accessed July 16, 2018).

No single federal paid family leave policy could possibly accommodate 
the unique needs of America's diverse workforce. The nature of some 
jobs, such as teachers, nurses and fast food workers, is such that they 
must be present at their job site--often during specific hours--in 
order to work. Many other jobs, however, are more flexible and workers 
can accomplish certain tasks from home and outside the standard 
workday. These types of jobs are conducive to flexible paid family 
leave arrangements, such as extending the length of leave by working 
part-time, or providing paid leave but allowing or asking workers to 
remain marginally connected, such as answering e-mails or taking phone 
calls as they are able. A federal policy could not do this. It would 
---------------------------------------------------------------------------
require all-or-nothing work.

Moreover, workers face unique family and medical situations. While 
employers can work individually with employees to meet their needs and 
minimize misuse and abuse of company policies, a federal policy would 
either be too rigid and limited to meet most workers' needs or so broad 
and generous that it would cause workers to take paid family leave for 
all sorts of nonessential or unintended purposes.

Employer-provided paid family leave programs can better meet workers 
needs than a federal program, and they can do so without requiring 
taxpayers to foot the bill.

Why Expanding Social Security for Paid Family Leave Is a Bad Idea

It seems like a win-win. A new proposal to allow workers to trade off 
future Social Security benefits for current Paid Family Leave benefits 
is designed--at least in theory--to offer a cost-free way for the 
government to provide paid family leave without significantly crowding 
out the availability of privately provided paid family leave policies.

Not forcing taxpayers to pay for individual workers' paid family leaves 
and not shifting costs that the private sector already, and 
increasingly, provides onto taxpayers are well-intentioned and laudable 
goals. If it were politically possible for the proposal to remain as 
limited as it was first introduced, the plan would face just one 
significant flaw. Accounting for political realities, however, the 
proposal faces at least five significant flaws.

Flaw 1: Using Social Security for Paid Family Leave Violates its 
Purpose, Weakens the Program Financially, Strengthens it Politically, 
and Makes Necessary Reform Nearly Impossible.

Social Security was designed to help keep elderly individuals out of 
poverty when they became too old to work. Expanding an old-age, anti-
poverty program to provide young- to middle-age workers with paid 
family leave benefits decades before they would otherwise receive 
retirement benefits would not only weaken the program financially. By 
making cash benefits available to tens of millions more individuals, it 
would also increase resistance to necessary reforms.

For example, one of the most common-sense proposals for addressing 
Social Security's looming insolvency is to increase the program's 
eligibility age because workers now live significantly longer and are 
subject to less physically demanding jobs than when the program first 
began. However, if some workers--primarily women and probably 
disproportionately lower-income and minority--take a handful of family 
leaves that push their eligibility age back to 68 or 69, it would be 
more difficult to increase Social Security's eligibility age program-
wide because of the disproportionate impact on those who used Social 
Security for paid leave.

These flaws associated with using Social Security for paid family leave 
exist regardless of whether or not the proposal evolves over time into 
a more generous, expansive, and costly program.

In reality, however, the probability that the proposal remains 
perfectly intact over the coming decades is close to zero. 
Consequently, the proposal suffers even greater flaws than some more 
generous federal paid family leave proposals that use a new payroll tax 
to finance benefits.

Flaw 2: Housing Paid Family Leave in a Sacrosanct Entitlement Program 
Guarantees its Expansion.

The proposal's authors cite not wanting to create a new federal program 
as a reason to house a new paid family leave program into an existing 
government program. They also seek to minimize the size and scope of a 
federal paid leave program, but the best way to do that would be to 
place a paid family leave program within the office of federal gas tax 
collections--or some other equally detestable government program. 
Placing a paid family leave benefit within America's favorite 
government program would guarantee its growth, instead of its 
restraint.

Just as Social Security, Medicare, and Medicaid have expanded over 
time, paid family leave benefits--buoyed by Social Security's 
platform--would inevitably expand. Subsequent Congresses would 
inevitably vote to: eliminate the requirement that individuals 
``repay'' their paid family leave benefits through delayed retirement; 
expand benefits to 100 percent of pay instead of Social Security's 
roughly 50 percent benefit level; add benefits for non-maternity 
medical leave and to care for family members; and increase the number 
of weeks individuals can receive benefits.

Flaw 3: Intended Cost-Free Proposal Would Become a Costly New 
Entitlement.

The inevitable expansion of the proposed Social Security paid family 
leave benefits (as explained above) would lead to substantial costs for 
federal taxpayers, particularly young and future workers.

The Heritage Foundation used its Social Security model to estimate the 
effects of future likely expansions of a potential Paid Family Leave 
program within Social Security. If a future Congress decides not to 
require workers to delay their retirement benefits in exchange for paid 
family leave, Heritage analysts estimate that the program would cost 
between $101 billion and $114 billion over 10 years.\15\ If a future 
Congress expanded the program further, allowing workers to receive 100 
percent of their pay--as opposed to the roughly 50 percent that Social 
Security would provide--for 12 weeks following the birth or adoption of 
a child, the program's costs would rise to $198 billion over 10 
years.\16\ Finally, if a future Congress also allowed workers to use 
the program for general paid family leave, as opposed to just following 
the birth or adoption of a child, its costs would rise to $231 billion 
over 10 years.\17\
---------------------------------------------------------------------------
    \15\ Rachel Greszler and Drew Gonshorowski, ``How a Proposed 
Federal Paid Family Leave Policy Would Become a Federal Entitlement and 
Weaken Social Security,'' Heritage Foundation Backgrounder No. 3318, 
May 29, 2018, https://www.heritage.org/sites/default/files/2018-06/
BG3318_0.pdf.
    \16\ Ibid.
    \17\ Ibid.

These estimates only account for fiscal effects and not behavioral 
effects. Eliminating the provision that workers ``pay for'' their 
benefits through delayed retirements would cause most workers who 
currently use privately provided paid family leave to instead--or at 
least first--use the federal program. Moreover, expanding the size of 
benefits and their eligible uses would cause workers to take more 
---------------------------------------------------------------------------
family leave, which would further drive up taxpayer costs.

The pathway of paid family leave programs in other countries provides 
an example for the likely expansion of any federal U.S. policy.

Between 1980 and 2011, the median amount of paid leave for mothers 
among Organisation for Economic Co-operation and Development (OECD) 
countries increased from 14 weeks to 42 weeks.\18\ In Canada, paid 
leave benefits doubled from 17 weeks to 35 weeks (52 weeks including 
home care payments) from 1980 to 2013 while the program's costs roughly 
quadrupled from 0.07 percent to 0.28 percent of gross domestic product 
(GDP). Similarly, Denmark's paid family leave program doubled in cost 
from 0.24 percent of GDP in 1980 to 0.48 percent in 2013.\19\
---------------------------------------------------------------------------
    \18\ Gordon B. Dahl et al., ``What Is the Case for Paid Maternity 
Leave?'' National Bureau of Economic Research, October 2013, http://
www.nber.org/papers/w19595.pdf (accessed July 19, 2018).
    \19\ Organisation for Economic Co-operation and Development, ``PF 
2.5 Annex: Detail of Change in Parental Leave by Country,'' OECD Family 
Database, Social Policy Division, last updated October 26, 2017, http:/
/www.oecd.org/els/family/database.htm (accessed July 19 ,2018).

A U.S.-equivalent of Canada's paid leave program would cost $56 billion 
per year, or $360 for every worker while a Denmark-equivalent program 
would cost $80 billion per year, or $510 per worker. At $23,000 per 
worker over a 45-year working career, that is a high price to pay for a 
---------------------------------------------------------------------------
program that they may not even use.

Carrie Lukas of the Independent Women's Forum noted that expensive, 
taxpayer-financed programs can create resentment.\20\ Some workers take 
multiple paid family leaves, and others take none, perhaps because they 
are unable to have children. They nevertheless have to pay taxes to 
support other workers' paid leave. Moreover, Lukas noted that generous, 
job-protected paid leave benefits cause employers and workers alike to 
resent having to hold an employee's position for months or years while 
other workers often have to take on additional work to make up for co-
workers who take extensive leaves.
---------------------------------------------------------------------------
    \20\ Carrie Lukas, ``I Live in a Country With Paid Leave. It's No 
Magic Bullet,'' The Washington Post, May 11, 2016, https://
www.washingtonpost.com/news/in-theory/wp/2016/05/11/i-live-in-a-
country-with-paid-family-leave-its-no-magic-bullet/
?noredirect=on&utmterm=.736315l5ebf8 (accessed July 15, 2018).

When employers--instead of taxpayers--provide paid family leave, there 
is less reason for resentment. Employer-based policies can create a 
``we're all in this together'' atmosphere with far lower costs and 
---------------------------------------------------------------------------
workplace interruptions than a federal program.

Fatal Flaw 4: Using Social Security for Paid Family Leave Will Treat it 
as a Private Piggy Bank.

Authors of the Social Security proposal aim to contain paid family 
leave costs to the workers who take them. This helps ensure that 
workers only take leave when necessary. Personal savings is the best 
way to achieve this goal, but many low- and middle-income workers do 
not have savings and would be hard-pressed to accumulate any. Thus, the 
proposal essentially lets workers treat their Social Security taxes as 
a private piggy bank when in reality those taxes are sunk contributions 
to an old age, social insurance program.

Despite common misconceptions, workers have no legal claim to their 
prescribed Social Security benefits. Under current law, when Social 
Security's notional trust fund (the program has been running cash-flow 
deficits since 2010) becomes exhausted around 2034, Social Security 
benefits will drop by 21 percent. Moreover, Congress can change Social 
Security's rules and benefits at any time, even revoking Social 
Security benefits entirely. That is the nature of government-provided 
social insurance programs. That is why conservatives advocate for 
personal savings as the most sure source of income for retirement and 
other life events.

The Social Security paid family leave proposal tries to transform 
social insurance into something it is not--private savings. By allowing 
workers to tap Social Security benefits decades early, for a purpose 
entirely unrelated to the program's intent, a paid family leave program 
would open the door to allowing workers to access Social Security 
benefits for all sorts of socially acceptable purposes such as paying 
off student loans, buying a home, or paying for medical expenses.

If the government--through Social Security--can finance and approve 
personal loans, individuals and families would save less and become 
more reliant on the government to meet their major financial life 
events.

Fatal Flaw 5: A Federal Paid Family Leave Program Will Crowd Out 
Employer- and State-Based Programs.

Any federal paid family leave program would inevitably crowd out 
employer- and state-provided paid family leave programs because no 
employer or state government would rationally choose to pay for 
something that their workers could otherwise get for free from the 
federal government.

In the July 11, 2018, hearing to which this statement applies, Ms. 
Carolyn O'Boyle, representing Deloitte, confirmed this reality. Ms. 
O'Boyle said that Deloitte has their workers first utilize the state-
provided paid leave benefits and then Deloitte supplements over and 
above those benefits to ensure their workers receive Deloitte's maximum 
benefits.

This is what all logical businesses and state governments would do, 
meaning any federal program would shift costs currently born by 
employers and states onto federal taxpayers instead. Considering that 
about 14 percent of all employees take family leave within a given 
year, and currently, upwards of 35 percent of those leaves are at least 
partially paid for by employers (and only 25.6 percent include ``no 
pay''), the crowd-out costs of a federal paid family leave program 
would be substantial.\21\ A very rough and conservative estimate of a 
minimal federal program that provided up to 6 weeks of paid family 
leave, with benefits equal to two-thirds of pay, and capped at $645 per 
week (based on an annual salary of$50,000) could crowd out at least $75 
billion in privately provided paid family leave benefits. That $75 
billion would be on top of the costs of providing paid family leave 
benefits for workers who currently lack access to them.
---------------------------------------------------------------------------
    \21\ Abt Associates, ``Family and Medical Leave in 2012: Technical 
Report,'' prepared for Jonathan Simonetta, U.S. Department of Labor, 
revised April 18, 2014, https://www.dol.gov/asp/evaluation/fmla/FMLA-
2012-Technical-Report.pdf (accessed July 17, 2018).

As proposed, the Social Security trade-off for paid family leave would 
minimize crowd-out of existing paid leave programs because it would 
require workers to effectively pay for their family leave benefits 
through later retirement dates. This would preserve much of the value 
of privately provided paid family leave benefits that do not require 
workers to make personal trade-offs. If a future Congress eliminated 
the requirement that workers repay their paid family leave benefits 
through later retirements, however, significant crowding out would 
occur as many employers would eliminate their paid family leave 
programs in lieu of having their workers access the taxpayer-financed 
---------------------------------------------------------------------------
Social Security paid family leave program.

Alternatives to a Federal Paid Family Leave Program

A federal paid family leave policy would require an inflexible, one-
size-fits-all policy that would not meet workers' needs as well as 
privately provided programs, and it would become extremely costly. 
There are steps that lawmakers can take, however, to help make family 
leave more accessible to American workers without creating a new 
entitlement, without crowding out existing paid family leave policies, 
and without increasing taxpayer costs. Those policies include:

The Working Families Flexibility Act. Sponsored by Representative 
Martha Roby (R-AL) and Senator Mike Lee (R-UT), this bill would allow 
private employers to give workers the same option that state and local 
workers have; that is, to choose between time-and-a-half pay or time-
and-a-half paid leave in exchange for overtime hours.\22\ This would be 
particularly helpful to the low-wage workers that lack access to paid 
family leave because it targets hourly employees who earn below about 
$24,000 per year. It would, for example, allow an employee who worked 
five hours of overtime every week for one year to accumulate 10 weeks 
of paid leave, and a worker who logged just two hours of overtime each 
week for a year could earn four weeks of paid leave.
---------------------------------------------------------------------------
    \22\ 115th Congress, H.R. 1180, May 3, 2017, https://
www.congress.gov/bill/115th-congress/house-bill/1180/text (accessed 
July 19, 2018).

Universal Savings Accounts. The U.S. double taxes savings by taxing 
income when it is first earned, and then taxing the investment gains 
that it generates if workers save and invest it. Universal Savings 
Accounts would eliminate one of these layers of taxation and allow 
---------------------------------------------------------------------------
workers to save money for any purpose--including paid family leave.

Representative John Katko introduced a bill--the Working Parents 
Flexibility Act--that would create tax-free parental leave savings 
accounts similar to existing 401(k)s.\23\
---------------------------------------------------------------------------
    \23\ 115th Congress, H.R. 2533, https://www.congress.gov/bill/
115th-congress/house-bill/2533 (accessed July 19, 2018).

Penalty-Free Withdrawals From Retirement Accounts. Either alone or in 
conjunction with Universal Savings Accounts, lawmakers could allow 
workers to make penalty-free withdrawals from their IRAs or 40l(k)s for 
---------------------------------------------------------------------------
family leave.

Payroll Tax Credit for Qualified Disability Insurance Policies. Many 
workers who do not have access to formal paid family leave nevertheless 
receive maternity leave benefits through temporary disability insurance 
policies. Temporary disability insurance usually provides about 60 
percent of workers' pay and almost all temporary disability insurance 
policies cover maternity leave. In 2017, 50 percent of full-time, 
private-sector workers had access to temporary disability 
insurance.\24\
---------------------------------------------------------------------------
    \24\ Bureau of Labor Statistics, ``Employee Benefits in the U.S.,'' 
``Table 16. Insurance benefits: Access, participation, and take-up 
rates, private industry workers,'' March 2017, https://www.bls.gov/ncs/
ebs/benefits/2017/ownership/private/table16a.pdf (accessed July 19, 
2018).

Federal policymakers could increase access to temporary disability 
insurance benefits by allowing employers and workers who purchase 
disability insurance policies that cover both long term and temporary 
disability to receive a payroll tax credit to offset part of their SSDI 
---------------------------------------------------------------------------
payroll tax.

Allowing States to Use Unemployment Insurance Systems for Paid Family 
Leave. Without mandating that states implement paid maternity leave 
policies within their existing Unemployment Insurance (UT) systems (as 
proposed in the President's fiscal year 2018 budget), the 
Administration could grant states the flexibility to use their UI 
systems as a source of paid parental leave. Since UI systems are almost 
exclusively funded at the state level, this would not constitute a new 
national entitlement. It would be important, however, that states not 
experience-rate the paid parental leave component of their programs 
because if companies' UI taxes were to increase based on the number of 
workers who took leave, it could lead to discrimination against women 
of child bearing age.

Reducing Regulations. Employers have to comply with all sorts of costly 
regulations, some of which have provided no, or even negative, benefits 
to workers. Reducing unnecessary and burdensome regulations on 
employers would free up resources that could go toward providing paid 
family leave policies.

Lower Taxes. Lower taxes on individuals and businesses would free up 
income and resources to apply toward paid family leave-whether through 
higher personal savings or new employer-provided paid leave. Recent 
reports on new and expanded paid family leave policies from large 
companies such as Lowe's and Chipotle following the Tax Cuts and Jobs 
Act of 2017 show that lower taxes have contributed to greater paid 
family leave benefits.\25\
---------------------------------------------------------------------------
    \25\ Patrice Lee Onwuka, ``5 Companies Expanding Parental Leave 
Thanks to Tax Cuts,'' Independent Women's Forum, February 15, 2018, 
http://www.iwf.org/blog/2805845/5-Companies-Expanding-Parental-Leave-
Thanks-to-Tax-Cuts (accessed July 19, 2018).

---------------------------------------------------------------------------
Conclusion

The U.S. already has an expanding network of employer-based and state-
based paid family leave policies that are better equipped to meet 
workers' individual needs and desires than a one-size-fits-all national 
policy. A federal paid family leave program would crowd out these 
existing programs and create a costly, administratively burdensome new 
national entitlement. Moreover, a paid family leave entitlement would 
inevitably grow in size and scope over time, and it could produce 
negative unintended consequences for the workers it aims to help.

While helping workers better spread their income needs--including paid 
family leave--over time is a laudable goal, tapping Social Security is 
not the best way to achieve this and it would result in unintended and 
costly consequences.

Instead, policymakers can help increase workers' access to paid family 
leave by enacting the Working Families Flexibility act, enacting 
Universal Savings accounts, or allowing workers to take penalty-free 
withdrawals from their retirement accounts for paid family leave; 
allowing states the option of using their UI systems to provide paid 
family leave benefits; and by increasing access to temporary disability 
insurance policies through a payroll tax credit.

                                 ______
                                 
                         Human Rights Campaign

                       1640 Rhode Island Ave., NW

                          Washington, DC 20036

                             P 202-628-4160

                             F 202-423-2861

                              <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e8a0baaba8a0baabc6a7baaf">[email&#160;protected]</a>

Chairman Cassidy, Ranking Member Brown, and Members of the Committee:

My name is David Stacy, and I am the Government Affairs Director for 
the Human Rights Campaign, America's largest civil rights organization 
working to achieve lesbian, gay, bisexual and transgender (LGBT) 
equality. On behalf of our over 3 million members and supporters, I am 
honored to submit this statement into the record for this important 
hearing on making paid family leave available to Americans. Today, I 
will specifically speak to this topic as it relates to ensuring the 
physical and financial health of LGBTQ workers and their families.

Welcoming a new child, caring for a sick spouse or parent, or facing a 
serious illness can change--and strain--a family's bottom line. Access 
to uniform paid leave is essential to closing the gaps created by these 
major life events and helping families stay healthy. Due to systemic 
discrimination including health disparities, LGBTQ people facing these 
changes often find themselves having to choose between the caregiving 
or recovery time they deserve and the paycheck they need.

The United States lags far behind other industrialized nations when it 
comes to paid medical leave. We are also the only industrialized 
country to offer no paid leave to working adults (such as leave that 
would allow an employee to take care of an ill family member or to 
welcome a new child). In addition, while a lack of access to paid leave 
is a universal challenge in the US, LGBTQ individuals are uniquely 
impacted. According to a 2018 HRC survey of LGBTQ workers, fewer than 
half of respondents reported that their employer's policies cover new 
parents of all genders equally and only 49 percent say that employer 
policies are equally inclusive of the many ways families can welcome a 
child, including childbirth, adoption, or foster care.\1\ Perhaps even 
more concerning, one in five respondents report that they would be 
afraid to request time off to care for a loved one because it might 
disclose their LGBTQ identity, illustrating the need for explicit 
federal LGBTQ-inclusive non-
discrimination protections, such as those contained in the Equality Act 
(S. 1006/H.R. 2282).
---------------------------------------------------------------------------
    \1\ Johnson, A.; Lee, M.; Maxwell, M.; Miranda, L. (2018). 2018 
U.S. LGBTQ Paid Leave Survey, Washington, DC: Human Rights Campaign 
Foundation.

Seven in ten LGBTQ individuals live in states that lack a family leave 
law or have a law that only allows leave for workers who have a 
biological or legal relationship with the child.\2\ LGBTQ couples 
raising children are also twice as likely to have household incomes 
near the poverty line compared to their non-LGBTQ peers--and single 
LGBTQ people are three times more likely to live near the poverty 
threshold as their non-LGBTQ peers.\3\
---------------------------------------------------------------------------
    \2\ Family Leave Laws, http://www.lgbtmap.org/equality-maps/
fmla_laws (data current as of 7/19/2018).
    \3\ Gates, G. (2013). LGBT Parenting in the United States. The 
Williams Institute. http://williamsinstitute.law.ucla.edu/wp-content/
uploads/LGBT-Parenting.pdf.

LGBTQ individuals who take time off face heightened challenges in 
accessing paid leave policies even where they do exist. We know that 
LGBTQ workers facing a major life event are often left with leave 
policies that are under-inclusive at best. Even for LGBTQ workers whose 
employers have a formal paid leave policy, one in five respondents to 
the 2018 survey reported that fears of discrimination could prevent 
them from requesting a leave if it would require disclosing their LGBTQ 
identity.\4\ And without explicit federal laws protecting us from being 
fired simply because of who they are, LGBTQ workers also remain at risk 
of being fired if they are forced to come out when requesting leave.
---------------------------------------------------------------------------
    \4\ Supra note 1.

The Family and Medical Insurance Leave (FAMILY) Act would establish the 
nation's first-ever insurance program for paid family and medical leave 
helping to ensure that workers are able to take leave at times they 
need it most. The FAMILY Act would help bridge the financial gap facing 
many working families following the birth or adoption of a child as 
well as person or family illness requiring leave from work. It would 
provide workers with up to 12 weeks of financial support during a 
family or medical leave from with up to 12 weeks of financial support 
during a family or medical leave from work. This would cover time taken 
following the birth or adoption of a child including time to recover 
from pregnancy and childbirth, as well as leave taken to care for a 
sick child, parent, spouse or domestic partner, recover from illness 
---------------------------------------------------------------------------
personally, or time taken for military caregiving and leave purposes.

Inclusive paid leave would help ensure that families will not have to 
risk their economic livelihood when they need to take time off to care 
for loved ones. Only 13 percent of the workforce receives paid family 
leave from their employer, and less than 40 percent have personal 
medical leave from a disability program provided through their 
workplace.\5\ The FAMILY Act helps correct that problem by expanding 
access to both family and medical leave. All workers, and especially 
those who are LGBTQ, not only stand to gain from paid leave, but the 
lack of inclusive and comprehensive leave policies continues to harm 
working Americans and their loved ones.
---------------------------------------------------------------------------
    \5\ U.S. Bureau of Labor Statistics. (2016, September). National 
Compensation Survey: Employee Benefits in the United States, March 2016 
(Tables 16 and 32). http://www.bls.gov/ncs/ebs/benefits/2016/
ebb10059.pdf.

I appreciate the opportunity to offer this testimony today and urge 
Congress to act to make paid leave accessible so that all workers, 
including LGBTQ workers, have the best chance possible to have 
---------------------------------------------------------------------------
physically and financially healthy families.

                                 ______
                                 
                       Independent Women's Forum

                      1875 I Street, NW, Suite 500

                          Washington, DC 20006

                                iwf.org

                              202-857-3293

        Modernize Our Entitlement Programs to Make Them Better, 
            Not Bigger, With Social Security Parental Leave

July 23, 2018

U.S. Senate
Committee on Finance
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

Dear Chairman Bill Cassidy, M.D. (R-LA), Ranking Member Sherrod Brown 
(D-OH), and members of the Senate Finance Subcommittee on Social 
Security, Pensions, and Family Policy,

Balancing work and family responsibilities can be challenging-and that 
while the rewards of parenting are wonderful, there are also burdens. 
Americans of all political stripes want working parents to be able to 
take time off from work to welcome a new baby without financial 
hardship. This leave from work can have great benefits for parents, 
children, families, for our society, and for our economy.

Taxpayers also have an interest in increasing access to paid leave. 
Currently, an estimated 17 percent of workers who lack paid leave 
benefits end up turning to government assistance programs when they 
have to take unpaid time off from work. That share increases to nearly 
50 percent of workers with lower incomes.

Unfortunately, proposals that aim to guarantee access to paid family 
leave often come with serious downsides. A paid-leave mandate on 
employers raises costs, making it more expensive for businesses to hire 
and retain workers. To compensate for those costs, businesses may 
reduce benefits for others or simply hire fewer employees. A new 
government entitlement program, like the one proposed in the FAMILY 
Act, would increase government spending, raise taxes on all workers, 
and could displace the myriad paid-leave and flexible-work solutions 
that many employers voluntarily offer today. Ironically, the FAMILY Act 
would make our workplaces less flexible and could leave workers-
particularly women-with fewer opportunities.

The goal for policymakers ought to be to help parents who lack the paid 
leave benefits they need, but without disrupting existing benefit 
package, discouraging private companies from continuing to offer 
benefits, or changing how employers approach hiring decisions.

This can be accomplished by giving workers access to benefits they have 
already earned, through the Social Security program, as first described 
in this policy paper written by Kristin Shapiro and published by 
Independent Women's Forum.

The Social Security Parental Leave Option

The concept behind this proposal is simple: Workers begin paying into 
Social Security from their first day on the job, and the benefits they 
receive at retirement reflect the decisions they make throughout their 
working lives. This reform would give every worker the option to take 
some of the benefits they earn after having or adopting a child, in 
exchange for delaying their retirement eligibility to make up for those 
costs.

The benefits of this approach are clear:

      It works within the framework of other existing programs and 
laws. It expands the safety net--protecting hardworking Americans at 
all income levels--without requiring a new payroll tax or creating a 
new bureaucracy.
      It easily fits within the modern work environment, providing new 
options for individuals working multiple jobs, are self-employed or 
participating in the gig economy and lack traditional employer-based 
benefits.
      Businesses would still have an incentive to continue offering 
employees benefits and flexible work arrangements.
      It helps parents who need support, but is also fair to others: 
this program is voluntary and no one's benefits are affected, unless 
they decide to take parental leave.

This proposal recognizes that most people tend to have greater 
financial needs and less income early in life, and builds on the 
concept that money paid into Social Security belongs to workers. Having 
access to Social Security parental benefits would give recipients, 
particularly those living paycheck to paycheck, the option to get the 
benefits they need--benefits they've earned--now.

Improving--Not Undermining--Social Security

Many are understandably concerned about how such a proposal would 
impact Social Security's finances. Social Security has a long-term 
financial imbalance and unfunded liabilities which ought to be 
addressed. That is true now and would remain true if this important 
reform was passed.

This proposal is designed to be revenue neutral over the long term: 
those who take parental leave benefits would have lower total lifetime 
retirement benefits so that the total benefit they receive from Social 
Security is unchanged. However, it could move up the timing of when 
some of those benefits would be paid out and therefore impact the 
budget, and--unless the Social Security Trust Fund is credited to 
account for those payments--could move up the date of the Trust Fund's 
depletion. Analysis of the proposal laid out in the IWF publication has 
been done by the Urban Institute, Heritage Foundation, Mercatus, and 
American Action Forum and estimated that the program would modestly 
impact the program's cash-flow and move up the date on the Trust Fund's 
depletion by about 6 months.

While it's useful to consider the program's impact of the Trust Fund, 
it's also important to keep the Trust Fund in perspective: many have 
written how the Trust Fund is essentially an accounting device, and 
that Social Security's financial problems are the same before and after 
the Trust Fund runs out. Either way, taxpayers still have to come up 
with funds to meet obligations, or benefit levels need to be reduced.

Additionally, when it comes to assessing this paid parental leave 
proposal, these conclusions ignore other factors that might actual mean 
that the reform will help Social Security's overall financial pictures. 
For example, access to paid leave is associated with greater labor-
force attachment for women. Women who can take paid time off after 
giving birth are more likely to return to their jobs, which means that 
they will keep paying into Social Security, which will mean more 
revenue into Social Security's Trust Fund.

It's also important to look beyond just Social Security's finances to 
how this would impact taxpayers more broadly. And the good news is that 
giving people access to paid parental leave could decrease the number 
of people using other public welfare programs. Currently, nearly 17 
percent of workers who lack access to paid parental leave go on 
government assistance to finance their paid leave--and this number 
jumps to nearly 50 percent for low-income individuals. It's far better 
for these people to access a benefit through Social Security--which 
they then pay back through delayed retirement benefits--than to use 
these forms of public assistance.

Finally, those worried about Social Security's finances should keep in 
mind that, if we do not provide access to paid leave through Social 
Security, it is highly likely that taxpayers will be forced to pay for 
it in other ways--either through state-run programs supported through a 
payroll tax, or through a federal program, such as the one proposed by 
the AEI-Brookings Project, that would also require a new payroll tax. 
Having taxpayers on the hook to pay for an entirely new, open-ended, 
additional paid-leave entitlement program and having another share of 
payroll already allocated to a new funding stream is a bigger threat to 
taxpayers and to the health of existing entitlement programs than 
changing the timing of some of Social Security's already outstanding 
obligations .

A Personalized Safety Net for Today's Workers

Social Security was created in 1935 when our work world was very 
different than it is today. Women were far less likely to work, to 
serve as breadwinners, or to head their own households. People also 
didn't live as long as they do today, so many never made it to 
retirement age or died not long after retiring. People were also more 
likely to work for one company for much of their working lives. Today, 
not only do people change jobs more frequently, but a growing number 
are self-
employed, work as independent contractors or have multiple employers.

We need to modernize our government programs to keep up with our 
changing world and support the needs of people today.

Currently, Social Security is structured so that it takes a significant 
share of income early in someone's working life--when people tend to 
have lower income and larger expenses--and then provides a relatively 
large benefit at retirement, beginning around age 67, which may have 
been the end of a workers' life in 1935, but now is a time when people 
tend to be more financially secure and many are able and happy to 
continue working.

If some workers today believe that their need for income support is 
greater in the weeks following the birth or adoption of a child than it 
will be at age 67--and they are willing to make the trade off so that 
the overall value of their benefits is unchanged--then government 
should provide that choice.

Certainly, policymakers will need to consider this precedent carefully 
and insure that people do not front-load their Social Security 
benefits, leaving them without sufficient support during retirement. 
Yet the potential for those future slippery-slope options doesn't mean 
that policymakers shouldn't modernize the existing safety net so that 
it serves people better today.

Social Security Is Already Based on Trade-offs

The foundation of the proposal to reform Social Security is a trade-
off: workers who opt to take a parental benefit after having or 
adopting a child are agreeing to delay access to their retirement 
benefits to compensate for those costs.

Some have argued that it's unfair to ask people to accept delayed 
retirement benefits in exchange for taking parental leaves. Others have 
expressed concern that policymakers will undermine this concept and do 
away with the pay for, leaving the parental benefit as just a costly 
new entitlement program run through the Social Security system.

Yet this concern seems unfounded, and ignores how the concept of trade-
offs is already baked into Social Security. It would seem unfair to 
leave takers if under current law everyone was guaranteed the same 
benefit at retirement, and solely those who took parental leave would 
face a lower or altered payment schedule. But that's not how Social 
Security works. Benefits are already calculated based on each 
individual's earnings history so that everyone who receives a 
retirement benefit has a personalized amount based on his or her 
decisions about work and when to retire.

Congress has not considered reforming the benefit calculation for 
people who lost their jobs or took time out of the workforce to care 
for a loved one, and therefore qualify for lower retirement payments. 
Nor have they considered it unfair that those who take retirement early 
have a lower monthly payment. It's unclear why Congress would allow 
trade-offs for these groups but shouldn't give those who take parental 
leave similar options, based on similar trade-offs.

Supporting Workers and a More Flexible Economy

The recent tax cuts showed that businesses want to better support their 
workers when they can afford to do so. Companies have been expanding 
their paid leave benefits, including to hourly workers, as well as 
increasing wages. That's great news and a process we all want to see 
continue.

One of the biggest problems with government involvement in offering 
paid leave programs is that it could discourage private businesses from 
offering benefits on their own and create less flexible workplaces. 
Compared to other approaches, like the creation of a new stand-alone 
entitlement program, the Social Security parental leave proposal is 
much less likely to crowd out private action or encourage 
discrimination.

Since employees would be making a trade-off in delaying future 
retirement benefits, employees would still want and benefit from 
employer-provided paid leave, which would give those businesses that 
offer such benefits a competitive advantage in attracting and retaining 
valuable workers. Employers would face no new costs in administering or 
paying for those who elect to use Social Security, other than in 
temporarily using replacement workers, a problem that they would have 
often faced even in the absence of the Social Security paid leave bene 
fits.

Therefore, this proposal meets the goals of providing more support for 
those who truly need it, but without undermining economic opportunity 
or making our workplaces less flexible and innovative.

Government can help more people by doing a better job with the programs 
that already exist, rather than layering on new programs and new costs 
and burdens on employers and taxpayers. Social Security parental leave 
accomplishes exactly that: it makes an existing program more flexible 
and allows people to customize the program to meet their unique needs. 
This is a win for taxpayers, businesses, women, and families.

Sincerely,

Carrie Lukas
President
Independent Women's Forum
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cbc4ddc3c9dbe8c1dfce86c7dacf">[email&#160;protected]</a>

                                 ______
                                 
                  International Franchise Association

                     1900 K Street, N.W., Suite 700

                          Washington, DC 20006

              Phone: +1 202-628-8000 Fax: +1 202-628-0812

                           www.franchise.org

July 11, 2018

The Honorable Bill Cassidy          The Honorable Sherrod Brown
Chairman                            Ranking Member
U.S. Senate                         U.S. Senate
Subcommittee on Social Security, 
Pensions, and Family Policy         Subcommittee on Social Security, 
                                    Pensions, and Family Policy
Washington, DC 20510                Washington, DC 20510

Dear Chairman Cassidy and Ranking Member Brown:

On behalf of the International Franchise Association (IFA), the world's 
oldest and largest organization representing franchising worldwide, I 
write to express support for the Subcommittee on Social Security, 
Pensions, and Family Policy's efforts to develop and consider paid 
family leave proposals in advance of today's hearing entitled 
``Examining the Importance of Paid Family Leave for American Working 
Families.''

Many franchise businesses are looking for ways to expand paid family 
leave benefits for their workforces. Franchise owners recognize that 
offering paid family leave has shown to improve recruitment and 
retention of employees, which is especially valuable at a time when 
labor markets are tight. But businesses only enjoy a competitive 
benefit in attracting employees by offering paid leave benefits if 
federal policies are noncompulsory. Business owners need the freedom to 
offer the policies that fit their unique workforces, and thus any 
legislation advanced by Congress simply must not involve an inflexible 
mandate.

So long as legislative proposals are voluntary for small business 
owners, it makes great sense for Congress to provide American 
businesses with additional means to make paid family leave available to 
American workers. There has been growing support for greater policy 
development on this issue from both sides of the aisle in Congress, as 
well as important thought leadership from White House Advisor Ivanka 
Trump. IFA looks forward to today's hearing, and would like to offer 
support for the further discussion on policy proposals that enhance the 
ability of small businesses to voluntarily provide paid family leave.

Sincerely,

Matthew Haller
Senior Vice President, Government Relations and Public Affairs

                                 ______
                                 
                          Main Street Alliance

                     1101 17th St., NW, Suite 1220

                          Washington, DC 20036

                       www.mainstreetalliance.org

       Statement of Sivan Cotel, Co-founder, Stonecutter Spirits 
                         in Middlebury, Vermont

             1197 Exchange St. Unit A, Middlebury, VT 05753

Sivan Cotel is the co-founder of Stonecutter Spirits, a distillery 
located in Middlebury, VT. He is on the Board of Main Street Alliance 
of Vermont, a statewide network of small business owners.

All of us, regardless of political affiliation, generally share the 
same goals: we want to grow our local economy, support our small 
businesses, and keep our families and communities healthy and thriving.

Most small business owners across the U.S. want to offer paid family 
leave to their employees, but aren't able to provide a benefit on their 
own--no matter how much they'd like to. A paid family and medical leave 
insurance program would eliminate this dilemma for small businesses 
across Vermont and the U.S. Vermont in particular is proud of being a 
small-business state. We will likely always be a small-business state, 
and that can be a unique strength. But it also comes with challenges in 
how we think about the nature of employment, and we need to address 
these challenges with smart policies that reflect the reality of the 
business landscape in Vermont and nationally and help small businesses 
thrive.

This is why small business owners in Vermont championed the creation of 
a state paid and medical leave insurance system. The bill passed both 
the Vermont House and Senate, only to be vetoed by Governor Scott. What 
happened in Vermont demonstrates why we need a national policy like the 
FAMILY Act.

The creation of a national universal family and medical leave benefit 
would help level the playing field for small businesses and 
entrepreneurs as we start and grow our businesses, and allow us to 
better compete for top talent. We all have a stake in ensuring that our 
next generation has a bright future. This policy helps us achieve our 
common goals and ensure future generations can thrive.

We are not going to solve the issues we face across the nation or grow 
our economy if we fail to act or with half measures like the 
Independent Women's Forum proposal. The IWF proposal falls short of 
what small businesses and working families need. It fails to provide 
medical leave and provides an inadequate 45 percent of wage replacement 
for parental leave, by raiding future social security benefits. We need 
progress and we need to do the hard work.

The FAMILY Act would make providing paid family and medical leave 
accessible and affordable for small businesses. It puts us on the right 
path to creating a real small business economy.

                                 ______
                                 

              Statement of Karen Lamy DeSousa, President, 
                     Advance Air and Heat Co., Inc.

               177 Bullock Road, East Freetown, MA 02717

Karen Lamy DeSousa is the President of Advance Air and Heat Co., Inc., 
a commercial heating and air conditioning contractor located in East 
Freetown, MA. She is a leader with the Main Street Alliance of 
Massachusetts, a statewide network of small business owners.

People should be able to take time away from work to get well when they 
have a serious medical condition, or care for close family member who 
has a serious illness. They should be able to take time to welcome a 
new child. Thanks to the paid family and medical leave insurance law 
we've just passed here in the Commonwealth, workers can now do all 
those things.

This policy makes a difference to me as a business owner who knows that 
caring for people is an important part of my bottom line. On the other 
hand, the proposal by Senators Rubio and Ernst wouldn't help my small 
business. Their flawed and narrow proposal asks working parents to take 
a cut in their future Social Security benefits to underwrite meager 
parental leave benefits. Instead, I urge the Committee to support the 
FAMILY Act.

Recently, one of my employees--whom I'll call Charlie--told me his 
mother was ill and he was setting up a mother-in-law apartment to care 
for her. But, after working all day as an HVAC tech, he just didn't 
have the time and energy.

We were as flexible and understanding as we could be. We used earned 
sick time and paid time off as much as we could afford to. But Charlie 
needed more, but he couldn't take unpaid time off with two kids in 
college, a mortgage, and medical expenses. Both his work and his 
attention to his mother suffered.

I've been through this with my own family, and I would have offered 
paid leave to my employees if I could have afforded it. But I couldn't. 
My business didn't have the money to pay for extended leave, and we 
didn't have the time or skills to manage and administer a paid family 
medical leave program on our own. Setting up an insurance program, 
managing the qualifications, eligibility, and writing the checks is 
outside our skill set.

That's why I'm thankful for the family friendly policies like paid 
family and medical leave policies we've won in our Commonwealth. Those 
policies help businesses like mine and the 20 employees I'm responsible 
for.

I need Charlie and other employees like him. Properly training and 
preparing a new HVAC tech takes five years at minimum. Losing skilled 
employees and having to recruit and train new ones hurts our ability to 
help our customers and could cost us their business. Plus, the more 
time we spend on Human Resources, the less time we can spend on our 
business.

The lack of paid leave put us at a competitive disadvantage with big 
corporations that have full-time human resources staff, or competitors 
in Rhode Island, which has a paid family medical leave insurance law.

One of the many benefits of the new state paid family medical leave 
program is that no matter how big or small your business, you can offer 
this benefit. The state is responsible for the administration and pays 
from a trust. That means businesses like mine can give employees up to 
20 weeks of some partially paid time and still have funds to pay for a 
replacement or more overtime for other employees to keep our business 
running.

All workers across the country deserve this. The FAMILY Act would 
provide up to 12 weeks of paid leave a year and covers around two-
thirds of wages. And it would be a baseline, so Massachusetts could 
still offer its more generous policy. Policies like this are a win-win 
for families, workers, Main Street businesses, our communities, and our 
economy. They help us all take care of our loved ones. And they help 
level the playing field between small business and big corporations, 
which have the market power to give good benefits to top managers.

The proposal by Senators Rubio and Ernst wouldn't have helped my 
employee Charlie, and it won't help my business. It's time to listen 
Main Street businesses who are fighting for high-road employment 
policies and support the FAMILY Act.

                                 ______
                                 

             Statement of Jen Kimmich, Owner, The Alchemist

                 100 Cottage Club Road, Stowe, VT 05676

Jen Kimmich is the co-owner of The Alchemist, a craft brewery located 
in Stowe, VT. She is the Board Chair of the Main Street Alliance of 
Vermont, a statewide network of small business owners.

Small businesses are a vital part of the U.S. economy. In Vermont, 
roughly 90 percent of our state's businesses have fewer than 20 
employees and these are the businesses that are least likely to be able 
to offer paid family and medical leave on their own. A national family 
and medical leave insurance program would make it possible for all 
employers, large and small, to ensure their employees can be successful 
providing for and caring for their families.

This past legislative session, Main Street Alliance of Vermont led the 
campaign for a comprehensive paid family and medical leave insurance 
program. The bill passed both the Vermont House and Senate, but 
unfortunately it was vetoed by Governor Scott. What happened in Vermont 
demonstrates why a national paid leave insurance system is needed, 
rather than continuing with the state-by-state piecemeal approach. 
Partisan regional politics shouldn't dictate whether we can care for 
ourselves or our loved ones.

The proposal by the Independent Women's Forum does not come close to 
what small businesses need. It cuts Social Security for working 
parents, doesn't provide medical or family leave, and it has very low 
benefit rate, only 45 percent of wages for the average worker. Research 
has shown that anything less than 66 percent of wage is inadequate. At 
the Alchemist, we provide 13 weeks of paid family and medical leave to 
our 52 full time employees at 100 percent of wage replacement. 
Providing paid leave hasn't hurt our company's productivity or 
increased our costs. In fact, just the opposite is true--it has 
strengthened workforce stability and it has increased our bottom line.

We've been able to build the brewery to have the resources to provide 
paid leave, but most small businesses can't afford to provide paid 
leave to their employees. Small business owners pay competitive wages 
and are eager to help their employees learn new skills, but one area 
where not everyone can compete is benefits. With modest bottom lines, 
most small businesses simply aren't able to provide extended paid 
leave.

Many small business owners pay competitive wages and are eager to help 
their employees learn new skills, but one area where we just cannot 
compete is benefits. With modest bottom lines, most small businesses 
simply aren't able to provide extended paid leave. The FAMILY Act 
creates an affordable, self-sustaining national family and medical 
leave insurance program. It is funded responsibly by small employee and 
employer payroll contributions, which equate to less than the cost of a 
cup of coffee a week.

If we are serious about supporting Main Street small businesses and 
working families, the FAMILY Act is the best next step.

                                 ______
                                 

            Statement of Todd Mikkelson, Co-Owner, Sprayrack

              4144 Shoreline Drive, Spring Park, MN 55384

Todd Mikkelson is the co-owner of Sprayrack, a water penetration and 
air infiltration testing product design and manufacturing business 
located in Spring Park, Minnesota. He is a leader with the Main Street 
Alliance of Minnesota, a statewide network of small business owners.

Fifteen years ago I began engineering devices that are now the industry 
standard in water and air infiltration testing. With a leap of faith, 
my wife and I put all our savings into our business, Sprayrack. I'm not 
afraid of risk-taking and think it's an important part of innovation. 
But small businesses just don't have the resources to manage our risks 
like larger companies. Our public policies must be innovative and help 
to manage this risk if we want Main Street to thrive. This is why I 
support the FAMILY Act, and am deeply concerned about the Independent 
Women's Forum proposal to raid Social Security to underwrite an 
inadequate parental leave benefit.

Five years ago, my wife and I were terrified to hire our first 
employee. He was an experienced, 57-year-old electrician who had been 
struggling to find a job worthy of his skill-set. The reality is that 
his age made him less attractive to larger companies. He became 
invaluable to us. He's a great problem solver, and he took over 
management of our assembly shop, freeing me to develop products and 
expand our marketing. That accelerated the pace of our growth, and we 
now have three employees.

About two years ago, this employee had to have his hip replaced. We 
needed to retain him. The costs of the time and money it would take to 
replace him were astronomical, to say nothing of the uncertainty for my 
business. So, we paid him thousands of dollars out of pocket to stay 
home to recover for a few weeks. Our business took a significant 
financial hit to retain this employee, and it's unlikely that we could 
afford to do it again.

This is the plight of many real small businesses. When we find talented 
employees, they quickly become almost as important to the business as 
the owners--and we can't afford to lose them. My employees are 
essential to my business, and they're also decent, hardworking people 
who deserve time to care for themselves or a sick family member. But 
with modest bottom lines, it's hard for small businesses to provide 
paid and family medical leave. It's awful to be unable to afford to 
treat your employees the way you feel they should be treated.

That's why the U.S. needs a comprehensive paid family and medical leave 
insurance system like what is outlined in the FAMILY Act. It is a 
reasonable way for businesses like mine to support and retain our 
employees when serious family and medical needs arise. Employers and 
employees each contribute $1.50 per week towards an insurance pool that 
spreads the cost of leave, reducing the burden on individual employers. 
Small-business owners and our employees alike would be eligible. This 
will help level the playing field for small businesses as we struggle 
to match the more generous paid leave benefits offered by larger 
employers.

The IWF proposal on the other hand only provides parental leave and 
wouldn't cover my employee who needed to have his hip replaced. Raiding 
social security to provide an inadequate parental leave benefit is 
similar to what Republicans put forth in Minnesota a couple years ago: 
a half-baked joke that won't help my small business. The FAMILY Act is 
what my business needs to succeed.

                                 ______
                                 

         Statement of Sabrina Parsons, CEO, Palo Alto Software

             44 West Broadway, Suite 500, Eugene, OR 97401

Sabrina Parsons is the CEO of Palo Alto Software, a small business 
software distribution company headquartered in Eugene, OR. She is a 
leader with Main Street Alliance of Oregon, a statewide network of 
small business owners.

For nearly eleven years, I've run a software development company in 
Eugene, Oregon. We have 70 full time employees and I've been able to 
build up the company to have the resources to provide comprehensive 
paid family and medical to our employees. The program has helped my 
business recruit and retain talented and loyal employees.

In a male dominated industry, we have been able to attract and support 
women professionals. We know that women shoulder most of the caregiving 
responsibilities in the U.S. and that women's success in the workplace 
is often tied to our ability to take care of our families, whether it 
be a new child, a sick spouse or an elderly family member. At Palo Alto 
Software we use our resources to invest in our employees, and always 
make sure we remember that employees are people with human needs, and 
not just numbers to our bottom line.

The proposal by Senators Ernst, Rubio and Lee, as outlined by the 
Independent Women's Forum, is not real paid leave and wouldn't benefit 
my business or my employees. Under their proposal, working parents 
would need to borrow against future social security benefits in order 
to take parental leave at a very low wage replacement rate. What 
benefits my business and would benefit other small businesses is a more 
comprehensive program that pays enough wages to keep an employee loyal, 
and happy. Employee turnover is a huge cost to small businesses, and a 
real paid leave program would help small businesses retain more and 
better employees.

At Palo Alto Software, we provide paid family and medical leave at or 
nearly at 100 percent of salary. We recently had an employee with a 
parent who went through cancer treatment and she was able to go home 
and take care of her mother. Through our policy she had job protected 
paid leave and earned 100 percent of her salary during the time she 
needed to care for her sick mother. We had another employee who needed 
to take medical leave to recover from an accident, and we were able to 
provide him with nearly four months of paid leave 95 percent of his 
salary. We also offer our employees fully paid maternity and paternity 
leave.

While my business now has the resources to provide paid leave, this 
isn't a reality for most small business owners. When my company was 
smaller, and had 20 employees, we did everything we could, but we 
couldn't afford the comprehensive paid leave we can today. And in 
different industries it's even harder. For example, it's very difficult 
in the restaurant industry where profits margins are really thin.

Small business owners want to provide paid leave to their employees but 
they need some help. The FAMILY Act, sponsored by Senator Gillibrand, 
would create a self-sustaining national paid family and medical leave 
insurance system. Employers and employees would contribute, spreading 
out the funding so that it would cost less than $1.50 per week, which 
is less than a cup of coffee. Small-business owners and our employees 
alike would be eligible.

The FAMILY Act would not only support working people to address their 
own serious medical needs or care for a family member, but it would 
also support small businesses. It makes providing paid leave affordable 
and feasible to implement for small businesses. Because the reality is 
that when a small business can't provide paid leave, it's that much 
harder to recruit and retain employees. Employees are face the very 
difficult decision to choose their families and their health over their 
jobs and financial stability because often it's a life or death choice.

Turnover costs are a major expense for small businesses. On average, 
across all industries, turnover costs 20 percent of an employee's 
annual salary. Moreover, most small business owners want to provide 
their employees access to paid leave. But they are scared about how 
that will affect their bottom line. They are scared of the rhetoric 
they hear that it's going to be too expensive, and they are scared that 
they are not going to be able to afford it. The FAMILY Act would create 
a more favorable environment for small businesses, spurring small 
business and economic growth.

The U.S. falls behind all other industrialized economies in ensuring 
employees have access to paid leave. It's time that our elected 
officials in DC step up and commit to supporting real paid leave 
policies like the FAMILY Act so small business owners, our employees 
and all working people have paid time to care for themselves or a loved 
one.

                                 ______
                                 

         Statement of Tony Sandkamp, Owner, Sandkamp Woodworks

               430 Communipaw Ave., Jersey City, NJ 07304

Tony Sandkamp is the owner of Sandkamp Woodworks, a cabinet and 
architectural woodworking business located in in Jersey City, New 
Jersey. He is a leader with the Main Street Alliance of New Jersey, a 
statewide network of small business owners.

I'm a proud supporter of New Jersey's Family Leave Insurance Program, 
which helps small businesses like mine provide paid family and medical 
leave to my four employees. All small businesses and workers, in every 
state, should be able to count on a program with the same benefits and 
protections. I am concerned about the Independent Women's Forum 
proposal to provide paid leave that's funded by raiding Social 
Security, covers only parental leave, and offers stingier wage 
replacement. New Jersey's program worked for my business, and it should 
be the baseline for the country.

Three years ago one of my employees came to me and said his wife was 
having twins. He needed help getting some paid time off, and we weren't 
sure to what to do. Luckily, I had a friend who knew about the Family 
Leave Insurance Program. The paperwork was pretty straightforward, we 
filled it out together and sent it in, and he got two thirds of his 
wages replaced while bonding with his twins. He is a very important 
part of my business, and this was very important to his life. So we 
made adjustments, he got some paid time with his family, and he's still 
with us.

I also remember life before our paid leave program, and I know that's 
still the reality for most small businesses and workers around the 
country. In 2006, before there was any such program, I had an employee 
who had to leave his job because of family needs. I only found after 
the fact that his mother was dying of cancer, around the Christmas 
season, and he could have really used the New Jersey Family Leave 
Insurance then. This was awful for him. It was a tough loss for me 
personally since along with losing an employee, I lost a longtime 
friend. It was also detrimental to my business. He had been my best 
employee for several years and performed many critical management 
functions. The costs of the time and money it took to replace him were 
astronomical. I had to take time away from my responsibilities as the 
owner to fill the gap in the interim.

The New Jersey Family Leave Insurance law allows small business owners 
like me to provide paid family and medical to my employees and ensure 
that no one is forced to choose between caring for serious family and 
medical needs or putting food on the table. It also helps that small 
business can recruit and retain dedicated employees, decreasing costly 
turnover expenses and strengthening our bottom lines.

New Jersey's program is an important starting point. People like my 
employee whose mother was dying of cancer would not be helped by the 
IWF proposal. And the wage replacement in the IWF proposal would be too 
low to really sustain my employee who had twins. That's why I urge you 
to shelve the limited, flawed proposal to raid social security and 
support the FAMILY Act, which builds upon what we have in New Jersey.

                                 ______
                                 

     Statement of Adam Stephens, Owner of Marathon Bicycle Company

              104 East Maple Ave., Fayetteville, WV 25840

Adam Stephens is the owner of Marathon Bicycle Company, a bike rental, 
sales and repair shop, and Arrowhead Bike Farm, a bike rental shop, 
biergarten and campground, located in Fayetteville, WV. He is a leader 
of Main Street Alliance a national network of small business owners.

In November, 2017, my doctors told me I had a detached retina in my 
left eye and would require a few operations in order to regain my 
vision. They scheduled the first procedure for the middle of July. 
There's never a great time to get sick, but as the owner of two 
businesses in Fayetteville that rely on tourism, Marathon Bikes and 
Arrowhead Bike Farm, there isn't a worse time than the peak of the 
season to have to step away from my business for medical care.

At our farm I have a staff of five employees that can pull together and 
manage things while I recover. But Marathon Bikes, my rental, sales and 
repair shop, can't operate if I'm not there for an extended period. If 
I follow my doctor's orders--and I plan to--I won't be able to work for 
2 weeks. I calculate that closing down for the last two weeks in July 
will cost me 10-15 percent of my gross revenue for the year. It won't 
be catastrophic; my business will survive, but 2018 certainly won't be 
remembered as a good year. And this surgery is just the first of many 
procedures I need to have, which will cause additional revenue loss.

While seven states (including DC) offer paid family and medical leave, 
West Virginia is not one of them. This leaves West Virginians like me 
stuck scrambling when an unexpected family or medical situation comes 
up.

The Independent Women's Forum proposal, which is being sold as a paid 
leave proposal, wouldn't help me either. It isn't real paid leave. 
That's because it only covers parental leave, and that excludes most 
working people who need time to deal with a personal or family member's 
serious illness. Additionally, despite cutting future Social Security 
benefits, the plan only provides working parents with 45 percent of 
their usual wages. After my child was born, I couldn't afford to take 
one day off to bond with her. The IWF proposal benefit rate is so low, 
that it wouldn't have made taking leave any more feasible for me.

It doesn't have to be this way. Access to real paid family and medical 
leave shouldn't be based on where you live. Taking time away from work 
to attend to serious medical issues like eye surgery or family 
circumstances like the birth of a child or a sick parent should not be 
calamitous for workers or small businesses.

That's why Congress needs to pass federal legislation that covers all 
workers in times of need. The FAMILY Act would create a national paid 
family and medical leave insurance system. It would be funded by 
employers and employees, and all workers and small-business owners 
would be eligible, regardless of the company's size.

Operationally, the FAMILY Act is pretty simple. Workers and employers 
each make a small payroll contribution--as little as $1.50 per worker 
each paycheck. Then, when workers--or operators of small businesses 
like me--need to take time away from work, we can draw enough income 
from the fund to get us by until we're back on our feet. Employers can 
use the salary of their on-leave workers as they see fit; they can use 
it to hire a temporary replacement, invest it in their business or save 
it for another use.

Paid family and medical leave promotes a stronger economy, healthier 
families, and helps small businesses like mine thrive. It's especially 
good for small business, helping to level the playing field with big 
corporations in hiring and retaining talented employees, and giving 
small business owners like me a way to get the medical care we need 
without jeopardizing our livelihood.

It's going to cost me an arm and a leg to get the care I need to 
protect my eyesight. But Congress has the power to change this reality 
for millions of working families and small business owners like me.

For questions, please contact Sapna Mehta, Legislative and Policy 
Director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0a3b1a0beb190bdb1b9bea3a4a2b5b5a4b1bcbcb9b1beb3b5febfa2b7fe">[email&#160;protected]</a>
                                 ______
                                 
                            Mercatus Center

                        George Mason University

                 THE TROUBLES OF FINANCING PAID FAMILY 
                       LEAVE WITH SOCIAL SECURITY

Veronique de Rugy
Senior Research Fellow, Mercatus Center at George Mason University

Senate Committee on Finance, Subcommittee on Social Security, Pensions, 
and Family Policy

``Examining the Importance of Paid Family Leave for American Working 
Families''

July 11, 2018

Chairman Cassidy, Ranking Member Brown, and distinguished members of 
the Subcommittee on Social Security, Pensions, and Family Policy:

My name is Veronique de Rugy, and I am an economist and senior research 
fellow at the Mercatus Center at George Mason University. My colleagues 
and I recently studied a proposal to use Social Security to extend paid 
family leave to new parents, and I am grateful for the opportunity to 
discuss our findings with you.

Attached to this document you will find a policy brief, ``Consequences 
of Financing Paid Parental Leave Using Social Security,'' and a 
Mercatus chart product, ``Social Security Can't Afford Family Leave.'' 
The chart product shows the fiscal implications of financing paid 
family leave using Social Security. The brief argues against using 
Social Security to extend paid family leave to new parents. In doing 
so, it makes the following key points:

      Between 45 and 63 percent of women report already having access 
to paid leave, even without government mandating or paying for a 
parental leave benefit.
      In theory, paid family leave is potentially budget neutral over 
the lifetime of the individual Social Security beneficiary. In reality, 
it would add to Social Security's solvency problems from the start, 
precipitating the insolvency of the program. In addition, to make this 
program really revenue neutral, Congress would have to stick to the 
commitment to withhold Social Security retirement benefits decades from 
now. Unfortunately, the federal government has a long established 
tradition of reneging on budgetary offsets later after having spent 
money upfront. Therefore, it is unrealistic to assume it would follow 
through this time around.
      Until the first beneficiaries of the new paid leave program 
start postponing their retirement decades down the road, additional 
borrowing will be required to pay for the paid leave benefits claimed 
by parents, on top of all Social Security benefits currently going to 
retirees. Assuming a 25 percent take-up rate by eligible parents, the 
new benefits would cost up to $7 billion per year.
      Using Social Security to pay for family leave means adding 
fiscal pressure to an already unsteady system in a highly indebted 
budgetary environment. Lawmakers' six options for dealing with the 
Social Security shortfall would all become more severe:
          <ctr-circle>  sharp reductions of benefits
          <ctr-circle>  significant delays in the age of retirement 
        eligibility
          <ctr-circle>  steep increases of the payroll tax rate above 
        its current 12.4 percent level
          <ctr-circle>  lifting the $128,400 income cap subjected to 
        the tax
          <ctr-circle>  bailing out the system with general revenues, 
        eroding its status as an earned benefit
          <ctr-circle>  some mix of the previous five
      It would be unwise to establish the principle that Social 
Security's future retirement benefits can be borrowed against to 
finance the current needs of the young.

History shows that we can't expect any new paid parental leave policy 
will remain in its original form and merely redistribute tax dollars to 
parents in the short run from their future retirement benefits. More 
likely, it will devolve into another welfare program--funded from a 
Social Security trust fund that was not designed for that purpose and 
should not be used for it now.

I would be happy to discuss any of these matters in further detail.

Sincerely,

Veronique de Rugy
Senior Research Fellow
Mercatus Center at Mercatus University

ATTACHMENTS (2)

``Consequences of Financing Paid Parental Leave Using Social Security'' 
(Mercatus Policy Brief)

``Social Security Can't Afford Paid Family Leave'' (Mercatus 
Freestanding Chart)

                                 ______
                                 

             Consequences of Financing Paid Parental Leave 
                         Using Social Security

Veronique de Rugy, Jason J. Fichtner, and Charles Blahous 

June 2018

Social Security is the largest government program. In FY 2017 it paid 
over $939 billion--4.9 percent of GDP--in benefits to 62 million 
Americans (45 million of whom are retired).\1\ Unfortunately, the 
program is not on sound financial footing, as 17 percent of currently 
scheduled benefits lack funding, and the two Social Security trust 
funds combined face depletion in 2034.\2\ Upon trust fund depletion, 
program tax revenue will only be able to pay 77 percent of benefits. 
The financial troubles facing the Social Security program are among the 
many reasons why a new proposal to use Social Security as a way to 
extend paid family leave to new parents is a bad idea.
---------------------------------------------------------------------------
    \1\ Social Security Administration, ``Social Security Beneficiary 
Statistics,'' accessed May 4, 2018, https://www.ssa.gov/oact/STATS/
OASDIbenies.html.
    \2\ Board of Trustees, Federal Old-Age and Survivors Insurance and 
Federal Disability Insurance Trust Funds, The 2017 Annual Report of the 
Board of Trustees of the Federal Old-Age and Survivors Insurance and 
Federal Disability Insurance Trust Funds, 2017; Social Security 
Administration, ``A Summary of the 2018 Annual Reports,'' accessed May 
4, 2018, https://www.ssa.gov/oact/trsum/.

The plan proposed by Kristin Shapiro of the Independent Women's Forum 
in her recent paper A Budget-Neutral Approach to Parental Leave appears 
at first to be simple and elegant.\3\
---------------------------------------------------------------------------
    \3\ Kristin A. Shapiro, A Budget-Neutral Approach to Parental Leave 
(Washington, DC: Independent Women's Forum, January 2018).

Consider a 26-year-old new mother with five years of work experience 
earning $31,100 per year. Under this plan, she could receive 12 weeks 
of paid leave at a rate of close to $300 per week, or approximately 
$3,600 over the 12-week period.\4\ In exchange, in the future, her 
eligibility to claim Social Security retirement benefits would be 
delayed by about 6 weeks.
---------------------------------------------------------------------------
    \4\ Kristin A. Shapiro and Andrew G. Biggs, ``A Simple Plan for 
Parental Leave,'' Wall Street Journal, January 24, 2018.

This is a simple, stylized example. The plan lacks necessary details 
for a more complete analysis. In a recent piece in The Wall Street 
Journal, Andrew Biggs of the American Enterprise Institute and Kristin 
Shapiro provide additional numbers on the potential cost of the 
---------------------------------------------------------------------------
proposed paid parental leave policy:

        The cost is low because parental-leave benefits claimed early 
        in life would be low relative to retirement benefits claimed 
        later, as earnings typically rise considerably from one's 20s 
        to one's early 60s. . . . Consider an average woman, who enters 
        the workforce at 21 and has her first child at 26. At 25 she 
        would have a salary of about $31,100, according to Social 
        Security Administration data. Using the same formula used to 
        calculate Social Security disability benefits, she would be 
        eligible for a Social Security parental-leave benefit of $1,175 
        a month, equal to 45% of her earnings at 25. . . . Because of 
        Social Security's progressive benefit formula, lower-income 
        workers would receive a higher benefit relative to their 
        earnings.\5\
---------------------------------------------------------------------------
    \5\ Shapiro and Biggs, ``A Simple Plan for Parental Leave.''

To the designer's credit, this plan doesn't involve mandating employers 
to provide paid leave to their employees, and it piggybacks on an 
existing entitlement program rather than starting a new one from 
scratch. Its apparent simplicity and purpose, topped with the claim 
that it wouldn't add to the deficit, has already attracted support. It 
was taken up by both conservative and moderate members of the 
Republican congressional conferences, and it is gaining some traction 
---------------------------------------------------------------------------
among conservative groups.

Unfortunately, while the plan lacks many details, there are already 
considerable reasons to oppose it. The first question Americans should 
ask is whether paid family leave is best provided through the 
government and whether the private sector is providing, or could 
provide, such a benefit. Data from the Census Bureau's Survey of Income 
and Program Participation (SIPP), the U.S. Department of Labor's FMLA 
Worksite and Employee Surveys, the Census Bureau's Current Population 
Survey (CPS), and the National Survey of Working Mothers show that even 
without the government mandating or paying for a parental leave 
benefit, between 45 percent and 63 percent of women report already 
having access to paid leave.\6\ This should come as no surprise, since 
academic studies show that companies benefit from providing this type 
of benefit to their workers--adding satisfaction, as well as lowering 
turnover rates and raising productivity. When businesses can afford to 
offer paid family leave, they increasingly do. It is unclear that there 
would be net societal benefit in shifting the costs of paid parental 
leave from the workplaces that benefit from it to federal taxpayers.
---------------------------------------------------------------------------
    \6\ Council of Economic Advisers, The Economics of Paid and Unpaid 
Leave, June 2014; Vanessa Brown Calder, ``Myth Busting Paid Leave 
Statistics,'' Cato at Liberty, March 8, 2018.

Setting these general concerns aside, this paper will focus on a more 
specific problem with the plan: the use of the Social Security trust 
funds to finance paid parental leave. We will discuss how this proposal 
is an inappropriate expansion of the mission of the program, how it 
disrupts the link between work and benefits, and how it will almost 
certainly not be budget neutral, among other issues. Rarely do the 
finances of such programs conform to their designers' original 
intentions. If a paid leave program were to be added to Social 
Security, over time we could expect that its eligibility criteria would 
be expanded (as they have been with other entitlement programs) to 
include other paid leave options besides caring for a newborn, such as 
caring for aging parents or a spouse. The duration of the benefit would 
likely be extended over time as well, as paid leave benefits in other 
countries have been. The final transformation of the new benefit may 
happen when advocates for beneficiaries demand that it be paid for with 
general government revenue rather than delayed retirement. In sum, it 
is reasonable to expect that this new entitlement would not long remain 
a budget-neutral modification of existing mandatory spending 
obligations, but would eventually become an entirely new spending 
obligation, with all of the costs and market distortions that such 
entitlements typically create.

INAPPROPRIATE EXPANSION OF THE ROLE OF SOCIAL SECURITY

Using Social Security as a way to provide paid leave would be a 
significant expansion in the types of benefits that Social Security 
pays for, and one that departs significantly from the program's 
historical mission.

The historical mission of Social Security has been to provide ``a 
comprehensive package of protection'' against income loss as the result 
of a permanent departure from the workforce, consequent to a primary 
household earner's retirement or death.\7\ This system was originally 
designed as a social insurance program to cover low-probability and 
high-cost events (such as living well beyond the average life 
expectancy or losing income if a working spouse dies). Later the 
program was expanded to include disability benefits. That expansion 
took place only after a very protracted debate during the 1950s and 
after proponents of the expansion gave multiple assurances and 
procedural guarantees that the establishment of disability insurance 
benefits would not undermine the funding of the retirement program.\8\ 
As part of this process, and to fulfill this requirement, the 
Disability Insurance system was established with a separate trust fund 
and a separate payroll tax. As Senator Walter George (D-GA) stated 
during floor debate,
---------------------------------------------------------------------------
    \7\ Social Security Administration, Social Security Accountability 
Report for Fiscal Year 1997, November 21, 1997.
    \8\ Charles Blahous, ``Costs of Merging Social Security Retirement 
and Disability Funds,'' e21 (Manhattan Institute for Policy Research), 
April 27, 2015.

        The moneys for disabled persons will not be commingled in any 
        way with the funds for old-age insurance or for widows and 
        spouses. The contribution income and the disbursements for 
        disability payments will be kept completely distinct and 
        separate. In this way the cost of disability benefits always 
        will be definitely known and the costs always will be shown 
        separately . . . a separate tax is to be levied to build up a 
        fund which can be easily policed, which can never encroach upon 
        the fund for widows, and for those who reach age 65, and for 
        children and other beneficiaries.\9\
---------------------------------------------------------------------------
    \9\ Charles Blahous, ``Costs of Merging Social Security Retirement 
and Disability Funds.''

Even still, disability benefits were only provided for those facing 
long-term income loss owing to a disabling condition. None of those 
safeguards ground the current paid leave proposal; instead, it seems 
the Old-Age and Survivors Insurance (OASI) Trust Fund would be required 
to finance a new kind of benefit entirely--one that does not align with 
the original intent of the program. Given that the OASI trust fund is 
already significantly underfunded, it seems imprudent to start tapping 
---------------------------------------------------------------------------
those inadequate funds to pay for a new category of benefits.

To elaborate on the previous point, paid leave is a fundamentally 
different kind of benefit than the other benefits Social Security pays 
for. Although people do risk income interruptions when they leave the 
workforce to care for children, having children doesn't permanently 
destroy one's ability to earn income, now or in the future. Social 
Security is designed instead to protect against lasting income loss--
because someone either died, retired, or became disabled. For better or 
worse, in order to receive disability benefits, applicants must show 
that their disabilities are an ongoing condition; Social Security 
explicitly says that ``no benefits are payable for partial disability 
or for short-term disability.''\10\ In other words, Social Security has 
never been intended to provide temporary ``tiding-over'' benefits, 
unlike, for example, unemployment insurance.
---------------------------------------------------------------------------
    \10\ Social Security Administration, ``Benefits Planner: 
Disability,'' accessed May 4, 2018, https://www.ssa.gov/planners/
disability/qualify.html.

---------------------------------------------------------------------------
PAID LEAVE WOULD END THE RELATIONSHIP BETWEEN WORK AND BENEFIT

Social Security is a program with many problems,\11\ including its 
projected insolvency. However, one of the program's relative virtues is 
that no workers get benefits that they haven't at least in some way 
earned with their payroll tax contributions. On the retirement side of 
the program, one must work and contribute payroll taxes for at least 40 
quarters (10 years) to be eligible for benefits.\12\
---------------------------------------------------------------------------
    \11\ Jason J. Fichtner, ``Restoring and Modernizing Social Security 
Through Sustainable Reform'' (testimony before the House Committee on 
the Budget, Mercatus Center at George Mason University, Arlington, VA, 
July 13, 2016).
    \12\ Social Security Administration, ``Benefits Planner,'' accessed 
May 4, 2018, https://www.ssa.gov/planners/credits.html.

Disability is more complex, and one could argue that its benefits 
aren't adequately tied to contributions paid. However, its design is 
defensible from an insurance perspective since disability can strike at 
any time and cause a permanent loss of income. Yet even on Social 
Security's disability side, one must work and contribute for a few 
years before qualifying (6 quarters of tax contributions are required 
to become eligible before the age of 24; otherwise, 20 quarters are 
required over a worker's previous 10 years).\13\ And although some 
young workers receive disability benefits that their own contributions 
have not yet adequately funded, it is far more common for workers to 
receive disability benefits only much later in their careers, after 
several years of contributing payroll taxes to the system.
---------------------------------------------------------------------------
    \13\ Social Security Administration, ``Understanding Supplemental 
Security Income Social Security Entitlement--2018 Edition,'' accessed 
May 4, 2018, https://www.ssa.gov/ssi/text-entitle-ussi.htm.

By contrast, paid parental leave is ill-suited for this type of 
contributory funding system. Most people tend to have children toward 
the beginning of their careers rather than toward the end, and well 
before their contributions, even in the aggregate, are sufficient to 
fund benefits. Under a paid parental leave policy, many people will 
likely have children long before they have contributed payroll taxes 
---------------------------------------------------------------------------
for 20, let alone 40, quarters of paid employment.

To address this issue, the proponents of the paid leave system would 
require that parents, no matter their age, need to have worked at least 
four quarters (one year) in their lifetime, including in at least two 
of the last four quarters preceding the birth of their child, to become 
eligible for Social Security parental benefits.\14\
---------------------------------------------------------------------------
    \14\ Shapiro, A Budget-Neutral Approach to Parental Leave.

This is a serious weakening of the work-benefit relationship that 
currently exists in Social Security. Moreover, it is easy to anticipate 
that even these minimal work requirements will eventually be relaxed or 
even eliminated to provide additional assistance to lower-income 
parents without established labor force attachment. Establishing a new 
benefit that is not premised primarily upon prior employment-based 
contributions will likely render it inevitable that the benefit is 
ultimately conceived and provided solely on the basis of need, rather 
than earned through work. While there is a place in government for 
purely need-based assistance to poor families, Social Security is not 
that place.

A NOT-SO-BUDGET-NEUTRAL PROPOSAL

Advocates for the paid leave proposal express an intention that this 
new benefit be budget neutral and not add to the net cost of Social 
Security. As Shapiro writes, ``The proposed program would be structured 
to be self-funding. In return for receiving parental benefits, new 
parents would agree to defer their collection of Social Security 
benefits upon retirement for the period of time necessary to offset the 
cost of their parental benefits.''\15\
---------------------------------------------------------------------------
    \15\ Shapiro.

For instance, if a 25-year-old had a baby and claimed paid leave 
benefits in 2018, she would effectively be using her 2060 old-age 
retirement benefits. That's assuming she wants to retire at 67. She 
would make up for her paid leave benefits in 2060--over 40 years 
later--by delaying her retirement benefits by six weeks. For each 
additional child, she would forgo an additional six weeks of retirement 
---------------------------------------------------------------------------
benefits, and so on and so forth.

It seems simple enough. But while in theory this paid family leave is 
potentially budget neutral over the lifetime of the individual Social 
Security beneficiary, it would nevertheless add to Social Security's 
solvency problems for several years, if not decades. Social Security 
has been running a cash flow deficit since 2010--one that is currently 
projected to be permanent. Starting from the implementation of any new 
paid parental leave program, additional borrowing will be required to 
pay for the paid leave benefits claimed by parents, on top of all 
Social Security benefits currently going to retirees. According to 
Shapiro, assuming a 25 percent take-up rate by eligible parents, that 
additional cost would add up to $7 billion per year.\16\
---------------------------------------------------------------------------
    \16\ Shapiro, 4.

These additional benefit outlays will accelerate the depletion of the 
trust funds, which the 2017 Social Security Trustees report already 
projects will happen in 2034, and at which time Social Security 
benefits would be reduced by roughly one-quarter under current law.\17\ 
By 2034, the federal budget deficit is estimated to be $2.4 trillion 
(6.5 percent of GDP), and the public debt to be $38.4 trillion (105 
percent of GDP), to which the costs of this additional benefit would be 
added.\18\
---------------------------------------------------------------------------
    \17\ Social Security Administration, ``Summary of the 2018 Annual 
Reports.''
    \18\ Congressional Budget Office, The Budget and Economic Outlook: 
2018 to 2028, April 2018.

In other words, using Social Security to pay for family leave means 
adding fiscal pressure to an already unsteady system in a highly 
indebted budgetary environment. Lawmakers' six options for dealing with 
the Social Security shortfall would all become more severe: sharp 
reductions of benefits, significant delays in the age of retirement 
eligibility steep increases of the payroll tax rate above its current 
12.4 percent level, lifting the $128,400 income cap subjected to the 
tax, bailing out the system with general revenues and eroding its 
---------------------------------------------------------------------------
status as an earned benefit, or a mix of the five.

Designed to be part of a multifaceted system for income replacement in 
retirement, Social Security benefits, along with employer pensions and 
individual savings, form the so-called ``three-legged stool'' of 
retirement.\19\ Social Security alone cannot provide adequate 
retirement income for all, and it currently lacks adequate funding for 
the benefits it promises.
---------------------------------------------------------------------------
    \19\ Social Security Administration, ``Agency History,'' accessed 
May 4, 2018, https://www.ssa.gov/history/stool.html.

It would be especially unwise to establish the principle that Social 
Security's future retirement benefits can be borrowed against to 
finance the needs of the young in the present. In the first place, 
promises of Social Security benefits are funded only by future 
taxpayers; there is no storehouse of personal Social Security savings 
for young workers to draw from. And even if there were such a 
storehouse, there would be no logical basis for limiting access to it 
only for paid parental leave; the door would be open to unlimited 
alternative uses for such advance payments, from down payments on a 
home to paying off student loans. Indeed, some of these expansions are 
already being proposed.\20\
---------------------------------------------------------------------------
    \20\ Elliott Harding, ``A Solution to the Student-Debt and Social 
Security Crises,'' National Review, March 12, 2018.

Nor should Americans take it as a given that the proposal would 
actually be self-funding, even over the lifetime of a beneficiary. This 
would be a ``benefits now, funding later'' program. There is no fail-
safe mechanism for ensuring that lawmakers follow through on the 
benefit offsets decades hence. In some cases, follow-through may even 
be impossible, such as for those who receive benefits up front but then 
remain out of the workforce as stay-at-home parents. According to the 
Bureau of Labor Statistics, about 35 percent of women with young 
children do not participate in the labor force.\21\ The program would 
also fail to be self-funding in instances of workers who later become 
disabled or drop out of the workforce and thus have no retirement 
benefits to delay.
---------------------------------------------------------------------------
    \21\ Bureau of Labor Statistics, Women in the Labor Force: A 
Databook, November 2017.

It is worth adding that government paid leave programs around the world 
---------------------------------------------------------------------------
have a bad track record. As Vanessa Brown Calder reminds us,

        In 1989 Larry Summers wrote about government-mandated paid 
        leave, ``There is no sense in which benefits become `free' just 
        because the government mandates employers offer them to 
        workers.'' And in 1994 Jonathan Gruber reported women's wages 
        were reduced to reflect the cost of benefit mandates. Gruber 
        estimated that the shift in cost was around ``the order of 100 
        percent.'' \22\
---------------------------------------------------------------------------
    \22\ Vanessa Brown Calder, ``Republicans Are Negotiating the Terms 
of Surrender on Paid Leave,'' The Hill, February 21, 2018.

Under the current paid leave proposal, the government wouldn't mandate 
or provide net funding for the benefit--at least at first. Yet it is 
naive to think that no new costs will emerge as such a program 
inevitably evolves. Potential adverse consequences of these costs 
include unexpected burdens and disruptions for small businesses, lower 
wages, and even an increased reluctance to hire or promote women of 
childbearing age.

TWO WRONGS DON'T MAKE A RIGHT

A valid criticism of the Social Security program is that because of the 
collision between demographic trends and funding methods, the program 
causes substantial, inequitable income redistribution from the youngest 
in society to the oldest.\23\ In addition, changes in the capital 
market and standards of living in the United States over the past 50 
years mean that the older beneficiaries of the program are over 
represented in the top income quintile.\24\ As a result, many see this 
proposal to provide paid leave benefits through Social Security as a 
way to reverse some of Social Security's intergenerational income 
redistribution, away from retired and older Americans back toward 
younger ones.
---------------------------------------------------------------------------
    \23\ Hearing on ``What Workers Need to Know About Social Security 
as They Plan for Their Retirement,'' hearing before the Subcommittee on 
Social Security of the House Committee on Ways and Means, 113th 
Congress (2014) (statement of C. Eugene Steuerle, Institute Fellow and 
Richard B. Fisher Chair, Urban Institute).
    \24\ Tyler Cowen and Veronique de Rugy, ``Reframing the Debate,'' 
in The Occupy Handbook, ed. Janet Byrne (New York: Back Bay Books, 
2012), 411-21.

However, the proposal would not actually correct these 
intergenerational inequities. That can only be done by lessening the 
existing redistribution from later birth cohorts to earlier ones--
either by reducing benefits for older cohorts or by shifting from a 
pay-as-you-go system to a funded one through, for example, the 
establishment of personal accounts. The paid leave proposal is instead 
a proposal for younger Americans to pay for income during their 
parenting years out of their own eventual retirement income; in other 
words, if it works as designed, it would have no net effect of 
---------------------------------------------------------------------------
correcting intergenerational inequities.

Moreover, owing to Social Security's currently projected insolvency, 
changes will need to be made to individuals' benefit levels and 
retirement eligibility ages in any event. Would those who have taken 
parental leave be subjected to these changes on top of the delays they 
have already accepted in exchange for parental leave income? These are 
additional considerations the proponents have yet to provide answers 
for.

CONCLUSION: THE HIGH COST OF GOOD INTENTIONS

In his book, The High Cost of Good Intentions, Hoover Institution 
scholar John Cogan explains how throughout history government programs 
were created for one reason or another, but over time the stated 
mission was expanded beyond recognition. Federal entitlement programs 
demonstrate this inevitable tendency. Originally designed to provide a 
measure of economic security to senior citizens and a safety net for 
the poor, they now redistribute money to Americans in all income 
classes, rich and poor alike. As Cogan explains, over 60 percent of all 
U.S. households that receive entitlement program benefits have incomes 
above the poverty line before the receipt of those benefits.\25\ Cogan 
further notes that over 30 percent of the benefits go to households in 
the upper half of the income distribution. The same general pattern is 
found across federal programs from food stamps to Social Security 
Disability Insurance to Medicaid.
---------------------------------------------------------------------------
    \25\ John F. Cogan, The High Cost of Good Intentions: A History of 
U.S. Federal Entitlement Programs (Stanford, CA: Stanford University 
Press, 2017), 2 9-3; Clifton B. Parker, ``Federal Entitlements Intended 
to Lift People out of Poverty Now Benefit the Middle Class, Stanford 
Scholar Says,'' Stanford News Service, February, 21, 2018, https://
news.stanford.edu/press-releases/2018/02/21/medicare-social-ity-keep-
growing/.

The same will happen under a paid parental leave policy, especially 
since it will take decades to implement intended budget offsets. We 
can, for example, expect future profamily interest groups to argue that 
beneficiary parents who are later required to delay retirement are 
being subjected to a ``retirement penalty'' or a ``baby penalty'' 
compared to nonparents. We can also expect other interest groups to 
demand that the four-quarter work requirement be eliminated so that 
everyone can benefit, and we expect those interest groups will have 
statistics at their disposal demonstrating that the work requirements 
are unfairly regressive. Other possible changes in eligibility might 
include allowing nonparents and parents alike to tap their future 
Social Security benefits to pay for college tuition, the care of an 
aging parent, or the purchase of a house or a car. The Shapiro proposal 
itself anticipates future expansions, saying that ``after the program 
has existed for several years, policymakers can study its operation and 
effects and better evaluate whether it would be appropriate to offer 
more generous benefits or to open up the program to other populations 
(such as individuals needing paid medical or family leave).'' \26\ 
Given that Social Security's retirement benefits are already 
inadequately financed, the program simply cannot afford the risk of 
these myriad benefit obligations being added without reliable assurance 
that budget neutrality principles will be upheld over all time.
---------------------------------------------------------------------------
    \26\ Shapiro, A Budget-Neutral Approach to Parental Leave.

History may not always repeat itself. But it sure does rhyme. If 
history is our guide, it is unrealistic to expect that any new policy 
to provide paid parental leave through the Social Security system will 
remain in its original form and merely redistribute tax dollars to 
parents in the short run from their future retirement benefits. More 
likely, it will devolve into another welfare program-funded from a 
Social Security trust fund that was not designed for that purpose and 
shouldn't be used for it now.

             Social Security Can't Afford Paid Family Leave

Veronique de Rugy and Justin Leventhal
Several plans have been proposed for the federal government to provide 
paid family leave. One proposed plan by the Independent Women's Forum 
would provide 12 weeks of leave paid leave with compensation calculated 
through the current disability benefits formula (estimated to be an 
average of $3,528 for 12 weeks). If an individual chose to take this 
benefit, that individual would pay back the Social Security system by 
deferring old-age benefit payments by 6 weeks. The theory behind this 
deferral is that over the long term, the deferral of payments will 
allow Social Security program to remain deficit neutral. However, even 
if the program remained deficit neutral over the 30-40 years it would 
take to reclaim family leave benefits, this proposal would add to the 
problems already faced by Social Security. Even without this proposal, 
the Social Security trust fund is expected to be depleted in 2034, long 
before the benefits are repaid.

Using the number of births in 2016 as a baseline, one can estimate the 
future cost of parental leave payments each year, depending on the 
percentage of new parents who take advantage of their new entitlement. 
If only half of all new parents collected family leave payments from 
this system, the cost would be $14 billion per year.

[GRAPHIC] [TIFF OMITTED] T1118.002


After accounting for smaller interest payments (owing to a smaller 
trust fund each year), if only half of new parents used this system, 
the Social Security trust fund would be $259 billion lower at the 
beginning of 2033 than otherwise.

[GRAPHIC] [TIFF OMITTED] T1118.003

The lower starting position of the Social Security trust fund means 
that it would be depleted one year early. This poses a problem not just 
for retirees, but also for those people who would be collecting 
payments for family leave from this system, which will soon be 
bankrupt.

[GRAPHIC] [TIFF OMITTED] T1118.004


                                 ______
                                 
   National Active and Retired Federal Employees Association (NARFE)

                        606 N. Washington Street

                          Alexandria, VA 22314

                           phone 703-838-7760

                            fax 703-838-7785

                             www.NARFE.org

Richard G. Thissen                  Jon Dowie
National President                  National Secretary/Treasurer

July 24, 2018

Subcommittee on Social Security, Pensions, and Family Policy
Committee on Finance
United States Senate
Washington, DC 20510

Dear Chairman Cassidy, Ranking Member Brown, and members of the Senate 
Subcommittee on Social Security, Pensions, and Family Policy:

Thank you for holding the hearing titled ``Examining the Importance of 
Paid Family Leave for American Working Families'' on Wednesday, July 
11, 2018.

I am writing to submit for the hearing record the views of the National 
Active and Retired Federal Employees Association (NARFE) in support of 
paid parental leave for federal employees.

Specifically, NARFE supports H.R. 6275, the Federal Employees Paid 
Parental Leave Act of 2018, introduced by Congresswoman Barbara 
Comstock, R-VA, which would provide 12 weeks of paid leave to federal 
employees for the birth, adoption or foster placement of a child.

This policy is long overdue. The United States of America is the only 
industrialized country in the world without a national law requiring 
paid parental leave--including for its civil servants. Within the 
United States, many large private-sector employers have recognized the 
value of this policy. In fact, in 2008, the Joint Economic Committee 
surveyed Fortune 100 companies and found that nearly three-quarters (74 
percent) of the responding companies offered a specific paid parental-
leave program to new mothers. The federal government should follow 
their lead and join every other developed nation.

The policy reflects smart human-resource-management practice. Paid 
parental-leave policies have been shown to facilitate the recruitment 
and retention of young workers. With only 6 percent of the federal 
workforce under the age of 30, and more than 40 percent eligible to 
retire within 3 years, federal government recruitment of young workers 
is becoming increasingly important. Additionally, the policy has been 
shown to improve employee morale, which increases productivity.

Offering paid parental leave would actually save the federal government 
money. The Congressional Budget Office estimated that previous versions 
of the legislation mentioned above would not impact direct spending. 
Additionally, Institute for Women's Policy Research (IWPR) calculates 
that the federal government could prevent 2,650 departures per year 
among female employees by offering paid parental leave, preventing $50 
million per year in turnover costs.\1\
---------------------------------------------------------------------------
    \1\ ``The Need for Paid Parental Leave for Federal Employees: 
Adapting to a Changing Workforce,'' from the Institute for Women's 
Policy Research, 2009.

The study went on to say, ``Recruiting new employees, the relatively 
low productivity of new hires, drains on the productivity of colleagues 
and supervisors, human resources processing time, training, and lost 
productivity between the departure of an employee and the hiring of a 
---------------------------------------------------------------------------
replacement are all real costs to employers.''

A separate report from the Institute for Women's Policy Research on 
first-time mothers stated: ``Controlling for observed differences, 
first-time mothers who utilized paid leave had only a 2.6% probability 
of quitting their jobs and a 92.3% probability of returning to the same 
employer post-birth of their children. In contrast, first-time mothers 
who did not utilize paid leave experienced a 34.3% probability of 
quitting their job and had a 73.3% probability of working for the same 
employer after birth.'' \2\
---------------------------------------------------------------------------
    \2\ ``Paid Leave and Employment Stability of First-Time Mothers,'' 
from the Institute for Women's Policy Research, 2017.

Paid parental leave also demonstrates the value we place on family and 
parenting. Parents should not be forced to make difficult trade-offs 
between spending invaluable time to bond with their new child, or being 
---------------------------------------------------------------------------
able to pay their bills and save for their child's future.

This hearing focused on a nationwide paid family-leave policy. We 
support that pathway as well. But if that is too heavy a lift, I urge 
Congress, the federal government's board of directors, to at least 
institute such a policy for the federal government's own employees. It 
is past time to do so.

Thank you for considering NARFE's views. If you have any questions or 
comments regarding this letter, please contact NARFE Staff Vice 
President, Advocacy, Jessica Klement at 703-838-7760 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9190979e969e958fbb959a899d9ed594899cd5">[email&#160;protected]</a>

Sincerely,

Richard G. Thissen
National President

                                 ______
                                 
              New York City Department of Consumer Affairs

                         42 Broadway, 8th Floor

                           New York, NY 10004

                                Dial 311

                             (212-NEW-YORK)

                           nyc.gov/consumers

     Statement of Lorelei Salas, Commissioner of the New York City 
                    Department of Consumer Affairs 

    The New York City Department of Consumer Affairs (``DCA'') strongly 
urges Congress to create a comprehensive national program that makes 
paid leave affordable for employers of all sizes and available for 
workers to care for a new child upon their birth or adoption, a family 
member with a serious health condition, or themselves if they have a 
serious health condition. The Family and Medical Insurance Leave 
(FAMILY) Act (S. 337/H.R. 947), sponsored by Representative Rosa 
DeLauro and Senator Kirsten Gillibrand does just that, and would create 
a baseline right that may be supplemented by greater protections 
provided by state and local governments.

    DCA, particularly its Office of Labor Policy and Standards 
(``OLPS''), has first-hand knowledge of how local government's role in 
labor law enforcement is essential to promoting individual financial 
security and improving family and public health without sacrificing a 
vigorous and growing economy.\1\ OLPS is charged with implementing and 
enforcing New York City's workplace laws, developing innovative 
policies to raise job standards, and providing a central resource to 
help working New Yorkers assert their rights under local, state, and 
federal law.
---------------------------------------------------------------------------
    \1\ New York City, Office of the Mayor, ``Two Years After Mayor De 
Blasio Expands Paid Sick Leave to One Million New Yorkers, City's 
Economy Stronger Than Ever,'' April 1, 2016, available at http://
www1.nyc.gov/office-of-the-mayor/news/318-16/two-years-after-mayor-de-
blasio-expands-paid-sick-leave-one-million-new-yorkers-city-s-economy.

    Through DCA's enforcement of the City's Paid Safe and Sick Leave 
Law (PSSL), we have witnessed the necessity of paid leave for the 
health of workers, their families, and the City's economy. PSSL 
guarantees almost all workers in New York City, regardless of 
immigration status and whether they are full-time, part-time, or 
contingent, a strand of basic human dignity--up to forty hours of paid 
time off to care for themselves or their loved ones when they are ill 
or to seek medical treatment, without fear of penalty or retribution 
from their employer. Evidence of PSSL's success since its adoption in 
2014 are the recent amendments to it that passed without controversy. 
These amendments expanded the Law's definition of family member to 
include ``chosen family'' and its uses to those related to taking 
safety measures from domestic violence, human trafficking, stalking or 
---------------------------------------------------------------------------
sexual assault.

Paid Family Leave Is Especially Critical for the Long-term Economic 
Security of Women and Low-income Workers

    DCA welcomed New York State's implementation of a family and 
medical leave insurance program in 2108. By joining California, New 
Jersey and Rhode Island, workers in New York City and across the State 
will have increased protections when confronted with the most consuming 
of life events that require workers to temporarily devote their full 
time and attention to the care of a loved one--whether a new baby or 
family member battling a long-term illness--or to recover from their 
own serious illness or injury.\2\ Approximately 85% of American workers 
lack paid family leave through their jobs.\3\ Paid family leave is 
especially critical for some of the most vulnerable workers--women and 
those who earn the lowest wages.\4\ Women shoulder most unpaid 
caregiving responsibilities, of children, the elderly and the disabled: 
two-thirds of unpaid caregivers are women.\5\ Women are more likely 
than men to leave their jobs to meet caregiving obligations and this 
has a direct impact on women's economic security and stability and the 
lifetime earnings gap between men and women.\6\ Paid family leave 
enables women to remain in their jobs, acquire seniority, increase 
their earnings and, subsequently, their retirement savings.\7\
---------------------------------------------------------------------------
    \2\ Washington State and the District of Columbia will join the 
growing list of jurisdictions with paid family leave programs in 2020.
    \3\ FAMILY Act Coalition letter, July 11, 2018, available at http:/
/www.nationalpartner
ship.org/research-library/work-family/coalition/family-act-coalition-
letter.pdf.
    \4\ Jasmine Tucker and Kayla Patrick, National Women's Law Center, 
Women in Low-Wage Jobs May Not Be Who You Expect (August 30, 2017), 
https://nwlc.org/resources/women-in-low-wage-jobs-may-not-be-who-you-
expect/.
    \5\ Women and Caregiving: Facts and Figures (December 31, 2003), 
https://www.caregiver.org/women-and-caregiving-facts-and-figures.
    \6\ Women's Bureau Report, U.S. Department of Labor, 2, 3 (February 
2015), available at https://www.dol.gov/wb/resources/
older_women_economic_security.pdf.
    \7\ Claire Cain Miller, ``Paid Leave Encourages Female Employees to 
Stay,'' The New York Times, July 28, 2014, https://www.nytimes.com/
2014/07/29/upshot/how-paid-leave-helps-female-employees-stay-.html.

    A lack of paid family leave makes the ability to provide long-term 
temporary care to a family member particularly elusive for low-wage 
workers, who cannot afford to take unpaid time off from work, even if 
they might be entitled to it under the Family Medical Leave Act (FMLA) 
or an employer's policy. Low-income workers often lack a financial 
cushion or safety net on which to rely while absent from work.\8\ 
Losing income while taking care of their own or a family member's 
health condition has a compounding effect on family finances that is 
particularly acute for low-income workers, creating a risk that they 
will fall into poverty. Many of the reasons for which employees would 
be eligible to use family leave bring new expenses, like the cost of 
diapers, child care, or prescription medications,\9\ in addition to 
costs associated with lost wages.\10\ An analysis of FMLA found that 
nearly 1 in 10 employees went on public assistance program (such as 
food stamps or welfare) when on leave.\11\ When paid leave is offered, 
those with paid leave are 39% less likely to access public assistance 
than those not offered the benefit.\12\ Additionally, among families 
who receive public assistance in the year after birth, new mothers who 
were offered paid leave report $413 less in public assistance than 
those mothers who were not offered paid leave.\13\ Thus, implementing 
paid leave programs appears to reduce the need for public assistance, 
which can also free up government spending to invest in other 
activities supportive of economic growth.\14\ Paid family leave would 
begin to break the cycle in which economic deprivation leads to 
hazards, including poor health, which in turn perpetuate poverty.
---------------------------------------------------------------------------
    \8\ National Women's Law Center, Set Up to Fail: When Low-Wage Work 
Jeopardizes Parents' and Children's Success, 4, 2016, https://nwlc-
ciw49tixgw5lbab.stackpathdns.com/wp-content/uploads/2016/01/FINAL-
Executive-Summary-Set-Up-to-Fail.pdf; Board of Governors of the Federal 
Reserve System, Report on the Economic Well-Being of U.S. Households in 
2016, 1, 2 (May 2017), https://www.federalreserve.gov/publications/
files/2016-report-economic-well-being-us-households-201705.pdf.
    \9\ Nancy Rankin and Margaret Mark, The Community Service Society 
of New York, A Necessity, Not a Benefit, 9 (May 2015), available at 
http://www.cssny.org/publications/entry/a-necessity-not-a-benefit.
    \10\ Patricia Stoddard-Dare et. al., ``How Does Paid Sick Leave 
Relate to Health Care Affordability and Poverty Among US Workers?'', 
2018, Social Work in Health Care, 57:5, 376-392, https://
www.tandfonline.com/doi/full/10.1080/00981389.2018.1447532.
    \11\ Id. at 377.
    \12\  Patricia Stoddard-Dare et. al., ``How Does Paid Sick Leave 
Relate to Health Care Affordability and Poverty Among US Workers?'', 
2018, Social Work in Health Care, 57:5, 376-392, https://
www.tandfonline.com/doi/full/10.1080/00981389.2018.1447532.
    \13\ Gault, Barbara et al., Paid Parental Leave in the United 
States, 13, March 2014, https://www.dol.gov/wb/resources/
paid_parental_leave_in_the_united_states.pdf.
    \14\ Id.

Paid Family Leave Is Associated With Improved Health Outcomes and Lower 
---------------------------------------------------------------------------
Healthcare Costs

    Paid family leave would help meet the growing health needs of the 
population and has the potential to improve public health.\15\ The 
United States has a growing aged population,\16\ and ``within just a 
couple decades, older people are projected to outnumber children for 
the first time in U.S. history.'' At the same time, ``the number of 
Americans who are providing unpaid care to people who are older, 
disabled, or otherwise in need of assistance is expected to increase 
from 40 million to nearly 45 million unpaid caregivers by 2020.'' \17\ 
Further, over 1 in 7 Americans are simultaneously raising a child and 
caring for a parent.\18\
---------------------------------------------------------------------------
    \15\ New York City, Office of the Mayor, ``Two Years After Mayor De 
Blasio Expands Paid Sick Leave to One Million New Yorkers, City's 
Economy Stronger Than Ever,'' April 1, 2016, available at http://
www1.nyc.gov/office-of-the-mayor/news/318-16/two-years-after-mayor-de-
blasio-expands-paid-sick-leave-one-million-new-yorkers-city-s-economy.
    \16\ U.S. Census Bureau, ``Older People Projected to Outnumber 
Children for First Time in U.S. History,'' March 13, 2018, available at 
www.census.gov/newsroom/press-releases/2018/cb18-41-population-
projections.html.
    \17\ American Association of Retired Persons, ``AARP Report Finds 
Caregiving Market Will Grow 13% to Become $279 Billion Disruptive 
Opportunity 2016-2020,'' January 12, 2016, available at https://
press.aarp.org/2016-01-12-AARP-Report-Finds-Caregiving-Market-Will-
Grow-13-To-Become-279-Billion-Disruptive-Opportunity-2016-2020.
    \18\ Kim Parker and Eileen Patten, The Sandwich Generation: Rising 
Financial Burdens for Middle-Aged Americans, January 30, 2013, http://
www.pewsocialtrends.org/2013/01/30/the-sandwich-generation/.

    Access to paid sick and family medical leave may reduce a family's 
total medical care expenses.\19\ Elderly patients cared for by family 
members have significantly shorter hospital stays and recover faster 
from illness.\20\ And, in addition to the importance of postpartum 
leave for maternal and newborn health, research has also shown the 
benefits of other types of paid family leave. For example, when parents 
take longer work leaves to care for their seriously ill children, child 
physical and emotional health is positively impacted.\21\
---------------------------------------------------------------------------
    \19\ Patricia Stoddard-Dare et. al., ``How Does Paid Sick Leave 
Relate to Health Care Affordability and Poverty Among US Workers?'', 
2018, Social Work in Health Care, 57:5, 376-392, https://
www.tandfonline.com/doi/full/10.1080/00981389.2018.1447532.
    \20\ Courtney Van Houtven and Edward C. Norton, ``Informal Care and 
Health Care Use of Older Adults,'' Journal of Health Economics, 2004:23 
(6):1159.
    \21\ Schuster MA, Chung PJ, Elliott MN, Garfield CF, Vestal KD, and 
Klein DJ. ``Perceived Effects of Leave From Work and the Role of Paid 
Leave Among Parents of Children With Special Health Care Needs.'' Am J 
Public Health, 698-705, (2009), https://doi.org/10.1080/
00981389.2018.1447532.
---------------------------------------------------------------------------
Programs Like the FAMILY Act Are Proven to Strengthen Business

    Evidence from existing state programs shows that family leave 
programs can be financially sound, self-sustaining, and strengthen 
business. A study conducted when California's program had been in 
effect for over six years found that most employers reported that the 
paid family leave program has either a positive effect or no noticeable 
effect on productivity, profitability, turnover, and employee 
morale.\22\ Additionally, small businesses were less likely than larger 
businesses to report negative effects.\23\ And 91 percent of employers 
responded ``no'' when asked if they were aware of instances of 
employees abusing the program.\24\ Early studies about the effect on 
business of Rhode Island's paid family leave program are leading to a 
similar conclusion: the effect on business is neutral or positive.\25\
---------------------------------------------------------------------------
    \22\ Eileen Applebaum and Ruth Milkman, Leaves That Pay: Employer 
and Worker Experiences With Paid Family Leave in California, 4 (2011), 
http://cepr.net/documents/publications/paid-family-leave-1-2011.pdf.
    \23\ Eileen Applebaum and Ruth Milkman, Leaves That Pay: Employer 
and Worker Experiences With Paid Family Leave in California, 4 (2011), 
http://cepr.net/documents/publications/paid-family-leave-1-2011.pdf.
    \24\ Eileen Applebaum and Ruth Milkman, Leaves That Pay: Employer 
and Worker Experiences With Paid Family Leave in California, 4 (2011), 
http://cepr.net/documents/publications/paid-family-leave-1-2011.pdf.
    \25\ National Partnership for Women and Families, First 
Impressions: Comparing State Paid Family Leave Programs in Their First 
Years (2015), http://www.nationalpartnership.org/research-library/work-
family/paid-leave/first-impressions-comparing-state-paid-family-leave-
programs-in-their-first-years.pdf; Ann Bartel et al., Assessing Rhode 
Island's Temporary Caregiver Insurance Act: Insights From a Survey of 
Employers (2016), https://www.dol.gov/asp/evaluation/completed-studies/
AssessingRhodeIslandTemporaryCaregiverInsuranceAct_InsightsFromSu
rveyOfEmployers.pdf.

The Path to National Family Leave Must Leave Room for Local Governments 
to Create Additional Protections and Not Take Away From Other Important 
---------------------------------------------------------------------------
Benefits

    As Congress, and this Committee, in particular, continue to study 
workplace policies it should recognize that the federal government has 
an important role to play in supporting local enforcement needs and 
should not consider policies that would dilute or repeal progressive 
local labor laws, or exacerbate the power imbalance between employers 
and employees such as by denying employees their ability to control 
their work schedules and time off. One piece of legislation being 
debated in Congress that is particularly troubling is H.R. 4219, the 
``Workflex in the 21st Century Act'' (``H.R. 4219'' or the ``bill''). 
H.R. 4219 undermines local labor standards that are tailored to 
maintain robust local economies by removing local control that benefits 
workers and businesses. The bill purports to require paid time off 
comparable to state and local paid sick leave laws, but in fact 
replaces meaningful rights to paid time off, which are the product of 
grassroots democratic processes, with individual employers' own 
parameters for when and how employees can use time and what employees 
will be paid when they use the time. Accordingly, we urge Congress to 
reject H.R. 4219.\26\
---------------------------------------------------------------------------
    \26\ See House Education and Workforce Committee Subcommittee on 
Health, Education, Labor, and Pensions hearing on ``Workplace Leave 
Policies: Opportunities and Challenges for Employers and Working 
Families,'' December 2017 (testimony from Lorelei Salas, Commissioner 
of the New York City Department of Consumer Affairs), available at 
https://www1.nyc.gov/assets/dca/downloads/pdf/partners/Advocacy-
WorkplaceLeavePolicies-121917.pdf.

    Similarly, efforts to respond to a national bipartisan call for 
paid family leave by allowing workers to draw from Social Security 
contributions when on leave from work due to circumstances addressed by 
the FAMILY Act only exacerbates an existing problem and creates 
another. Such a proposal does nothing to address the lifetime wage gap 
between men and women that results from women shouldering most unpaid 
caregiving responsibilities. Moreover, it will translate into a delayed 
retirement age, with a disproportionate impact on lower-income workers 
\27\ and, potentially, defund retirement for some workers.
---------------------------------------------------------------------------
    \27\ Michael Hiltzik, ``Paid Family leave is a great idea, but not 
if we hit up Social Security for the money,'' Los Angeles Times, 
January 29, 2018, available at http://www.latimes.com/business/hiltzik/
la-fi-hiltzik-family-leave-20180129-story.html.

    The benefits of paid family leave for workers, business, and 
society at large are well-documented and well-understood, yet most 
workers do not have access to this basic, common-sense protection. Any 
such program providing this protection must be affordable, cost-
effective, and sustainably funded with new revenue--not by cutting or 
reducing benefits from other programs that people rely on. The FAMILY 
Act is the only national policy proposal that meets these criteria and 
provides baseline rights making it financially possible for all working 
people to take leave when they need it most. The United States is long 
---------------------------------------------------------------------------
overdue in taking this important step.

Respectfully Submitted,

Lorelei Salas
Commissioner

                                 ______
                                 
                               1,000 Days

                    1029 19th Street, NW, Suite 250

                          Washington, DC 20036

                          www.ThousandDays.org

July 18, 2018

U.S. Senate
Committee on Finance
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

RE: Subcommittee on Social Security, Pensions, and Family Policy 
hearing ``Examining the Importance of Paid Family Leave for American 
Working Families''

On behalf of 1,000 Days, I would like to thank the Senate Finance 
Committee for holding the hearing on the importance of paid family 
leave for America's working families. This is a critically important 
issue and we urge Congress to support comprehensive paid family and 
medical leave that helps all working parents in the U.S. give their 
children the strongest start to life. Specifically, paid leave policy 
must (1) provide sufficient time off; (2) cover all employers and all 
employees; (3) ensure economic security; and (4) cover the full range 
of family caregiving and medical needs comprehensively.

1,000 Days is the leading non-profit organization working in the U.S. 
and around the world to ensure that women and children have a healthy 
first 1,000 days. We know that good nutrition in the first 1,000 days 
from a woman's pregnancy through her child's 2nd birthday sets the 
foundation for all the days that follow.

Unlike in most other countries in the world, in the U.S. parents are 
often forced to choose between taking time off from work to care for 
their young children and earning the income they need to support their 
families. In fact, only a small minority of private sector workers in 
the U.S.--typically those who work in higher paid jobs--have access to 
paid leave through their employers. Even more troubling is the fact 
that 1 in 4 women in America return to work just 2 weeks after giving 
birth, putting their health and that of their infant at risk. 
Ultimately, it is young children and their families paying the price 
for the country's inaction on paid leave.

There is strong evidence that shows that paid leave contributes to 
healthier outcomes for babies and their families. Parental leave can 
help reduce infant death and illness, increase the likelihood that 
babies get their pediatric check-ups and immunizations, and lower 
mothers' risk of health complications after childbirth and postpartum 
depression. Studies show that paid leave helps women breastfeed, more 
successfully and for longer periods of time, enabling both mom and baby 
to reap the powerful long-term health benefits of breastfeeding. 
Finally, science tells us that babies brains are nourished by time 
spent with parents and caregivers. Policies that enable parents to 
spend time nurturing and caring for their babies--particularly in the 
early weeks after birth and for babies that are born pre-term, low 
birth weight or with illness-are critical to the healthy cognitive, 
social and emotional development of children.

To support a healthy first 1,000 days, Congress must move quickly to 
pass a comprehensive national paid family and medical leave program 
that covers all workers, including small business employees and the 
self-employed. 1,000 Days looks forward to working with Congress to 
develop a policy that will:

    1.  Provide sufficient time off. At a minimum, 12 weeks of paid 
leave should be provided to working parents upon the birth or adoption 
of a child. 1,000 Days supports efforts to increase paid leave up to 24 
weeks annually, which is especially critical to supporting women to 
breastfeed exclusively for six months, as recommended by the American 
Academy of Pediatrics, the American Congress of Obstetricians and 
Gynecologists and the World Health Organization.

    2.  Cover all employers and all employees. Paid leave must be 
available to all workers regardless of the size of their employer, the 
sector they work in, the length of their employment or whether they 
work full-time, part-time or are self-employed. Leave must be available 
to both women and men, regardless of marital status, and policies must 
be designed in a way to prevent unequal treatment in the workplace and 
hiring discrimination based on age, gender, sexual orientation and 
other criteria.

    3.  Ensure economic security. Employees' wages and benefits must be 
maintained so that workers are not forced to decide between their 
caregiving obligations and their jobs. Employees must also retain the 
right to resume full paid employment after taking leave.

    4.  Cover comprehensively. Any plan should be available for the 
full range of personal medical and family caregiving needs, such as 
those established by the Family and Medical Leave Act.

The first 1,000 days is critical to the long-term health and well-being 
of both women and children. A strong and comprehensive national paid 
leave policy is a long-
overdue investment in the future of this country's families and in turn 
our country as a whole.

1,000 Days thanks the Subcommittee on Social Security, Pensions, and 
Family Policy for its work and we look forward to working with you to 
advance a comprehensive national paid leave policy.

Sincerely,

Lucy Sullivan
Executive Director
1,000 Days

                                 ______
                                 
                  Strengthen Social Security Coalition

                           1440 G Street, NW

                          Washington, DC 20005

The Strengthen Social Security Coalition (SSSC) is a broad-based 
coalition of over 350 national and state organizations representing 50 
million Americans, including seniors, workers, women, people with 
disabilities, children, young adults, veterans, people of low income, 
people of color, communities of faith, and others. We are united in our 
support of Social Security, a promise made to Americans of all 
generations. We support expanding Social Security, including adding 
paid family leave. We strongly oppose, however, proposals that advance 
paid family leave at the expense of Social Security retirement 
benefits. It is unnecessary to do so.

The provision of paid family leave is long past due in the United 
States. All Americans should have access to paid family leave, but paid 
family leave should not jeopardize anyone's retirement security. 
Americans are overwhelmingly supportive of paid family leave and Social 
Security. The nation is wealthy enough both to provide paid family 
leave to all working families and to increase Social Security's vital, 
but modest, retirement, disability, and survivor benefits.

Social Security was created in 1935 to replace wages lost as a result 
of old age, so that Americans would have guaranteed income in 
retirement. In the decades following, Social Security was expanded to 
protect workers from other events that lead to loss of wages--long-term 
disability and the death of a family breadwinner. It is a universal 
social insurance program. Nearly all workers pay in, and in return they 
are eligible for benefits when they experience one of the insured 
events--old age, disability, or death leaving dependents.

While Social Security successfully covers long-term income losses, our 
nation, unlike many other countries, lacks a paid family and medical 
leave system for when workers take time out of the workforce for short-
term reasons like having a child, caring for a loved one, or receiving 
medical treatment. It's long past time for us to join the rest of the 
world in providing paid family and medical leave.

Proposals, like the Independent Women's Forum (IWF) plan, are harmful 
to American families. The IWF proposal would allow new parents to take 
up to twelve weeks of leave with partial wage replacement--but only in 
return for delaying their Social Security benefits when it comes time 
to retire. This ``deal'' is simply a Social Security benefit cut. Our 
country is facing a looming retirement crisis caused by the decline of 
traditional pensions, the inadequacy of 401(k)s, decades of rising 
inequality and stagnating wages. The last thing American families need 
is to be forced to cut their future benefits to pay for pressing 
immediate financial needs like those that occur at the birth of a 
child. Nor is there any reason to force them to make that choice: we 
are the wealthiest country in the history of the world. Protecting and 
expanding Social Security's retirement, disability, and survivor 
benefits, while also providing working families with paid family and 
medical leave is a matter of political will and values, not 
affordability.

While the IWF proposal is supposed to help women, in reality women 
would be most hurt. Women's retirement security would take the biggest 
hit from this plan because women provide the substantial majority of 
caregiving, and so, would disproportionately see their own Social 
Security benefits reduced under this proposal.

Moreover, women disproportionately rely on Social Security. As a result 
of longer life expectancies, on average, lower-paying jobs, often 
without access to supplementary retirement plans, and more time out of 
the workforce caring for family members, women's average monthly Social 
Security benefits are already 20 percent lower than men's. We should be 
crediting time out of the workforce caring for family members towards 
the calculation of Social Security, not forcing women to reduce their 
earned Social Security benefits even further for the invaluable, but 
monetarily uncompensated work of caregiving.

In addition to forcing new parents who need leave to cut their own 
future retirement benefits, the IWF plan is also very narrowly targeted 
to only cover parental leave. It does nothing for those who need 
medical leave either for themselves or to care for a loved one.

American families can and should have paid family leave and a secure 
retirement. Every member of Congress should reject the IWF plan and any 
other plan that tries to disguise a Social Security benefit cut behind 
the promise of other worthwhile goals. Our coalition, and the American 
people, will not stand idle as leaders try to dismantle our effective 
Social Security system in the name of paid parental leave. Rather, we 
urge Congress to develop a paid family leave system in addition to, not 
instead of, adequate Social Security benefits.

We look forward to your support in this matter and extend our 
assistance to create paid family leave while also expanding economic 
security in the form of increased Social Security benefits for 
retirees, people with disabilities, children who have lost parents, and 
others.

                                 ______
                                 
                             ZERO TO THREE

                    1255 23rd Street, NW, Suite 350

                          Washington, DC 20037

                         Phone: (202) 638-1144

                          Fax: (202) 638-0851

U.S. Senate
Committee on Finance
Subcommittee on Social Security, Pensions, and Family Policy
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

July 11, 2018

Chairman Cassidy and Members of the Subcommittee:

My name is Matthew Melmed. For the past 23 years I have been the 
Executive Director of ZERO TO THREE, a national nonprofit organization, 
located in Washington, DC, whose mission is to ensure that all babies 
and toddlers have a strong start in life. I thank the Subcommittee for 
bringing attention to this critical family support. For babies, the 
precious time paid family leave allows them with their parents begins 
laying the foundations for all learning and relationships. For parents, 
paid leave reduces anxiety over making ends meet by providing job 
security and consistent income during a time when focusing on their new 
families should be paramount. State paid leave programs show such 
policies garner support from employers, who realize the benefit of a 
more stable workforce. And our nation takes the first steps toward 
building the strong workers, innovators, and citizens that our country 
will need to secure a vibrant future.

At ZERO TO THREE, we translate the science of early childhood 
development into useful knowledge and strategies for parents, 
practitioners, and policymakers. We work to ensure that babies and 
toddlers benefit from the family and community connections critical to 
their well-being and healthy development. And the science tells us that 
nothing is more important to who we become in life than the early close 
relationships we form from birth.

The current focus on paid family leave among policymakers is indeed 
welcome. As your Subcommittee takes its first steps into this policy 
area, I would raise two other points. At ZERO TO THREE, we are 
passionate about advocating for the needs of babies and their parents. 
But I underscore that while forming or augmenting a family by welcoming 
a new baby is an important and joyful event, parents also need paid 
medical leave when other situations require family caregiving. For 
example, if their children suffer from chronic illnesses or need 
surgery to correct congenital problems; one parent contracts a disease 
such as cancer requiring ongoing treatment; or an elderly parent needs 
care following a debilitating fall; caregiving falls on family members. 
As a caring society, where the family is the core unit, we should 
support families' ability to care for each other throughout life.

Finally, we often hear that we should take incremental steps in 
enacting such a far-reaching policy that could potentially benefit 
every family in America. I submit that we have already taken that step, 
with the Family and Medical Leave Act 25 years ago. I think American 
families do an incredible job in weaving the fabric of our society, but 
they are stressed to the limit and need more than another baby step 
forward. They cannot afford to wait another generation to have supports 
that enable them to nurture their families and be productive workers. 
So, I welcome the opportunity to discuss the critical importance of a 
comprehensive paid family and medical leave social insurance program 
for our nation's youngest families, those with newborn or newly adopted 
babies, infants, and toddlers, and for all families.

The importance of unhurried time in the first year of life

Science has significantly enhanced what we know about the needs of 
infants and toddlers, underscoring the fact that experiences and 
relationships in the earliest years of life play a critical role in a 
child's ability to grow up healthy and ready to learn. We know that 
infancy and toddlerhood are times of intense intellectual 
engagement.\1\ A baby's brain produces one million new neural 
connections every second, influenced most significantly by the everyday 
moments they experience with parents and caregivers.\2\ During this 
time--a remarkable 36 months--the brain undergoes its most dramatic 
development, and children acquire the ability to think, speak, learn, 
and reason. The early years establish the foundation upon which later 
learning and development are built. If experiences in those early years 
are harmful, stressful, or traumatic, the effects of such experiences 
become more difficult, not to mention more expensive, to remediate over 
time if they are not addressed early in life.
---------------------------------------------------------------------------
    \1\ Shonkoff, J., and Phillips, D. 2000. From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.
    \2\ Center on the Developing Child (2009). Five Numbers to Remember 
About Early Childhood Development (brief). Retrieved from 
www.developingchild.harvard.edu.

Most critical for the issue at hand, research demonstrates that forming 
secure attachments to a few caring and responsive adults is a primary 
developmental milestone for babies in the first year of life. During 
the earliest days and months, children learn about the world through 
their own actions and their caregivers' reactions. They are learning 
about who they are, how to feel about themselves, and what they can 
expect from those who care for them. Such basic capacities as the 
ability to feel trust and to experience intimacy and cooperation with 
---------------------------------------------------------------------------
others develop from the earliest moments of life.

According to the groundbreaking report released by the National 
Academies of Science, From Neurons to Neighborhoods: The Science of 
Early Childhood Development, a young child's parents structure the 
experience and shape the environment within which early development 
unfolds.\3\ Early relationships are important for all infants and 
toddlers, but they are particularly important for those living in 
lower-income families because they can help serve as a buffer against 
the multiple risk factors these children may face. These early 
attachments are critical because a positive early relationship, 
especially with a parent, reduces a young child's fear in novel or 
challenging situations, thereby enabling her to explore with confidence 
and to manage stress, while at the same time, strengthening a young 
child's sense of competence and efficacy.\4\ Early attachments also set 
the stage for other relationships and play an important role in shaping 
the systems that underlie children's reactivity to stressful 
situations.\5\
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ Ibid.
    \5\ Ibid.

All infants need ample time with their parents at the very beginning of 
their lives to form these critical relationships. It takes several 
months of focused attention to become a responsive caregiver to a young 
child, establishing a pattern that will influence the child's long-term 
cognitive, social, and emotional development.\6\ The better parents 
know their children, the more readily they will recognize even the most 
subtle cues that indicate what the children need to promote their 
healthy growth and development. For example, early on infants are 
learning to regulate their eating and sleeping patterns and their 
emotions. If parents can recognize and respond to their baby's cues, 
they will be able to soothe the baby, respond to her cues, and make the 
baby feel safe and secure in his or her new world. Trust and emotional 
security enable a baby to explore with confidence and communicate with 
others--critical characteristics that impact early learning and later 
school readiness.
---------------------------------------------------------------------------
    \6\ Ibid, pp. 44-49.

In addition to building secure and healthy early attachments, unhurried 
time at home with a newborn allows parents the time they need to 
facilitate breastfeeding, attend well-child medical visits, and ensure 
that their children receive the immunizations necessary to lower infant 
mortality and reduce the occurrence and length of childhood 
illnesses.\7\<SUP>,</SUP> \8\<SUP>,</SUP> \9\ The capacity to recognize 
a caregiver's voice, smell, and face develops around three months of 
age.\10\ Paid time to care gives parents and babies important time to 
foster these connections. Parents and caregivers may also need time 
with a new baby to identify and intervene in a variety of developmental 
difficulties. This is especially important for caregivers of infants 
who are considered at high risk, such as babies born preterm or at low 
birth weights and those who have illnesses or birth defects.\11\
---------------------------------------------------------------------------
    \7\ Sheila B. Kamerman, ``Parental Leave Policies: The Impact on 
Child Well-Being.'' In Peter Moss and Margaret O'Brien, eds., 
International Review of Leave Policies and Related Research 2006, 16-
21. London, UK: Department of Trade and Industry, 2006. Retrieved 
January 19, 2017 from http://www.leavenetwork.org/fileadmin/
Leavenetwork/Annual_reviews/2006_annual_
report.pdf.
    \8\ Ibid.
    \9\ Zigler, Muenchow, and Ruhm, Time off with baby.
    \10\ Ibid, p. 47.
    \11\ Ibid, p. 41.

Studies of two-parent, opposite-sex households show a number of 
positive outcomes when fathers take leave. Fathers who take two or more 
weeks off after the birth of a child are more involved in that child's 
direct care nine months after birth than fathers who take no leave.\12\ 
Involved fathers also promote children's educational attainment and 
emotional stability.\13\ And, a father's involvement in a newborn's 
care in the first six months can mean both mother and baby sleep 
better.\14\
---------------------------------------------------------------------------
    \12\ Nepomnyaschy, L., and Waldfogel, J. ``Paternity Leave and 
Fathers' Involvement With Their Young Children: Evidence From the 
American Ecls-B.'' Community, Work, and Family, 10(4), 427-453. 2007.
    \13\ Michael Lamb, The role of the father in child development, 4th 
ed. (pp. 1-18, 309-313), 2004. Hoboken, N.J.: John Wiley and Sons, 
Inc.; Kristin Smith, After the Great Recession, More Married Fathers 
Providing Child Care. Carsey School of Public Policy, 2005. Retrieved 
from https://carsey.unh.edu/publication/after-great-recession-more-
married-fathers-providing-child-care.
    \14\ Liat Tikotzky, Avi Sadeh, Ella Volkovich, Rachel Manber, Gal 
Meiri, and Golan Shahar, ``Infant sleep development from 3 to 6 months 
postpartum: links with maternal sleep and paternal involvement.'' 
Monographs of the Society for Research in Child Development, 80(1), p. 
107-124, 2015.

Paid leave also reduces economic uncertainty by providing job security 
and consistent income during a time in which it is essential for 
parents to focus on their new families rather than worrying about how 
to make ends meet. Time at home also benefits employers by reducing 
staff turnover and the subsequent training and hiring costs associated 
with new staff.\15\
---------------------------------------------------------------------------
    \15\ Boushey, H., and Glynn, S. (2012, November 16). There Are 
Significant Business Costs to Replacing Employees. Center for American 
Progress publication. Retrieved from http://www.americanprogress.org/
wp-content/uploads/2012/11/CostofTurnover.pdf.
---------------------------------------------------------------------------

Family and medical leave

The 1993 Family and Medical Leave Act (FMLA) allows employees to take 
up to twelve weeks of unpaid, job-protected leave to care for newborns, 
newly adopted and foster children, and seriously ill family members, 
including themselves. I want to emphasize the lifelong nature of family 
caregiving needs, not just the occasion of the birth or adoption of a 
child. Of the more than 100 million Americans who have taken time off 
from work under the FMLA since it was enacted 25 years ago,\16\ only 21 
percent did so to take care of a new child.\17\ Although FMLA has had 
great success, far too many workers are still unable to take leave. 
Nearly half of eligible employees (46 percent) reported that they could 
not afford to take the leave that they needed because it was 
unpaid.\18\ Furthermore, a full 40 percent of the workforce is 
currently not covered by the federal law because they work for smaller 
employers, work part time, or have not been on the job long enough to 
qualify.\19\ That is a lot of families, both newly forming and 
established, without the ability to tend to the caregiving that falls 
to them.
---------------------------------------------------------------------------
    \16\ Klerman, J., Daley, K., and Pozniak, A. Family and Medical 
Leave in 2012: Technical Report. U.S. Department of Labor, 2012. 
Retrieved from www.dol.gov/whd/fmla/survey.
    \17\ Klerman, Jacob, Kelly, Daley, and Alyssa Pozniak. (2012). 
Family and Medical Leave in 2012: Technical Report. Cambridge, MA: Abt 
Associates. Retrieved from https://www.dol.gov/asp/evaluation/fmla/
FMLA-2012-Technical-Report.pdf.
    \18\ Ibid.
    \19\ Ibid.

I would like to emphasize one other very important fact about FMLA: it 
was a bipartisan effort, the result of dedicated lawmakers from both 
sides of the aisle having respectful discussions that involved real 
give and take. I firmly believe such fruitful conversations and 
negotiations can occur again, with the well-being of both families and 
---------------------------------------------------------------------------
our economy as the goal.

Twenty-five years after the passage of the FMLA, the research about 
paid and unpaid leave is clear: unpaid leave is not enough. A strong 
body of evidence shows that paid family and medical leave strengthens 
families and supports public health and child development. Research 
also shows that paid leave helps employers recruit and retain valued 
employees, benefitting businesses and our economy.\20\ Data from states 
with paid leave show health and economic benefits and strong levels of 
support from employers.\21\
---------------------------------------------------------------------------
    \20\ EY. (2017, March). Viewpoints on paid family and medical 
leave: Findings from a survey of US employers and employees (Fig. 26). 
Retrieved 26 January 2018, from http://www.ey.com/Publication/
vwLUAssets/EY-viewpoints-on-paid-family-and-medical-leave/$FILE/EY-
viewpoints-on-paid-family-and-medical-leave.pdf.
    \21\ Bartel, A., Baum, C., Rossin-Slater, M., Ruhm, C., and 
Waldfogel, J. (2014, June) California's Paid Family Leave Law: Lessons 
From the First Decade. U.S. Department of Labor publication. Retrieved 
from http://www.dol.gov/asp/evaluation/reports/
PaidLeaveDeliverable.pdf.

Given that caregiving needs affect many families, it is not surprising 
that eighty-two percent of 2016 voters--across party lines--say it is 
important for the President and Congress to consider a paid family and 
medical leave law.\22\ But currently where you live largely determines 
what guarantees you have, as states and communities lead the way. Five 
states and the District of Columbia have all passed state paid leave 
laws, providing a strong body of evidence upon which to build a robust 
federal policy. Data from states with paid leave \23\ show health and 
economic benefits, as well as strong levels of support from employers.
---------------------------------------------------------------------------
    \22\ National Partnership for Women and Families. (2016). Key 
Findings: 2016 Election Eve/Election Night Survey. Retrieved from 
http://www.nationalpartnership.org/research-library/work-family/key-
findings-2016-election-eve-election-night-survey.pdf.
    \23\ Isaacs, J., Healy, O., and Peters, E. (2017). Paid Family 
Leave in the United States: Time for a New National Policy. Urban 
Institute. Retrieved from https://www.urban.org/sites/default/files/
publication/90201/paid_family_leave_0.pdf.

Twenty-five years is too long to wait to fulfill the promise of the 
FMLA. It is time for Congress to stand up for hard-working families, 
businesses, and the economy by supporting a comprehensive, inclusive 
paid family and medical leave program.

What a real paid family and medical leave program looks like

We need a strong, inclusive national paid family and medical leave 
insurance program and to set a nationwide paid leave baseline. It is 
well past time for the United States to adopt a national standard, but 
policy details matter tremendously. Disparities in people's access to 
paid leave, changing demographics, and the realities working families 
face today require that any national plan:

      Be comprehensive of working people's needs as reflected in the 
FMLA, such as for their own serious health conditions, including 
pregnancy and childbirth recovery; to bond with and care for a newborn 
or newly adopted child; care for a parent, child, spouse, or domestic 
partner with a serious health condition; and/or for particular military 
caregiving and leave purposes.

      Be inclusive of all working people across the United States, 
covering workers in all companies, no matter their size. Younger, part-
time, lower-wage, contingent, and self-employed workers would all be 
eligible for benefits.

      Provide a meaningful duration of leave, at least 12 weeks, and 
wage replacement rate to make taking leave financially possible for all 
working people--ensuring low- and middle-wage workers have a higher 
share of their wages replaced.

      Be affordable, cost-effective, and sustainably funded with new 
revenue--not funded by cutting or reducing benefits from programs 
people rely on.

      Make it illegal to fire or discriminate against an individual 
who has applied, intends to apply for, or who uses family and medical 
leave insurance benefits.

Any plan that fails to meet these standards is unacceptable

These key elements create crucial job and financial security so 
employees can take the time they need to heal, provide the nurturing 
their babies need to get off to a strong start, and get back to work 
more focused and confident. In all, investing in a paid family and 
medical leave policy means a stronger likelihood of getting kids off to 
a healthy start, keeping parents in the workforce, and keeping the 
economy strong.

The current proposal, originally put forth by the Independent Women's 
Forum (IWF) and embraced by Senators Rubio, Ernst, and Lee, as well as 
advisors in the White House, is not an acceptable policy solution. 
Parents should not be faced with the false choice between caring for a 
newborn or adopted baby and cutting their Social Security retirement or 
disability benefits later. In effect, parents are being penalized for 
undertaking an endeavor--taking on raising a child--that benefits all 
of society, especially if they have the time to get that child's 
development off to a good start. People can and should be able to have 
paid family and medical leave while they're working and safe and secure 
benefits for retirement.

New moms and dads should not have to jeopardize their retirement by 
using Social Security to fund their parental leave. Workers shouldn't 
be asked to pay for paid leave today by rolling the dice on their 
future needs for Social Security retirement benefits later. Research 
consistently finds that it is difficult to estimate financial needs in 
retirement, and workers often underestimate.\24\ According to the Urban 
Institute, under the IWF proposal, parents who participate in the 
program would have to delay collecting Social Security retirement 
benefits for about twice as many weeks as they collected leave. 
Participants who take 12 weeks of paid leave would experience a 3 
percent decline in lifetime Social Security retirement benefits, but 
losses would be significantly higher for people with larger families 
who take multiple leaves.\25\ Asking workers in their prime 
reproductive years to make decisions based in part on their prediction 
of future Social Security retirement benefit needs is an unnecessary 
and unwise gamble. This does not take into account scenarios where 
parents may become disabled and need their Social Security benefits to 
make ends meet.
---------------------------------------------------------------------------
    \24\ Society of Actuaries. Consumer concern over financial risks of 
retirement increase. (2018). Retrieved from https://www.soa.org/press-
releases/2018/consumer-concern-financial-risk/.
    \25\ Favreault, M.M., and Johnson, R.W. (2018). Paying for Parental 
Leave With Future Social Security Benefits. Retrieved from https://
www.urban.org/sites/default/files/publication/98101/
paying_for_parental_leave_with_future_social_security_benefits_0.pdf.

Any plan that leaves behind people caring for family members or dealing 
with their own serious health issue does not address the needs of 
America's working families. Creating a plan that covers only parental 
leave excludes the vast majority of workers who need time to care. 
Three-quarters of people using FMLA had to care for their own health or 
that of a seriously ill family member. Any U.S. paid leave plan should 
reflect the well-established reasons set out in the FMLA, which are 
parental leave, family care leave, personal medical leave and military 
caregiving leave. 
Parental-only leave would also lead to stark inequities within the 
workplace, even for people with young children: a parent of a newborn 
would have access to paid time away from work for bonding, but a 
coworker whose six-month-old is critically ill or whose spouse needs 
---------------------------------------------------------------------------
postpartum care would have no guarantee of time or income support.

The proposed program design--providing parental leave only, and with 
benefits that are too small a share of most workers' typical wages--
will reinforce rather than help to equalize caregiving disparities 
between women and men and will not meet the needs of lower-wage 
workers. Data from California's and New Jersey's paid family leave 
programs show that low wage-replacement rates and low benefit caps 
lessen the likelihood of men taking leave and reduce the ability of 
lower-wage workers to take leave. That's why California recently raised 
wage replacement rates to 70 percent for lower-wage workers and 60 
percent for all other workers,\26\ and why New Jersey lawmakers last 
year passed a bill that would have provided both wage-
replacement rate increases and updates to New Jersey's low benefits 
cap.\27\
---------------------------------------------------------------------------
    \26\ State of California Employment Development Department. About 
Paid Family Leave. Retrieved from https://www.edd.ca.gov/Disability/
About_PFL.htm
    \27\ Hetrick, C. ``NJ assembly approves expanding paid family 
leave.'' (2017). Observer. Retrieved from http://observer.com/2017/06/
nj-assembly-approves-expanding-paid-family-leave/.

A program that only covers new parents and offers low wage replacement 
rates will be used primarily by lower-wage women who have given birth 
and have no other option and a significant need. Indeed, one reason the 
FMLA was designed to cover family caregiving leave and personal medical 
leave was to minimize the potential for employment discrimination.\28\ 
While fathers increasingly want to, and do, provide care for their 
families,\29\ norms and stereotypes about gender, work and caregiving 
mean that some employers perceive mothers and young women as less 
committed workers. A paid leave program that is only accessible to 
parents, especially one with low wage replacement and low maximum 
benefits, could exacerbate implicit bias and discrimination, 
undermining the potential of gender-equal leave to help create 
workplace equity and foster women's employment opportunities.
---------------------------------------------------------------------------
    \28\ Family and Medical Leave Act of 1993, Pub. L. No. 103-3, 
Sec. 2, 107 Stat. 6, 6-7 (1993). Retrieved from https://www.dol.gov/
whd/fmla/fmlaAmended.htm#SEC_2_FINDINGS_AND_
PURPOSES.
    \29\ Harrington, B., Van Deusen, F., Sabatini Fraone, J., Eddy, S., 
and Haas, L. (2014). The New Dad: Take Your Leave. Perspectives on 
paternity leave from fathers, leading organizations, and global 
policies. Boston College Center for Work and Family publication. 
Retrieved from http://www.thenewdad.org/yahoo_site_admin/assets/docs/
BCCWF_The_New_Dad_2014_FINAL.
157170735.pdf; Heilman, B., Cole, G., Matos, K., Hassink, A., Mincy, 
R., and Barker, G. (2016). State of America's Fathers. A MenCare 
Advocacy publication. Retrieved from http://men-care.org/soaf/download/
PRO16001_Americas_Father_web.pdf.

At a time where the country is facing a falling birth rate, we should 
enact public policies that support America's working families. Just 
this month, The New York Times investigated this phenomenon in the 
article, ``Americans Are Having Fewer Babies. They Told Us Why.'' The 
top reason young adults reported they had or expected to have fewer 
children than they considered ideal, was that child care is too 
expensive. Another of the most-cited reasons was lack of or not enough 
paid family leave.\30\ Forcing parents to risk their future economic 
security for a low-wage replacement paid leave plan during their child 
bearing years is not a viable policy solution to a critical problem for 
today's families.
---------------------------------------------------------------------------
    \30\ Miller, C. ``Americans Are Having Fewer Babies. They Told Us 
Why.'' The New York Times. Retrieved from https://www.nytimes.com/2018/
07/05/upshot/americans-are-having-fewer-babies-they-told-us-why.html.

Paid maternity and/or paternity leave by itself is not sufficient for 
working families. It covers only one life event and may not even be the 
only time an infant or toddler needs her parents' constant presence. 
For example, the rates of childhood cancer have been increasing over 
the past 20 years. Almost half of all pediatric cancer occurs during 
early childhood, with the peak incidence of invasive childhood cancer 
occurring during infancy. Unquestionably, all children and particularly 
very young ones need the reassuring presence of their parents at such 
times. Families who care for a child with cancer incur considerable 
costs during the diagnostic, treatment, and follow-up care phases of 
the disease. Four major factors contribute to these expenses: necessary 
travel; loss of income because of a reduction or termination of 
parental employment; out-of-pocket treatment expenses; and inability to 
draw on assistance programs to supplement or replace lost income.\31\ 
As with most caregiving duties, the majority falls on the mother and 
therefore her career and financial stability is most at risk. 
Typically, the mother is the one who terminated or reduced work hours, 
which affects the entire family's financial well-being. This economic 
burden can have long-term effects on the financial security, quality of 
life, and future well-being of the entire family, including the 
siblings of the affected child. Paid family and medical leave would 
help to alleviate the financial burden and eliminate the fear of 
retaliation when returning to work after caring for a chronically ill 
child.
---------------------------------------------------------------------------
    \31\ Miedema, B., Easley, J., Fortin, P., Hamilton, R., and 
Mathews, M. (2008). ``The economic impact on families when a child is 
diagnosed with cancer.'' Current Oncology, 15(4), 173-178. Retrieved 
from https://www.ncbi.nlm.nih.gov/pmc/articles/PMC2528308/.

The reality is that workers need both a comprehensive paid family and 
medical leave plan and Social Security. The U.S. can create a paid 
leave plan affordably and responsibly without reducing workers' Social 
Security or forcing them to delay retirement. Policymakers should 
reject this proposal and instead consider a paid leave plan that is 
responsibly and sustainably funded, guarantees leave for the full range 
of family and medical needs covered in the FMLA and offers adequate 
benefits that enable all working people to take the leave they need.

Conclusion

With more than 4 million babies born in the United States and 135,000 
children adopted each year, the pool of just these tiny beneficiaries 
is vast and deserving. Paid family and medical leave is an issue that 
states continue to grapple with as more mothers with very young 
children enter the workforce--almost 60 percent of mothers with infants 
are in the labor force.\32\ Before heading back to the workplace, 
parents need time to bond with their babies and enable them to form the 
all-
important attachments that will help give them a good start in life. 
This time together helps babies take the first critical step toward the 
strong, foundational development that in time will make them successful 
learners, workers, citizens--and parents, themselves. But as critical 
as that time is, it is not the only time when family members are called 
upon to become caregivers. If we truly value families, we should 
recognize the worth and dignity of their fulfilling these 
responsibilities that preserve the very fabric of our society.
---------------------------------------------------------------------------
    \32\ U.S. Department of Labor Bureau of Labor Statistics. 2017. 
Employment status of mothers with own children under 3 years old by 
single year of age of youngest child and marital status, 2016-2017 
annual averages. Table 6. Retrieved from https://www.bls.gov/
news.release/famee.t06.htm.

I urge the Subcommittee to consider the unique needs of our nation's 
youngest families as you explore ways in which to create a national 
paid family and medical leave program. I urge you to work together in 
the spirit of the creators of the Family and Medical Leave Act, take 
the full step, and agree on what families really need to fulfill their 
---------------------------------------------------------------------------
responsibilities to each other and the nation's economy.

Thank you for your time and for your commitment to our nation's 
infants, toddlers, and their families.

Sincerely,

Matthew E. Melmed
Executive Director, ZERO TO THREE

                                 ______
                                 
                      Zevin Asset Management, LLC

                       2 Oliver Street, Suite 806

                            Boston, MA 02109

                              617-742-6666

                             www.zevin.com

                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddb4b3abb8aea99da7b8abb4b3f3beb2b0">[email&#160;protected]</a>

July 10, 2018

U.S. Senate
Committee on Finance
Dirksen Senate Office Bldg.
Washington, DC 20510-6200

RE:  STATEMENT FOR THE RECORD--Hearing of the Subcommittee on Social 
Security, Pensions, and Family Policy ``Examining the Importance of 
Paid Family Leave for American Working Families,'' July 11, 2018

Chairman Hatch, Ranking Member Wyden, and members of the Subcommittee 
on Social Security, Pensions, and Family Policy:

I write today on behalf of Zevin Asset Management, a firm that invests 
globally, integrating environmental, social, and governance (ESG) 
issues into our financial analysis. Zevin Asset Management wishes to 
encourage the efforts of this subcommittee on paid family leave and to 
underscore the importance of improving paid family leave policy--not 
only for workers, but for the companies and investors which rely on 
their long-term health and human capital.

As a testament to the investment community's keen interest in improving 
paid family leave policy, I refer the subcommittee to the following 
investor statement on paid family leave published last month and 
endorsed by 58 investment companies and asset owners with assets 
totaling $169 billion. Please review the statement in its entirety. 
Very clearly, investors are seeking greater equality, adequacy and 
accessibility in companies' paid family leave policies.

As discussed in the investor statement, suitable paid family leave 
positions workers and companies to seize long-term opportunities and 
guard against human capital risk However, more support from government 
is needed. Federal policy certainty and targeted resources would 
promote the long-term interests of U.S. employers. As an investment 
company focused on sustainable and socially responsible performance, 
therefore, Zevin Asset Management urges Congress to act to improve paid 
family leave.

Most sincerely,

Pat Miguel Tomaino
Director of Socially Responsible Investing
Zevin Asset Management, LLC

                                 ______
                                 

INVESTOR STATEMENT ON PAID FAMILY LEAVE

Published June 1, 2018
Available online at http://www.zevin.com/documents/familvleave.pdf

We write today as representatives of investors with assets totaling 
$169 billion and a keen interest in investment risks and opportunities 
related to human capital management. Paid Family Leave is a critical 
issue impacting U.S. families, as well as our portfolio companies' 
long-term performance. Federal inaction on paid family leave has 
increased pressure on large employers to enhance their policies for all 
employees. Investors are concerned about the long-term performance and 
risk management of companies that maintain unequal and inadequate paid 
family leave policies.

Companies that fail to review, disclose, and improve their approach to 
paid family leave could be left behind. In the last few months alone, 
Starbucks, Walmart, CVS Health, and other large employers have 
announced extended paid parental leave policies.\1\ Companies are 
finally taking action in response to public advocacy by employees, as 
well as pressure from investors, including shareholder proposals urging 
companies to address critical caregiving needs.\2\
---------------------------------------------------------------------------
    \1\ ``Walmart and Now Starbucks: Why More Big Companies Are 
Offering Paid Family Leave.'' The New York Times, 24 January 2018, 
https://www.nytimes.com/2018/01/24/upshot/parental-leave-company-
policy-salaried-hourly-gap.html.
    \2\ ``Starbucks investors press coffee chain for change on unequal 
family leave.'' The Guardian, 2 October 2017, https://
www.theguardian.com/business/2017/oct/02/starbucks-investors-coffee-
family-parental-birth-leave.

It is well known that the current state of paid family leave is not 
working for U.S. families in general and has negative impacts on 
certain segments of the population in particular. Approximately 9 out 
of 10 private sector workers in the U.S. do not have access to a single 
day of paid family leave, and one in four new moms is back at work just 
ten days after childbirth.\3\ The lack of proper paid family leave, as 
further defined below, can disproportionately impact women, forcing 
them to leave their career track in order to care for children, and 
contributing to systemic and long-term gender pay gap issues.
---------------------------------------------------------------------------
    \3\ ``13 Percent of Private Industry Workers Had Access to Paid 
Family Leave in March 2016: The Economics Daily.'' U.S. Department of 
Labor Bureau of Labor Statistics, 4 November 2016. Web 9 May 2017.

The status quo is also bad for business--subjecting companies to 
avoidable long-term risks and costs, such as workforce retention issues 
and higher turnover, loss of high-quality talent, and diminishing 
diversity levels. For example, it is costly for companies to replace 
workers (and train their replacements) when poor paid family leave 
policies cause them to leave the workforce. On the other hand, 
according to the Center for Economic and Policy Research, companies 
offering paid family leave to all workers report increased morale, as 
well as cost savings, from less employee turnover.\4\ In a recent New 
York Times report, a Starbucks official stated that improved paid 
family leave ``brings the talent we're looking for, and industry-
leading retention.'' \5\
---------------------------------------------------------------------------
    \4\ ``Leaves That Pay: Employer and Worker Experiences With Paid 
Family Leave in California.'' Center for Economic and Policy Research, 
January 2011, http://cepr.net/publications/reports/leaves-that-pay.
    \5\ ``Walmart and Now Starbucks: Why More Big Companies Are 
Offering Paid Family Leave,'' The New York Times, 24 January 2018, 
https://www.nytimes.com/2018/01/24/upshot/parental-leave-company-
policy-salaried-hourly-gap.html.

Unequal paid family leave can also lead to litigation risk. For 
example, last year, the Equal Employment Opportunity Commission sued 
Estee Lauder, citing disparities between paid leave for mothers and 
---------------------------------------------------------------------------
fathers.

Recent progress at the companies mentioned above signals a wave of 
action among U.S. corporations and a potential watershed moment for 
paid parental leave in the U.S. As the labor market tightens, more and 
more companies are positioning themselves to attract and keep talent 
with incentives such as paid family leave and other family-friendly 
policies. Policies that leave out hourly or part-time workers, that 
ignore fathers and adoptive parents, or that do not provide adequate 
length of leave for families to recover or bond with newly arrived 
children will no longer suffice. We believe that the ``Paid Leave Arms 
Race'' \6\ that has played out in the professional services, financial, 
and knowledge economy sectors is now moving into the service and retail 
sectors. As such, we are urging companies across our portfolios to 
revisit their approach.
---------------------------------------------------------------------------
    \6\ ``Deloitte Enters the Paid Family Leave Arms Race With 16 Weeks 
of Family Leave.'' Fortune, September 8, 2016, http://fortune.com/2016/
09/08/deloitte-family-leave/.

Companies should strive for best practice to realize all of the 
---------------------------------------------------------------------------
benefits of paid family leave. Policies in this area should:

      Be equal . . . between classes of employee s, salaried and 
hourly, full-time and part-time, corporate office and field . . . 
between new parents regardless of gender or family circumstance. 
Providing an additional 6 to 8 weeks of short-term disability for birth 
mothers is acceptable.

      Be adequate . . . in length for the health of newly arrived 
children and birthing mothers, and provide the necessary bonding time 
for new parents. Although Walmart excluded their part-time workforce, 
the length of Walmart's new policy sets the baseline standard for 
companies: 16 weeks of fully paid parental leave to employees who give 
birth, and 6 weeks fully paid to all other new parents.

      Be accessible . . . to all employees. Policies should be easy to 
find and understand, and managers should encourage employees of all 
genders to fully utilize their paid family leave . . . to the public 
and investors. Increasingly, investors and jobseekers desire 
transparency in companies' human capital management policies in a range 
of areas, from diversity and inclusion to compensation and benefits. We 
believe that these factors are material for large employers. Sound 
management of these factors can increase future opportunities (just as 
mismanagement can increase future costs).

We are keen to pursue dialogues with companies on how sound human 
capital management, including strong paid family leave policies, can 
support long-term investor value. As investors, we urge large employers 
to review and expand policies consistent with the above standards.

                              SIGNATORIES

Zevin Asset Management              Walden Asset Management

Clean Yield Asset Management        The Sustainability Group of Loring, 
                                    Wolcott, and Coolidge

Tri-State Coalition for Responsible 
Investment                          NorthStar Asset Management, Inc.

Arjuna Capital                      Impax Asset Management LLC

Trillium Asset Management           Sisters of the Presentation of 
                                    Aberdeen, S.D.

Progressive Asset Management        Franciscan Sisters of Perpetual 
                                    Adoration

Sisters of Saint Joseph of Chestnut 
Hill, Philadelphia, PA              Everence and the Praxis Mutual 
                                    Funds

International Brotherhood of 
Teamsters                           Sisters of Charity of Nazareth

Seventh Generation Interfaith Inc.  Dominican Sisters--Grand Rapids

Region VI Coalition for Responsible 
Investment                          Skye Advisors

Sisters of St. Agnes Justice, 
Peace, and Integrity of Creation 
Office                              Manaaki Foundation

Community Capital Management, Inc.  Northwest Coalition for Responsible 
                                    Investment

Midwest Coalition for Responsible 
Investment                          Sisters of Charity, Halifax

Tri-State Coalition for Responsible 
Investment                          Socially Responsible Investment 
                                    Coalition

JLens                               Mercy Investment Services

Congregation of St. Joseph          Daughters of Charity, Province of 
                                    St. Louise

Mirova                              Stance Capital

SharePower Responsible Investing, 
Inc.                                Vert Asset Management

Epic Capital Wealth Management      Three Corners Capital

Greenvest/VFG                       Newground Social Investment

CtW Investment Group                Nathan Cummings Foundation

AFL-CIO                             FNV

Sisters of St. Dominic of Caldwell, 
NJ                                  Dominican Sisters of Hope

Ursuline Sisters of Tildonk, U.S. 
Province                            Friends Fiduciary Corporation

Bon Secours Health System, Inc.     Socially Responsible Investment 
                                    Coalition

Congregation of Sisters of St. 
Agnes                               Nia Impact Capital

Nia Community Foundation

                                   [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
